<html>
<title> - DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED AGENCIES APPROPRIATIONS FOR 2002</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                 DEPARTMENTS OF COMMERCE, JUSTICE, AND

                   STATE, THE JUDICIARY, AND RELATED

                    AGENCIES APPROPRIATIONS FOR 2002

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                              FIRST SESSION
                                ________

  SUBCOMMITTEE ON THE DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE 
                    JUDICIARY, AND RELATED AGENCIES

                    FRANK R. WOLF, Virginia, Chairman
 HAROLD ROGERS, Kentucky             JOSE E. SERRANO, New York
 JIM KOLBE, Arizona                  ALAN B. MOLLOHAN, West Virginia
 CHARLES H. TAYLOR, North Carolina   LUCILLE ROYBAL-ALLARD, California
 RALPH REGULA, Ohio                  ROBERT E. ``BUD'' CRAMER, Jr.,
 TOM LATHAM, Iowa                      Alabama
 DAN MILLER, Florida                 PATRICK J. KENNEDY, Rhode Island
 DAVID VITTER, Louisiana            
                                    

 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
    Gail Del Balzo, Mike Ringler, Christine Ryan, and Leslie Albright
                           Subcommittee Staff
                                ________

                                 PART 6
                          DEPARTMENT OF JUSTICE
                                                                   Page
 Attorney General.................................................    1
 Federal Bureau of Investigation..................................  157
 Drug Enforcement Programs........................................  299
 Immigration and Naturalization Service...........................  381
 Prisons and Related Issues.......................................  459

                              <snowflake>

                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 77-365                     WASHINGTON : 2002



                         COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                   DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California              JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky              NORMAN D. DICKS, Washington
 JOE SKEEN, New Mexico                MARTIN OLAV SABO, Minnesota
 FRANK R. WOLF, Virginia              STENY H. HOYER, Maryland
 TOM DeLAY, Texas                     ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                   MARCY KAPTUR, Ohio
 SONNY CALLAHAN, Alabama              NANCY PELOSI, California
 JAMES T. WALSH, New York             PETER J. VISCLOSKY, Indiana
 CHARLES H. TAYLOR, North Carolina    NITA M. LOWEY, New York
 DAVID L. HOBSON, Ohio                JOSE E. SERRANO, New York
 ERNEST J. ISTOOK, Jr., Oklahoma      ROSA L. DeLAURO, Connecticut
 HENRY BONILLA, Texas                 JAMES P. MORAN, Virginia
 JOE KNOLLENBERG, Michigan            JOHN W. OLVER, Massachusetts
 DAN MILLER, Florida                  ED PASTOR, Arizona
 JACK KINGSTON, Georgia               CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey  DAVID E. PRICE, North Carolina
 ROGER F. WICKER, Mississippi         CHET EDWARDS, Texas
 GEORGE R. NETHERCUTT, Jr.,           ROBERT E. ``BUD'' CRAMER, Jr.,
Washington                             Alabama
 RANDY ``DUKE'' CUNNINGHAM,           PATRICK J. KENNEDY, Rhode Island
California                            JAMES E. CLYBURN, South Carolina
 TODD TIAHRT, Kansas                  MAURICE D. HINCHEY, New York
 ZACH WAMP, Tennessee                 LUCILLE ROYBAL-ALLARD, California
 TOM LATHAM, Iowa                     SAM FARR, California
 ANNE M. NORTHUP, Kentucky            JESSE L. JACKSON, Jr., Illinois
 ROBERT B. ADERHOLT, Alabama          CAROLYN C. KILPATRICK, Michigan
 JO ANN EMERSON, Missouri             ALLEN BOYD, Florida
 JOHN E. SUNUNU, New Hampshire        CHAKA FATTAH, Pennsylvania
 KAY GRANGER, Texas                   STEVEN R. ROTHMAN, New Jersey
 JOHN E. PETERSON, Pennsylvania
 JOHN T. DOOLITTLE, California
 RAY LaHOOD, Illinois
 JOHN E. SWEENEY, New York
 DAVID VITTER, Louisiana
 DON SHERWOOD, Pennsylvania
   
 VIRGIL H. GOODE, Jr., Virginia     
                                    
                 James W. Dyer, Clerk and Staff Director

                                  (ii)



DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 2002

                             ____________



                                            Wednesday, May 2, 2001.

                         DEPARTMENT OF JUSTICE

                               WITNESSES

JOHN ASHCROFT, ATTORNEY GENERAL, DEPARTMENT OF JUSTICE
PAUL McNULTY, PRINCIPAL ASSOCIATE DEPUTY ATTORNEY GENERAL, DEPARTMENT 
    OF JUSTICE
EUGENE SCHIED, ACTING CONTROLLER, DEPARTMENT OF JUSTICE

                       Statement of the Chairman

    Mr. Wolf. The committee will come to order. Mr. Attorney 
General, we welcome you for appearing before the subcommittee 
this morning. This is your first appearance before the 
subcommittee. I want you to know we all respect your service to 
our country both in the State of Missouri as Attorney General, 
as Governor, and also as a United States Senator. So you are 
here among friends.
    Today we are going to discuss the Department of Justice's 
budget request of $24.7 million. While the overall budget looks 
flat for Justice, it actually shifts resources away from state 
and local law enforcement efforts to support federal law 
enforcement needs, which presents us a challenge at the 
localities, but I think we will be able to work it out. And I 
guess anytime you find that there is a problem, you can blame 
it on OMB and we can move on.
    With that, we welcome you and look forward to hearing your 
testimony. I recognize Mr. Serrano.


                        statement of mr. serrano


    Mr. Serrano. Thank you, Mr. Chairman. Mr. Chairman, it is a 
pleasure to welcome the Attorney General before the 
subcommittee this morning. It is good to see you, sir.
    Obviously the agencies and issues over which you now have 
jurisdiction are broad and important ones and I think you will 
find your new position challenging, I am sure, and exciting. 
There is much to discuss in your budget request, but at this 
time I will simply commend you for including a study of racial 
profiling among your civil rights priorities and for continuing 
funding for the Police Integrity Program that was initiated 
under the COPS program last year.
    As our society grows increasingly diverse, it is 
increasingly important that we be judged by our actions and not 
by our personal characteristics, particularly when it comes to 
law enforcement. We will have time to examine these and other 
issues later and I look forward to hearing your testimony.
    Mr. Wolf. Your full statement will appear in the record; 
you can summarize or move ahead as you see fit.

                 Attorney General Ashcroft's Statement

    Attorney General Ashcroft. Thank you, Mr. Chairman. I am 
delighted to be here with you. It is both an honor and a 
privilege to appear before you in the United States House of 
Representatives and to present President Bush's first budget 
request for the Department of Justice for fiscal year 2002. The 
President's budget seeks $24.65 billion for the Department, 
including $20.9 billion in discretionary spending authority and 
$3.7 billion in mandatory resources.
    While the 2002 request maintains the same overall amount of 
spending authority as provided by this subcommittee in 2001, we 
have managed to enhance a number of key efforts, including 
reducing gun crime, stopping violence against women, combatting 
drugs, and guaranteeing civil rights for all Americans.


                            law enforcement


    The budget includes a general shift in spending, as the 
Chairman aptly noted, from state and local law enforcement in 
order to support our core federal law enforcement mission and 
to better target assistance to areas of greatest need such as 
crime in our schools, crimes committed with firearms, and 
violence against women. A Community Oriented Policing Services, 
or COPS, program is continued at a somewhat reduced level, with 
resources targeted for school safety, in particular, school 
safety officers or school safety resource officers, law 
enforcement technology needs, and reducing the DNA backlogs.
    The budget includes nearly $1.1 billion in program 
increases to enable the Department to carry out its core 
mission, particularly in the areas of detention and 
incarceration, antiterrorism, cybercrime and 
counterintelligence.
    Another $302 million in new funding is requested to address 
key technology initiatives focusing on systems integration 
upgrades and network reliability. Of this amount, $225.7 
million will be used directly to assist state and local law 
enforcement agencies with technology needs.


                              gun violence


    The 2002 budget also focuses on several key areas that 
reflect the priorities of the Bush administration. Gun 
violence, violence against women, drug crime, all threaten to 
deny the most fundamental right of our citizens, the right 
topersonal safety. The 2002 budget provides $650 million in additional 
funding to help secure this basic right.
    There is no question that we need a renewed commitment to 
the vigorous enforcement of existing laws addressing gun crime. 
The recent gun violence on school campuses highlights the need 
for collaboration among federal, state and local law 
enforcement agencies to combat juvenile gun crime. I intend to 
intensify enforcement efforts in this area.
    The first step towards this goal is our request for $153.8 
million in increased resources to enforce vigorously gun laws 
through increased prosecutions, collaborative approaches to gun 
crimes committed with firearms, and by ensuring that child 
safety locks are available for every handgun in America.

                                 DRUGS

    To reinvigorate the war on illegal drugs, the 2002 budget 
includes $77.2 million in additional resources. Specifically 
our budget seeks $58.2 million in enhancements for the Drug 
Enforcement Administration. The request also continues to 
provide $48 million for the Office of Justice programs to 
assist state and local law enforcement agencies with the costs 
associated with meth cleanup and to aid in meth enforcement.

                              CIVIL RIGHTS

    Through the efforts of the Civil Rights Division, the 
Community Relations Service, the United States Attorneys, the 
FBI and Office of Justice Programs, the Department seeks to 
protect civil rights and liberties of all Americans. The 2002 
budget includes an increase of $105.7 million to further these 
efforts.
    For immigration-related activities, the 2002 budget 
includes an additional $240 million. Included within this 
amount is the $75 million for the INS to add 570 new Border 
Patrol agents in the year 2002.
    To address chronic space shortages and facility 
deficiencies, the budget also includes $42.7 million for INS 
Border Patrol facility construction and to enhance the 
resources of county prosecutors located near the southwest 
border. Our 2002 request includes $50 million. The 
Administration will propose splitting the mission of the INS in 
two, with separate chains of command reporting to a single 
policy official.
    I support restructuring the INS. I believe its time has 
come, and in particular look forward to working with this 
subcommittee as the proposal moves through Congress.

                             GRANT PROGRAMS

    The 2002 budget provides a $4.2 billion amount for state 
and local law enforcement grant programs. Included within the 
request are newly-created initiatives or enhancements to 
specific programs to address specific crime problems. These 
proposals include an increase in Violence Against Women Act 
funding of more than 35 percent, expansion of the Weed and Seed 
program, more drug treatment in state prisons, increased 
assistance for state prosecutors, and new anti-gun violence 
programs.
    Reductions in this budget are made in primarily four areas: 
Byrne discretionary grants; the State Criminal Alien Assistance 
Program; the Local Law Enforcement Block Grant Program; and 
State Prison grants. This redirection in funding will allow the 
Department to fulfill its core law enforcement responsibilities 
and enhance efforts in key areas, including reducing gun crime 
and stopping violence against women, together with combatting 
drugs and granting civil rights for all Americans.
    Chairman Wolf, Congressman Serrano, members of the 
subcommittee, I have outlined the principal focus of President 
Bush's 2002 budget request for the Department of Justice. I 
hasten to add that I am still learning about many of the 
programs we have under our jurisdiction. I have much to learn 
and look forward to your advice and counsel as we move forward. 
Thank you very much for this opportunity to appear before you 
and discuss these matters with you. I look forward to 
responding to your questions.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              robert hanssen case

    Mr. Wolf. Thank you very much Mr. Ashcroft. A couple of 
questions at the outset, dealing with policy. In the Hanssen 
case with regard to the FBI, particularly in light of the 
announcement yesterday of Director Freeh leaving--I personally 
think that Judge Webster is an outstanding individual, honest, 
ethical, decent, a good person--but Judge Webster was at the 
CIA when Aldrich Ames was involved, and was also at the FBI 
when Hanssen was involved, and I think he will probably do a 
very good job in looking at how the changes could be made.
    But during the Reagan administration when they were looking 
at our policies with regard to the Soviet Union, they had a 
Team A and a Team B, and I think Team B was headed up by Mr. 
Pipes, who was a professor at Harvard, to look at what our 
policy would be. Are you going to let an outside group, Team B, 
look at the recommendations made by the Webster group, or will 
you just go with what the Webster group says?
    I personally think you ought to have somebody from the 
outside who has never served in the FBI, who has never been 
involved in the CIA, but yet somebody who understands 
intelligence and counterintelligence. Do you have any thoughts 
about what you are going to do when Mr. Webster finishes his 
recommendations?
    Attorney General Ashcroft. Well, you raise a very serious 
issue. The compromises to the national security of the United 
States in the Hanssen matter are very substantial and 
significant, not to be taken lightly in any respect. Any effort 
to curtail those kinds of breaches in the national interest and 
national security should be a serious one that merits the 
confidence of the entire American population. We are not going 
to limit the evaluation of the procedures and practices of the 
Federal Bureau of Investigation to the evaluation made by Judge 
Webster and those individuals who are going to be associated 
with his task force. I have seen a preliminary list of 
individuals and they are a diverse group of individuals, 
bipartisan in nature and the like, but I don't know if that has 
been announced yet.
    I have instructed the Inspector General of the Department 
of Justice to launch a parallel review. I believe that having 
more than one set of assessments here is very important. I also 
believe that the Congress has an opportunity to contribute 
substantially, and have already appeared before the United 
States Senate committee on such matters, intelligence matters, 
to confer with them and to indicate that our intention is to 
work with them on these issues. I believe that it would be 
appropriate for us to engage as many people as possible, 
consistent with the national security concerns, which have to 
be observed, to make sure that the report is both comprehensive 
and has a perspective that will lead us to the right 
conclusions.
    I would be very happy to consult with you and other Members 
of the Congress to not only evaluate the Webster report but the 
findings of the Office of the Inspector General of the 
Department of Justice, who is undertaking an independent 
review, and also to work with the Intelligence Committee of the 
Congress.
    This is not a time for us to seek to protect turf or for us 
to try to hide problems. This is a time to find problems and 
fix them. Fixing the blame is not really the most noble thing 
we can do. Fixing the problem is what we need to do for 
America. I pledge to you my cooperation in doing everything we 
need to do to get things done.
    Mr. Wolf. Thank you. We have to remember there was a 
wiretap or bug that has been put in the State Department that 
has never been addressed insofar as that, so this problem may 
be continuing in a way that we do not want it to happen. Can we 
expect the Administration to submit a budget amendment to 
address unexpected needs that have arisen as a result of this 
case?
    Attorney General Ashcroft. If there are developed needs 
that are beyond our capacity to fund, then this has the highest 
priority, and I would be very eager to discuss the need for 
additional resources, if that becomes apparent.
    Mr. Wolf. So there would be additional budget requests and 
not necessarily offsets?
    Attorney General Ashcroft. There may be. It depends on what 
the needs are.

                           tobacco litigation

    Mr. Wolf. The budget request is silent on whether the 
Administration will continue the lawsuit against the tobacco 
industry. What is the current status of the tobacco lawsuits 
and can you elaborate a little bit to the committee?
    Attorney General Ashcroft. The budget request this year 
includes $1.8 million to continue the tobacco lawsuit. That is 
exactly the same budget request, which was submitted last year, 
and under which we are now operating and, of course, we are 
operating until the end of September of this year. It is the 
same budget request that was drafted by the Reno Justice 
Department, so that the budget does reflect continuity in the 
lawsuit. It does reflect the request for $1.8 billion, and is 
the same format and framework that has been used for the 
tobacco lawsuit for the last several years.
    The status of the matter is that this is in litigation. 
Originally two of the three counts of the lawsuit were struck 
on a motion to dismiss and one of those counts will be 
reformulated by the Department and is the subject of the 
court's evaluation at this time.
    As a matter of continuing litigation, I think it is 
appropriate for me to give you a status of the case but not 
further discuss the cases. All cases we have with the Justice 
Department are subject to evaluation, and obviouslywhen courts 
rule on parts of the case, that provides additional information that 
can be the basis for evaluating the case.
    Mr. Wolf. So you may be back to the committee at some time; 
is that what you are saying?
    Attorney General Ashcroft. In the past, additional funding 
has come by assessing or otherwise developing resources from 
other agencies. That is the strategy that has been used in 
prior settings to provide necessary funding in this litigation.

                  victims of violence and trafficking

    Mr. Wolf. Lately stories have been reported about 
individuals being brought into this country and forced into 
prostitution and other types of servitude. In fact, they now 
believe that 50,000 women are brought into the United States 
for the sole purpose of prostitution. To address this issue 
last year, Congress, with the leadership of Senator Brownback 
and Congressman Chris Smith and some others, passed Victims of 
Violence and Trafficking. Your budget requests 12 new positions 
and $770,000 to implement this Act. Is that really enough?
    It seems to me that that is really not going to be enough 
to do the job that has to be done, 50,000 a year; literally, 
these women are enslaved. The prosecutions have been very, very 
minimal, if at all. It would seem to me that there has to be a 
much more aggressive approach, and I know that in your 
testimony--and I have heard and read about it and I agree with 
you with regard to victims, with regard to what is right and 
different things like that. Do you believe that $770,000 is 
really enough to implement that?
    Attorney General Ashcroft. In the current year, I have 
announced the redeployment of assets, in addition to those to 
begin the prosecutorial efforts, consistent with the laws which 
we passed last year in this. And we are refocusing U.S. 
Attorneys on this problem by issuing to them a set of 
advisories, which they can use to understand the problem and 
define how to move forward.
    I believe that the resources that we have set forth and 
devoted to it during this year in which we have started this 
program--I think my announcement about that was a month to 6 
weeks ago, that carries forward for the additional resources 
devoted this year--adding to those resources, the resources 
that we have asked for in the budget is the right way to start 
the enforcement of this program. And in the event that we find 
there are additional needs, we will try to elevate our requests 
or reallocate our resources in this area.
    It is a most serious problem. We have begun the process of 
elevating the education and understanding of U.S. Attorneys so 
that we can address it more effectively. Obviously, when the 
Congress addressed it very explicitly, it understood that there 
was a serious problem that had not had the kind of serious 
attention it deserved in the past.
    Mr. Wolf. Well, thank you. The committee--or, I am 
interested--I can't speak for the committee--I am very 
interested in it, as is Senator Brownback and others and 
Congressman Smith. And if this is not enough, I hope you will 
tell us because I want to make sure you have the necessary 
funds.
    The fact they are exploiting women, they are coming out of 
Albania, the Ukraine, and they are flooding all over the world, 
50,000 coming in here, my sense is this is not enough.

             prosecution of pornography and gambling cases

    Let me follow up on the question. In the early eighties, we 
found out that the Justice Department was not prosecuting 
pornography even under the early years of the Reagan 
administration. For some reason it had just been neglected, 
perhaps from 1976 to 1980, it was not done very much. So U.S. 
Attorneys were not bringing the cases.
    A group of us asked for a U.S. Commission on Pornography. 
It was chaired by Henry Hudson, who is now a judge out in 
Fairfax County. I think the message you send as Attorney 
General--you have one of the most important positions in the 
country. I think the message that you send to the U.S. 
Attorneys with regard to types of cases they prosecute is very, 
very important, and I would hope sexual trafficking would be 
stopped.
    I would hope gambling--my sense is under the previous 
administration, there haven't been as many gambling cases 
brought that ought to be brought, NCAA gambling, problems like 
that.
    Also the issue of child pornography needs to be addressed 
more. And after the National Commission came out with Judge 
Hudson's recommendations, the Reagan administration, to its 
credit, completely refocused and you can almost chart this, the 
cases dramatically went up.
    And I would hope that as you give these messages--and I 
guess there are meetings where you meet with the U.S. 
Attorneys. Do you tell them this is a priority of this 
administration, to deal with the issue of child pornography, to 
deal with some of these issues that for whatever reason--we are 
not going back and criticizing--but, for whatever reason, may 
not have been addressed; and sexual trafficking, which is just 
a new issue to come on, that the U.S. Attorneys aggressively 
prosecute these cases?
    Attorney General Ashcroft. First of all, Mr. Chairman, I 
thank you for your expression of concern there. It mirrors an 
expression of my concern, things that particularly undermine 
the integrity and respect that our citizens should have for 
each other, for women who are particularly victims of 
pornography, for children who are victims of pornography, 
matters of great concern to me.
    To date, I am the only person confirmed in the Justice 
Department in the new administration. I don't say this as a 
matter of criticizing the process. It takes a long time to get 
the reviews done, to do the background checks. And while I have 
signaled to the existing corps of U.S. Attorneys some of these 
concerns, particularly in trafficking in human beings and 
exploiting their labor as well as exploiting them sexually and 
otherwise, there will be a time probably in the next 6 months 
when we will have not only appointed, but confirmed the rest of 
the corps of individuals who are going to be the focus, the arm 
of prosecution for the United States of America, if you will. 
And we will have an opportunity to meet with all of these 
individuals who come to those responsibilities.
    And I am very pleased to have you share and the committee 
share with us items that you believe we need to have them 
understand, or points of emphasis, and certainly the 
trafficking situation is a point of emphasis. I have already 
sent that out to those who are in the last days of their 
service in the U.S. Attorneys' Offices, but we will reiterate 
that to the new U.S. Attorneys when they come into office.
    And the areas of concern you have mentioned, pornography, 
exploitation, the gambling, the idea of gambling which corrupts 
intercollegiate sports and intercollegiate athletes on our 
university campuses is an idea that is of great concern to me 
and this Administration.
    So I look forward to working with this committee. I would 
just indicate to you that this transition is underway and is 
not yet complete, and as we reach a critical point of access to 
the new cadre of U.S. Attorneys, we are going to be meeting 
together with them in settings that will allow us to identify 
such priorities and look forward to doing so.

                            Jobs for Inmates

    Mr. Wolf. Well, thank you. I think you are doing well.
    The last question I want to ask, before I recognize Mr. 
Serrano, is Congressman Bobby Scott and I have introduced a 
bill dealing with work in prisons. I am a conservative 
Republican, my record is very clear, but yet I believe that you 
cannot put a man in prison for 15 and 20 years and give him or 
her no work, dignity.
    And what the bill does is as follows. It does several 
things. It gradually phases out the mandatory sourcing but also 
says the following: that we will invite industries that are no 
longer doing business in the United States--for instance, at 
one time we had a company from your district, from your State, 
Emerson TV manufacturers.
    Attorney General Ashcroft. Zenith had its last plant in 
Springfield, Missouri, which is my hometown.
    Mr. Wolf. We had approached them and they were talking 
about coming into Lorton Reformatory at that time and making 
televisions, because you cannot now buy an American television 
set. There was opposition and this bill went by the wayside.
    What this bill does, it is complicated but it basically 
says to bring in industries that are no longer doing business 
in the United States, making products that are no longer made 
in the United States--so we are not in competition with any 
American worker, and we set up a panel to make sure that is the 
case--but whereby we can reintroduce business products that are 
no longer made, and make them in prisons and pay the men a 
dignified wage whereby they can divide it roughly three ways: 
one, a third for upkeep so that they pay their way, if you 
will; secondly, that they have restitution, that they have 
restitution for whatever act they may have done; thirdly, that 
they are able to keep a significant amount for what you call 
``gate money'' or whatever you want to call it, so when they go 
out they are able to have some money when they go back into 
society. Also, that we treat them as individuals so they have 
training and expertise and knowledge.
    I had the opportunity over the break to visit five of your 
prisons and I was impressed with your people. I think they are 
doing an outstanding job. But when I talked to the men, they 
all want work. And I mean work, not just pushing a broom, not 
just making a license plate. Because if you make license plates 
or push a broom when you come out after 12 to 15 years, you 
don't have any training and skill.
    This is a bipartisan effort. We would love to get the 
support of the Bush administration, and your support would 
basically do this. I think we can combine the faith that is 
mandatory and we can also bring work, real-life dignity and 
work, into the prisons so when this man or woman who has to be 
in there for 12 to 15 to 18 years gets out, they are not just 
thrown on society without any skills and no money.
    Have you taken a look at that or do you have any feelings 
with regard to this legislation?
    Attorney General Ashcroft. Well, first of all I commend you 
for caring about the reentry of individuals. It is very 
important. And the longer people have been incarcerated, the 
more difficult reentry can be. Having people conditioned to not 
work is basically the circumstance we find ourselves in too 
often. Giving them the opportunity to work, I think, is a 
laudable objective. And I am grateful for the care you have 
taken to try to respect the fact that we do not want to be in 
competition with people on the outside, and the idea to have 
people in some way compensate not only the system for housing 
them, but for the victims and restitution, is a good idea.
    I have little, if any, disagreement with what you say. I 
would be very happy to take a look at the specific legislation 
with a view towards commenting on the specificlegislation. I 
don't believe pushing a broom is without dignity, and I don't believe 
that making license plates is without dignity. Someone is going to have 
to make them in our culture. We have got to have license plates and we 
have got to have brooms pushed. I think those jobs have dignity as 
well.
    I find myself in almost total agreement with you. I 
obviously think some of our people should be working in the 
prisons pushing brooms and some may be making license plates, 
but I think your point is a broader, better point; and that is, 
there are other skills they could learn and use on the outside. 
The kinds of things in more complex work environments are the 
kinds of things that will be required of them when they have a 
chance to reenter. So I would be very happy to look at the 
specific legislation. I think the objectives are exactly the 
direction in which we need to go to equip people to reenter the 
culture as productive members of society rather than to somehow 
perpetuate on the outside what we had institutionalized on the 
inside, that individuals didn't have value.
    The objective of the justice system is to find a way to 
treat everyone with respect. And those individuals could help 
earn that respect in a program like the one you have described.
    Mr. Wolf. Well, I thank you very much. Before I was elected 
to Congress, I was in a program called Man to Man that went 
down to Lorton Reformatory. There was no work, there was no 
dignity, we locked people up for 15 years, gave them no skills, 
and then we wondered why they got out of prison and committed a 
crime the first week or two out there. I think we could drop 
recidivism rates if we did that.
    I appreciate your support of this. With that I will 
recognize Mr. Serrano now.

                       Tobacco Litigation Budget

    Mr. Serrano. Thank you, Mr. Chairman. Mr. Secretary, I just 
want to first follow up on the tobacco question, and I 
apologize if you or the Chairman both feel that you answered 
that question. The bottom line is that the litigation team was 
funded at $23 million. Now your budget calls for $1.8 million, 
which is a 90 percent cut. How do you explain that the budget 
is the same if there is this disparity in the numbers?
    Attorney General Ashcroft. The budget submission which was 
submitted last year by Ms. Reno, my predecessor, was the 
identical figure which I have submitted for the $1.8 million. 
The additional funds which make the $1.8 million up to the $20-
some million that you have mentioned were funds that were 
provided by various federal executive agencies that would stand 
to benefit in the event that the litigation is successful. The 
same mechanism was recommended by the Reno Justice Department 
in the budget they had prepared for this year, and it is a 
mechanism that I have enforced by submitting the budget in the 
same way that they had, so that the potential for the same kind 
of funding is available or the funding that is necessary 
through the same mechanisms that have provided that funding 
previously. So the approach is identical to the approach in 
previous settings and has the same potential that it had in 
previous years, and it is indeed the exact proposal that Ms. 
Reno had crafted in the budget submission.
    Mr. Serrano. Now, do you see a role for yourself in getting 
the other agencies to request the additional dollars to bring 
up this amount to at least the $23 million?
    Attorney General Ashcroft. When the need arises and when we 
understand what the Congress has provided, and if it is clear 
that the Congress, with its provision, endorses in the same way 
this effort that it has previously, then there is obviously a 
role, if we were to continue this litigation in that respect, 
to develop the additional funding. And I would see it developed 
in the same way.
    Mr. Serrano. Okay. Let me just then say to you that some of 
the questions, if not all of the questions, I am going to ask 
you have a lot to do with perception. And you know that in this 
business, perception is what pitching is to baseball, it is 
about 75 percent of the game.
    Attorney General Ashcroft. At least.
    Mr. Serrano. At least; right. So the perception here is 
that we are cutting back on this effort. And I am not going to 
drive this point anymore, but I think you have to understand 
that there are some of us, many of us, who feel that these 
figures presented to us mean that you are, under the 
circumstances, cutting back on this effort. And we do not 
support cutting back on it, we support reaching a conclusion on 
it, and that is what we will be discussing with you as we go 
along.
    Attorney General Ashcroft. Thank you.

                            Racial Profiling

    Mr. Serrano. Speaking about perception again, I represent a 
district in the Bronx which fits properly into this question. 
It is about 96, 97 percent Hispanic and African American, with 
many Puerto Ricans, and the perception there is if you speak to 
those folks--and not just the activists or the politicians or 
the business people, but the people in general--that there is a 
major change at the Justice Department in terms of the issues 
they deal with on a day-to-day basis.
    Chairman Wolf said you have one of the most important jobs, 
in the Nation. It could be that to the people in the South 
Bronx and Harlem and other places, you are the most important 
person, because you can make or break 30 years of progress in 
the civil rights area and so on.
    So there is a perception, a fear that maybe thisJustice 
Department won't protect them.
    On the other hand, to their shock and amazement, you have 
made some very strong comments, we feel, on the issue of racial 
profiling. If you were to visit any district--and I hope 
someday you will accept that invitation and meet across the 
table--what would you be saying to them on the issue of racial 
profiling? And may I add to that, that there is also the issue 
of racial profiling when it comes to the borders, not just the 
highways and other areas, but where people crossing the border 
are targeted based on a profile, because they are seen as 
different or perceived to be a problem rather than someone just 
crossing a border properly.
    Attorney General Ashcroft. Well, let me thank you for this 
question because it allows me to address the perception, and 
the perception I think was one that was unfortunately generated 
unwarrantedly. The first is that the civil rights of Americans 
is the responsibility of the Justice Department. It is a 
responsibility upon which I embark eagerly. At the beginning of 
this Nation, there were four Cabinet-like officers. There was 
the Secretary of State, who handles other nations; the 
Secretary of War--we did not call it Defense at that time, we 
just called it War--to make war if necessary; the Secretary of 
the Treasury to handle the finances, and the Attorney General 
to deal with rights.
    And over the course of time, it became clear that the 
Attorney General's responsibility is to safeguard freedom. I 
take that very seriously because freedom, I believe, is the 
single most important characteristic of this culture. I believe 
that when individuals' rights are impaired on the basis of 
their race or on the basis of their beliefs, that it is an 
unconstitutional infraction of their rights, and I believe that 
it is a denial of what America should mean and should be.
    I have already announced a redeployment of resources to 
improve our performance in the area of civil rights, and will 
work hard in terms of dealing with racial profiling. This 
Administration has signaled very early that it is unacceptable. 
The President, when he addressed the Congress in his address to 
the Congress, indicated that he wanted the Justice Department 
to be involved, first of all, in a thorough examination of 
racial profiling, its consequences, the incidence of its 
occurrence in the Federal Government, and, as quickly as 
possible, to redress any problem there. That includes the right 
kind of training so it is afforded the right kind of detection, 
so if it happens it is detected. It includes the right kind of 
remediation if it is detected; what do we do, if having found 
it, to eradicate it and root it out?
    The President also called upon the Congress at the same 
time to provide the basis for a study among the jurisdictions 
of the states, and I hope Congress will move forward with that. 
In my own evaluation of that responsibility, I have said that 
if Congress does not provide for the study, one which I held 
hearings on when I had the privilege of serving in the Senate, 
that I would move forward with the study on the part of the 
Justice Department. But I think it would be best to do it 
consistent with Congress and its direction.
    I believe that there can't be a crime in the United States 
of driving while Hispanic or driving while African American. We 
should not be apprehending people based on race. With that in 
mind, I am committing myself and the Justice Department and its 
resources to a vigorous enforcement of the civil rights laws.
    I would like to also say to the people of your district 
that we want to do more than just prosecute infractions. The 
Department of Justice has to be more than the department of 
prosecution. Now this is not to say that we will not prosecute. 
We will prosecute. We will prosecute fully and energetically to 
the full extent of the law. But prosecution is what happens 
when justice breaks down, when someone's rights have been 
injured. I believe that the Justice Department has a 
responsibility to not only work to prosecute an infraction but 
it has a responsibility, an opportunity, to work to avoid 
infractions. So where we have situations and circumstances 
where there are problems, we should be there to try and solve 
the problem. In other words, fixing the blame is not enough. 
Fixing the problem is what we can add to fixing the blame, that 
I think is important.
    I look forward to visiting your district at your 
invitation, I will be happy to do the best I can through my 
conduct, through the operation of this Justice Department, to 
indicate, to signal, to make unmistakably clear that this 
Justice Department is committed to the enforcement of the law 
and to the development of policies and procedures, which avoid 
infractions so that the rights of every American are respected.
    Mr. Serrano. Thank you, sir. You know I want to give you, 
your department, and your agencies the benefit of the doubt. I 
want to be supportive. I would want you to continue to follow 
up on what you just told us. And I would actually want you to 
consider asking President Bush to issue an executive order on 
this issue, because it is one that has touched everyone. And 
believe me when I say touched everyone, it doesn't stop with 
just folks on the street. It does not matter who you are. 
People feel if law enforcement wants to stop you, they will.

                     bombing of the vieques island

    Mr. Chairman, I have other questions that I will ask later 
and some that I will submit, but there is something that 
happened just this past weekend. As you know, therehave been 
large demonstrations in the Commonwealth of Puerto Rico, over the last 
year, and this past weekend on the issue of the bombing of Vieques 
Island. Close to 200 people were arrested. One of those individuals was 
Congressman Luis Gutierrez from Chicago, who gives to the press 
firsthand accounts of what he feels was his treatment, and I spoke to 
him right before he came in. Interestingly enough, he says that most of 
the mistreatment was by the Navy; that the Federal marshals treated the 
demonstrators--and I have heard this from other people--with respect 
and dignity. However, the U.S. Attorney decided to make a point of this 
Member of Congress and would not allow him to pay his fine or make 
bail, and he was kept for over 24 hours in handcuffs and he was just 
not treated well by the U.S. Attorney.
    Number one, what information do you have on how people were 
treated down there? Number two, what role can the Justice 
Department play? You know, we have a unique situation in Puerto 
Rico where the Navy speaks to the people, goes on TV shows, 
buys ads on radio and TV. It is really unique. President Bush 
should be speaking to the Puerto Rican people on this issue. He 
did not, and he does not. President Clinton did not either.
    I am not taking sides here. The military spokesman for 
Commander Gordon tells the people of Puerto Rico they are 
crazy. He called Gutierrez a liar. It is that kind of thing 
that is reminiscent of the 1960s. What role can the Justice 
Department play if Navy personnel mistreat demonstrators, 
number one. I know it is a touchy subject. And number two, what 
can you tell us that you know or will look into in terms of 
this U.S. Attorney and his treatment of all demonstrators, 
especially a Member of Congress?
    Attorney General Ashcroft. First of all, I think it is 
important that every American be treated with respect. And 
whenever our law enforcement officers deal with those who are 
charged with violating the law, we have the responsibility to 
uphold the law in the prosecution process and uphold our 
understanding that Americans should be treated with respect. 
And obviously that should go to every American. And very 
frankly, I don't think it should accord any more respect to a 
member of Congress than it does to an American citizen. I think 
the highest rank in America is that of a citizen. And these 
were citizens of the United States.
    I thank you for referring to the fact that by and large 
those individuals, as a part of a Justice operation there, were 
accorded higher marks. I am grateful for that. We have been 
aware of some of the discussions surrounding the involvement of 
the Congressman from Illinois and were concerned not so much 
because they reflected any particular treatment for a 
Congressman, but because we want every American to be treated 
with respect. Certainly a Congressman deserves the respect as 
well.
    I made an inquiry and I was told that the cases were 
processed in the order in which the arrests were made, and that 
the processing of the cases as a result followed that order. If 
that information is incorrect, I will be happy to correct it. 
But it sounds to me that that is a very reasonable approach--
that we would process cases in the order in which the arrests 
were made. I did inquire about the nature of the confinement. I 
was unaware of the handcuffing allegation for 24 hours, and I 
will----

                 Holding of Congressman Luis Gutierrez

    Mr. Serrano. I understand what you are saying and I would 
appreciate it if you would look into it. But just from the 
account, the group, including a Congressman, spent the night in 
a holding pen which was used, according to island residents, as 
a kennel for the guard dogs. They were kept there overnight 
including an 81-year-old man, without any cover, against the 
rain that night. And he claims that he was not the last one 
arrested, therefore he was not the last one to be processed.
    And just one last point. In this case I just wonder 
constitutionally, what is the issue about holding him past the 
beginning of session yesterday at 10 a.m.? And I would 
appreciate it if you could look further into this and get back 
to us.
    Attorney General Ashcroft. I would be happy to do. I would 
just add one note: that in settings like this, where we have a 
rather unique population that is arrested--these are not the 
result of normal criminal activity--we do not generally hold 
individuals in the same facility with the criminal population, 
because there is some risk. And I was told that there were 
appropriate facilities used here to avoid the risks of 
introducing this group of individuals into the setting with the 
general criminal population.
    I would be glad to look further into this. I am pleased to 
confer with you about this. It is a matter of importance. I 
think there are constitutional questions that arise in the 
event that a person is detained when he might be deprived of 
his opportunity or responsibility to vote. I understand that 
and welcome your inquiry.
    Mr. Serrano. Thank you.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Wolf. Mr. Rogers.
    Mr. Rogers. Mr. Chairman, thank you very much. General 
Ashcroft, congratulations. We have great hopes for you and we 
welcome you to this subcommittee.
    I want to ask you about two things: one, OxyContin, the 
drug; and then, more importantly perhaps, the reorganization of 
the INS.

                               OxyContin

    First, OxyContin. I haven't seen anything like this in my--
--
    Attorney General Ashcroft. I am having trouble hearing you; 
I'm sorry.
    Mr. Rogers. Can you hear me okay now?
    Attorney General Ashcroft. Yes.
    Mr. Rogers. OxyContin, the drug. I haven't seen anything 
like this in my experience. I was for 11 years State D.A. back 
in Kentucky before being here 20 years, 17 on this 
subcommittee, dealing with the FBI, DEA, and other agencies. I 
have never seen anything quite as devastating as this drug. It 
is a legal drug, as you know, a pain killer, a substitute for 
morphine that is normally prescribed for people in severe pain. 
And it is a remarkably good drug in that respect. But it has 
taken over our young people. It is absolutely phenomenal. I 
think it is mostly in the rural areas of the eastern part of 
the U.S., but it is certainly true in my area of eastern 
Kentucky.
    Last April, Newsweek ran a cover story about the particular 
problems of law enforcement in dealing with the situation in 
one of my towns, the town of Hazard. Sixty Kentuckians died of 
overdoses last year. The hospital in Hazard, which is not a 
large town, reported treating at least 10 OxyContin overdoses a 
week last year. The police chief of that town--this is I think 
typical--believes that between 65 and 85 percent of high school 
students have tried OxyContin at least once. It is the most 
insidious invasion that I have seen in all of the time I have 
been involved. DEA apparently has expanded their demand 
reduction efforts to include OxyContin. And I just wondered, 
what are you doing about it?
    Attorney General Ashcroft. Well, first of all, 
unfortunately everything you say is a conservative statement 
about the difficulty here. This is a very, very dangerous drug. 
The increase in the abuse of OxyContin is reported from the 
plains to Kentucky and Indiana, Virginia, or other 
jurisdictions that have had an especially sharp rise in the 
illegal sale and abuse of it.
    We are taking steps to address this abuse in several ways, 
and I don't mean to indicate that we believe that if these 
steps are taken that we will automatically succeed in this war 
against this very, very serious threat. But right now, DEA 
participates in health care fraud working groups to investigate 
Medicare and Medicaid fraud issues, including the leakage of 
this drug into society. This is a very serious problem. This is 
a valuable prescription medication that is finding its way into 
an illegal drug use market. This isn't like the methamphetamine 
that isn't legal, or the heroin or the cocaine. This is a 
valuable pharmaceutical drug. Our officials have met with the 
manufacturer's representatives to urge rapid reformulation of 
OxyContin. It is my understanding, and I don't have a thorough 
understanding, that one of the problems here is that OxyContin 
is originally formulated to be a time release drug. When it 
gets into the wrong hands, they can provide all of the energy 
of the drug at a specific initial time and dosage. If we work 
with the manufacturers to make that difficult, we might have 
some impact.
    DEA has encouraged the development of a balanced marketing 
strategy that ensures appropriate use in terms of those 
involved in the medical profession and the like.
    DEA is also expanding its demand reduction effort, as you 
have indicated, to include OxyContin and is including 
information on the dangers of OxyContin abuse in its public 
interest websites. DEA now requires that OxyContin's 
manufacturer provide detailed data regarding sales, inventory 
and prescription audits, and on a more frequent basis than has 
been previously required so that we have more detailed 
inventories of where this drug is being sold, how it is being 
sold, how it being held, how it is being manufactured. We want 
that information on a more frequent basis. In the light of the 
significant quantities that are being diverted, careful study 
is being given to ways of adjusting the firm's condoned quota 
without impacting legitimate medical needs for the drug. And 
frankly, we would be pleased to welcome any other suggestions 
of what it is that Congress may want to do--other things, in 
terms of changing the way it rates this drug or ranks this drug 
in terms of its scheduling. But we are eager to help find ways 
of reducing this very serious threat. It is alarming to think 
that one state, did you say 60 deaths in 1 year? That is 
totally unacceptable.
    Mr. Rogers. It is infecting young people, good kids, and 
they become quickly addicted. This is a highly addictive drug 
and it is devastating these small towns. I don'thave statistics 
on the larger cities, but in the rural areas that I know about, east 
Kentucky, southwest Virginia, eastern Tennessee and the like, it is 
absolutely devastating those communities. The local police departments 
are almost helpless because, as you suggest, this is a legal prescribed 
drug that is a wonderful drug for those who suffer heavy pain. But the 
leakage out of the legal system is rampant and there is a flood of this 
prescribed drug that is reaching the young people. I would hope that we 
could talk more about how we can get some help to those local 
communities, police departments and other agencies, to try to stem the 
flow before more of our young people are addicted and die from this 
rampant flood.

                        INS Management Problems

    Quickly let me get to INS. I spent 17 years on this 
subcommittee, the last six as Chairman, and I am happy to be 
working with another good chairman, Frank Wolf. But in my 
judgment the worst managed agency in the Federal Government is 
in your hands now. Congratulations. INS is impossible to 
manage. I have seen directors of that agency through all sorts 
of administrations these last 20 years. We have had some good 
directors, some very motivated directors, who found that agency 
impossible to manage.
    I thought for the first 15 years of my experience on this 
subcommittee that the problem was they didn't have enough money 
to hire personnel, to get equipment, to do this, that, and so 
forth. So we quadrupled the budget of INS over the years, and 
it just kept getting worse. I came finally, reluctantly, to the 
sad conclusion that the only way to solve the problem was to 
abolish INS and replace it with something else that could do 
the job. The mission of that agency is terribly important to 
the United States of America. There is no greater privilege one 
can have in this world, in my judgment, than to be granted 
American citizenship, and yet this agency has sold that 
birthright for money. We have seen all sorts of corruption of 
these worthy goals that the Congress gave to the INS over these 
years. I could go on forever today about some of those things. 
I will just mention a couple.

                       Release of Criminal Aliens

    INS released from custody 35,318 criminal aliens between 
October of 1994 and May of 1999. Justice estimates that 11,605 
of those have gone on to commit further crimes. That is 
inexcusable. As a Member of the other body, you were of course 
aware of these. I guess you never thought that you would have 
the kind of impact that you can now have on this agency.
    Attorney General Ashcroft. I may have to do something about 
it and not just talk about it now.
    Mr. Rogers. Exactly. Now of those 11,605 criminal aliens 
who were released by the INS and committed further crimes, here 
is an example of what happens when an agency like this doesn't 
do its job: 98 people are now dead, murdered by those people 
who were pardoned by INS; 142 sexual assaults; 44 kidnappings; 
346 robberies; 1,214 assaults. So when INS makes a mistake we 
suffer, and, boy, have they made their mistakes. We could go on 
forever about the things that have gone wrong. It is an 
unmanageable agency.

                           INS Reorganization

    I cosponsored a bill the last couple of years. We got up to 
a hundred bipartisan, sponsors, I think, to divide the agency 
into two pieces, one dealing with law enforcement, the other 
dealing with granting rights, visas, and citizenship. We 
negotiated with the previous Administration about effecting 
those changes in this bill and up until the last minute we had, 
I thought, a deal brewing with Janet Reno. When we finally got 
hung up, the bureaucracy there got to her and said--we will 
agree to divide the agency into these two pieces, but we want 
it reunited here under one person in the Justice Department.
    I said that is the problem now. What we want is one person 
in charge of the rights division, who has at least 10 years of 
experience in that kind of work. We want another person with 
similar experience in charge of law enforcement, the portion of 
law enforcement that is the INS now. We want an agency within 
the Justice Department that will help them do their jobs. But, 
if you have one person in charge of both, then you are merely 
transferring the problem that exists now just a little piece up 
the road. I would hope that as we go about talking about 
restructuring the INS that we have some real good talks because 
I have some strong ideas about it, gained from my experience 
here, and I am one who has not been suckered in yet by the 
bureaucracy. Believe you me, they are working full time to do 
just that within your agency. That unmanageable agency has a 
mighty responsibility that we have given to it, and we are 
going to insist that that mission be accomplished. So I am 
going to be looking to you very personally on this and 
insisting that we do the right thing.
    I have served on this thing too long now to give up on this 
important cause, and I am convinced it is not money. You are 
suggesting that we give them a big boost of money here in your 
budget request. I think it is something like $503 million more, 
a 10 percent increase from last year. We have got to talk. We 
have been throwing money down this rat hole now for too long, 
and I am for one going to insist that before we do this type of 
thing we are going to have that agency reformed.
    Money is not the answer, General. Reorganization of that 
agency is imperative. It will not work the way it is. You are 
going to be embarrassed and you are going to have mud on your 
face and you are going to have another thing blow up on your 
face from INS, and I am going to say I told you so.So don't 
count on more money until we see what cards you are playing on 
reorganization of INS. I assure you I am not going to sit idly by and 
see nothing take place. Neither am I going to sit idly by and see the 
wrong thing take place, and that is pouring more good money after bad. 
I don't know how much more plain I could make it, but that is where I 
am coming from. Do you have any thoughts?
    Attorney General Ashcroft. I do have thoughts. First of 
all, let me thank you for the fact that you have dedicated so 
much of your career and public service to this important issue. 
It is an important issue. You are right, the INS needs our 
attention. The President of the United States recognizes this, 
campaigned on the proposition. It is very consistent with your 
approach to this issue, saying that it needs a division so that 
we don't have a confusion in the roles of enforcement and 
service.
    The Inspector General of the Department of Justice, last 
week, came forward with a report that showed there were 61,000 
missing items in the Department worth approximately $70 
million. That is a lot of items. That is a lot of money. There 
is a responsibility that we would call ``stewardship'' that 
relates not just to the integrity of the processing of 
applications, but to the property of the people of America in 
terms of the governmental property. This is an agency that has 
about 30,000 plus employees. Right now when an Administration 
comes in, I think the Administration has the right to place 
four people in the agency so that the bureaucracy has the 
momentum of 30,000 individuals, while the new Administration 
has the ability to try and say four people are going to turn 
that bureaucracy or that ship. I believe that there is 
developing an emerging consensus with which I agree that we 
need reorganization, remediation. I would have to indicate that 
the workload of the agency has skyrocketed, that in the last 6 
or 7 years they have processed more cases than they did in the 
40 years preceding. So that when you grew the agency 
financially, you were responding to a real serious need. Very 
few agencies or very few institutions can double their funding 
in the course of 5 years like the INS has in the last 5 years, 
not to speak of the earlier years and the decade, and to do it 
without real serious dislocations. I just want you to know that 
I believe your statements about the agency provide an authentic 
challenge that this Administration is committed to addressing.

                           STRONG INS NOMINEE

    Now, the President has indicated that he has selected a 
strong person to work with the agency while we are developing 
this plan of remediation, and this strong person is a fellow 
named Jim Ziglar. He is a very strong manager. He has 
substantial experience managing large corporations. He is a 
former managing director of PaineWebber, Incorporated, where he 
served on the firm's operating committee and tackled numerous 
management challenges, including the firm's acquisition and 
integration of investment banker Kidder Peabody. In addition, 
Ziglar served during the Reagan Administration as Assistant 
Secretary for the Interior Department of Water and Science, 
where he directed operations of the Bureau of Reclamation, U.S. 
Geological Survey and the Bureau of Mines, and substantially 
oversaw significant therapeutic reorganization there. He will 
reform the INS not on his own, but in conjunction with this 
Administration and Congress. It is a necessity.
    Obviously, President Bush indicated that there should be a 
separating of the agency's enforcement operations from its 
naturalization services. Frankly, Jim Ziglar also has, I think, 
good relations on the Hill, particularly with the Senate. He 
worked for Senator Eastland in the United States Senate. That 
is on the Democrat side. He now serves the Majority Leader, 
Senator Lott, on the Republican side as the Republican Sergeant 
at Arms of the Senate. He is a former clerk of a Supreme Court 
justice.
    So he obviously has the mental acuity. What you outline is 
a job that is so substantial that it is going to take every one 
of our efforts to join him.
    Mr. Rogers. Well, I wish him well and from all indications 
he is a wonderful person. I don't know if he is mean enough. We 
will find out. Frankly, I wish we would go about reorganization 
before we appoint a new director because I think we would have 
a better chance of getting it done. The key question, though, 
that we will keep coming back to is if you divide the agency, 
and most everybody agrees that needs to be done. I think there 
is consensus across the aisle here for that purpose. But the 
question is who is in charge? Who do those two divisions report 
to, if anybody? The previous administration wanted a Deputy 
Attorney General that would manage both agencies.
    My point is you are merely transferring the present problem 
to another person. These two divisions need to operate 
independently because that is the problem we have now.
    At any rate, my time has expired, but I want to 
congratulate you on your elevation to this high post, wish you 
all the luck in the world, and tell you that we will stand with 
you and do the best we can to assist you in the heavy duties 
that you have. But, on a few things like this, some of us are 
going to have some very abiding, long-term interests that we 
have had for a number of years. We now see you as the 
instrument of our redemption. Good luck to you.
    Attorney General Ashcroft. Thank you, I look forward 
toworking with you.
    Mr. Wolf. I do share Mr. Rogers' feelings, too, and it is 
like in the FAA. Was it the FAA's job to bring about safety or 
was it to promote aviation, and the inconsistency, and I do 
agree with Mr. Rogers. If I could just apologize, I neglected 
Mr. Vitter and he was the very first person. With your 
deference, if I could recognize Mr. Vitter, then come to Mr. 
Kennedy. I Apologize. You had left the room and I didn't see 
you come in. Mr. Vitter.

              COMMUNITY ORIENTED POLICING SERVICES (COPS)

    Mr. Vitter. Thank you, Mr. Chairman, and welcome again, 
General Ashcroft. Just about 2 weeks ago in preparation for my 
new work on this subcommittee, I had a very constructive 
meeting with all of the police chiefs and sheriffs in my 
district about your budget primarily, and one of their biggest 
concerns and focuses of attention, as you might predict, is the 
COPS program. We talked a lot about that. Basically to 
oversimplify, they had two main messages for me to take back 
with me. One is a plea to try to improve as far as we can the 
funding level in the budget. As you know, the proposed budget 
is $850 million down from about $1.5 billion. That is about a 
17 percent decrease, and the second is to try to build into the 
program as much flexibility as possible.
    Many of us, particularly on the Republican side of the 
aisle, had pushed and argued for that sort of flexibility in 
COPS in the past just as we do in education funding, and my 
concern is besides the overall number that perhaps with the new 
Administration we have some different priorities within COPS 
but there is still the same amount of flexibility, which is 
relatively little. I wonder if you can talk to both of those 
concerns, funding level, is there any way we can find some 
money out there not to increase the overall number but to help 
COPS and, number two, maximizing flexibility for the local 
forces in the trenches, if you will?
    Attorney General Ashcroft. Well, I thank you. I have met 
with a number of law enforcement officials and agencies as 
well, and I think that is a good way to inform our judgments.
    The COPS program, in some respects, has met its goal of 
funding 100,000 new officers, and the goal was to provide 
communities with the capacity to assess the value of these 
officers over a 3-year period. Funding for all COPS officers is 
provided in that upfront 3-year grant so that there is already 
money in the pipeline to continue all of the funding for 
individuals hired. So to the extent that we have a 17 percent 
reduction in the program, it does not reflect discontinuing 
funding for anyone who was already in that pipeline.
    The second point I would make is that we have, though, in 
asking for $180 million for a COPS hiring program, suggested 
that that be used primarily for school resource officers. We 
would expect to hire about 1,500 school resource officers with 
the funding. We may use some funding for general officer 
hiring, so that is not totally rigid. I respect this concept of 
flexibility because the circumstances differ greatly in the 
various jurisdictions.
    Our budget includes $79 million to increase crime fighting 
technologies, and our technology assistance will be more 
flexible than the COPS More program. COPS More was the name of 
a similar program. The technology assistance program will 
provide much-needed assistance for equipment and criminal 
record upgrades and crime labs and DNA testing, and that 
flexibility is something we are working toward. I feel that it 
is possible for a program to be a success. The COPS program was 
a success. It achieved its objectives, and some of the current 
redirection of those resources and technology is to move into 
another needed area, and of course to focus some of that energy 
on school resource officers. This reflects our concerns for 
school safety, which is a matter of the President's priority.
    Mr. Vitter. Well, let me encourage you to work on those 
avenues of flexibility. The school security officers is a 
perfect example. I talked to some chiefs in my district who 
said, you know, we have done that over the last 5 years or the 
school system has done that, so essentially this new focus to 
the extent it is rigid--and I applaud your effort to not have 
it be rigid, but to the extent it is rigid we are penalizing 
folks who are ahead of the curve, who have met the need and 
therefore don't have it anymore and may have another need like 
officers on the streets. So to the extent we can be flexible, 
at least in broad categories like personnel, technology, I 
think we need to realize that there is no single top priority 
in systems around the country. There are different top 
priorities and we need to be somewhat flexible, and I 
appreciate your comments in that direction.

                  OXYCONTIN, METHAMPHETAMINE, ECSTASY

    Let me quickly mention--I know we have a vote, but quickly 
mention some other concerns. I want to echo the comments of Mr. 
Rogers about OxyContin. I had a town hall meeting in a rural 
part of my district recently. OxyContin has devastated this 
community where I was. I had a mother who was there, testifying 
and crying who lost a son. It is rampant on the street. I know 
there is no simple answer, but I think one part of the answer 
is something you mentioned. I am a layperson, I don't have 
expertise in this issue but I can't believe there is not a way 
to manufacture the drug to make it much more difficult to break 
the time release aspect of the drug than is currently done. So 
that is just one avenue I think we need to pursue.
    Also, meth labs is a serious problem all over, including in 
Louisiana, and I add my comments to others in terms of concern 
about that, and raves and Ecstasy is a seriousproblem. As you 
probably know, in my part of the world, New Orleans, there is a very 
interesting prosecution through the Eastern District U.S. Attorney's 
Office shutting down a rave site through the use of another drug 
statute, a crack house statute, to try to attack raves, and I applaud 
that sort of proactive, aggressive prosecution and if there is any way 
we can either direct more funding to that sort of prosecution for raves 
and Ecstasy or if there is a need on the nonfunding side to look at 
something like the crack house statute and make it broader or more 
flexible, certainly I want to hear about those details so we can 
respond to that.
    Attorney General Ashcroft. Well, thank you very much. This 
problem of teen drug use that was mentioned by a number of the 
members of the committee is very, very challenging. We have 
established a teen drug working group, and your feedback in 
terms of items like the use of the crack house law to address 
the rave situation is very important to us. The rave situation 
has been insidious because it is suggested to parents that 
these are, somehow, safe events where they will be alcohol-
free. The parents then relax what normally would be their 
appropriate skepticism about an event, sending young people in 
where the drugs have been very, very dangerous. I thank you for 
your comments in that respect.
    Mr. Wolf. We are going to be in recess for about 10 minutes 
for two votes, and then I will recognize Mr. Kennedy when we 
come back.
    [Recess.]
    Mr. Wolf. The committee will resume and I will recognize 
Mr. Kennedy, and thank you for giving me the ability to go to 
Mr. Vitter.

                RACIAL DISPARITY WITH THE DEATH PENALTY

    Mr. Kennedy. Thank you, Mr. Chairman. Welcome, Mr. Attorney 
General. At the outset I just want to let you know that I am 
not going to ask you to comment on the pending legislation to 
name the Justice Department after my Uncle Robert Kennedy. You 
don't have to say anything about that at all. If you want to I 
would be happy to hear it, but seriously let me ask you about a 
recent Justice Department report on the death penalty that 
basically illustrates what we all know to be the case in this 
country where there is incredible disparity in the application 
of the death penalty, and for those that are currently on death 
row I think roughly 80 some percent are minority cases. And 
given the recent Attorney General's report on the death 
penalty, I would like to ask you what you are intending to do 
to address this incredible racial disparity in the death row 
situation in this country, not only on the federal level but 
what you might encourage the states to do, given that we have 
had a hundred people in this last year be set free from death 
row because they were wrongfully convicted. I have a fellow in 
my state just released after 18 years because of DNA evidence. 
So I would like to ask you what your Department is going to do 
to address this enormous racial disparity in the application of 
the death penalty.
    Attorney General Ashcroft. Thank you, Congressman Kennedy, 
and as you are well aware, the first execution in the federal 
system since 1963 will take place later this month with the 
execution of Timothy McVeigh, and obviously, that indicates 
that I have chosen not to suspend the execution process. I feel 
that there are cases obviously, and that is certainly one of 
the cases, that is clear and ought to be, that we ought to 
carry out the death penalty there. Congress has spoken 
unmistakably over the course of the last decade with, I think, 
in close to 60 different settings that there are certain kinds 
of conduct and activity which require or, at least, ought to 
provide the basis for the imposition of the death penalty. My 
responsibility as Attorney General is to carry forward and to 
enforce the law.
    The Department of Justice is currently reviewing 
statistical information regarding enforcement of the federal 
death penalty. Most of this information was pulled together by 
my predecessor, Ms. Reno. There is, in the Department of 
Justice, a process so that any pursuit of the death penalty by 
a U.S. Attorney is something that first comes to the Attorney 
General, and that is a process which was mandated by the United 
States Congress and is a sober responsibility. It is one which 
I take very seriously, and U.S. Attorneys are either authorized 
to seek the death penalty or authorized not to seek the death 
penalty after a careful review process in the Justice 
Department. So there is in place, as a result of the 
development process in the Department, at the requirement of 
Congress, that the Attorney General be involved in a screening 
process that is designed to avoid injustice or inappropriate 
prosecution.
    We are now preparing an analysis of the statistical 
information, which will attempt to explain the capital cases 
and how they have come into the federal system since the 
enactment of the 1994 crime bill. I expect that this analysis 
will be completed and released publicly in the near future. We 
are aware that the Department's fiscal year 2001 appropriation 
requires us to submit such a report to Congress, and we are 
attempting to fulfill the report as soon as possible.
    So that is the context in which we confront these matters. 
I guess I should add a couple of other points. We have 
significant funding in this year's budget request for things 
like expanded DNA, and DNA is a valuable tool in justice. When 
I talk about justice, I am not just talking about convictions, 
but also helping assure us that the convictions that we have 
are valid. So to the extent that we have also provided 
additional resources, I think thatis a way for us to use 
technology to help avoid disparities, which are inappropriate.
    Mr. Kennedy. In that regard then would you support the 
Innocence Protection Act that is being sponsored by 
Representative LaHood that calls for the DNA use.
    Attorney General Ashcroft. I support the utilization of 
DNA.
    Mr. Kennedy. If you could look at that bill.
    Attorney General Ashcroft. Thank you for giving me relief 
from----
    Mr. Kennedy. I understand what it must be like, and if you 
could look at that bill that would be tremendous. Your 
obligation I know is to enforce the law, but it is also to 
ensure that there is equal protection under the law, and 
clearly the application of the death penalty in this country 
reveals that there is not equal protection under the law. This 
death penalty is applied in an overabundance of cases where 
poor people and minorities are concerned, that according to a 
recent statistic, you are more likely if you are poor or black 
to get the death penalty than you are if you are poor and black 
to get cancer if you are smoking. The correlation between being 
poor and/or black and getting the death penalty is more than 
the correlation between a person smoking and their getting 
cancer.
    I think that ought to raise alarming concern in this 
country that this is an incredible civil rights issue, and we 
have had a hundred people just let off of death row. We cannot 
allow a system like this that is so blatantly unjust, where if 
you happen to have a crime in one part of the country you are 
more likely to get the death penalty than you are if you commit 
that same crime in another part of the country. I think that is 
just perverse and I would ask you to really look at that and, 
like you said, you would and examine those statistics which I 
think would lead you to the conclusion that we should abolish 
the death penalty.

                            TIMOTHY MC VEIGH

    But with that, let me just say in terms of Timothy McVeigh, 
I think we are letting him off easy. I think we are absolutely 
letting him off easy. I think that guy ought to rot in jail. He 
ought to spend the rest of his life thinking about what he did 
and not be let off the hook and allowed to die and not have to 
live his life for the rest of his life thinking about what he 
has done to those families. The notion that somehow you are 
getting tough on crime by having a death penalty I think is 
hogwash. I think the best way to make sure people really get 
the punishment is to not let them off easy, let them spend the 
rest of their lives in jail thinking about what they have done.
    So I just heartfully disagree with the idea that Timothy 
McVeigh is getting the ultimate punishment. I think he is 
getting an easy way out and he also is being made a martyr, Mr. 
Attorney General. He is being made a martyr. If we were just to 
let him rot in jail, you know how much attention he would get? 
You know how many people are going online to look at his 
writings now because he is coming up with the death penalty and 
it is the first one in 40 years? I mean we are making this guy 
a martyr. We are encouraging people who think that if they act 
out like this they are going to get this kind of attention. I 
think it is absolutely the wrong direction that we ought to be 
going in.

                            JUVENILE JUSTICE

    Let me focus your attention, Mr. Attorney General, on some 
areas of real concern to me. Federal studies suggest as many as 
60 percent of the incarcerated youth have mental health 
disorders, 20 percent severe disorders. As you well heard from 
many of the questions that have already been asked, substance 
abuse problems prevail. There is an estimate that 50 to 75 
percent of youth incarcerated nationwide had diagnosable mental 
health disorders; 11,000 boys, 17,000 girls demonstrate 
suicidal behaviors in these incarcerations.
    Now just yesterday the American Bar Association and the 
National Bar Association released a report that found an ever 
increasing number of girls are colliding with the juvenile 
justice system. In a report, ``Justice by Gender: The Lack of 
Appropriate Prevention, Diversion and Treatment Alternatives 
for Girls in the Justice System,'' it indicates an alarming 83 
percent increase from 1988 to 1997 in delinquency cases 
involving young women.
    So what I would like to ask you is given the fact that we 
are seeing the inability for us to have a process that will 
allow appropriate placement for girls in our juvenile justice 
system and given the fact that we are seeing a range of 
problems facing our young people in our juvenile justice system 
that have to do with their health care, I would like to ask you 
what you intend to do as Attorney General to make mental health 
care and treatment of these young boys and girls a priority in 
the Office of Juvenile Justice and Delinquency Prevention.
    Attorney General Ashcroft. Thank you, Congressman. The 
Office of Juvenile Justice and Delinquency Prevention has 
resources that are made available to the state and local 
governments dealing with this population. As you well know, 
juvenile justice is largely the responsibility and the 
operation of state and local governments. OJJDP has about $291 
million in grant funds that can be devoted toward addressing 
these problems, and the Juvenile Accountability Block Grant is 
another $250 million. I take seriously these challenges and we 
want to give the flexibility to state and local 
instrumentalities of the justice system related to juveniles so 
that they can devote these resources to address these needs.
    Mr. Kennedy. Mr. Attorney General, I happen to sit on the 
other committee called Labor, Health and Education, and we just 
had a meeting with Secretary Thompson, whose main interest is 
prevention. Obviously the age old saying, ``An ounce of 
prevention is worth a pound of cure.'' this is true obviously, 
and it is the foundation of what our whole juvenile justice 
system is dependent upon, and that is being able to correct 
behavior early and address it. What I worry about and I am sure 
you do is that juvenile justice, especially with the movement 
to put kids in adult and correction facilities, which you know 
is what is happening around the country with the pressure in 
each of these states to respond politically, and that is try 
those little kids as adults and it is happening all over the 
country. In fact, we have a bill in the Senate now, if you can 
believe this, in the United States Senate, that says that we 
want to have 10-year-olds be eligible for the death penalty, 
just so you know this is not far flung stuff. This is actually 
in your United States Senate, 10-year-olds get the death 
penalty.
    So what I would like to ask is are you going to work with 
Secretary Thompson to try to improve the funding for programs 
like safe schools, healthy students initiative, which works 
with youth, and having the Justice Department work with the 
Health and Human Services Department to coordinate more their 
activities and services, because much of what you are 
interested in doing in terms of prevention is being done by 
your counterpart Secretary Thompson in HHS, and so will you try 
to push for more initiatives like this one that I have just 
mentioned, safe schools, healthy students initiative?
    Attorney General Ashcroft. I am delighted, first of all, to 
commend your understanding of the fact that justice is done 
when we avoid infractions as much as it is when we prosecute 
infractions. The job of justice is not just the job of 
prosecution, but it is to see that administration of 
individuals are regarded and any time we can avoid an 
infraction, we have done justice. We seek to restore justice 
when we prosecute an infraction, and both of them are worthy 
objectives.
    I am always happy to work with the Secretary Thompson, and 
to the extent that we work together I would hope that we would 
be productive. The area of juvenile justice is unique, well, or 
at least substantially different than justice generally because 
the focus of juvenile justice is at the state and local level, 
and that is why these grant programs are so important to those 
jurisdictions. I am not confident though that in every setting 
the understanding of the mental health need is as acute as it 
is in individuals who have studied it, such as yourself.
    Mr. Kennedy. Well, I would love to work with you to see 
your office take a leadership role in addressing the fact that, 
as you know, our prisons are becoming warehouses for the 
mentally ill. We are spending so much money, as you know, 
incarcerating people instead of worrying about trying to do 
more to prevent those incarcerations. When you look at kids, 
you know which kids are going to have the highest risk. They 
are the kids that come from families with drug abuse, with 
single parents that are not providing an adequate amount of 
time to their children and are involved in a cycle of crime 
themselves. I mean, we know which kids are at highest risk and 
yet we don't do anything in this country to target those kids 
early on to address the fact that they have real 
vulnerabilities.
    So I would like to work with you to see that we adhere to 
the Surgeon General's report on children's mental health and 
try to educate more local jurisdictions. Even a letter from you 
to local jurisdictions or to everyone that you touch through 
the Department of Justice would be extraordinarily helpful. We 
need to do more. We are not doing nearly enough, and I would 
like to see your Department take a leadership role in the 
Office of Juvenile Justice and Delinquency Prevention to do 
just that, juvenile justice and delinquency prevention, and if 
you can work with Secretary Thompson that is terrific.

                            TITLE V EARMARKS

    I am worried with your budget that you take that Title V, 
which is all about prevention, and you earmark a good portion 
of the prevention dollar to something that is laudable, the 
project for child safe initiative, which is terrific, but I 
would add it does take valuable resources from the prevention 
side, and I would like to ask you what you intend to do to make 
up that, those funds being diverted from Title V, and what you 
are going to look to do to increase those kinds of prevention 
services.
    Attorney General Ashcroft. Well, we believe that the 
ability to try and prevent gun violence among children is a 
very worthy juvenile justice and juvenile delinquency 
prevention strategy, and we obviously understand that spending 
the money in one area means that it can't be spent in another 
area. I will be happy to work with you. I would particularly 
welcome your suggestion that you would like to help us 
communicate with individuals at the state and local level about 
the importance of this and would look forward to doing that.
    Mr. Kennedy. That would be great. Thank you for your 
testimony and I look forward to working with you on this 
important initiative of making sure we address the problems 
early and hopefully prevent them from reoccurring, given 
recidivism is just too high and the kids, as the juvenile 
justice experts will tell you, get shorter sentences because 
the judges feel bad for the kids when in some instances the 
kids need longer sentences but sentences that are 
moreappropriate to a child, and instead they come out meaner, more 
educated in the ways of adult crime than they did when they went in and 
it just makes no sense whatsoever. So I look forward to working with 
you to address these problems. Thank you very much.
    Mr. Wolf. Mr. Kolbe.
    Mr. Kolbe. Thank you, Mr. Chairman. General Ashcroft, thank 
you. We look forward to working with you in your stewardship of 
this important agency that you head up now.
    Attorney General Ashcroft. Thank you.
    Mr. Kolbe. And we wish you well. General Ashcroft, you are 
going to be going down to the border this weekend, I believe.
    Attorney General Ashcroft. Yes, I am.

                        BORDER PATROL IN TUCSON

    Mr. Kolbe. I am going to take this opportunity to talk to 
you a little bit about some of the issues you are going to be 
seeing there and hopefully they will be helpful to you as you 
go down there. My particular area in Tucson has experienced the 
greatest increase of illegal immigration across the border, at 
least as measured by the apprehension, and there has really 
been little or no improvement on it. I have got some charts 
that are available in front of you there, or at least we gave 
them to your staff earlier that I hope they are right there, 
and other members have these as well. I don't know that you 
have got one.
    Just very quickly, I am sorry I don't have them blown up in 
large size, but the first one shows the rather dramatic 
increase in the Border Patrol apprehensions here and you can 
see the horizontal line there representing the Tucson sector, 
which has gone from a minuscule number back in 1981 now to 
representing 40 percent at least of the total now in the entire 
border, just in this one sector that is being apprehended.
    The next two charts are very interesting. The first one, 
chart 5 there as it is labeled, illustrates what is happening 
in San Diego, where we have had a wall put up, we have had a 
tremendous amount of resources. As you can see there, the top 
line here is the number of patrol hours and you can see the 
result is quite dramatic actually, from 500 to about 200,000, 
so better than 50 percent decrease in the number of 
apprehensions there. In theory, you would think more people 
there, you would be apprehending more, but no, what is 
happening is exactly what we want to happen. More people 
patrolling, more hours being spent means you are deterring 
people from coming across.
    Well, the last chart shows the same thing in Tucson except 
that it is not happening that way. You have the patrol hours 
going up dramatically and the apprehensions continuing to go 
up. It seems to suggest to me, one of the things I hope you 
will be looking at, is that they are doing something right in 
San Diego about the means in which they are deploying the 
people and the way they are using them and they are doing 
something wrong in the Tucson sector.
    I happen to know, I think, what it is. That is in San Diego 
they are following a method that was used and designed----
    Attorney General Ashcroft. I missed that, would you say, 
following the----
    Mr. Kolbe. In San Diego they are using the method of 
management of their personnel that was designed by now 
Congressman Reyes in El Paso, and that is a forward deployment 
of the people at the border, deterring them from coming across 
in the first place. In the Tucson sector they still use most of 
the personnel chasing around the desert trying to catch them 
inside the United States and they are not deployed forward on 
the border. That is an oversimplification, but I think you will 
find that that is exactly the way the personnel are being 
deployed, and the result of course is that you have--even 
though you are using more and more people, you are having more 
and more people coming across and being caught.
    Obviously I will take this up with Mr. Ziglar when he is 
confirmed and he has an opportunity to be before our 
subcommittee, but I just wanted to bring this to your attention 
before you go there.

              HEALTH CARE REIMBURSEMENT FOR ILLEGAL ALIENS

    And I hope you will have a chance to ask some questions 
about that. Now I want to turn to at least one issue that is 
related to this and of critical importance, one that I just 
can't stress enough the difficulty that we have, and that has 
to do with the health care reimbursements of these individuals. 
I know your first response is health care, what do we have to 
do with health care, the Attorney General? The answer is you 
have to a great deal to do with it because these are people 
that are turned over to the hospitals by the border patrol and 
there is no reimbursement.
    These people come to the hospitals with compound fractures, 
dehydration, they need obstetrical care, they have gunshot 
wounds. A lot of them come from injuries in high speed 
automobile chases in which the van turns over and 25 people 
spill out injured in one form or another. But the border patrol 
does not take these illegal immigrants into custody. They do 
not take them into custody in order to avoid reimbursing the 
hospitals and ambulance services for their costs. If they take 
them into custody, it then becomes their responsibility and 
they acknowledge that. So they do not take them into custody.
    In fact, let me give you an example of something that 
happened in a hospital in my area. An illegal immigrant camein 
with a broken ankle on a Friday. They performed the surgery on 
Saturday. The hospital then called the Border Patrol to pick him up but 
they refused. This is an illegal immigrant. They refused to pick him up 
and they knew if they did so they would be taking custody of him and 
they could get billed for care. So the hospital had to call the Mexican 
consulate and schedule a pickup on Monday. So the hospital is not only 
doing the medical care, they are also taking the detention and holding 
responsibilities and they have to hold this individual in a hospital 
overnight at the cost of doing that to the hospital, hold him in the 
hospital overnight in order to have him picked up the next day by the 
Mexican consulate.
    One hospital, very small hospital in my area, in fact I 
think you will be in Bisbee. You will have a chance to ask some 
questions about the Copper Queen Hospital down there. It has 49 
beds. The hospital itself is about three miles from the Mexican 
border and they incurred $98,000 in uncompensated care in the 
year 2000. That is a 300 percent increase over the previous 
year, and this year they are going to see even more than that. 
It may not seem like a lot, but they have a net operating 
income of $260,000 in this tiny little hospital.
    We have already had one hospital go bankrupt down in 
Douglas. The community scrounged together some citizens and 
doctors who actually contributed money to pull it out of 
bankruptcy, but the bankruptcy was directly related to the 
problem of the uncompensated care of the illegal immigrants.
    My point is this, there is a structure in place to deal 
with this problem. It is just that we are not implementing 
this. The Public Health Service and the INS have entered into 
an interagency agreement in which the INS would fund the Public 
Health Service Division of Immigration Health Services. This 
provides the framework for the INS to pay for these 
reimbursements while Public Health Service specialists analyze 
the payments to make sure they are properly obligated. In other 
words, you have Public Health to make sure the INS is not 
billed for something they should not be billed for, improper 
care or too much care or whatever, but this strategy is 
contingent on the Border Patrol taking these people into 
custody because that is what they refuse to do. They would say 
we do not have a proper appropriations account to pay for these 
things.
    Well, my statement to you is it is unfair to the local 
community to have them bearing this cost. I mean, the person is 
arriving in the hospital because of a failure of the Border 
Patrol to do its job of stopping them at the border. One can 
say it is impossible to stop everyone. I acknowledge that. But 
nevertheless we have to admit it is the failure of stopping 
them from crossing the border to having this care, and it is 
inappropriate that the local hospitals are forced to bear all 
of these costs. Here is the stated Border Patrol policy: where 
the injury is such that the alien is not likely to escape, the 
office shall not take him into custody or take any action or 
use language from which an atmosphere of restraint could be 
conveyed to him or anyone else present.
    Great policy. That certainly covers their rear-end by 
making sure they don't end up paying for it so the INS never 
has to reimburse.
    Another internal INS memo says this: ``INS is under no 
legal obligation to take into custody and thereby incur 
responsibility for the medical bills of the injured in 
automobile accidents while fleeing from Border Patrol agents.'' 
So whose responsibility is it?

                   Illegal Alien Health Care Funding

    I guess my point is we have a Division of Immigration 
Health Services that is funded at $54 million and we have asked 
for an increase of $8.6 million in that. That can be used for 
this but it would require a change in policy of INS and the 
Border Patrol of taking these people into custody.
    I am not asking you to give me a definitive answer. I want 
to bring this to your attention because I think this is an 
issue I hope you will look at and try and deal with it, and I 
would be interested in your comment on it.
    Attorney General Ashcroft. Well, thank you very much. The 
whole issue of uncompensated care is aggravated in a setting 
where you have an intensified demographic.
    Mr. Kolbe. As we do on the border, right.
    Attorney General Ashcroft. And while there are programs for 
disproportionate share hospitals and those who have a 
disproportionate share of uncompensated care, it seems to me 
that you are bringing to my attention a situation that does 
bear my inspection. I think emergency medical treatment costs 
for illegal aliens should not be the sole purview of the INS. I 
don't think it is appropriate that we displace this cost to 
others. I understand that HHS would require authority to 
reimburse states for their activity, but I will be happy to 
work with you when we have to reach a solution to this problem.
    For an institution that has an overall budget of $260,000 
to have $98,000 in uncompensated care is a death sentence on 
the institution, and I am sure those hospitals are needed by 
the residents of those communities to safeguard their health 
and well-being. So I will work with you in this respect, and I 
hope you and I will have a chance to see this and talk to 
individuals about this this weekend when I am on the border.
    Mr. Kolbe. I appreciate that very much, I really do. And I 
think there is the mechanism in place and it actually, I guess, 
as I understand it, it doesn't even come out of your budget. 
But you would just have to take custody of thesepeople. Then we 
can push it off to the Public Health Service, but we would have to look 
at the cost of that and make sure we are adequately funding that 
account as well.

                        Fences Along the Border

    We have a similar problem with fences. This is really a 
never-never land, the fences along the border where the 
International Boundary and Water Commission says we only put 
the markers down. We do not provide any security. The Border 
Patrol says where there is a secure fence like a wall, that is 
our responsibility but a three-strand barbed wire fence to keep 
cattle in and out, that is not a security issue so that is not 
our responsibility. So as you know, these drug operations going 
back and forth across the border, they cut the fence, drive 
across the border. Now we have the added problem of hoof and 
mouth with cattle wandering back and forth across the border 
here. This is a real problem, and I think we do need to have 
this looked into about a way in which we could compensate, 
either have these repaired by Border Patrol or the simplest way 
would be to compensate the ranchers who do the constant repairs 
of them, compensate them for some of the costs, and I would 
wish you to look at that, too.
    Attorney General Ashcroft. I will be happy to try to 
develop a better awareness of that in my trip. There are some 
funds in this budget that relate to infrastructure needs, $3 
million, which is not a whole lot of money, near the San Diego 
sector and another $3 million to support infrastructure efforts 
under way in Tucson, Laredo and the Del Rio sectors as well.
    Mr. Kolbe. Thank you, Mr. Chairman. I have a couple of 
other questions and I will put them in the record. Thank you 
very much.
    Mr. Wolf. Thank you, Mr. Kolbe. Mr. Miller.

                          Boys and Girls Club

    Mr. Miller. Good afternoon. Thank you for staying this 
long. I have a few short questions. One is on the Boys and 
Girls Club issue. I don't think it has come up yet. I know you 
are a supporter of the Boys and Girls Club, as is the 
President, but it got zeroed out in your budget this year, and 
it is kind of embarrassing because the President was not long 
ago over in the Boys and Girls Club Delaware. When the budget 
was unveiled here in Washington, Secretary Thompson went to the 
Boys and Girls Club, and a program that might have been 
considered earmarked, it really isn't, it was an authorized 
program--it expired now, but of course a lot of programs are, 
as you know, not authorized--I hope is an important after 
school program. I am sure you supported it. I hope there is a 
way we can get it back in the budget and in the appropriations 
process. Because the chairman and I have met with the Boys and 
Girls Club. We all support it. Let's see if we can find a way 
to get it back in. I don't know if you have a comment or not.
    Attorney General Ashcroft. I love the Boys and Girls Club. 
I was a member of the Boys Club, the first organization I was a 
member of, cost 50 cents a year when I was a boy. And it is my 
understanding that that has been something that has not 
occurred in the executive budget but has been added by the 
Congress or earmarked out of the resources available. The grant 
funds that are available this year would sustain that kind of 
allocation to the Boys and Girls Clubs again, if you were to 
choose to do it. Obviously, it is a worthy organization whose 
merit is not only recognizable but whose contribution to our 
future is valuable.
    Mr. Miller. Thank you. It is a little embarrassing for the 
Administration to get it zeroed out when we are doing so much 
with the Boys and Girls Club, when we all support them and what 
they are trying to do. Thank you and we look forward to working 
with you.

                              Extradition

    An issue I got involved in since 1997 is extradition. I am 
not an attorney, so I never thought I would be involved in an 
issue like that. But I had a horrible murder that took place in 
Sarasota, Florida, a mother of six children, including 
quadruplets that were 2 years old. The accused fled to Mexico. 
It took us too long to get him back and then he eventually was 
brought back and confessed to the crime. And since I got 
involved in that one, we get into those other issues.
    I find it is a frustrating job for the U.S. Attorneys and 
the prosecutors to be able to bring people to justice when they 
flee the country and you do not really have a lot of pressure 
you can bring to bear a lot of times on this. It is not a death 
penalty issue. We introduced legislation last year, and we will 
look at other ways to try to give the Department of Justice 
more leverage against countries. There is one case right now of 
a murder, that of an Ira Einhorn, accused of a horrible murder 
in Philadelphia back in 1997. He is free in France. Now France 
is in the process of trying to get somebody extradited out of 
Miami. We should at least bring up the issue and say, hey, Ira 
Einhorn has been free for 24 years and he should come over and 
stand trial for a murder that took place in 1997. The Holly 
Maddux family, she has three sisters and a brother, have been 
living with this crime for 24 years.
    I know Attorney General Reno and everybody wants to get 
this done, but we need to have some way to get more leverage. 
These are our friends in Mexico and France. But extradition 
becomes a personal crime that took place in your area, your 
neighborhood, your state or something like that. Anything we 
can do on that, and in this particular case with France maybe 
you can do something to say, hey, get their attention to get 
this Ira Einhorn to stand trial in Philadelphia.
    Attorney General Ashcroft. I thank you for your concern. 
These families suffer greatly and these are our friends in 
terms of nations from whom we are trying to extradite these 
individuals. In the Einhorn case, the Supreme Court of France 
ruled that he should be extradited. The French Prime Minister 
signed the order in the fall of the year 2000, last year. On 
December 4, Mr. Einhorn filed a preliminary statement before 
the Conseil d'Etat outlining an indictment for the appeal of 
the extradition order. And on February 5 of this year, the 
French Ministry of Justice filed a response setting forth a 
procedural history of the case and disputing his appeal. He has 
filed a full brief now before the Conseil d'Etat at least 
during this month, and there are really no substantially new 
arguments. The ministry has 30 days to respond to his briefs. 
So he is in the last stages of his appeals. The Criminal 
Division's Office of International Affairs, which is the part 
of Justice that deals with this, continues to work very closely 
with the Philadelphia District Attorney's office on this 
Einhorn case, and I know you are making reference to these 
cases generally.
    I know these are very important matters and we should never 
allow any delay to be occasioned by our own performance. There 
is so many things that happen in the international arena that 
when there is an opportunity for the filing and for an 
operation, we should do it with the greatest promptness. We are 
working closely with the prosecutor at the Ministry of Justice 
in France who was assigned to respond to Mr. Einhorn's argument 
before the Conseil d'Etat, which means that we are trying to 
make sure they do their best.
    I would just add one other thing. The French recently 
assisted us in apprehending one of the ten most wanted, one Mr. 
Kopp, who was charged with abortion clinic murders. We have 
been getting good cooperation from them. We are working closely 
with them on this. But we need to make sure that as crime 
becomes international and as the ability of fugitives to move 
from one jurisdiction to another is expedited by our travel, 
that we don't suggest to people that they can avoid punishment 
by fleeing. And we will, I can pledge to you that this Justice 
Department will take this very seriously. We will pursue every 
avenue to the extent we can. We will even help the prosecutors 
in the foreign countries to make sure we retrieve these 
subjects as quickly as possible. This circumstance of Mr. 
Einhorn being free regarding a murder that took place in 1977 
is unacceptable, and we will work to make sure that it doesn't 
happen.
    Mr. Miller. I guess a lot of times it is the families, but 
it is the prosecutors, the state and local prosecutors and the 
attorney general, and you want to proceed with the case but you 
cannot. If there is anything that can be done to help expedite 
the process.

                             Plan Colombia

    A couple of comments first and then I will conclude. Plan 
Colombia, I know it involves several different areas of the 
Federal Government. It is horrible what happened on April 20 of 
this year. But I have visited there. We have had an impact on 
Peru. I hope we do not overreact to this. We have tightened up 
the policies we have, but I am not sure of the full role the 
Justice Department has, but the plan has dramatically reduced 
the drugs flowing out of Peru.
    Attorney General Ashcroft. Your point is do not stop 
because we have had this tragedy?
    Mr. Miller. Right. We should tighten up the standards we 
use, and we should. But do not throw out the whole program at 
the same time. That has been helpful in Peru, I know.

                     Visas For Critical Professions

    One last comment, and that is we just came from a hearing 
with Secretary Thompson, but there is a crisis brewing about 
health care workers in this country just like teachers. In our 
generation, our parents' generation, women went into education 
and nursing. And of course now they have all these great 
opportunities. But there is a real crisis as they retire, not 
just licensed nurses with degrees but also the certified 
nursing assistants. In my home State of Florida the state 
legislature is in the process of raising the staffing 
requirements. We have a real shortage of getting these people 
work and the ability to bring them in on certain visas is 
important.
    So I hope as we go through that process we can help through 
the visa process make more workers available for nursing homes 
and hospitals and home health agencies.
    Attorney General Ashcroft. A number of those things will 
necessitate congressional activity and action. As you know, 
last year we worked on critical professions and the 
availability of visas to support worker access to meet those 
needs in our culture. And it may be that we need to call upon 
you for cooperation again in the event that that becomes an 
apparent need.
    Mr. Miller. Thank you.
    Mr. Wolf. Thank you. Ms. Roybal-Allard.
    Ms. Roybal-Allard. Thank you, Mr. Chairman. I apologize for 
not being here earlier. I was in an Energy and Water hearing in 
which Secretary Abraham was testifying.

                          Extension of 245(i)

    Attorney General, first of all let me welcome you. I am 
sure the other members of the committee have already. My first 
question has to do with 245(i). As you know 245(i) is a part of 
our immigration law which is an effort to keep families 
together. I was very pleased that yesterday the President 
indicated that he would be supportive of extending the deadline 
for 245(i), which would allow individuals to remain in this 
country with their families while theyadjusted their status, 
rather than having to leave the country for up to 10 years.
    Could you tell me how long an extension the Administration 
would be willing to support and if the Administration would be 
willing to support a permanent restoration of 245(i) as it was 
prior to 1997?
    Attorney General Ashcroft. Well, I am not able to speak for 
the President on this matter. I was pleased for the President 
to indicate his sensitivity to the fact that there are a couple 
of hundred thousand people who would like to perhaps have been 
able to take advantage of the LIFE Act, but the deadline 
transpired or occurred. We will work--I am confident that the 
Administration would like to work with you. As you well know, 
this was a congressionally imposed deadline as a result of a 
compromise reached in our deliberations last year, but I think 
the Administration is in general support of the extension, and 
in this understanding by the President of the needs of these 
families, is willing to work with the Congress on the nature 
and extent of the opportunity that is presented.
    Ms. Roybal-Allard. Well, I would hope that the 
Administration not only would work with me but also with the 
Congressional Hispanic Caucus, which has really taken the lead 
in advocating for not only the extension but a permanent 
reinstatement.
    Attorney General Ashcroft. I would be very pleased to 
participate in that. This is a worthy objective. The President 
is very sensitive to the needs that are expressed by these 
families. The fact that the Congressional Hispanic Caucus is 
working to help make sure those needs are met puts us all on 
the same team.

                               H-1B Visas

    Ms. Roybal-Allard. Thank you. In light of the added 
responsibilities that the INS will have in this and future 
years, including the new V and K visas enacted as part of LIFE 
and the designation of El Salvador for temporary protection 
status, as well as the increased number of H-1B visas, can you 
explain to me why the Administration has only asked for $45 
million for new funding for backlog reduction and 
infrastructure improvements? I mean, is this really enough to 
address this current backlog as we know it exists today?
    Attorney General Ashcroft. I am not going to be able to 
answer that definitively, and it may be that it is appropriate 
for me to confess that I am not sure. We have a $45 million 
increase here. That is on top of and in addition to the regular 
funding in that program. I don't know that I could say to you 
that that is guaranteed to be an adequate resource. But it is a 
substantial increase to try to help meet this need. Obviously 
if the parameters of the program get changed and the population 
to be served is redesigned in legislation, it may be necessary 
to reallocate resources to accommodate the needs that would be 
reflected by that different design and reallocation.
    Ms. Roybal-Allard. If possible, if you do have additional 
information in terms of what the basis was for that $45 million 
figure in light of the backlog as well as the anticipated 
increase in INS workload, could you submit it for the record?
    Attorney General Ashcroft. I would be happy to get 
information to you on that.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


   Report on Immigration Services and Infrastructure Improvement Act

    Ms. Roybal-Allard. The first report that was required by 
the Immigration Services and Infrastructure Improvement Act was 
due 3 months ago on January 17. Can you tell me why there is 
this delay and what the status is of that report?
    Attorney General Ashcroft. If you can give me a minute, I 
need to confer with my staff.
    Ms. Roybal-Allard. Sure, I have to do that all the time 
myself.
    Attorney General Ashcroft. I have to ask you for permission 
to get back to you on the nature of--that report was originally 
due during the last Administration, and I don't know exactly 
what the status of that report is.
    [The information follows:]

   Status of Immigration Services and Infrastructure Improvement Act 
                                 Report

    The Administration has proposed a new initiative that 
focuses exclusively on achieving six-month processing for all 
applications within the next five years. The FY 2002 Budget 
dedicates $100 million for this effort. Given the President's 
initiative, the Administration is developing a detailed backlog 
reduction plan with specific milestones for eliminating the 
backlog in all immigration benefit programs within 5 years. We 
anticipate that this plan will be completed shortly and we will 
forward it to Congress as soon as it is completed.

            state criminal alien assistance program (scaap)

    Ms. Roybal-Allard. Thank you. My final question if I still 
have some time left, has to do with the SCAAP program, which of 
course is a program that is very important to states like 
California. I would like to know what the rationale is for 
cutting the State Criminal Alien Assistance Program by over 
half, especially when the Administration is proposing $50 
million in new spending to encourage the prosecution of 
criminals apprehended along the southwest border.
    Attorney General Ashcroft. This allocation I did speak to 
in my opening remarks is basically this: we are bringing on 
line over a billion dollars of new federal prison space and we 
simply did not have money both to fund the additional aid for 
the state incarceration as well as bring on the new federal 
incarceration. And this shift in resources back from the 
assistance to the states to the fundamental core responsibility 
of the Federal Government necessitated the devolvement of those 
funds. As the Bureau of Prisons brings on these new prison 
facilities and requires funding for those, the funds were 
reallocated to the federal responsibility.
    Ms. Roybal-Allard. Perhaps we can discuss this further 
because, as you know, for a state to have to take care of the 
needs of these illegal prisoners creates a tremendous hardship 
on the budgets of these states. Perhaps at some point something 
can be worked out so that the states aren't hit as hard as 
through this budget request.
    Attorney General Ashcroft. It is my understanding that 
SCAAP, though, is not a situation where federal prisoners are 
being housed at the state's expense. It is a situation where 
you have individuals that have violated state laws who are 
aliens and who are being maintained in the state prisons. I 
understand this is not dissimilar to one of the points that was 
made earlier by another individual. It is just a consequence of 
the fact that there are a lot of problems associated with the 
population at the borders, and we will try and work with you to 
mitigate any dislocations that are a result of this.
    Ms. Roybal-Allard. The point is that in order for state and 
local governments to have to cover these additional costs it is 
going to take away from their funding for law enforcement in 
general. So it seems a little counterproductive.
    Attorney General Ashcroft. I understand the tension that 
exists between funding more prosecution and funding less 
incarceration.
    Ms. Roybal-Allard. Thank you. Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Latham.
    Mr. Latham. Thank you very much, Mr. Chairman, and welcome. 
I apologize for being in and out of here today. I have had----
    Attorney General Ashcroft. I am very sensitive. It was not 
long ago--the difference between me and members of Congress is 
that members of Congress won their last election. I lost mine. 
But I understand what it means to try to accommodate various 
things. I am pleased to have the opportunity to confer with 
you.
    Mr. Wolf. Let me add something for the record. You were 
very gracious and I think that the way that you responded said 
more about you than anything else or any position that you have 
taken. And so I just did not want to stay--I wanted to add the 
way that you responded was really amazing. This was a very 
political process. No one wants to lose. I have lost twice. So 
the way that you responded was above and beyond the way that I 
have seen people respond. So thank you very much.
    Mr. Latham. And I most certainly would associate myself 
with the chairman's words there, and congratulations on your 
confirmation. You will be a tremendous Attorney General. You 
are a tremendous Attorney General.

                     antitrust agricultural issues

    I have just a couple of questions, and I think you are 
sensitive to it being that your background is in Missouri. But 
in agriculture, obviously, we have a real concern with vertical 
integration and what is happening to the family farm. And I 
would just ask you if there has any been any discussion or what 
your thoughts are as far as maybe assigning someone in the 
Antitrust Division to look at this to make sure that what is 
hanging out there is in the long-term best interest of an 
adequate supply of good food for our country.
    Attorney General Ashcroft. Congressman, I am sensitive to 
this issue. The responsibility of the Justice Department is to 
evaluate mergers in terms of their competitive effect and their 
impact on the industrial capacity--including agricultural--
industrial capacity, if I might use that phrase. We have, in 
the Justice Department, an individual who is assigned to look 
at agricultural proposals with a view towards their impact, as 
you have mentioned. And I want to, and I have personally spoken 
to make clear my understanding of this to Mr. Ross, Doug Ross, 
who has that responsibility, that I want mergers to be 
evaluated for their upstream impacts and effect as well as 
their downstream impacts and effect.
    At least when I had the privilege of serving as a member of 
the United States Congress I was keenly aware of the fact that 
in some circles the only apparent sort of concern was what 
happens to the consumer price or to the consumer interest in 
the marketplace, and that certainly is a valid concern. But 
what is in the producer community is a valid concern. And your 
having raised this issue signals again, tome, that we need to 
make sure that that is one of the items that we consider carefully when 
we are exercising our responsibility to evaluate proposed mergers and 
acquisitions, especially as they relate to the agricultural sector.
    Let me indicate that in the Justice Department, as I will 
administer it, we will welcome contributions in terms of such 
analysis from beyond the Justice Department, be it in the 
Agriculture Department or other areas. And last but not least, 
there is a challenge in making sure that the Packers and 
Stockyard Act is appropriately enforced. Any assistance that 
the Justice Department can be to the enforcing agencies for 
that responsibility is a part of what I pledge to be available, 
because a comprehensive approach to the maintenance of the 
capacity of our producers to stand on a firm footing in a 
competitive environment that is healthy for them is essential 
to the survival of American agriculture.
    Mr. Latham. I appreciate that. And I know you are aware of 
the GAO report last year looking at the USDA as far as the 
enforcement of the packers and stockyards, and they said there 
was a lot they could have been doing over there and failed to 
do. So I appreciate your comments very much, and I appreciate 
the fact that you are looking to work together and that is 
very, very important.

                           ins reorganization

    One of the major concerns--I know you have talked about INS 
earlier here today, but in my area we have good enforcement, I 
think, and may be to an extent somewhat misguided in how they 
are enforcing the INS laws. But one of the real unfortunate 
parts of that is that all the emphasis seems to be on 
enforcement and we have a lot of people who need the 
administrative side of INS. And I would hope and I am going to 
try to work to get some type of an office in my district so 
that we can have INS have two sides; you know, one with the 
enforcement but also just as strong to have the administrative 
side to help these people be in this country legally and who 
want to become part of the system. And I don't know if you want 
to comment on that, but we have got to look at both sides of 
that issue.
    Attorney General Ashcroft. Well, let me thank you for your 
comments in this regard. The President of the United States is 
sensitive to the need to revamp the Immigration and 
Naturalization Service. And what you are talking about is 
putting the service back into the immigration and 
naturalization arena. This means that for individuals who need 
either a naturalization process, or what I think we call an 
adjustment of status process, that we deal with them with 
respect and dignity in a timely fashion. The President has 
asked us to develop plans to try and get the backlog down from 
12 to 14 months, or sometimes longer in certain areas, down to 
6 months. That is a laudable objective, especially in times of 
vastly increasing caseloads, which, as you well know, I earlier 
stated, that in the last 7 years they have done more cases than 
they did in the previous 40 years, for which you all have 
provided the resources.
    We want to work with you on this. The President has 
indicated that he expects a division in the function of INS so 
that we do not have enforcers trying to act as servers and 
servers as enforcers, that we have these two streams that are 
very important functions but we believe would be better 
implemented as separate functions. It is with that in mind that 
the President has indicated that he wants to appoint a 
gentleman named Jim Ziglar, who now serves as the Sergeant at 
Arms of the Senate, but was a former manager of PaineWebber, a 
large financial house. He has been challenged and tasked in 
previous settings with the restructuring of massive 
organizations and has some of that capacity. We really will 
need to work together to have an INS that has the service, 
Immigration and Naturalization Service, and also has the 
capacity for strong and effective enforcement.
    Mr. Latham. And I appreciate that very much. I know the 
people from my area have to go to Omaha. They stand in lines 
that are blocks long when they get their paperwork done. It 
goes into a warehouse and sits there for a minimum of 6 months 
before it is ever even looked at. And it is just totally, shall 
we say, not user friendly at all. And I will just for the 
record, obviously I have a real concern about the 
methamphetamines in the upper Midwest. I am going to continue 
to support a meth training center and expand that, I hope, for 
the upper Midwest, and also the grants that have gone to local 
law enforcement have been so important in my district, very 
rural district. A lot of these entities, local police 
departments, sheriffs departments, simply cannot afford with 
their budgets to provide some of the equipment and technology, 
and I just hope we can continue to be of assistance to them.
    Attorney General Ashcroft. Well, thank you, Congressman 
Latham. I might just indicate that there are six new positions 
in the Omaha district area and three of them are being assigned 
to the Des Moines office. Between the Omaha and Des Moines 
settings, I hope that we can provide a little bit of relief 
right away.
    Mr. Latham. For people in Sioux City, it is not much help 
either way, or Storm Lake. I would like to see something up in 
northwest Iowa, which is really the concentration of the meat 
packing and a lot of the heaviest caseloads are out of that 
area. So thank you for thinking of us.
    Attorney General Ashcroft. Thank you.
    Mr. Latham. Thank you, Mr. Chairman.

                             indian gaming

    Mr. Wolf. Thank you, Mr. Latham. Mr. Attorney General, I 
have a lot of questions but in respect of your time we are 
going to try to move through them fast. But a lot of them we 
will submit for the record. They go back briefly to the 
gambling issue. I sent you a letter asking to you take a look 
at, and I also sent a copy to the Office of Integrity at 
Secretary of Interior. In the last Administration three groups 
were granted permission to be recognized as native American 
tribes, thereby giving them the right to open casinos. This 
ruling reversed the findings of the Interior Department of 
staff historians. For 5 years I worked at the Department of 
Interior under Secretary Morton. There was never anything like 
this done that I know of in the past. As a result of reversing 
the historians, they now can open gambling casinos. Fifty 
percent of the revenue to Indian tribes goes to 2 percent of 
the Indians. Eighty percent of Indians never receive a dollar. 
Some of these former appointees are now out working for 
gambling organizations. They are soliciting the tribes. I just 
hope, and I am not going to ask you to comment, that your 
Department looks at that to see if it was a violation of the 
law. Somehow for somebody to be here and to be soliciting the 
very people they are responsible for I think there is really 
potentially a legal problem, but certainly an ethical problem. 
If you want to take a look at that letter, but otherwise if you 
want to comment that is fine. But just take a look at it and 
see if there was a problem.
    Attorney General Ashcroft. I will be happy to receive the 
letter and I am grateful for your comments.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                         ins--missing property

    Mr. Wolf. One property inventory issue on INS involves a 
March 2001 report by the Department Inspector General. The 
report audited INS property inventory and found that 23 weapons 
were lost, another 382 were missing, 134 weapons were stolen. A 
total of 539 weapons, were unaccounted for in 1999. Of this at 
least six of these weapons were linked to the commission of 
crimes. Hopefully you can look at this serious question as you 
are looking at INS, as Mr. Rogers and Mr. Latham talked about, 
but the loss of these weapons is kind of amazing.
    Attorney General Ashcroft. It is unacceptable and frankly, 
as I indicated, the Inspector General's report, I think that is 
the one to which you were making reference, but it reported 
that 61,000 items were missing. Some of them obviously, you 
have indicated, are firearms, and $71 million is the tab for 
that. We have got to do better. That is one of the driving 
forces behind the impetus for INS reform, and we will do 
better.

                     non-deportable criminal aliens

    Mr. Wolf. Criminal aliens, would you please comment on the 
situation with regard to nondeportable criminal aliens? We 
understand that we have in custody criminal aliens that we 
cannot deport because their countries will not accept them. How 
many of these criminals do we have in custody and what is it 
costing the government and are you doing anything or do you 
have any plans with regard to their removal?
    Attorney General Ashcroft. Mr. Chairman, I am not prepared 
to give you an inventory of that population at this time but 
would be very happy to supply it to the committee.
    Mr. Wolf. And what the cost is to the government for 
keeping them.

                     Non-Deportable Criminal Aliens

    There are approximately 3,000 criminal aliens with orders 
of deportation that are unlikely to be removed or released due 
to the nature of their crime and/or the inability to obtain 
travel documents. These detainees generally are housed at the 
most cost-effective facilities averaging $85 per day. The 
annual cost for these detainees is $76.7 million. The INS 
continues to seek travel documents from the detainees' home 
countries, which include primarily Cuba, Viet Nam, Laos, 
Kampuchea and certain countries of the former Soviet Republic.

                        faith-based initiatives

    About 3 weeks ago I went up and visited a couple of your 
prisons. And I know you are going to do the same thing if you 
haven't done it. I would urge you when you go maybe for half of 
the prisons you tell them that you are the Attorney General, 
but on the other half you ought to just tell them you are just 
Joe Smith trying to learn. My sense is the men may tell you a 
little bit differently when you are not the Attorney General. I 
see in your budget you have $5 million for faith based. All of 
the problems that we have been talking about today, guns, 
violence, crime, trafficking of young women, they are all faith 
issues. They are all issues of the heart. And I would hope that 
we could put more than $5 million into faith-based initiatives. 
I think President Bush raising this issue has now made it more 
comfortable for prisoners and others to talk about this issue. 
So if the committee can find a way, I would hope that you 
would--and you might want to comment on it--be very aggressive 
in faith based and I am talking about groups like Prison 
Fellowship and Chuck Colson and Bob Garcia. Bob, who served 
here in the Congress for a number of years, is very active in 
prison fellowship. But I would hope we could do more. Do you 
have any comments?
    Attorney General Ashcroft. It is my understanding that the 
President campaigned in a way that projects his understanding 
that this country is far bigger and far more powerful than its 
government. And there are many resources that need to be 
brought to bear, especially to remedy the pathologies of 
America that are found outside the government. In his 
experience in Texas, by inviting a faith-based organization to 
participate in one of the prisons, they have found they had a 
very successful circumstance. And the President projected, I 
think, on a pilot project basis that we would work with up to 
four prisons to begin this process at the federal level.
    I don't think that the proposals that we have made 
indicates our thought that this is all that would ever be 
required. But it is, I think, a suggestion on the part of the 
Administration that this is a prudent way to begin, and to 
operate and to develop these options and to demonstrate their 
effectiveness and then move forward. I would hope that we would 
do that with such success that it is clear that this is a 
strategy that ought to be replicated over and over again.
    Mr. Wolf. Well, I think it will work. If it doesn't work, 
then we have been wasting our time for the last 62 years. This 
is going to work if it is honestly done properly. I believe if 
you change a man's heart you change a man. The same with a 
woman. I believe we have to move ahead. There may not be 
another opportunity like we have now, and I would hope we could 
take wings of prisons and you could have Christian, Jewish, 
Muslim together. I had a couple men tell me it was kind of 
difficult to go to the Bible study because others may laugh at 
them. So at the end of the day they work among the community, 
but come together. You have a mosque who has a relationship 
with a Muslim, a synagogue who has the relationship with 
someone of the Jewish faith, Baptist who has a Baptist pastor, 
or a Catholic priest, but they are all together. It is like 
when you are having a barbecue when all the coals are together 
they are hot. If you take one of coals and separate it, it 
turns cold.
    Hopefully, we can do more, hopefully we can have some 
faith-based prisons, some faith-based wings of prisons. I would 
hope that we could do one in the State of Virginia. I would 
hope that we could do Petersburg, then the State of Virginia 
could replicate that. But we do not want to miss this 
opportunity. So hopefully we can do more than five.
    Attorney General Ashcroft. We will work with you.

                           minimum sentencing

    Mr. Wolf. Thank you. Another issue on minimum sentencing 
which can be very controversial at times. When I was at the 
prison at the end of the day we met with six young men. I think 
two Hispanic, two black, and two white. They were all arrested 
on their first offense. One was given 32years, I believe, one 
was 20 some years, one was 18, living at home, a college student, all 
confessed they had done it. My sense is that, and I don't think you can 
be harder on crime than I am, my dad was a Philadelphia policeman, but 
I think we need to look at this issue of sentencing particularly with 
regard to young people. Now somebody who is 45 and they have been 
selling we can change their heart, but it is going to change behind 
bars. But if they are 18, 19, or 20, my sense is that someone ought to 
take a look at those who are serving in prison who were arrested 
between the ages of 18 and 25, first offense, and look at this issue. I 
don't know how to--we may put some language in with regard to the 
Sentencing Commission and I don't know if you have given this a 
thought, if you have had any comment you would like to make on it. But 
we just can't arrest everyone and put everyone in jail. My sense is we 
need more education, we need more faith based, we need more 
rehabilitation.
    I was chairman of the House Transportation Appropriations 
Committee. We gave the Coast Guard all the money that we could 
possibly give them. Interdiction I believe is important but we 
can't interdict everything that comes across the border. And 
the administration now wants to, I think wrongly so, allow 
trucks coming from Mexico under the NAFTA agreement to come 
across the border. There are two problems, one, 20 percent of 
the trucks in the United States are so unsafe that if you stop 
them they will be taken right off the road. Mexico has no hours 
of service, they have no inspection, they have nothing. And the 
number of drugs that are going to come across the border too. 
But I think we have to look at something particularly with 
regard to young people up until the age of--if you look at 
everyone's life, 18, 19, they are reckless. There are mistakes 
that you make. To put somebody in prison for 22 and 32 years 
seems to be a little tough. The second time that, is a 
different story. An older person is a different story, but 18, 
19 years old. So if you have any thoughts about that?
    Attorney General Ashcroft. Well, the current law has a 
safety valve for first time offenders, nonviolent offenders. It 
is not retroactive. It applies to offenders only after 1994. 
But obviously that expression and that safety valve express the 
congressional intent that we want to do what we can to avoid 
sentences which are inappropriate. And frankly there is an 
appropriate level for sentencing. It should reflect the 
seriousness of the crime, but it also should reflect the fact 
that we would like for people to rejoin our culture and be 
productive members of our culture rather than just consuming 
members of culture by consuming the resources of our community 
in prison.
    Mr. Wolf. Would it be appropriate to go back and look at 
pre-1994 to see most of the young men that were--in fact every 
one that I met with was pre-1994. Of course in dealing with 
prisoners you can never tell. But in this business that you and 
I have been in you develop a sense. And I know the Bureau of 
Prisons was with us, they can tell you who they are. They may 
take some cases you can look at, but someone ought to go back 
and look at pre-1994 to look and see because several of these 
individuals had 10, 12, maybe 14 more years to go. One could 
have had up to 20 more years to go and it was their first 
offense, and I think punishment obviously is appropriate but 
what is the level of appropriateness. So if the Congress did 
act on that safety valve for 1994, maybe someone should go back 
and maybe have someone look at this and study how many people 
are serving in the Federal prison.
    Attorney General Ashcroft. If you want us to help in making 
that kind of inventory that might provide the basis for 
anything you would choose to do as a result of the information, 
we would be happy to work with you on that.

                 Border Patrol On the Southwest Border

    Mr. Wolf. I would appreciate it if you would. I am going to 
ask the Boys Club question, too. That is what I meant when I 
said OMB is responsible for some of the problems, and I know 
that was not done by the Justice Department. In the year 2000 
the Border Patrol made 1.6 million apprehensions along the 
southwest border but less than 1 percent of those cases were 
prosecuted. Even though less than 1 percent of the border 
apprehensions were prosecuted, all the district courts along 
the border have overwhelming workloads. In southern California 
alone the weight of caseload per judge is 978, more than double 
the national average. In western Texas it is 80 percent above 
the national average. In order to address the workload problem, 
the Judicial Conference has requested 18 additional judgeships 
for the five districts along the southwest border.
    Obviously, I assume that you support the additional judges, 
and then there is the question that I have, are the prosecuting 
practices of the Department of Justice consistent across the 
country? Are you less likely or more likely to be prosecuted 
for a crime in certain areas if apprehensions were 1.6 million 
and prosecutions were less than 1 percent, yet with 1 percent 
less than 1 percent of the caseload was higher than anywhere 
else in the country?
    Attorney General Ashcroft. Well, any time you have 93 or 94 
different U.S. Attorneys, you don't have absolute uniformity in 
terms of prosecutions. The prosecutions reflect in some measure 
the local circumstances. If I am not mistaken, the 1 percent 
versus the apprehensions--and I am going to visit the border as 
a matter of fact later this week and you perhaps know about it 
more than I if you have been there.
    Mr. Wolf. No, I don't.
    Attorney General Ashcroft. To prosecute everyone who comes 
across the border illegally would similarly overwhelm the 
courts beyond any reasonable capacity, so many are just sent 
back. We do have a means of and are developing a better means 
of inventorying if people come back again and again and again. 
And when they do, I think they become the targets for 
prosecution because it is the recidivist illegal immigrant who 
becomes the criminal illegal immigrant. So that is the target. 
But obviously the stream of individuals infringing the border 
illegally is a hundred times what the capacity of the courts 
is, and they are already overstressed. But that is the basis 
for the prosecution ratio. Instead of prosecuting some of these 
individuals, they were just sent back.
    Mr. Wolf. I guess it is important though that the 
prosecuting practices be consistent across the country because 
I don't think people in one jurisdiction can be treated more 
lenient or more harsh than in another. And I think the 
uniformity--you had referred to that earlier.
    Attorney General Ashcroft. Let me just indicate there that 
federal prosecutions should be consistent. I think it is pretty 
clear that we expect states to be able to have different laws 
and to prosecute different things. So there are some states, 
for example, which have the death penalty, other states don't. 
I am not sure we can mandate or should mandate that we be 
uniform in all state laws. But when it comes to federal 
prosecutions and federal rights, it is clear that we should 
seek to move toward some uniformity of prosecution. I think the 
disparity is apparent, though. If you have a jurisdiction that 
defends a border of the United States where there aren't very 
many illegal penetrations at all, and it is possible to 
prosecute those, you might have a higher ratio of prosecutions 
than at a point on the border where there is such an 
overwhelming influx that the best defense of the United States 
is to prosecute those that you can, and to send the rest home.

                      Prison Rape on Male Inmates

    Mr. Wolf. Another issue which is not directly related to 
your responsibility all the way but you have the opportunity to 
provide some leadership, and it is the issue of the rape of men 
in prison. It is a brutal activity. I saw an Amnesty 
International report that said perhaps 20 percent of men who 
serve in prison are raped; it is brutal. And I don't think it 
is prevalent in the Bureau of Prisons. I asked the questions 
when I was there, although that does not mean it does not 
happen. And an indefensible young person who is sent to some of 
these prisons, the brutality--some states have a horrible 
record. And I would like to ask you to have somebody to look at 
this issue, to raise this issue. Obviously we put somebody in 
prison to serve time. But to read some of the stories of the 
brutality and the activity, and I know these prisons are under 
great stress, but if the Justice Department does not look at 
it, frankly, I don't think anybody is going to look at it. I 
think governors are going to say their prisons are 
overstretched, and maybe coming from my perspective as somebody 
who I would match my record on being tough on crime with 
anybody in this Congress. But on the other hand, if you could 
have somebody look at this issue and see if the Amnesty Human 
Rights Watch report was accurate and see if there is something 
that can be done. I am not sure if we are going to hold a 
hearing on it. I think I might write governors and ask them to 
focus on this issue. If you could have somebody look at that, I 
would appreciate it.
    Attorney General Ashcroft. I will be pleased to work with 
you on it. I have conferred with individuals and welcomed 
people in my office who have come to speak with me directly 
about this issue. And I think there are some thoughtful ways 
that we could minimize risks here. My own sense is that there 
is no way to overstate the seriousness. In no sense should we, 
when we decide that a person deserves incarceration as 
punishment, then declare open season on that person. That is 
not a part of punishment.

                                Telework

    Mr. Wolf. The reductions in the Byrne discretionary grant I 
think is an issue that people have a little problem with up in 
the Congress, but I guess that is OMB too. So we will not get 
into that. I think the last two or three issues we will get to, 
as you know, in this area we have a terrible transportation 
problem. And I have been urging telework and we put an 
amendment on last year in the transportation appropriations 
that sets up a pilot program in this region for private sector 
companies that if they allow their employees to telework they 
will get a pollution credit that they can sell on the Chicago 
Merc for a value. We believe we can make a tremendous impact on 
taking cars off the road.
    We have a study from George Mason University showing for 
every 1 percent that we take out of their offices to telework 
we would reduce congestion by 3 percent. If we got 3 percent 
more to do it we would reduce congestion by 10. We had them 
study every day of the week. The Friday effect, traffic is 
lighter on Friday mornings than every other morning because it 
is down by 4\1/2\ percent. We asked the government to do it and 
the Administration just said, yes, but they never really did 
it.
    GSA, who even had responsibility for the program, did not 
allow many of their people to telework. It is now the law. We 
have put an amendment on the appropriations bill which mandates 
25 percent of those eligible the first year, 50 percent the 
second, 75 the third and 100 percent the fourth year. I would 
hope that you could really move aggressivelyand allow your 
people to telework, at least those who have jobs that enable it, at 
least 1 day a week. It is good for families. It gives moms the 
opportunity to be at home. The productivity of people who are 
teleworking is very, very high. More opportunity to sing in the church 
choir, cut the grass, be active in the Boy Scouts, be home, tutor, just 
give people the opportunity. It is not uncommon for people in this 
region to drive an hour and a half in the morning and an hour and a 
half at night.
    So since you come before this subcommittee, I would love to 
say Attorney General Ashcroft has taken a leadership role here, 
but if you would take a look and see how the Justice Department 
could move ahead aggressively it would really be helpful, but 
it is the law also.
    Attorney General Ashcroft. We are aware that the Fiscal 
Year 2001 Transportation Appropriation Bill enacted, at your 
authorship, these responsibilities and the Department will 
continue to promote our telework program. We did establish a 
comprehensive telecommunication policy in January of 1991, and 
we were the first agency to set up such a program. We 
consistently promoted the program. But we will try our best to 
do more. As a person who walks to work, I don't spend quite as 
much time but I do notice the difference. There are only two 
things that make a real difference to me when I see traffic 
flows. One is Friday morning and the other is when the Congress 
is not in session, and I am not going to recommend that the 
Congress not convene.
    Mr. Wolf. To go out forever? I think that is all. We have 
some other questions, but let us just submit them for the 
record. You have been very kind to be here as long as you have. 
Thank you very much for your testimony. I know you are going to 
do a great, great job, and we look forward to working with you, 
and the hearing is adjourned.
    Attorney General Ashcroft. It will be my pleasure, and I 
thank you for the hearing.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Wednesday, May 16, 2001.

                    FEDERAL BUREAU OF INVESTIGATION

                                WITNESS

LOUIS J. FREEH, DIRECTOR, FEDERAL BUREAU OF INVESTIGATION

                 Opening Statement of Congressman Wolf

    Mr. Wolf. The hearing will come to order.
    Director Freeh, we want to welcome you to the committee 
today. This is your last appearance before the committee before 
you leave the FBI. I just wanted to say that I personally, and 
I think I speak for the members, appreciate your considerable 
service to the country, as an FBI Agent, as an Assistant US 
Attorney, as a Federal Judge, and as a Director, now, of the 
FBI.
    You and the Bureau have done a lot of good things during 
your tenure, and I think have done them well. And you kept, 
which I appreciate, the Bureau from being politicized during 
that period of time.
    This is not an inquisition today, this is a Congressional 
Hearing. It is an inquiry to find out about your budget and 
what has taken place.
    We all need to understand how the problems developed and 
what we should do, and in fact must do, to make sure they never 
happen again.
    Our country is hurt when a mole within the Bureau goes 
undetected for 15 years. Our justice system is diminished when 
evidence, for whatever reason, is withheld. There are some in 
our country, and throughout the world, who would like to see a 
weakened FBI. A task before us today, and in the future, is to 
fix the problems and ensure that the FBI has the tools and the 
management to keep it highly effective in carrying out its 
duties that the American people want it to carry out. Nor 
should these incidents that will come up in the hearing today 
erase the many good things the Bureau has done over the years.
    Over the last several years this committee has provided 
significant amounts of money to update the technological 
infrastructure at the FBI, including one hundred million 
dollars in FY 2001 for the FBI Technology Upgrade Plan. In 
addition, the FBI hired a former IBM official to guide the 
implementation of this system. This investment is on top of 
funding provided to the FBI over the years to upgrade its 
technological infrastructure. We must continue to ensure that 
the investments in FBI infrastructure are used wisely and in 
accordance with plans developed jointly between the FBI and the 
Congress.
    Over the last five years this committee has provided 
significant additional resources to the FBI. With the exception 
of the Bureau of Prisons the DEA, the US Attorneys and the INS, 
no other agency in this Bill has received these kinds of 
increases.
    At a time when other agencies have been held relatively 
flat, this committee has provided increases of more than one 
point three billion dollars since 1993.
    This morning, as we begin with the fiscal year 2002 budget 
request for the Federal Bureau of Investigation, the FBI is now 
requesting a total of $3.6 billion in budget authority, an 
increase of $275 million, or about 8%.
    To address issues of public safety and law enforcement, the 
FBI has been the beneficiary of generous increases. Since 1993 
through the current fiscal year the Bureau's budget has 
increased by about 65%. These increases have been used by the 
FBI to upgrade its technology, hire more agents, guide emerging 
democracies as they have established proper police protocols, 
and to fight organized crime in the United States, and quite 
frankly, around the world.
    Increasingly the FBI is working to halt the exploitation of 
the internet. Criminals hold information from banks hostage, 
including its customers credit card numbers, and other personal 
information, extorting ransom in turn for not dumping this 
information on the internet.
    Hackers attack American web sites, as we saw recently, with 
the attacks against the U.S. web sites by some in China. And 
others use the internet to run illegal gambling operations, and 
illegal child pornography rings.
    The job the many highly capable men and women of the FBI do 
every day is crucial to maintaining our values as a free and 
open society. We must step back, now and assess how the agency 
has been operating, and develop ways to assurethat missteps, 
such as the ones that have come to light over the last few years, do 
not happen in the future. And I am sure and confidant that this can be 
done by working together.
    And, with that, I will not recognize the ranking member, 
Mr. Serrano, and then Mr. Obey after that.

                         The FBI and Its Power

    Mr. Serrano. Thank you Mr. Chairman. If I had wanted to 
write a joint-statement, Mr. Chairman, I could have just taken 
yours today, because I also want to join you in thanking 
Director Freeh for his service to our country.
    And now, as I have told you before, both in private and in 
public, I am a child of the '60's and, as such, was brought up 
being very suspicious of the FBI and the power that you have 
and your agency have to do good, and to do harm. I then, of 
course, grew up and met people like you and found out that the 
agency has a major responsibility, that if unchecked it can do 
harm, but most of the time it tries to protect our interests.
    Today the temptation for anyone who sits in front of all 
these cameras is to beat up on you and beat up on the agency. I 
won't do that. I want to hear what you have to say about the 
present situation, and I want to inquire about how you can 
advise the next person who comes into your seat, to do what has 
to be done at the FBI. That is my role today.
    And, in addition, I will take some time to thank you for 
something that we worked on together, under the heading of 
telling the truth, which in my community, in the Bronx, 
throughout the 50 states, and in the Commonwealth of Puerto 
Rico, has gone a long way to deal with a very painful situation 
that started in the 1930's and continued to the 1980's. And I 
want to thank you for that. I want to thank you for your 
service, and I look forward to your testimony.
    Mr. Wolf. Thank you. Mr. Obey.

            Extraordinary Powers and Extraordinary Oversight

    Mr. Obey. Mr. Director, I have worked with your agency 
often during the 32 years that I have served in this place. I 
know and respect many of the people in the Bureau. My own 
personal bias, when it comes to law enforcement, is to err on 
the side of toughness. My own brother-in-law, who used to be a 
District Attorney, was shot in the line of duty, so I know the 
risks that people in your profession run.
    I am sure that you are a very decent person, you are a fine 
family man, you have great personal rectitude, but I think we 
have today something close to a failed agency. I think the 
Congress itself bears a very heavy share of that 
responsibility, and has for over 30 years.
    We live in a dangerous society, in a dangerous world. To 
cope with those hard realities, we have given your agency 
extraordinary powers. You have powers to intercept 
communications, to review financial records of private 
citizens, to engage in counter-terrorist activities, and all 
the rest.
    The power that your agency has, even in the most competent 
of hands, is dangerous in a democracy. In the hands of 
incompetent or careless individuals within the agency, it can 
be catastrophic. I think that the litany of troubles with the 
agency are truly astounding and regrettable.
    You have a number of triumphs as well, I recognize that. 
But we have seen a pattern of abuse of individual liberty in 
the agency before I ever came in Congress, with Mr. Hoover, and 
that is well known in history. But it apparently hasn't 
stopped. We have the recent revelations that your agency 
apparently allowed one individual to sit in prison for over 30 
years, when the agency knew he had not committed the murder for 
which he was being held.
    We see that the FBI apparently withheld tapes for almost 40 
years that were related to the Birmingham bombings. We have 
seen continuous stories about questionable practices at the 
labs. We saw you appoint a Deputy Director, despite his 
involvement in the controversial actions at Ruby Ridge. We saw 
Richard Jewell hung out to dry in a very confusing progression 
of events. We have seen the gross mishandling of the Wen Ho Lee 
case. We have seen a counter-intelligence agent give away the 
very secrets that your agency is supposed to protect. And now 
we have seen the mishandling of the material in the McVeigh 
case.
    I think it is easy for anyone in congress to criticize 
somebody in an agency, because we don't have the line 
responsibilities. We don't have the day to day 
responsibilities. Obviously these things are going to happen 
under the best of agency management. But I think there is such 
a pervasive list of problems through the years that we need to 
have a better understanding of what has led to these failures.
    You have 25,000 people working for you. That is three 
quarters the size of my entire home town. A lot of them do good 
work, but if the power that we have given you is handled by an 
agency which appears to be undisciplined, or sloppy, that 
agency can in fact become a threat to the security of this 
country, as well as a threat to its freedom. I think that the 
failure of 46 of the 56 field offices in your agency to deliver 
the goods to you, in terms of all of the papers in the McVeigh 
case, is an amazing example.
    To me, these episodes show how important it is to have an 
internal system in place that challenges everythingthat you do, 
to make sure that the right questions get asked ahead of time. I think 
it shows that you cannot afford to have a culture of yes men in an 
agency. You can't; we can't. I think the more power that your agency 
has, the more the way you handle that power needs to be challenged and 
questioned by this institution.
    It seems to me that in your business, and in ours, 
criticism can't be taken personally. It comes with the 
territory. That's part of the price we pay in a democracy.
    So I guess I will have some questions, when the questioning 
time comes. But in my view, the greatest failure of all has 
been on the part of this institution, the one in which I 
proudly serve, because I think with the granting of increased 
power comes an obligation for increased oversight. The nation 
pays a heavy price when there appears to be a lack of 
competence, or a lack of having systems in place, internal 
review systems, evaluation systems that make certain that your 
field operations are doing, in fact, what they are supposed to 
do.
    I think it is central that whoever the next person is to 
head the FBI is needs two things. He needs to have trust across 
the political spectrum, and he needs management skills to rein 
in and shape up an agency that I think is badly in need of 
reform. We desperately need an agency that has the kind of 
powers that your agency has. You can not avoid it in a 
complicated world like this. But I think we have failed, and I 
think your agency has failed, in seeing to it that that power 
is exercised with discipline. I hope that you will have a solid 
set of recommendations to the President on what it will take to 
overcome these chronic, consistent failures of the high 
responsibility that this body has given you.

                          Funding For the FBI

    Mr. Wolf. I recognize Mr. Rogers, who was Chairman of the 
Committee for the last six years. Mr. Rogers.
    Mr. Rogers. Thank you Mr. Chairman, and Mr. Director. Good 
to see you.
    I don't have to tell you that this subcommittee has 
lavished the FBI with money. Over the last several years we 
have quadrupled, in fact, if my information is correct, a 
billion two increase. The one area where we have had difficulty 
is the computers, and the data information system. But it is 
not a money problem, and we have been over this time and time 
again. Since 1993 here is the monies that we have given the FBI 
for technology enhancements: ACS, Automated Case Management 
System, 67 million dollars; the trillogy system, a hundred 
million in just fiscal 01; the IAFIS system, 640 million 
dollars; the NCIC, National Crime Information Center, 200 
million dollars total; Digital Storm, 25 million dollars to 
analyze information from wire taps; COLEA, to help the FBI in 
the digital age do the court-ordered phone taps, 500 million 
dollars and; narrow band, 310 million dollars in total, 
beginning last year. More than 1.7 billion dollars has been 
provided for technological enhancements, and yet some people 
say that the FBI has not kept up with the modern age, and 
therefore the information and documents are not properly 
brought forth.
    The so-called ISI Plan, now called Trilogy, or EFBI, is a 
massive undertaking, totaling over 600 million dollars. But the 
Bureau had no valid implementation plan. The subcommittee 
demanded that an adequate spending and implementation plan be 
put in place before the money was obligated, and we fenced 60 
million dollars in fiscal '99 for that project with that 
condition.
    It took the FBI two years to finally come up with an 
adequate plan. You submitted your revamped proposal to the 
committee in November of 2000, and to your credit you brought 
on Bob Dees, a former IBM executive, to take charge of that 
situation, because it had been languishing for so long. I 
recall very much the conversation we had in my office when the 
plan was finalized, and you had Bob Dees on board, a very 
competent man, I think, to put that proposal in its proper 
place and get on with it. That's when we agreed to pay the full 
costs of Phase I implementation of the ISI Plan, and we put 
100.7 million dollars for the year one costs in the 01 Bill. 
But, the ISI, even fully implemented, would never have been 
capable of handling the situation of the McVeigh files years 
ago. There has been plenty of money available for technology 
upgrades, but we have had cost overruns, and had projects that 
went beyond the time they were supposed to take place. I have 
to tell you that that is the one area that I think the Bureau 
was slack on, over the years.
    So, the money is there now for the new system, and we hope 
that it will be spent forthwith in the proper way.
    Mr. Wolf. I thank you. There is a vote on. The committee 
will recess for about 10 minutes at the most, and come right 
back.
    [Recess.]
    Mr. Wolf. You may proceed.
    Mr. Freeh. Thank you Mr. Chairman, Mr. Serrano, and Mr. 
Rogers, Mr. Obey, members of the panel.
    Let me just begin by thanking the committee for the 
support, and particularly the access that I have had over the 
years as FBI Director.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                  Opening Statement of Director Freeh

    Mr. Freeh. I testified before the Congress for the first 
time when I was a 27 year old agent, and if you had told me at 
that point I was going to come back and spend literally dozens 
and dozens of sessions before committees, hundreds more 
individually with members, I would have been surprised; but it 
has certainly been one of the highlights of my service here, as 
Director. And I want to extend my personal thanks and respect 
to all of the members of the committee, past and present.
    Mr. Chairman, with your permission, given the circumstances 
under which we appear here today, I would like to take a little 
bit of time to state for the record the facts known to me, 
known to others in the FBI, with respect to the records 
situation involving the McVeigh case.
    I would then, also, like to speak briefly and directly to 
the matter before the committee, which is our 2002 President's 
request.
    Before I do that, however, just by way of introduction, I 
am very proud of the FBI, and I am particularly very proud this 
week, as we celebrate and memorialize several things, first of 
all the men and women in law enforcement who have fallen in the 
service of our country. This is also the time of remembrance 
for not just victims of tyranny and holocaust, but also people 
who have found, for one reason or the other, in time or 
circumstance, the power of the state directed against them 
unfairly, unlawfully, and with great consequences.
    We are an agency involved in controversy. There is no 
question about that. What we do every day is controversial. We 
conduct investigations, surveillances, and we bring facts to 
bear which may result in charges, convictions, and sentences. 
We are constantly running aside, next to, and hopefully, never 
across, the boundaries of the Constitution, the rule of law, 
the statutes which govern our conduct.

                    Controversial Matters of the FBI

    We are an agency involved in controversial matters, the 
protection of our country, and the protection of public safety. 
All of those ingredients that both seek to identify and deter 
those who would break the law, but simultaneously protect those 
who need protection under the law is a controversial line of 
work.
    We have acquitted ourselves, I believe, over the years 
very, very well with respect to the protection of these 
liberties. That is not to say there are not cases or periods in 
our history.
    Mr. Serrano, you mentioned one in particular, to which I 
agree, where the agency was not law-abiding, and was not doing 
the things that the Constitution and the people weprotect 
expect us to do.
    I would like to put into perspective some of the 
introductory remarks that were made, and I think all of the 
questions that have been asked are fair questions, and 
certainly need to be answered.
    Mr. Obey referred to a person who was incarcerated in a 
Massachusetts case, for many, many years, when exculpatory 
evidence was in the hands of the government, particularly the 
FBI. He is absolutely right about that. That is a very sad 
chapter in the history of this agency.
    Of course we are talking about events that occurred in the 
1980's and 1970's. What should be noted, however, it was the 
FBI of modern times, the FBI of 1998 and 1999 that not only 
uncovered that evidence, but which has brought to bear the 
facts and circumstances which will allow the just prosecution 
of people, including former people associated with our agency, 
who broke the law.
    I think that that is a very important perspective. It was 
the FBI's investigation, working with other law enforcement 
agencies and the United States Attorney that brought that to 
bear.
    With respect to the Birmingham case, yes the Birmingham 
case is a disgrace to the FBI. That case should have been 
prosecuted in 1964, it could have been prosecuted in 1964, 
because the evidence was available. My agency, of which we are 
all ashamed, failed to pursue that case. The footnote, however, 
to that piece of history, is very, very important. This case 
was re-opened by the FBI in 1993, not only under my tenure, but 
on the initiative of the Special Agent in Charge of the 
Birmingham office. The tape, which was subsequently used at the 
trial, was found by the FBI of 1993, 1994. This evidence was 
used to prosecute a case that should have been prosecuted years 
ago.
    With respect to our practices in the laboratory, yes, we 
have had tremendous problems, both technical and scientific 
problems in the laboratory; but we addressed those problems. We 
not only appointed a director who came from the private sector 
for the first time in our history, who is a world class 
scientist, but the peer review taking advantage of the 
Inspector General's report has given us not only a state of the 
art laboratory, which is being built with the committee's 
support, but one which solves a lot of the technical problems, 
and addresses all of the issues that came during the 
inspection.
    Ruby Ridge was a great tragedy. It was a tragedy for the 
victims involved, it was a tragedy for the country and the FBI. 
But again, as with all of these matters, there is another piece 
that has to go with this. In the wake of Ruby Ridge and Waco, 
we reformed, totally, our crisis management response. We 
created a new entity in the FBI which you are familiar with, 
the Critical Incident Response Group.
    That group, for the first time, balanced the tactical 
abilities of the FBI with its negotiating abilities, which were 
not used and which were eclipsed both at Waco and Ruby Ridge, 
by the dominance of the tactical forces. We created this new 
structure in response to the episodes of Ruby Ridge and Waco, 
and the result was quite apparent. If you look at the Freeman 
situation in Montana, you see the application of a new set of 
parameters, and a new set of disciplines in a crisis/hostage 
situation. The only person who lost his life in Montana, 
unfortunately, was an FBI agent killed in the line of duty. No 
one else was harmed, because we balanced, as we had not done 
before, negotiation with tactics.
    The Jewell case--the major controversy with the Jewell case 
was that I interrupted his interrogation so he could be given 
his Miranda Rights, because my view of the situation was that 
he was in custody, and was entitled to his rights.
    With respect to the Wen Ho Lee case, that's a case that has 
been indicted. He has pled guilty to several of the charges set 
forth in the indictment, and the facts remain in that case that 
the crown jewels of the United States nuclear program were 
downloaded onto tapes, and taken out of a government 
reservation. And we made that case, we solved that case by a 
forensic computer examination of millions and millions of 
records, which we did, Mr. Rogers, with the help of the 
technology of National Infrastructure Protection Center--NIPC, 
with the help of the experts that we were allowed to hire, the 
computer scientists who made that case from the hard drives, 
not from the streets.
    The espionage case, of course we regret, and I don't want 
to say much about that, because this is an active case; but I 
will tell you, I am much more comfortable leaving the FBI 
having discovered the case, which is charged before the court 
than not having found it. Every counter-intelligence case 
successfully made is also a failure, it is simultaneously a 
success and a failure. And we will learn from that experience.
    And I know this agency, and my successor, and the people 
who are working on this problem, will fix many of the things 
which need to be fixed. But the fact of the matter is, we 
uncovered that case. We made that case, and the charges now 
stand before the court.
    I do not believe that there has been a failure of oversight 
on the part of the Congress, and I would say that with the 
utmost conviction. I could give you example after example, I 
don't want to take all your time this morning. But I believe we 
are the most scrutinized agency in theFederal Government. I 
also believe we should be, because of the enormous power that we have, 
and the potential for abuse that the FBI would have without that 
scrutiny.

                         congressional scrutiny

    In my first year as Director I think I was up on Capitol 
Hill over 200 times, testifying, speaking to members, calling 
them on the phone. I think I testified before committees more 
than any other member of the executive department. I have not 
done the statistics, but we testified before appropriations 
committees, before judiciary committees, before intelligence 
committees, before government oversight committees. Everything 
that we do is carefully scrutinized as it should be.
    One example of that, Mr. Rogers you mentioned, was the IT 
program of the FBI. We came up here, myself personally, 
presenting first the ISI program, and then the FBI program, 
both of which turned out to be flawed. And we did not go ahead 
with those programs because of the questions that you and your 
staff properly raised, and that required us to go back to the 
drawing board to re-design what we had.
    We were fortunate, as you mentioned, to bring Mr. Dies in, 
and we have now a program, the Trilogy program which is going 
to work. So that is just one of many, many examples of the 
oversight by this committee, which has clearly directed and re-
directed our efforts.
    I would say the same with respect to the Communications 
Assistance for Law Enforcement Act--CALEA operation. We got off 
to a slow start, particularly the FBI. You took the leadership 
on that. We now have a 500 million dollar appropriation that 
has been appropriated and is in the process of being expended. 
And we have what we did not have in 1994, which is the ability 
to keep conducting court-authorized wiretaps.
    You directed our efforts, you stopped us, you sent us in 
different directions. That is the kind of oversight that we 
normally expect, but which, in this case, was extremely 
helpful.
    So I think that with respect to the oversight of the 
Congress, it has been very comprehensive, very effective. It 
should be. We should be, as I have said many times before, the 
most scrutinized agency in the United States government, 
because of the power that we have. But I think the work by the 
committees here has been excellent.
    With respect to the technology issues, Mr. Rogers, which 
you raise, and which I thank you again for your support over 
the years, I would recommend anybody talk to the state and 
local law enforcement community around the country. Your 
sheriffs, your chiefs of police, the International Association 
of the Chiefs of Police--IACP, the Sheriff's Association, the 
District Attorneys Association; they will tell you that the 
delivery of the criminal justice information services by the 
FBI is excellent. That is not to say we do not have a glitch 
now and then, but the reliability of those programs--and you 
are correct, Mr. Rogers, some of them were very, very difficult 
to bring online, and we take a lot of responsibility for those 
mistakes--but the fact of the matter is they are all working, 
and they are working well.
    The National Instant Criminal Background Check System--NICS 
system was the latest addition, which also has worked well 
identifying 71,000 people with criminal records, who should not 
have had guns, and were not able to buy guns.
    We are catching up a little bit in technology, but I think 
we are catching up with the bad guys. The technology is 
changing all around us every day. It is not a question of being 
unprepared for it, it is a question of getting the resources 
that we need to do the job, to protect the country, the people 
that we serve, and to do it in a dynamic manner where what we 
are expending and appropriating does not become obsolete in a 
short period of time.

                              fbi triumphs

    So I just wanted to take a moment to speak about those 
things. We have had troubles in this agency, we have also had 
great triumphs. And I am not going to take your time, this 
morning, to list those triumphs, which Mr. Obey alluded to.
    We have a matter before a jury in New York City which I 
will not talk about, but a trial so complex and so difficult, 
and so expertly worked by the FBI, your FBI, and agents who 
went to East Africa to find evidence and witnesses. A case that 
the United States should never be entitled to make but for the 
dedication, skill and hard work of the FBI.
    The Ressam case, who was recently convicted out in Los 
Angeles, involved major terrorist acts deterred from happening 
in the United States, to Americans, by the work of the FBI.
    And I am not going to spend the time this morning to talk 
about the triumphs, but there have been very, very many, and I 
want to acknowledge that, as I start my remarks.

                     mc veigh documents disclosure

    With your permission, Mr. Chairman, I would like to address 
the issue with respect to the McVeigh case. As you know, the 
FBI has discovered and announced, that documents and other 
items from FBI files apparently had not been turned over to the 
prosecutors handling the Oklahoma City bombing case, despite an 
unusual discovery agreement that called for broader than normal 
disclosure.
    Last week the FBI sent these items to the prosecutors in 
Denver, who promptly delivered them to the defense attorneys. 
As Attorney General Ashcroft said Friday, a review of these 
materials disclosed no new information relative to the guilt or 
innocence of Timothy McVeigh.
    The underlying investigation and his guilt remain 
unchallenged. Nevertheless, regardless of how extraneousthese 
documents may be, if they were covered by the discovery agreement, they 
should have been located and released during discovery.
    As Director, I am accountable and responsible for that 
failure, and I accept that responsibility. I will, however, 
outline steps that I am taking today to address the management 
aspects inherent in this particular failure.
    By way of background, the FBI's investigation of the 
Oklahoma City bombing was a huge effort of enormous breadth. 
From the moment the bomb exploded on that horrific day, the FBI 
devoted every conceivable resource to investigating and solving 
this act of terrorism. During the course of the investigation I 
am confident that we, and the other agencies who aided us, left 
no stone unturned. As a result, we collected massive amounts of 
evidence, and reviewed literally a billion pieces of 
information.
    To give you a few examples, we conducted over 28,000 
interviews. We followed more than 43,000 investigative leads. 
We generated over 28,000 302s, investigative reports; we 
reviewed 13.2 million hotel reservation records, I am sorry 3.1 
million Ryder Truck Rental records. We reviewed over 600,000 
airline reservation records, and collected nearly three and a 
half tons of physical evidence.
    I am proud of the investigation, and support teams who, 
with their colleagues, worked around the clock to solve this 
terrible crime. The investigation and prosecution of this case 
was a success story, a significant accomplishment, and it pains 
me to have the hard work and accomplishments of both 
investigators and prosecutors overshadowed by the events of 
recent days. I regret the most that these events risk 
diminishing the enormity of their sacrifices and the superb 
quality of their service to the American people.
    I also regret the pain that this has caused the victims and 
family members who lost their loved ones. The FBI committed a 
serious error by not ensuring that every piece of information 
was properly accounted for, and where appropriate, provided to 
the prosecutors, so they could fulfill their discovery 
obligations.
    Because of the massiveness of this investigation, and the 
implications inherent in being found guilty of such a 
horrendous crime, McVeigh and his attorneys were given access 
into government records far beyond what is provided for other 
defendants, far beyond documents that affect guilt or 
innocence.
    Once agreed, however, it was our unquestionable obligation 
to identify every document, regardless of where it was 
generated, and regardless of where in our many, many offices it 
resided.
    While I do not believe that the newly discovered documents 
will have any bearing on the convictions or sentences of either 
McVeigh or Mr. Nichols, I am not here to minimize our mistake, 
or to make excuses.
    It appears that most offices of the FBI either failed to 
locate the documents and items in question, misinterpreted 
their instructions and likely produced only those that would be 
disclosed under normal discovery, or sent the documents only to 
have them unaccounted for at the other end. Any of these cases 
is unacceptable.

                       OKBOMB DOCUMENT PROCEDURES

    Because of the magnitude of this investigation, and the 
vast amounts of information being gathered, the FBI established 
a separate command center called the OKBOMB Command Post, that 
operated essentially as a separate FBI field office. In the 
fall of 1995 the command post instituted a special case 
management and document tracking system, which required all 
investigative materials to be sent to the Oklahoma City Office, 
for entry into a case-specific database.
    Regardless of where a particular investigative lead was 
followed, whether in one of our 56 field offices in the United 
States or in one of our Legats overseas, and regardless of the 
probative value of the information collected, if any, the 
investigative results were to be sent to the command post for 
uploading into their system.
    There were three principal reasons for this decision to 
enter all of the data physically in Oklahoma City. First, 
because the effort was so widespread and massive, the command 
post wanted to maintain close control over the investigation. 
By centralizing the evidence and document control, the 
investigators in Oklahoma City believed they could better 
ensure that the information was properly entered into the 
system, maintain the investigations confidentiality, and more 
effectively identify and prioritize additional investigative 
leads.
    Second, the FBI was converting to a new Bureau-wide 
investigative information system called ACS, the Automated Case 
Support, and the investigators were uncertain about how this 
conversion would affect the ongoing investigation.
    Third, during the first six months of the investigation, 
and because so much information was being generated worldwide, 
the OKBOMB Command Post had some difficulty ensuring that all 
field officers coordinated their investigative materials with 
the records maintained in Oklahoma City. Because of the latter, 
between August of 1995 and November of 1996, 11 separate 
communications were sent to the field offices, requesting that 
all evidence be sent to the OKBOMB Command Post.
    On November 14, 1996, following a discovery hearing before 
the court, the command post discovered that certain 
surveillance logs still resided in the field office and not in 
the OKBOMB Command Post, where they should have been, and 
therefore had not been turned over to the defense attorneys 
during discovery. The following day, November 15, 1996, I sent 
a strongly worded priority teletype to all field offices, and 
all Legats--those are our overseas offices--directing that all 
investigative materials be sent promptly to the command post, 
with written confirmation from the office heads.
    The command post investigators believed that this 
directive, combined with the previous request, had caused all 
investigative materials, regardless of apparent relevance or 
value, to be forwarded to the command post and entered into the 
OKBOMB database.

                       ARCHIVING OKBOMB DOCUMENTS

    As we now know, there were still many offices that had 
failed to comply fully or precisely with the instructions 
given. As a consequence, the items now at issue were apparently 
never turned over to the prosecutors during the discovery 
period. The events that lead to the recent disclosure began in 
February of last year. Recognizing the historical significance 
of this investigation, and rather than wait the customary 25 
years, our Oklahoma City office began the process of collecting 
OKBOMB records for archiving and preservation. That office sent 
a communication to our Information Resources Division, asking 
for assistance in storing records and evidence relating to the 
bombing investigation. The office wanted to ensure that all 
materials were maintained in excellent condition for future 
storage in the National Archives.
    Following discussions with the National Archives and 
Records Administration, the FBI's archivist sent a 
communication to all field offices on December 20, 2000, 
setting forth procedures for maintenance and disposition of 
records relating to the investigation. I understand this 
process produced one envelope that was unaccounted for, causing 
the Oklahoma Office to send a communication to all field 
offices on January 30, 2001, directing that everything 
remaining anywhere in the field, no matter what it was, be sent 
to Oklahoma City, so it could be evaluated and prepared for 
archiving.
    Beginning in late January of 2001, the Oklahoma City FBI 
office began receiving, from most of our field offices, boxes 
containing a variety of investigative materials, including 
witness interviews. In total, over 100 boxes of materials were 
forwarded to Oklahoma City during the last several months.
    Rather than merely storing the material for future 
archiving, a group of FBI analysts undertook the arduous 
process of double checking everything by manually reviewing 
every item, to ensure that each piece was already included in 
the OKBOMB database.
    In other words, there was no legal requirement that they do 
this. All they had to do was collect the evidence for archival 
purposes. What they did instead was, item by item check each 
and every one of the documents received against the known 
database.
    By early March an analyst had collected a number of 
documents that she had not been able to locate in any database. 
She informed Danny Defenbaugh, the former head of the OKBOMB 
Task Force, and currently the Special Agent in Charge (SAC) of 
the Dallas Field Office, but advised him that further research 
would be needed to determine whether these documents were in 
the OKBOMB files. Shortly thereafter, on March 15 of this year, 
the Oklahoma City office sent another communication to all 
field offices and Legats, requesting another search for all 
OKBOMB materials, and immediate delivery of any items to 
Oklahoma City.
    Following several weeks of additional research, the 
analysts completed their review, and forwarded to SAC 
Defenbaugh copies of all materials which they were unable to 
locate in the OKBOMB database.
    SAC Defenbaugh received copies of the materials on May 7, 
and following an initial review, sent the materials on May 8, 
to the prosecutor in charge, in Denver.
    That same day the prosecutor, Assistant U.S. Attorney Sean 
Connelly, orally advised Defendant McVeigh's attorneys that the 
FBI had discovered additional materials. He copied the 
materials, delivered them to defense counsel on May 8, the same 
day he received them. I first learned of this matter on May 10.
    The materials provided to defense counsel totaled 
approximately 3,100 pages, and consisted of slightly over 700 
separate items; many are documents containing several pages.
    An additional seven items from our Baltimore field office 
were located on Friday, and were provided to defense counsel 
yesterday. Materials came from 46 different field offices and 
one Legat.
    The field offices, and number of pages from each, are 
listed at the end of AUSA Connelly's May 9, 2001, letter to 
defense counsel, which I believe the members of the committee 
have seen. The majority of the items, approximately 470 of 708, 
consist of 302s, and inserts, which were covered by the 
discovery agreement reached between the prosecutors and defense 
counsel.
    Recognizing the significance of finding anything, however, 
on Friday evening I ordered a complete shakedown of the FBI, 
telling each special agent in charge, and Assistant Director, 
that I would hold them personally responsible for this last 
effort.
    This latest scrubbing has produced additional documents, 
which are currently being reviewed to determine whether they 
were covered by the discovery agreement, and if so, whether 
they have been produced. I understand these documents are of 
the same character as the others.

                  APPARENT REASONS FOR NON-COMPLIANCE

    We will have to wait for the Inspector General to complete 
his investigation before I have a full explanation of how this 
happened. Preliminarily, we have determined that there appears 
to be a number of reasons, no one pervasive.
    For example, some offices wrongly concluded that the 
information was so extraneous that it was not covered by the 
requests related to these prosecutions.
    Some offices forwarded summary results of investigation, 
but not the underlying documents.
    Some offices forwarded copies of originals.
    Some offices turned investigative inserts into 302s and 
forwarded only the 302s.
    Some offices overlooked material when culling out 
responsive documents.
    Finally, some offices believe they sent the material,but in 
some cases not in a form that could be uploaded into our existing 
system.
    I would like to note, Mr. Chairman, that there was an 
unusually broad discovery agreement in this case. Under 
ordinary federal rules of criminal procedure the vast majority 
of these items would not have had to be turned over to the 
defense, as I understand it.
    Because of the extraordinary breadth of this investigation, 
and the large number of interviews, over 28,000, the 
prosecutors and the FBI agreed to make available to the defense 
every interview report, regardless of whether the interview was 
material to the defense, or extraneous to the core 
investigation.
    There is a protective order in this case that prevents me 
at this time from discussing in any detail the substance of the 
materials at issue. However, I can say that I have no reason to 
believe that anything in the materials bears upon the 
convictions or sentences of Timothy McVeigh or Terry Nichols.
    Several lawyers and agents from the Justice Department and 
the FBI conducted a page by page review of the material. 
Nothing in the documents raises any doubt about the guilt of 
Mr. McVeigh and Mr. Nichols. In fact, many of the documents 
relate to early leads that developed no useful evidence or 
information of investigative value.
    For example, a number are reports of interviews of 
witnesses who thought they had seen or had information about 
John Doe #2, and to a lesser extent, John Doe #1. These include 
persons who had seen composite sketches and thought they 
recognized him, and the subsequent interviews of the people 
that were named as possibly John Doe 1 or 2.
    Other documents relate to other early investigative steps 
that never produced anything of value, unsolicited tips proven 
wrong, people volunteering public source information, etc.
    Although I fully support the Attorney General's decision to 
postpone the execution, fairness and justice of course demand 
that, I do not believe this belated disclosure of documents 
will affect the outcome. To the contrary, it still appears that 
all Brady and other material, reflecting on guilt or innocence, 
was disclosed during discovery. In fact, while the timing can 
be rightfully criticized, our employees did exactly what they 
should have done in these circumstances, regardless of the 
embarrassment, they have brought this to light--not the easiest 
thing to do, but clearly the right thing.
    I think if we talk about the culture of the FBI and the 
history of the FBI, we need to juxtapose this with unfortunate 
events that have happened in the past.
    This was a case where the people who protect this country 
and serve in the FBI did exactly what they were supposed to do.
    For 8 years I have been preaching core values to my 
associates, to tell the truth, to be honest, to be responsible. 
And this is a case where they have done that.

                    BREAKDOWN OF MANAGEMENT PROCESS

    The issue in the end is what can be done now to address 
what regrettably has become a recurring problem.
    After close examination, I am in agreement with those who 
have identified the bottom line as one of a management problem. 
This was not a computer problem, Mr. Rogers, this was a 
management problem.
    We simply have too little management attention focused on 
what has become, over time, a monumental task. The FBI 
maintains over six billion pages of paper records, and a 
similar number of automated records. It is a mountain growing 
bigger and busier with each passing day.
    Rightly or wrongly, we are investigators focused on 
preventing terrorism and solving the most sophisticated crimes. 
Perhaps that is why the seemingly mundane tasks of proper 
records creation, maintenance, dissemination and retrieval have 
not received the appropriate level of senior management 
attention.
    We have expended considerable resources to ingrain in our 
employees core values and ethics. I am very proud of that. We 
have trained them in cutting edge techniques in the cyber 
world.
    The dizzying pace of the evolution of crime, terrorism and 
technology, I believe, have caused us to lessen our focus on a 
function so basic that perhaps we have taken it for granted. 
Well not anymore.
    In every instance when significant problems have arisen, it 
has boiled down to the need for more and better management. 
When our laboratory faltered, as I said, I brought in a world 
class scientist to run the operation. It is now the best it has 
ever been.
    With our automation infrastructure failing, I brought in a 
world class computer executive to fix the problem. With 
Congress' help, that is being done.
    When Waco and Ruby Ridge demonstrated the need for better 
crisis management, I created a new structure and put a senior 
executive in charge that re-designed that function, and it has 
been exceedingly successful, as I mentioned before.

                 ACTIONS TO REMEDIATE RECORDS PROBLEMS

    This is no different. Today, I am announcing the following, 
I have instructed my deputy to form a search committee to hire 
a world class records expert, a seniorofficial who will be 
dedicated to this issue, and this issue alone.
    I have instructed that a separate office of records 
management and policy be established, and will soon be seeking 
the required authorizations. This is a core function that 
deserves the full and constant attention of the entire FBI.
    I have instructed this morning that every employee in the 
FBI immediately receive a block of instruction on every aspect 
of our existing records policies. These policies are good when 
followed, but they were not followed here. Under the crush of 
every day business, I suspect that many have forgotten some of 
what was learned in basic agent's training.
    I have instructed that additional training be provided to 
all new employees, especially new agents, and that records 
training be included as required annual training; just as 
ethics, EEO, and other important subjects are.
    I have instructed that the Trilogy automation plan be 
modified to include sophisticated document handling 
accountability, and auditing functions to support enhanced line 
supervision of these issues.
    I have instructed that required agent file reviews include 
a specific focus on these issues.
    When I became Director I established certain ``bright 
line'' rules regarding conduct. These rules, strictly enforced, 
quickly had the desired effect. I have instructed the same be 
done here.
    In retrospect, the proper creation, filing and 
dissemination of our investigative records is as important to 
ensuring the rights of people whom we investigate and protect 
as compliance with other constitutional and procedural 
requirements.
    Finally, I have instructed that the FBI stand down for a 
day to begin implementation of these initiatives, and more 
importantly, to ensure that every employee understands the 
importance of what must be done. We can, and are, fixing the 
automation aspects of this issue. We are down to management and 
human behavior.
    I believe that these immediate steps alone, in addition to 
recommendations from the Inspector General and others, will get 
us where we need to be.
    We simply cannot allow the dazzle of technology and the 
complexity and breadth of our mission to dim the focus on a 
function that goes to the very core of what we do. In short, 
this episode demonstrated that the mundane must be done, as 
well as the spectacular, and I believe these steps will ensure 
that it be done.

                          2002 BUDGET REQUEST

    Mr. Chairman, by your leave, I would either go into a very 
brief presentation of the budget request, or yield to you at 
this point.
    Mr. Wolf. Submit that for the record, I think, that will be 
fine. There will be some questions.
    Thank you for your testimony. There will be a lot of 
questions, so we are not going to use the five minute rule, but 
I would ask members to respect the fact that there are many 
others who want to ask a question, and I will move very, very 
quickly through mine. And hopefully there will be a second, and 
maybe even a third round.
    One of the questions we were going to ask, but I think you 
answered it. You are not in any way suggesting that this was a 
question of lack of money. You said it was a question of 
management.
    Mr. Freeh. No sir.

                        OKBOMB DOCUMENTS SEARCH

    Mr. Wolf. Secondly, with regard to the broadest of the 
discovery agreement, being so extensive, why wasn't there a 
thorough hand search conducted, in addition to the electronic?
    Mr. Freeh. That's one of the questions that we have to 
answer. I would have assumed that when an office was told to 
produce, deliver, and transfer any and all records, that that 
would have to be done, in part, by hand. I assume it was done 
in part by hand in different instances, but for some reason in 
many, many different offices this was not successful. But I 
don't know if everyone did a search by hand or not.
    Mr. Wolf. Forty-six in 56 failed, 10 did what you wanted 
them to do. Have you gone to the 10 to see what their 
understanding of your directive was, versus the 46?
    Mr. Freeh. We have started with the 46, and asked for 
written explanations, which we have summaries of.
    Mr. Wolf. Wouldn't it make sense to go to the 10 that 
complied, and see what they did right?
    Mr. Freeh. We will do that too, sir.
    Mr. Wolf. Also on the collection, do all field offices 
adhere to the same procedures regarding collection and 
gathering storage of important evidence? How do agents working 
in Albany, New York know what evidence is being collected 
elsewhere in the country?
    Mr. Freeh. Again, with an automated database, anyone could 
query to determine the contents of the database, including 
references to text interviews, references to 1A envelopes, 
which are physical evidence. That was not the case here, 
because nobody in the field was uploading the materials into 
the ACS system. They were physically sending the materials, at 
the direction of Oklahoma City, to that office where they were 
then uploaded by the people workingon the task force.
    But in a normal situation, with ACS working properly, and 
the Trilogy objectives achieved, you should be able to query 
the system to determine the amount of evidence, the number of 
302's, even the text of the 302s in references to the specific 
physical exhibits.
    Mr. Wolf. Have you looked at your original communication to 
see if it was fuzzy, or if it could have been misinterpreted, 
if it was just advisory?
    Mr. Freeh. No. There were 16 communications.
    Mr. Wolf. Can you submit those for the record?
    Mr. Freeh. Yes. There were sixteen communications, two sent 
from the Director's office, and they are absolutely clear, as 
far as I could see, that everything and anything was to be 
retrieved and sent to Oklahoma City.
    Mr. Wolf. You can submit them for the record.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


             HANSSEN CASE AND THE WEBSTER COMMISSION REVIEW

    I do not want this hearing to go away without talking a 
little bit about the Hanssen case, because that troubles me 
deeply, too. I would like to hear your comment. I am again 
speaking only for myself, and I have spoken to you about this 
privately, and I would like you to mention it publicly.
    The process that the Bureau and the Justice Department have 
set up I think is flawed in the sense that, and let me just say 
I think Judge Webster is a good man, great distinguished 
record, but he was at the Bureau when Hanssen went bad in 1985. 
He was also at the Bureau when the Ames situation developed. 
Would it not be good to set up a Team B, an outside group, and 
I looked at the group that were appointed yesterday, or the 
other day, in the paper. All good people, but all people who 
are sort of inside, that know each other, that are close to 
each other.
    Again, I am not casting any aspersions and saying anything 
negative, they are all good people, outstanding individuals. 
But during the Reagan years, when they looked at the problems 
with regard to the Soviet Union, they had a Team A and Team B. 
They had an outside group, I think it was chaired by Mr. Pikes 
of Harvard. It came in totally not connected with it.
    I think the Bureau has to do the same thing. Have you all 
concluded that the Webster recommendations will be the final, 
or will there be any formal outside group made of people not 
necessarily in the Bureau, but people with some sort of 
counterintelligence experience, that will give it close review, 
and rip it apart and make any recommendation to make sure that 
what happened never happens again?
    Mr. Freeh. Yes, Mr. Chairman, we have, and there is a Team 
B, and there is an alternative. We have an Inspector General 
Investigation, ordered by the----
    Mr. Wolf. Is that Team B, the Inspector General?
    Mr. Freeh. I think it is. The Inspector General is going to 
do one comprehensive review of not just the security 
procedures, which is the very narrow area that the Attorney 
General and I and the President have asked Judge Webster to 
look at--simply look at the internal security controls at the 
FBI during this period, and make recommendations for whatever 
change, and give us whatever criticism is deserved, and I'm 
sure there is plenty.
    The Inspector General is looking at the broader, 
counterintelligence failure. All of the bits and pieces will go 
into, I'm sure, much more comprehensive recommendations. In 
addition, of course, the two intelligence committees are now 
conducting, with our assistance and participation, a full 
review, and I am sure that that will result in reports and 
recommendations.
    Whether there should be another outside group of 
counterintelligence experts, we don't reject that. It certainly 
is something that we would consider, and I'm sure could be 
considered, but you have now a whole layered approach and 
independence coming from different sources to look at a problem 
and make recommendations.
    Mr. Wolf. Well I think you need somebody outside ofthe 
government, somebody who has an understanding, and somebody outside the 
building, in addition to the Inspector General.
    I sent a letter the other day, we can talk about it, asking 
for you to take a look at some things, but I just don't think 
that quite meets it. And it's very serious when an FBI agent 
goes bad. As a result of that, that's jeopardizing the security 
of the United States. There were several men that were in 
prison in the Soviet Union as a result of that activity. And I 
just think you need to go back and bring a fresh, outside, 
totally independent view of people who would just say things as 
they really are, and not somebody necessarily that is in the 
building that you see at lunch time, or you see; just totally, 
completely independent.

                         FBI INSPECTOR GENERAL

    The last question I have, and then I will recognize Mr. 
Serrano. What are your thoughts with regard to having an 
Inspector General in the FBI? The SEC has an Inspector General 
for a very small agency like that, and because of the 
importance of the work that you do, credibility is very, very 
important. What are your feelings about having an Inspector 
General for the FBI?
    Mr. Freeh. I don't believe it is necessary, given the 
structure that the Department of Justice has, for many, many 
years longstanding, established, and I think reformed and 
strengthened. We have within the FBI our own Office of 
Professional Responsibility, as you know. That is an office 
which reports to, and is really under the authority and 
direction, of the larger departmental Office of Professional 
Responsibility.
    We do have an Inspector General in the Department of 
Justice who regularly, as evidenced by the laboratory 
investigation, looks totally and comprehensively at our 
operations.
    Historically, one of the concerns about a politically 
appointed Inspector General in the FBI is that the FBI, unlike 
many of the other agencies that have inspectors general, works 
on very sensitive cases, not just in the national security 
side, but on the public corruption side, and the political 
side. There needs to be some insulation from the inquiry and 
the access to those kinds of cases, even under legitimate 
predicates from the normal course of events. That is why the 
structure was set up differently, and I think it is something 
that certainly should be reconsidered, and re-looked at. I know 
the committees are going to do that. I would encourage them to 
speak to past Attorneys General, who have presided over the 
system and who, I believe, will give very, very good arguments 
why the investigative nature of what we do is significantly 
different from other agencies that have politically appointed 
Inspectors General, and that there needs to be some insulation 
in that regard.
    Mr. Wolf. What about the CIA?
    Mr. Freeh. The CIA does not conduct criminal 
investigations, the CIA does not have the sensitivity that we 
bring into our criminal investigations. From the moment a case 
is opened, until the moment it goes into a court, and beyond. I 
think it's a very, very fine and important distinction.
    Mr. Wolf. Up to a certain extent I think the argument that 
you are making almost makes the case. I believe in my mind, I 
think it would be good for you, or good for the Director to 
have someone that they trusted completely that would go 
wherever and ask the tough questions, and be very, very 
aggressive. And my sense is that you almost make an argument 
for having one in the FBI, certainly much greater.
    There are activities in the SCC with regard to prosecutions 
or activities with regard to the FAA with regard to 
prosecutions. But I sense it would be a good idea to have one, 
particularly in light of McVeigh, and also some of the other 
things that went on over the last 8 years. My sense is that the 
Inspector General of Justice did not cover himself with glory, 
because I never saw him commenting on some of the things, quite 
frankly, I think should have been commented on.
    With that, I will recognize Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman. Let me once again 
congratulate you, Director Freeh, on your openness. I repeat, 
faced by the media attention today you came here, with a lot of 
people expecting you to say some things, and I think you have 
said a lot, and you have faced it head on.

                      ADVICE FOR NEW FBI DIRECTOR

    With that in mind, I would like to ask you a two-part 
question. One, if we could force you to stay and advise the new 
director, whoever he or she may be, what would you advise that 
person to do for and to the agency? What would be your vision 
for that person, or your vision for yourself, had you stayed on 
to complete your term?
    And two, how would you like your tenure to be remembered. 
For those who will set out to criticize your work, how would 
you like to combat that?
    Mr. Freeh. Mr. Serrano, with respect to my successor, it 
should be a person of absolute integrity and independence and 
ability, both on the legal side and maybe also on the 
investigative and prosecutorial side.
    I think I would advise them that we continue to need, in 
the direst fashion, outside non-FBI Bureau, non-FBI culture 
management skills.
    As I mentioned, the FBI laboratory, which ran fairlywell 
for many years, was always presided over by an agent. We brought in a 
world class scientist, Dr. Kerr, to run our laboratory in the aftermath 
of the Inspector General report, and its valid criticism and 
recommendations. It's the first time we ever had an outside scientist 
who thought of peer review, who thought of things that we never 
incorporated into the normal course.
    When I was choosing a general counsel, we always had, as 
the head of our legal affairs, an FBI agent who was a lawyer, 
which was great. And we had many honorable and good people in 
that job. We never had anybody who prosecuted a case. We never 
had anybody who knew what Brady obligations were, who knew what 
discovery allegations are in the course of giving information 
to a defendant in preparation for trial.
    So I brought in people who were fine lawyers, but also 
experienced prosecutors. With respect to information 
technology, again, we had wonderful people working in the FBI. 
When I got there we had agents writing code for the IAFIS 
program. Their heart was in the right place, but they don't do 
that for a living, and they didn't have the experience and the 
depth and the knowledge to be writing code for a multi-million 
dollar technical system. So I brought in an expert, an expert 
who was kind enough to come into the government, who is a world 
class information scientist. And he has re-designed, I think to 
the committee's satisfaction, a proposal which was previously 
flawed, and which I brought up here several times asking you to 
consider. He looked at it and he said it is a three legged 
horse, and it needs the following changes, which we then made. 
It is going to work, and I am proud that it is going to work. 
It took me a long time to get him there, I should have done 
that early on.
    So I think my recommendation would be, we have got to have 
that, going beyond the integrity and the other personal 
attributes that I mentioned, it has got to be someone who 
understands we need a lot of management help in an agency that 
is very old, but moving very quickly into new areas, and new 
venues.
    Your last question, how is my tenure going to be 
remembered, you know I do not know. I hope it is going to be 
remembered well. My main emphasis, at least over the last 8 
years, has been on our core values, which are to me the most 
important part of what we do. Core values of telling the truth, 
being honest, respecting people's rights, being fair, having 
compassion, making sure that we are reminded constantly of our 
humanity, but also the power that we wield.
    One of the little footnotes, I hope to my tenure, is that I 
require each of our new agents classes to come up and spend a 
day at the Holocaust Museum in Washington. And when I 
instituted that people said, why are you doing that? And I said 
I wanted the FBI agents who leave the academy with enormous 
power, to realize the potential for abuse of that power, and 
how the people who we protect, and the people who rely on us, 
look to them for the protection of those rights.

                   KIDNAPPING OF AMERICAN BUSINESSMEN

    I was in Kenya 2 weeks ago, basically to go over and thank 
the police officers who put together a case we never could have 
put together, the East African bombings case, without their 
help. When we landed in Nairobi, two Americans were freed. Two 
Americans who were businessmen from California, who thought 
that they had a business deal on the Internet, and went over to 
Nairobi. Instead of meeting a business partner, they met a gang 
of hostage takers who locked them up, used their telephone to 
call their relatives, and extorted money on threat of killing 
them.
    They were e-mailing the threats directly from the location 
where the two hostages were being held. The FBI, the FBI agents 
in Nairobi, which is an office that I opened after the 
bombings, the agents were the actual officers who went in there 
with the Kenyan police, to rescue these two people. Those 
people would have been killed, had they not had the assistance 
and help of those two FBI agents.
    When they got them out, the two hostages, who were very, 
very grateful--this got a lot of publicity back here in the 
United States--they said there is another hostage that these 
guys are holding. Nobody knew about this hostage. This was 
another American, who was taken 4 months before that. Nobody 
knew he was gone. The FBI agents with the Kenyan police went 
back, and they got him out.
    That ability to work overseas, to protect Americans, to 
exploit the e-mail, which goes back to our technical ability, 
Mr. Rogers, all of that stuff was put into place to deal with 
some of these new challenges.
    So, we hope we are remembered well in service. I have been 
very proud of 27 years of service. I hope I have made some 
contributions of value to the Bureau and the country.

                      REOPENING CIVIL RIGHTS CASES

    Mr. Serrano. Thank you Mr. Freeh. One of your moments that 
certainly a lot of people in this country were pleased to see, 
was initially something that so many of us were, or most of us 
should have been, and are I think, disturbed by, that was the 
report that Director Hoover had blocked bringing a case for the 
1963 church bombing. And that brings the thought that there 
might be, now, a desire on the local level to bring up more 
cases that are still sitting around, that unfortunately have 
not been resolved.
    What do you think would be the FBI's role, and what should 
be the FBI's role if local prosecutors, stateprosecutors, 
municipal prosecutors bring up these cases?
    Mr. Freeh. I think we should support them, as we did in 
this case. As you know, this case was done in state court with 
a federal prosecutor, but the investigating agency was the FBI. 
We did the Lobeckwith case a short time ago. There are many of 
these cases, which are being looked at. These are civil rights 
cases from the '60s and the '70s. And I think our mission ought 
to be to vigorously reinvestigate, re-pursue evidence, obtain 
new evidence, and bring those cases, particularly because there 
is no statutes of limitations for a lot of those crimes.
    Mr. Serrano. Do you have any idea how many cases may still 
be open?
    Mr. Freeh. I am aware of a couple. I will try to get you 
some specific numbers on it.

   Number of Civil Rights Cases Still Open From the 1960's and 1970's

    The FBI is currently reviewing all civil rights cases to 
determine how many of these cases have violations that occurred 
in the 1960's and 1970's. The information will be provided to 
Congress upon the completion of the review process.

         RELEASE OF FILES ON PUERTO RICAN INDEPENDENCE MOVEMENT

    Mr. Serrano. Let me now move on quickly to the issue that I 
praised you on before. In a hearing that we had here when Mr. 
Rogers was Chairman, in response to a question about an issue 
in Puerto Rico, and actually also in parts of the 50 states, 
regarding the independence movement, and what we know now to be 
the persecution by the FBI, where people, simply for favoring 
independence for Puerto Rico, were followed, where stories were 
fabricated about them, files were kept very closely, and many 
had their careers totally ruined, and their reputations ruined. 
Professional people and non-professional people. And this was 
not only in Puerto Rico, but in New York, and New Jersey, and 
Hartford, Connecticut, and many other places.
    Through your efforts, a historic moment took place, and 
your agency began to release these files, which will amount 
eventually to 1.8 million files. You assigned a team of people 
to work on it, and in many cases a lot of what needed to be 
done has been done.
    Now we are terrified at the thought that a new director 
might not have a mechanism in place to continue to release 
these files.
    In addition, you told us that at a certain time you would 
be giving us whatever information was available on the unsolved 
mystery surrounding the deaths of a couple of members of the 
independence movement, and the alleged but very strongly 
believed torture and mistreatment of the leader of that 
independence movement who spent 27 years in federal prison.
    Should I have concern that the release of these materials--
incidentally, and I must also compliment you on this, some of 
the material had been released in the '70s, very little, but 
the files that are coming out now have 95% more information 
that had been deleted in the '70s, many more files with much 
more information.
    How concerned should I be that this will stop now?
    Mr. Freeh. You need not be concerned. You have my 
commitment and the institution's commitment that is going to 
continue.
    The Director is the only political appointee in our agency. 
Everyone else is there for career. And my Deputy, Mr. 
Collingwood, who you know and who has the direct supervision of 
this; and Mr. Parkinson, our General Counsel; who thank 
goodness for the FBI, are going to stay there, even after I 
depart, and they will ensure, I commit to you, that this will 
continue. And we will bring this to the fruitful and logical 
conclusion it should have been brought to 20 years ago.

                         HIRING OF TRANSLATORS

    Mr. Serrano. I have one related question, Mr. Chairman, 
before we move on. Because I know we have a lot of members who 
want to ask a lot of questions today.
    There seems to be concern about a shortcoming on the part 
of the agency as to people who speak other languages. There 
have been reports about information available to the agency 
which hadn't been translated or transcribed in time to act on 
it, and it seems to me such a strange thing, that in this day 
and age you would not have agents or personnel that can speak 
all of the languages of the world.
    What is the situation with this?
    Mr. Freeh. We have some great difficulties and challenges 
in many of these languages. And you are absolutely correct, we 
have many documents and many investigative materials, which are 
not translated. Sometimes they are in summary form, but no one 
has really gone in there and looked at them.
    We have a very difficult time in competing with everyone 
else, particularly the private sector, in the area of 
languages, particularly Arabic and Farsi, and some of the very 
critical ones to some of the work that we perform.
    We are on a GS schedule, which means, you know, if we find 
an Arabic speaker in New York City, we can pay them about a 
fifth of what they could get almost any other place in town. So 
we have a very, very difficult time competing.
    This is one of the reasons I had proposed to the committee 
and the Congress several years ago an exemption from Title V 
for the FBI, which we briefly got. Unfortunately, it didn't 
perpetuate itself. But the exemption from Title V would give us 
the ability, in New York, for instance, to pay a salary where 
we could recruit and compete, where we can never do it under 
the GS scale.
    We could also get scientists and technical people that 
otherwise would never come to the FBI except for patriotism, 
like some of the people sitting here in the room. So, this is 
going to be a continuing problem, not just for us, but all the 
other agencies that are going to need this kind of 
instantaneous review and comprehension.
    Mr. Serrano. Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Rogers.

                    APPRECIATION FOR DIRECTOR FREEH

    Mr. Rogers. Thank you, Mr. Chairman.
    Director Freeh, your last appearance before this 
subcommittee is the eighth annual appearance for your budget 
request, all of which I have been privileged to be present for.
    You have presided over the FBI during a time of great 
change in the country and the world. You have ushered the FBI 
into international investigations by establishing overseas 
offices of the FBI that did not exist before your tenure.
    You have brought the FBI into the new world of counter 
terrorism, and solved some very complex cases in that arena. 
You have ushered the FBI into the cyber crime era, which is 
complicated beyond anyone's understanding I think. And you 
stewarded the FBI during some very difficult years that I know 
tested you in a major way.
    You have maintained, in my judgment, the high integrity 
that you brought to that office, and that you carried with you 
as a federal judge and a federal prosecutor in New York City, 
under trying times. And you presided over a huge increase in 
the budget of the FBI over these 8 years. In fact, a billion 
dollar increase to the FBI over the last 5 years alone, with 
thousands of new agents, thousands of new personnel, not to 
mention the new laboratory and their improvements.
    And I am sad that this is your last appearance before the 
subcommittee, because you have been a good director, a 
contentious director. You have been frank with us, and frank 
with the world. You say the buck stops there. When there is 
some problem, you accept the responsibility as is, frankly, the 
case.
    But you have, today even again said the buck stops here. 
And we appreciate that. But I just wanted to say in this last 
hearing that you will be before us at, how much we have enjoyed 
working with you and admired your fortitude, and your 
persistence, and your perseverance, but mostly your ethics, 
good conscience, and we will miss you, I expect.
    I guess you are ending, what, 27 years of public service, 
or so?
    Mr. Freeh. Yes sir.
    Mr. Rogers. We hope that is not the end of your public 
service. We hope there will be other avenues of serving the 
public. But as you have said so many times, it is time for you 
to turn your attention to providing for those six boys that are 
going to college.
    It is sad that people in public service are not able to 
earn a decent living in high cost living areas, but that is 
sadly the case.
    The FBI has been one of the poster agencies for losing 
personnel to the high costs of living in places like San 
Francisco, New York, Washington, and other places, because the 
pay is not adequate. And that is something I think the country 
is going to have to address. The specialists that we require in 
agencies like the FBI, the SEC, and others, we simply can't 
attract them from the private sector with the kinds of salary 
we pay.
    The sacrifices that members of the FBI have made and are 
making today sometimes get tarnished, unfortunately, by things 
like the McVeigh document matter. I trust that will not be a 
permanent plight.

                     Mc VEIGH AND OKBOMB DOCUMENTS

    Let me quickly ask you about that. In your statement about 
the McVeigh matters, among other things you say, on page one 
quote, ``As Attorney General Ashcroft said Friday, a review of 
these materials disclosed no new information relative to the 
guilt or innocence of Timothy McVeigh,'' end of quote. There 
are other portions in your statement thatare of similar import.
    Now, I wanted to talk to you briefly about this, with the 
short time that we have, about what kind of information this 
is, and how relevant it is to the guilt or innocence of the 
defendant. I am an old prosecutor, 11 years state's attorney 
back home. I practiced law in the private sector before that, 
so I am familiar with orders of the court requiring both sides 
to show each other what kind of evidence you have. That is 
standard procedure, and was true in this case. I gather in this 
case, however, the court ordered you and the FBI, and the 
agents and all other parties, to go well above and beyond what 
normally is required to be shown.
    Mr. Freeh. Yes sir.
    Mr. Rogers. And to show anything and everything that might 
have some bearing on the case. Is that generally true?
    Mr. Freeh. Yes sir, that is exactly the scope of it, it was 
broad.
    Mr. Rogers. And so it was as broad as you can make it. That 
is not normally the case, is it?
    Mr. Freeh. It is not normally the case, nor is it required 
by the Federal Rules of Criminal Procedure.
    Mr. Rogers. Now, could it be that some of the field offices 
that got this routine piece of paper telling them to turn over 
the documents in this case--is it possible that some of them 
could have said, well that is the routine thing, let us turn 
over these documents because they are relevant to the case, but 
did not realize this Court Order went way above and beyond what 
was normal. Is that possible?
    Mr. Freeh. It could have been, Mr. Chairman, but again, you 
know, there were 16 different requests made, and although they 
may not recite the words of the discovery order or agreement, 
they clearly call for everything and anything, and there should 
not have been any misunderstanding. Now we have to wait and 
have the Inspector General speak to case agents and supervisors 
to get exactly what their understanding was.
    But, to answer your question, it should have been clear 
from the communications that everything and anything should 
have gone, because that was the nature of this very 
extraordinary order.
    Mr. Rogers. You say in your statement on page 12 that some 
officers wrongly concluded that the information they were being 
asked to turn over was so extraneous.
    Mr. Freeh. Yes.
    Mr. Rogers. Was so extraneous that it was not covered by 
the request of the court. What do you mean by that?
    Mr. Freeh. Well I think what that explains is, some of the 
preliminary explanations are that they didn't think a 
particular item in a specific office was--let me give you an 
instance.
    We had individuals who would come into the FBI office and 
give us a public document, and the agent would receive that, 
put a 302 together, saying this was received. Absolutely no 
nexus or relevance, I would argue, to the case. Never 
contemplated under any kind of discovery rule, but under this 
order, because it was a 302, we agreed to give it over. So, 
could that agent have looked at that serial and said it cannot 
be asking for this. If they did, I think it was the wrong 
interpretation. Maybe the order should have been clearer, and 
those 16 teletypes did not do the job. And that is what we have 
to find out.
    Mr. Rogers. So, in a general way, can it be said that the 
documents that we are talking about are, at best, remotely 
connected to the case, or so extraneous as to not be helpful to 
McVeigh in any way?
    Mr. Freeh. That is the way they have been described by the 
lawyers and the prosecutors that have reviewed them. That is 
set forth in Mr. Connelly's letter. That is my understanding.
    I would like these documents to become public, and there is 
a protective order that prevents that now. But ultimately they 
will be, and people can make their own determination.
    Mr. Rogers. Do you know how many documents were actually 
turned over in the normal process in this case?
    Mr. Freeh. Thousands and thousands and hundreds of 
thousands. Plus access to databases and millions of more 
records.
    Mr. Rogers. So could we say millions of items.
    Mr. Freeh. Yes sir.
    Mr. Rogers. That were turned over. And the ones that we are 
talking about here, that were not turned over, how many are 
there?
    Mr. Freeh. We are talking about 700+ documents or things or 
items.

                RELEVANCE OF ADDITIONAL OKBOMB DOCUMENTS

    Mr. Rogers. None of which have any relevance to the guilt 
or innocence of Tim McVeigh?
    Mr. Freeh. No sir.
    Mr. Rogers. No sir what?
    Mr. Freeh. They do not.
    Mr. Rogers. So it seems to me like maybe there has been 
much more to do made of this than the record reflects. Is that 
a fair statement?
    Mr. Freeh. Well, yes and no. In terms of guilt orinnocence, 
in terms of not only the evidence in this case but the subject's 
admissions, the letters that he has written, the reference to burning 
children as collateral damage was, I think, the words that he used. The 
evidence in this case is overwhelming, so in terms of guilt and 
innocence, no. Nobody should worry that someone was victimized, or that 
someone's rights were violated. But on the other hand, we have an 
obligation, in the FBI, to produce, in this case, every single one of 
those records.
    Mr. Rogers. I understand.
    Mr. Freeh. And we failed in that, and we are responsible, 
and the country should have a better ability to rely on us than 
that.
    Mr. Rogers. I understand that, but if these documents are 
of no importance to whether or not the man is guilty--I know 
you have to turn them over--but what I am asking you is, does 
it make any difference to the case? When they see the 
documents, will it make any difference in the case?
    Mr. Freeh. Ultimately a judge is going to decide that, if 
necessary.
    As far as I am concerned, as a former judge, as a 
prosecutor, as an investigator, absolutely no difference as to 
guilt or innocence. Particularly given the circumstances 
following his conviction.
    Mr. Rogers. Some of these documents they were talking 
about--you say field offices forwarded summaries of those?
    Mr. Freeh. Yes sir.
    Mr. Rogers. Documents, but not necessarily the underlying 
document. Only the summary of the document was sent?
    Mr. Freeh. Yes, but we had agreed to provide the actual 302 
and we did not do that in some cases.
    Mr. Rogers. What is a 302?
    Mr. Freeh. A 302 is the actual recitation of the interview 
or investigative matter. What happened in some cases, as I 
understand it, that information was put into a teletype, and 
the teletype was sent, but the underlying 302, which we 
promised to hand over, was not handed over. So we violated the 
order.
    Mr. Rogers. So those are some of the documents we are 
talking about?
    Mr. Freeh. We have some in that category.
    Mr. Rogers. What percent of the total is that?
    Mr. Freeh. I do not know. I would be hazarding a guess.
    Mr. Rogers. Nevertheless, the summary of them was turned 
over.
    Mr. Freeh. In many cases that is correct.
    Mr. Rogers. And now you are going to send the actual 
documents?
    Mr. Freeh. Yes.
    Mr. Rogers. No surprise?
    Mr. Freeh. I don't think so.
    Mr. Rogers. Some of the documents that you are now turning 
over, that you discovered, are originals that you had sent 
copies of in your original order. Is that correct?
    Mr. Freeh. Yes sir.
    Mr. Rogers. So now instead of sending just copies, you are 
going to send the originals.
    Mr. Freeh. We are going to send everything.
    Mr. Rogers. No surprise?
    Mr. Freeh. No surprise.
    Mr. Rogers. And then some of the documents and information 
were not sent in a form that could be uploaded into your 
existing technological system. Is that correct?
    Mr. Freeh. In OKBOMB, at the task force, yes sir.
    Mr. Rogers. So was that material delivered to the court?
    Mr. Freeh. Again, in some instances I don't think that it 
was, I think that is in the category of things that I mentioned 
which were not put into a database, uploaded, to use your 
words, and then made available to the defendants.
    Mr. Rogers. Now, as you say in your statement, on page 13, 
and I am quoting and summarizing, under the ordinary rules of 
criminal procedure--that you practiced when you were a 
prosecutor, and presided over when you were a federal judge, 
and that I practiced in Kentucky--under normal, ordinary rules 
of criminal procedure, the vast majority of items that we are 
talking about, would not have been required to be turned over?
    Mr. Freeh. That is correct.
    Mr. Rogers. You had 28,000 interviews, and you had tons of 
material that were turned over. And what we are talking about 
here is really insignificant, irrelevant documents, that have 
no bearing on the case. Is that a fair statement?
    Mr. Freeh. That is my understanding, and the understanding 
of the people that reviewed these materials, yes sir.
    Mr. Rogers. Thank you very much, Mr. Freeh.
    Mr. Wolf. Mr. Obey?

                   NEED FOR MANAGEMENT REFORM AT FBI

    Mr. Obey. Mr. Director, sorry I couldn't stay for the whole 
hearing. I had two other hearings that I had to deal with, but 
I have been informed of your statement earlier andI appreciate 
it.
    I will not go into the litany of problems that I discussed 
in my initial statement again. I just want to observe that I am 
sure you do not like to be here in this position today. It is a 
lousy way for you to leave your watch, and it is not very happy 
for us, either. We are faced with a very tough dilemma. We 
desperately need an agency that has all of the powers that your 
agency has, to defend our security interest, and to keep this a 
civilized society here at home.
    But when the agency to which we entrust those extraordinary 
powers appears on so many occasions to be out of control, and 
lacking discipline, and lacking oversight, when there seems to 
be something about the culture there that resists management, 
then we have a really tough call. We have the choice of either 
cutting back on the authority that we give your agency, so long 
as it continues to be out of control on these areas, or simply 
say ``Well, with all their faults, they are the only thing we 
have got. Will we continue to provide you with the powers 
which, on occasion, wind up coming back to bite us all, and 
bite the country as a whole?
    We do not want to be in that position. We want to know that 
the agency that you head is well organized enough, disciplined 
enough, responsive enough, and sensitive enough that we will 
not run into a lot of these problems.
    I know that some of these things probably happened not 
because anybody intended they happen, but simply because in 
human institution, people foul up from time to time.
    It has not been my impression that you have been very 
inclined to accept that explanation in other circumstances from 
time to time, but that is another issue.
    I am just concerned about what kind of processes you have 
in place, because it seems to me that whatever they are, they 
are failing you and failing us. I am sure you were as angry and 
upset as we were when you learned about the McVeigh problem. 
But frankly, I think some of the other problems that have been 
raised are far more serious than the McVeigh problem. That just 
happens to be the one that gets the attention, that has the 
glitz to it this morning. But it is not the fundamental 
problem.

                       FBI COMPLIANCE INSPECTIONS

    Now let me ask you--you had a failure by 46 of the 56 field 
offices to provide the information that you had asked for 
repeatedly?
    Mr. Freeh. Yes sir.
    Mr. Obey. You have a compliance review process, as I 
understand it.
    How many of these 46 offices were subject to that process, 
since the orders to provide the McVeigh files were made?
    In how many instances was the failure of those offices to 
comply brought to your attention as a result of compliance 
reviews?
    Mr. Freeh. I will get you much more specific information on 
this. We have, as you correctly refer to it, an inspection 
compliance process. We have an inspection division that goes 
from field office to field office, that goes from headquarters 
division to division, doing full audits with respect to 
financial, compliance with regulations, all the many, many 
things that this process has developed over the years.
    And I think people in the Department of Justice, and people 
in the government will tell you that our inspection process, 
which looks for compliance, is a rigorous one.
    I would say most of these 46 field offices, particularly 
between 1995 and the present, were probably subject to an 
inspection. I will give you the exact numbers and which ones 
were inspected, and where there may have been related or 
similar failings reported and asked for corrections in those 
reports. I just do not know the answer as I sit here.
    Mr. Obey. It had been my understanding that each entity 
within the Bureau is subject to that process once every three 
years.
    Mr. Freeh. That is correct.
    Mr. Obey. Would not that mean, therefore, that all of the 
agencies involved had been reviewed at least once since your 
orders went out?
    Mr. Freeh. I would venture to say that is probably 
accurate, but I will get you the specific numbers.
    Mr. Obey. Should not that process have uncovered the fact 
that those files were not turned over?
    Mr. Freeh. Not necessarily those files, unless they 
inquired about that particular case. What it should have, and 
maybe otherwise could have identified is that in that 
particular office the record retrieval system and protocols 
were ineffective, that assistant U.S. Attorneys had complained, 
that defense lawyers had complained, that in the course of 
cases, like this case, they were not given and received access 
to the things they should have.
    Mr. Obey. So the system that you had to review the 
performance of these agencies in fact failed to turn up this 
crucial piece of information for you?
    Mr. Freeh. The inspection process did not identify the 
failing in this case, that is correct.
    Mr. Obey. So the answer is yes.
    Mr. Freeh. Yes.
    Mr. Obey. That I find frustrating. I would hope that we 
could count on it not happening in the future, but given the 
past track record of the agency, I am dubious.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                  Counterterrorism Program Evaluations

    What also troubles me is what the Bureau does to evaluate 
not just whether it is complying with its own rules, but 
whether, in fact, those rules themselves make any sense and 
will do the job. Do these various programs and operations work 
the way they are supposed to work? Are they accomplishing their 
stated goals? Things like that.
    How many evaluations, how many full-blown evaluations of 
the counterterrorism program, took place while you were 
director?
    Mr. Freeh. Internally?
    Mr. Obey. Yes.
    Mr. Freeh. We probably have, you know, a series of 
inspection reports on the program, I could not tell you how 
many.
    Mr. Obey. I am not talking about the first kind of review 
that you are talking about. I am asking how many performance 
evaluations, top to bottom, of the counterterrorism program 
were conducted while you were director.
    Mr. Freeh. I do not know the answer to that. I would have 
to get the answer.
    Mr. Obey. It is my understanding there have been none. I am 
not certain of that, but that is my understanding based on the 
limited time I have had to look at it.
    I would like if you would check the record, and if there 
were any occasions when you had a full evaluation of the 
counterterrorism program, I would like to know what they were, 
and when they took place.

 Dates the Counterterrorism Program Was Subject to Program Evaluations 
                       by the Inspection Division

    The following is the list of Counterterrorism program 
elements and the dates they were evaluated by the Inspection 
Division.
    Terrorism Program evaluation completed June 1982.
    Domestic Terrorism Program evaluation completed April 2001.
    National Infrastructure Protection Center evaluation is in 
progress.

                Counterintelligence Program Evaluations

    What about the counterintelligence program? How many 
internal, full-blown evaluations of that program were conducted 
on your watch?
    Mr. Freeh. Again, there have been inspection reports. There 
are different things. We inspect the program and the division 
in terms of the evaluation again. There are evaluations, 
substantive evaluations.
    Mr. Obey. To see that the rules are followed, when did your 
people sit down and give a no-holds-barred internal evaluation 
of not whether the rules are being complied with, but whether 
the rules made any sense, whether you organized the right way, 
whether you had the right targets, and whether you had the 
right procedures?
    Mr. Freeh. Yes, with respect to the counterintelligence 
program, this was done as recently as last year, in a very 
extensive manner. We had a joint FBI/CIA evaluation of the 
entire counterintelligence program. Not just in the FBI, but in 
the community.
    Mr. Obey. Before or after the celebrated event?
    Mr. Freeh. Well before. And we recommended to the President 
that a new counterintelligence strategy program protocol be 
adopted. With substantive changes, the prior administration 
approved it, and the current administration executed it. A top 
to bottom review of the evaluation of our success and failures 
and goals in the counterintelligence area.
    Mr. Obey. So you are saying that was one review?
    Mr. Freeh. That was the most recent one. I will check if 
there was any before that.
    Mr. Obey. What about the organized crime, and the white 
collar crime operations?
    Mr. Freeh. Again, I will have to check and give you an 
accurate answer on whether an evaluation was done, when it was 
done, and I just don't have the answer to those.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


             Inspector General Evaluation of FBI Activities

    Mr. Obey. What about external audits and evaluations? Has 
the Inspector General of the Department of Justice sought a 
broader agenda in evaluating your activities?
    Mr. Freeh. In some cases they have done that, with respect 
to the Laboratory Division, with respect to the Criminal 
Justice Information Services Division, there have been broad 
scale reviews and evaluations and reports, as I have seen them. 
We also get them from the Congress, from the General Accounting 
Office here.
    Mr. Obey. Did you support the Inspector General's efforts 
to broaden his evaluation activities beyond simple audits?
    Mr. Freeh. I didn't support them. I also did not object to 
them. We facilitated and helped all of the requested reviews 
and inquiries that were made.
    Mr. Obey. Well, I have some other questions I will provide 
for the record, Mr. Director, but I would just say again, in 
closing, that I find it incredibly frustrating that year after 
year the agency which is supposed to be the quintessential 
example in law enforcement winds up being an example of Mr. 
Foul Up.
    I guess I feel so strongly about it because of the district 
I come from. I come from posse country. I come from militia 
country. I have had to fight the paranoia of these people all 
of my life. I have seen people store up everything from 
bazookas to you name it, because they think that their 
government cannot be trusted. Some of them are so whacko that 
no matter what you did, you could never convince them that 
anybody is on the straight. But when you have the kind of 
examples--continuous, ongoing, repetitive which have plagued 
your agency under virtually every administration as long as I 
have been here, it says to me that there is a fundamental 
management problem, as well as a fundamental problem with the 
culture over there.
    As I said earlier, you have got an obligation, and the 
President has an obligation in picking your successor, to pick 
someone who not only has a broad degree of trust across the 
political spectrum, but also someone with extensive management 
experience, who is tough enough to see to it that these rules 
are met to the letter, or else we cannot afford, as the 
guardians of a democratic system of this institution, we cannot 
afford to continue to give your agency the kind of power that 
it has rightfully asked for.
    So I am sorry that you are going out on this kind of a 
negative note, but I think that you have been failed by the 
people around you in that institution. I think that all too 
often in all institutions, people seek more to curry favor with 
the boss, or to curry acceptance from the boss, to really hit 
him with hard questions.
    I know I want staff surrounding me who are tough enough to 
tell me to go to you know where in a hand basket, on occasion, 
because that is what all of us need.
    The other thing that you cannot afford to have is yes men 
on Capitol Hill. I think, unfortunately with this agency, I 
have seen members of Congress more interested in getting an 
autograph from past directors of the FBI than I have seen 
interested in asking tough questions.
    I think the culture up here has to change as well, or else 
we fail you when we don't ask the tough questions, and when we 
do not subject you to the kind of rigorous examination that 
makes you think through ahead of time whether or not you may be 
doing something that does not make any sense.
    I wish you well in your future career, but I just think 
this is a pitiful performance which is feeding the paranoia of 
large sections of this country. That is the last thing that we 
can afford these days.
    Thank you Mr. Chairman.
    Mr. Wolf. Mr. Latham.
    Mr. Rogers. Mr. Chairman, I would like the record to show 
that some of us disagree that this is a pitiful performance. To 
the contrary.
    Mr. Wolf. Mr. Latham?

                          FBI Cultural Changes

    Mr. Latham. Thank you very much, Mr. Chairman and Director 
Freeh.
    First of all, I would very much like to associate 
myselfwith the earlier comments about you that Mr. Rogers made. This is 
my fifth year of being on this subcommittee and having you testify, and 
I have tremendous admiration for your personal integrity and which you 
have brought to the office.
    Also, as a father who just last Friday had his third child 
graduate from college, the last one.
    Mr. Freeh. Congratulations.
    Mr. Latham. I can understand your position with six boys 
going on in the future.
    Last weekend some of the news shows, a gentleman from the 
other body from the state that I am very familiar made some 
comments, and Mr. Obey also touched on it, about the culture of 
the FBI. And I also serve on Energy and Water, and one of the 
major problems and reasons for the problems at the Energy 
Department and Security has been the culture of the agency, 
that just security is not an issue.
    Is there a cowboy culture, and if there is or not, tell me, 
but also if you think that there is a cultural problem, would 
you identify what should be done in the future to address it.
    Mr. Freeh. I think we have to be extremely diligent and 
conscious about culture, which I do think existed at one point. 
Maybe when I was young agent in 1975, when FBI agents and 
perhaps the institution tended to think of themselves as the 
best, which is not necessarily a bad thing, but if it is the 
best, then we can never make a mistake, and everybody needs us, 
and we are the only game in town, then that is a significant 
culture problem.
    I think we were caught up in that for maybe a long period 
of time, for all the wrong reasons. I think that has changed, I 
think that has changed very substantially. I alluded before to 
our training with respect to ethics and law enforcement 
obligations. Again, I do not march the new agents up to the 
Holocaust Museum because I want them to do something on 
Saturday. I want them to understand the potential for abuse and 
tyranny that any law enforcement agency, even in a democracy, 
is susceptible to and capable of.
    I mentioned before Waco and Ruby Ridge. You know, we got it 
wrong in those two instances, and there are people in my agency 
who do not like to hear me say that. But what we did is, we 
used our very capable tactical abilities to the exclusion of 
our negotiating skills. The negotiators were second fiddle on 
both those occasions. The tactical people ruled the roost and 
made all of the decisions.
    As a result, we lost opportunities to negotiate a 
settlement. We changed that. I changed that completely, 
structurally, attitudinally by creating a whole new structure 
where I put on a parity the tactical commander and the 
negotiator. So they are equal in authority and influence in 
these particular situations.
    That is why I think the Freeman situation turned out right. 
Nobody got hurt, nobody was in a rush to do a tactical 
operation. We talked our way out of there. We used third party 
negotiators, which we had never used before, because they were 
not FBI agents. It worked, and it worked better.

                          CHANGE IN THE AGENCY

    And there is a significant change in the agency with 
respect to handling those types of things.
    I will give you another example, in terms of the culture 
that I think was a dysfunctional one in the counterintelligence 
area. We had a dysfunctional relationship with the CIA for 
years and years, particularly during the Cold War, when you 
might think the two agencies should have been working together. 
It was an absolutely dysfunctional relationship.
    That has changed enormously. And I do not blame the CIA for 
that as much as I blame the FBI for that. It has changed 
significantly. We are now working not only counterintelligence 
cases, but counterterrorism cases, joined at the hip.
    I would ask you to talk to any of your peers on the 
Intelligence Committee, or the Judiciary Committee, and ask 
them two questions. One, have you heard of any problems in 
fighting and turf problems in competition between the FBI and 
CIA?
    You will not get, I predict, anyone saying that that is the 
case. Please ask the members of the Judiciary Committee, are 
there any problems between the FBI and the DEA, where there 
were for years. The answer to that will be no. You never hear 
about those problems.
    We are not at loggerheads with state and local and foreign 
police agencies. We are working very closely with them. We have 
spared you that headache, you should not have that headache. 
But that is the result of a culture change, of an agency that 
was, in many cases, a one way street, from our point of view. 
But that is different now, and I believe that is part of the 
control, and part of the assimilation into the larger community 
that we have seen, and I am very proud of that.

                             BIO-TERRORISM

    Mr. Latham. Thank you. On an issue that is very important 
to my district and my state, it was reported this week that 
officials in Britain suspect bio-terrorists of illegally 
introducing the so-called foot and mouth disease in the 
country's livestock population to protest the slaughter of 
livestock for human consumption. Obviously, coming from a farm 
state, the prospect of a similar incident in the UnitedStates 
is very, very frightening, and also the possibility of introducing 
something like mad cow.
    Could you provide us, I guess, with some reassurance as to 
your efforts to prevent similar incidents, bio-terrorism 
incidents.
    Mr. Freeh. Yes sir.
    Mr. Latham. There are some groups out there, I mean farm 
groups, things like that, which would be, I think, an asset to 
watching what is going on in your part of the country, if you 
can just tell me what is----
    Mr. Freeh. Yes, we are very engaged in this area. We have, 
in our Counterterrorism Division, a unit that specializes in 
the, we call them weapons of mass destruction, Nuclear/
Biological/Chemical type threats. They include, of course, foot 
and mouth virus, anthrax. We have had some very successful 
cases over the last couple of years in, for instance, 
interdicting a plan to use a live bubonic plague against, 
actually, a police officer. People making ricin in their 
basement, which was going to be used in an act of terrorism.
    We take from the Aum-Shinrikyo incident in Japan--the sarin 
gas attack as one that is contemplated. That is why, with all 
of the special events in the country, whether it is the 
Olympics next year in Salt Lake City, the presidential 
nominating conventions, all of the World Cup Games, we plan and 
build into our preparation the risk that someone would use an 
agent, chemical, biological, or other, to commit an absolutely 
horrific and devastating act of terrorism, either against the 
United States or anyplace else.
    We have received the intelligence that you refer to with 
respect to the hoof and mouth disease. We have not made much 
credibility out of it, or more importantly, any logical leads 
that have been taken to follow up on that information, but we 
take it very, very seriously.
    We have a specialized unit, a new unit in our laboratory 
which deals with bio-chemical threats and has the ability to do 
analysis. We have a program called our Infragard program where 
we do go out to private industry, including, I think, the 
agricultural industry, to be aware of these kinds of threats, 
and the potential for harm in that area.
    So it is a major part of our counterterrorism program, and 
one that works, again, in very close coordination with the 
other federal agencies, including the consequence management 
agencies such as Federal Emergency Management Agency (FEMA). So 
we have vaccines, we know where they are in the country, if we 
were to need them.

                                INTERPOL

    Mr. Latham. To go back to the question I asked last year, 
and to be very, very brief, is INTERPOL any part of this 
watching what is going on, and following people?
    Mr. Freeh. It absolutely is. And the new Director General, 
is Ron Noble, and I hope you have the occasion to meet him. Ron 
Noble, is an American, the first time an American has run that. 
He is a former prosecutor in Philadelphia, a very dear friend 
of mine and the FBI.
    One of the interactions, I will just mention it very 
briefly. You will recall several weeks ago we caught a fugitive 
named Kopp. Kopp was arrested in France. He is a Top Ten FBI 
fugitive wanted for the alleged murder of Dr. Slepian, who was 
killed in his home in New York, in the presence of his four 
sons and wife. We found him through an INTERPOL notice and 
coordination with that agency, which is not an operational 
agency, but it is an informational agency.
    Kopp was arrested in France, specifically because of the 
FBI INTERPOL cooperation. So we have a good story to tell in 
that regard.
    Mr. Latham. Very good. I thank the Chairman, and I, for 
one, would like to get your autograph.
    Mr. Wolf. Mrs. Roybal-Allard.

                         FBI LAWSUIT SETTLEMENT

    Mrs. Roybal-Allard. Thank you Mr. Chairman.
    Mr. Freeh when you were asked, I believe by Mr. Serrano, 
what were some of the things that you would like to be 
remembered for, you mentioned that you were proud of the fact 
that you had brought the FBI to clearly understand its core 
values, and to connect more with those core values. Among what 
you listed was respecting people's rights. I would like to 
address my question with regards to the FBI respecting the 
rights of its own agents.
    As you know, on April 30 a federal judge approved a 
settlement in the 10-year-old lawsuit between the FBI and some 
500 current and former African American agents. The agreement 
requires that the FBI overhaul its promotion, evaluation, and 
disciplinary procedures by the year 2004. And I understand that 
for the first time it is going to bring in an outside mediator 
to assess discrimination complaints.
    Can you tell me what is going to be done to ensure that 
this doesn't happen again. Because I believe that this is the 
second time that this case has supposedly been settled.
    Mr. Freeh. That's correct.
    Mrs. Roybal-Allard. So what is being done to ensure that 
the conditions of this settlement, as they are going to be 
mediated, will in fact be adhered to. What is being done to 
change the culture of the FBI and the attitudes of those agents 
and supervisors who have the responsibility of overseeing these 
changes, so that this doesn't occur again?

                  minority recruitment and promotions

    Mr. Freeh. Well, there are a number of different things 
being done, and they have been done for quite some time. The 
settlement, which you correctly identify as the second 
settlement, we hope and believe is a final one. The importing 
of the outside monitor and adjudicator will, we think, largely 
restore the confidence in the changes that are being made now 
in the promotional process.
    The key here is recruiting, retaining, and promoting of 
minorities, and not just African Americans. That, more than 
anything else, in my view, and this is someone that has been 
associated with the agency for over 25 years, is the key to 
changing not just culture but expectations, as well as 
attracting into the agency the people that we want.
    Over the last 8 years I have promoted more African 
Americans in the history of the FBI. We have had them as 
assistant directors, special agents in charge, our highest 
positions. That has been a transcending effect, as far as I am 
concerned, and as far as other people have told me.
    The President of the National Association for the 
Advancement of Colored People, one person in particular, who 
told me that his understanding was that the culture of the FBI 
had changed significantly, because of the changes that were 
made, including the settlement of the lawsuit.
    Our biggest challenge today, and what I will tell my 
successor in this regard, is the recruitment of minority men 
and women, particularly in the special agent position.
    We are not doing the job I would like the FBI to do in that 
regard. Even though all of our recruiting resources are 
dedicated only to the minority communities. But we are having a 
tough time recruiting the minorities who will then become the 
supervisors, and the assistant special agents in charge, the 
SACs that I have promoted, seven of them I believe, assistant 
directors, three of them, in that regard.
    So, to recruit and retain these people is going to be very, 
very difficult. We have also had a very, very sharp decline, I 
am reminded by one of my colleagues here, in the number of 
Equal Employment Opportunity complaints over the last two 
years. We think that is very significant, because that goes to 
where the rubber meets the road. That's the place in the FBI 
where people who are aggrieved, because of discrimination or 
perceived discrimination go. And that is a significant 
decrease.
    So I think we have got to do all of these things at once.

                          minority promotions

    Mrs. Roybal-Allard. And Mr. Freeh, when you are talking 
about the promotion of minorities, African Americans, you are 
talking about qualified people who have been promoted.
    Mr. Freeh. Absolutely, yes. I don't want to individualize 
people out.
    Mrs. Roybal-Allard. There is a misconception that when you 
are promoting particularly minorities that standards have been 
lowered, or you are not getting these qualified people.
    Mr. Freeh. No.
    Mrs. Roybal-Allard. And I just wanted to make the point 
that you are talking about qualified people.
    Mr. Freeh. Absolutely qualified.
    Mrs. Roybal-Allard. Who happen to be minority.
    Mr. Freeh. Yes, ma'am.

                         jewelry and gem crimes

    Mrs. Roybal-Allard. My congressional district includes the 
Los Angeles Jewelry Mart. Last year I brought to the attention 
of the FBI that there was a great number of robberies of 
traveling sales people in the jewelry industry in the area. I 
am very, very pleased that, looking at the latest statistics, 
and talking to the jewelers in my district, that the FBI, in 
conjunction with the INS and the local law enforcement, have 
really done an incredible job in reducing the percentage of 
crime in this area.
    For example, nationwide, the number of these robberies was 
cut in half in 2000, compared to 1999. And it was cut in half 
again between the first quarter of this year and last year. 
Closer to home, the number of robberies was reduced by 70% from 
1999 to 2000. And again, in this quarter of this year there was 
only one jewelry vendor robbery in California. So, on behalf of 
the jewelers in my district, and those I have talked to in the 
industry, I want to thank you and commend you for the work that 
you have done in this area.
    Unfortunately, these gangs are very much alive and very 
active, and they have begun to target their victims more 
selectively, and with greater violence.
    Will the FBI continue to devote necessary resources to this 
area of crime?
    Mr. Freeh. Yes ma'am. The task force that you referred to 
in Los Angeles is part of what we call our JAG program, Jewelry 
and Gems Program, which is a significant property enforcement 
and protection program. We work very closely with the jewelers 
association, not just in Los Angeles (LA), but in other major 
cities. And the criminal division in our program, not only LA 
but a couple of other divisions is now keyed to this particular 
traffic area. And we have noted also the reduction but 
certainly not the elimination. These are very prolific gangs, 
and very mobile gangs. And we have seen some of the same ones 
in Los Angeles as we see in the diamond district in New York 
City. So we will continue to keep resources in the area.
    Mr. Wolf. Will the gentlewoman yield?
    There is a vote on. I am going to run, and vote, and come 
back. Mr. Rogers can chair and we can continue, but I will be 
right back.
    Mrs. Roybal-Allard. Thank you.

                  safe street task forces in jeopardy

    It's also been brought to my attention that the FBI is 
considering scaling back both on the number and the scope of 
its safe streets task forces.
    As you know, these task forces are nationwide, and they 
have brought together FBI agents and local police and sheriffs 
departments, to focus on violent crime and fugitive 
apprehension. When I have spoken to law enforcement, not just 
the FBI, but really the local police in my area, they have had 
absolutely high praise for these task forces, and have 
attributed the decline in violent crime to them.
    There is a great deal of concern that perhaps the 
relationships that the FBI currently has with local governments 
may be jeopardized because there is talk that the task forces 
may be scaled back.
    Can you address that?
    Mr. Freeh. I can. Thank you very much for the question.
    This has been an enormously successful program. I think we 
have 135 Safe Street Task Forces. And these are just violent 
crime program task forces around the country. Whether they are 
in San Juan, or New Haven, or Los Angeles, they have worked 
very well for two reasons. One, it gets us beyond what I have 
alluded to before, which is all of these different agencies 
working perhaps not cooperatively together. It forces and 
harnesses the efficiency and the combined skills of a lot of 
different agencies. So we are committed to that program. It is 
one of the mainstays of our Violent Crime Major Offender 
Programs.
    We do run into funding issues. For instance, we pay the 
overtime of the state and local police department offices that 
work there. We have successfully in the past, thanks to the 
chairman supporting these important task forces, maintained 
that. But it is an area, of course, of great expense, and as we 
have a flat budget, and as we make adjustments to our programs, 
it is certainly something that we have to consider. We don't 
have any plans to close or scale down any of these task forces. 
But I think, again, my successor has to look at, it is a very 
important part, as far as I am concerned of what the FBI's role 
is in the United States and in a particular community.
    On the other hand, you know, violent crime statistics have 
gone down significantly over the last 8 years. Not because of 
what we have done only, but because of a whole set of 
circumstances.
    There are no other agencies working counterterrorism, or 
counterintelligence, or computer crimes, or things like that. 
So I think my successor is going to have to make some choices. 
I think Congress is going to have to make some choices as to 
whether we want to stay as entirely in these traditional areas 
as we are at the expense of some of the new areas, or not; or 
consider different new resources. So it is going to be an area 
of tension, but it has been an enormously successful program.
    Mrs. Roybal-Allard. My understanding is that if the program 
is scaled back, it's really going to be some of the small towns 
and rural areas that have very small police forces that are 
really going to be negatively impacted by the loss of these 
programs.
    Mr. Freeh. We will certainly consider that. That is 
probably the area you would not want to cut. I mean you would 
want to look at a larger more versatile--area.
    Mrs. Roybal-Allard. In Los Angeles they speak very, very 
highly of this program, and really attribute much of what has 
been accomplished in the area of violent crime reduction to 
that working relationship. I was told there was a time when the 
agencies never even talked to each other and did not know each 
other.
    Mr. Freeh. That is right, there was.
    Mrs. Roybal-Allard. Just a lot of overlap or conflicts, so 
I hope that we will be able to save that.
    Mr. Rogers. Let me interrupt. We have two other members who 
would like to ask a few questions perhaps before we have to 
leave for the vote.
    Mrs. Roybal-Allard. I just have one more, Mr. Chairman, and 
I will submit it for the record, if I might.
    Mr. Rogers. Mr. Taylor?
    Mr. Taylor. Mr. Chairman, thank you.

                       scope of fbi jurisdiction

    Director Freeh, thank you, I have three boys in college 
right now, and I, as a member of the West Point Board of 
Visitors would like to recommend the military academies to you.
    I want to commend you for the work, your 27 years of 
service, and your years as Director of the FBI.
    You focused on the core values, and you mentioned honesty 
and truth, and I appreciate that. I appreciate that it has been 
particularly hard in the past years to focus in that area.
    You did comment on the fact that in past years the FBI 
might have felt that they were the most important, or maybe 
close to perfect, or that kind of thing. Would you say that 
perhaps Congress has been a conspirator, also, in thatfeeling, 
in the fact that we have enacted a variety of statutes that were 
commonly state violations that were not involved with interstate 
commerce, and we have loaded you down with a lot of extra laws, and put 
on your plate things like car-jacking, and other things that can be 
handled by local law enforcement agents.
    And, given the size of your agency, would it be advisable 
for us to review, as Congress, a number of those laws, and see 
if we couldn't put those back in the over 200 years, state 
areas?
    Mr. Freeh. Yes, I think that is an excellent suggestion. 
And maybe speaking more as an outgoing government employee than 
an incoming one, I think there has been, I wouldn't call it a 
conspiracy or a failure by the Congress. I mean, in many ways 
it is a compliment that we need somebody to enforce child 
support orders. There are a lot of deadbeat dads who are not 
paying their bills. Let us give that to the FBI, because they 
can do a job in that area. And we can. We will do it, however, 
at the expense of some other things, and if there are no 
resources coming with the responsibility, as there was not, and 
there usually is not, something has to be re-allocated in terms 
of the resources.
    Major changes or contemplated changes in the civil rights 
acts which I would fully support, certainly as a citizen, and 
as a member of the community, as a father, and as a husband; 
but to criminalize a whole new genre of conduct, but not give 
any new federal resources to enforce it would be a problem.
    I have fewer FBI agents than there are Chicago Police 
Department Officers, and we need to cover the United States, 
and 45 countries. If, God forbid, a major act of terrorism 
occurs this afternoon, I have to send 300 or 400 of my best men 
and women to go there.
    So, I think we have to make those kinds of choices and 
allocations. We can do and will do what you tell us to do. You 
want me to open and run the National Domestic Preparedness 
Office, which means the FBI gets involved in the responsibility 
to train and equip fire departments and police departments for 
WMD incidents, I can do that. I cannot do it on a million 
dollars, by the way; but that is going to take a lot of 
resources from other things, and we have got to make those 
choices.

                        computer crime resources

    Mr. Taylor. And computer crime of course is one of the 
things that you need resources badly on, because I am sure your 
competition and getting agents to work in that area is very 
difficult, and yet it is one of the fastest growing, and 
probably the most important areas to focus on.
    I would mention the Carnivore program. That has raised more 
concern in my district than probably any other area. And while 
you have certainly pointed out quite correctly that the program 
only comes with the court order, I think if the agency could 
present that more adequately to the public, and define it more 
adequately would be good.

                       eric rudolph investigation

    The other thing I would ask, this last question, Mr. Eric 
Rudolph the search within my district. How many agents do we 
have there, and is that wrapping up pretty much.
    Mr. Freeh. Yes sir, within your district it has wrapped up. 
Within the time, of course, we had many, many people assigned 
there, and otherwise. We have scaled back substantially. I do 
not think we even have a facility in Western North Carolina. We 
still have the fugitive case, and we are going to work it as 
hard as we can.
    Mr. Taylor. Thank you again for your work.
    Mr. Freeh. Thank you, Mr. Taylor.
    Mr. Rogers. We have at least one member who would like to 
ask questions. We have a vote that is imminently on the floor. 
We will have to recess a few minutes, so that we can vote, and 
when Chairman Wolf returns, he can resume the hearing. So we 
will be in recess briefly.
    [Recess.]
    Mr. Wolf. We will come back to order.

                thoughts on picking the new fbi director

    Let me take advantage of this time. Sitting here listening 
I made a few notes. And one, the new director, and just to take 
it back to Mr. Ashcroft and the President, ought to be somebody 
who is honest, ethical, decent, moral, has total and complete 
independence, is not involved in the political process, has 
very good management skills, and I believe should be somebody 
from outside the department.
    I think all are aware former President Bush went out to the 
CIA, somebody to bring a fresh new approach. And I am going to 
watch it very carefully. I am not part of the confirmation 
process, but I'm going to dig in and just participate.

             Mc VEIGH INVESTIGATION AND WEBSTER COMMISSION

    And secondly, on the 10 that did comply, if you could just 
submit what the names of those offices are.
    Mr. Freeh. Yes.
    Mr. Wolf. And I think they ought to be asked why did they 
comply.
    Mr. Freeh. No, it is a good question.
    Mr. Wolf. And how did they view the 16 communications. I 
think you look at the good, why it took place as well as the 
ones that didn't.
    Thirdly, I believe very deeply, you can comment on any of 
these, we really need an outside group, and I am going to bear 
in on this next issue. With regard to an outside group looking 
at this, I look at the list of the people that Judge Webster, 
again, said they are all going to be involved, Clifford 
Alexander, a Washington guy; GriffinBell was U.S. Judge, knows 
them very well; Secretary Cohen, served in the Congress with the 
Department of Defense; Robert Fisk, former special counsel; Tom Foley, 
former Speaker of the House, all good people. If I had a problem I 
would love to go to them. But I think they are not the ones who have to 
be the final evaluation as to whether or not this thing is appropriate. 
I have feelings of passion on this issue that you understand that I am 
not getting into on the record, although we did send a letter over 
yesterday, asking for you to look at some things.
    But this is not enough. These are good people, I think it 
would be helpful to have their views. But we ought to use 
somebody who is outside, Team C, then if we are talking about 
it, or Team D, or G, that looks at it.
    Mr. Freeh. I understand, Mr. Chairman. I will take that up 
with the Attorney General, and we will pursue it.

 The 10 Field Offices That Did Comply With the McVeigh Document Search

    The following is the list of the 10 field offices that 
complied with the McVeigh document search: Columbia, Denver, 
Jacksonville, Las Vegas, Memphis, Newark, New York, Oklahoma 
City, San Juan, and Springfield.

                       need for inspector general

    Mr. Wolf. Also, I think it would be helpful, too, to have 
an IG. I asked the staff to contact some former IGs. But I 
think an IG may very well have been a very good protection. I 
looked at your testimony last night. The American people don't 
understand the mission that the Congress has given your Bureau. 
You are doing a lot of very important things. Unbelievable, 
life and death. It isn't just whether the price of milk is 
going to be one thing, or ten cents higher or ten cents lower. 
These are life or death issues. The World Trade Center. The 
bombing with regard to the two embassies, the USS Cole, these 
are critical issues, and your people have been given some very, 
very tough assignments. So I just think an outside person, like 
an IG who can bounce it back and be very aggressive and fair, 
would be very, very good.
    Let me cover a couple other issues before they come back.

                       over-hiring and shortfall

    The FBI hired more people than it could afford, and the 
over-hiring resulted in a shortfall of more than $65 million. 
The FBI has been the beneficiary of generous increases, as you 
know during the tenure. The shortfall causes some concern, 
particularly by given that there has been some talking point 
circulated that the current budget is not adequate to meet the 
employees on board. Is there an explanation for this? Do you 
understand what I am talking about?
    Mr. Freeh. I do, sir. And I think what we have done, and 
what we propose to do to resolve the problem so there won't be 
any more reprogrammings. There is not going to be any this 
year, as you know, and there was one in the prior year. We 
reduced the number of authorized positions and workyears by 
772. This will be in alignment and comportment with the 
available funding.
    We had an overhire, I regret, and I am responsible for it 
in fiscal year 99, and that required part of the 64 million 
dollar reprogramming for last year.
    Forty-two million dollars was permanently reprogrammed. So 
with the reduction of 772 positions we will not only not need a 
reprogramming, but we would solve this particular problem by 
hiring. I should say by not hiring. And that problem is now 
solved for next year, we hope, with maybe a small overage, 
which I think is being very tightly monitored.

    We are watching the payroll positions on a two-week basis. 
We realize now we spend 1.1 million dollars per hour on 
salaries, and we are focused on this like a laser.

    Mr. Wolf. Okay, I am going to recognize Mr. Kennedy now. We 
will have some other questions.
    Mr. Kennedy.

                             death penalty

    Mr. Kennedy. Thank you Mr. Chairman. Thank you Mr. 
Director.
    I, when I first ran for office was in favor of the death 
penalty. But I, in good conscience, watching what has happened 
the last several years cannot know how any thoughtful person 
could be in favor of the death penalty.
    Just in the last year we have seen the Illinoiscases where 
the Governor of Illinois, Mr. Ryan, had to put a moratorium on the 
death penalty in Illinois because of the numerous cases that were 
uncovered simply by law students during a special project, many of whom 
had later been found to be innocent.
    We had a front page story last week in the New York Times 
about Jeffrey Todd Pierce, one of 8 cases reviewed, where even 
with the DNA evidence, and the DNA was supposed to be the 
salvation of the proponents of the death penalty, because it 
was supposed to now show in conclusively that this was the 
person that committed the crime. Even in this case, now, we now 
have been shown the DNA is not the answer, or the definitive 
difference in whether someone was the actual perpetrator of a 
crime or not. And I understand the Governor of Oklahoma is now 
reviewing 3,000 cases which were conducted by this DNA person 
working in the crime lab who messed it all up. And where 
people's lives have been affected in untold ways, and numbers 
of years they have had to serve in jail. But to really 
emphasize the point, 11 of whom have been executed already. And 
I cannot wait for this country to find out that one of those 11 
was an innocent person, and see what this country is going to 
do about it then.
    In light of all of that, in light of your own Department of 
Justice study showing the disparity in the death penalty, with 
minority groups and African Americans, if you are poor and 
African American you have a greater correlation of getting the 
death penalty than you have in getting cancer if you are 
smoking. Now this has got to be a moral outrage. I cannot for 
the life of me understand why people can sit idly by and see 
these statistics and say this is bunk. And then, to boot, we 
have an FBI study that does 60 million plus dollars, the most 
visible case in the history of the FBI, and they screw it up.
    Now if we cannot even get Timothy McVeigh right, how are we 
supposed to get the millions of others who are going through 
our justice system with little or no spotlight on their cases, 
how are we supposed to get that right?
    I want to ask you, Mr. Director, how in good conscience can 
you support the death penalty, and what are your answers to 
this immense amount of evidence that shows that the death 
penalty cannot be applied fairly, even if you had accurate 
evidence. And now, in the face of Mr. Pierce where we are shown 
that you cannot even have accurate evidence in the first place. 
How can we even permit a death penalty in those circumstances, 
the ultimate punishment, when we cannot even guarantee that the 
person is guilty of the crimes that they have been convicted 
of.
    Mr. Freeh. What is your question?
    Mr. Kennedy. My question is, are you in favor of the death 
penalty, and what is your answer to my outrage, and I think a 
lot of other people's outrage, that Pierce was, his DNA 
evidence was messed up.
    Mr. Freeh. Was that an FBI case?
    Mr. Kennedy. I am asking you about, you are someone who is 
in the Department of Justice, you work in the FBI, you are a 
law enforcement officer. I am asking you, in light of all, I 
will just ask you in terms of Timothy McVeigh, if that makes 
you happy.
    Mr. Freeh. It does not make me happy, I am just trying to 
get your question.
    Mr. Kennedy. Well, my question is simple. If you cannot 
understand where I am coming from, I dare say anyone in this 
room, I am saying that the evidence shows that we cannot even 
get it right with evidence with respect to DNA, we cannot get 
it right with your own Department of Justice study, showing 
that the minorities and poor people are umpteen times more 
likely to get the death penalty than anyone else, and how can 
we support equal justice under the law, which you are sworn to 
uphold, and in light of those statistics, which your own 
Department of Justice came forward with.
    So that is what I am asking you.
    Mr. Freeh. Let me----
    Mr. Kennedy. If you have any trouble understanding it, I am 
asking you, what is your reaction to that ample evidence.
    Mr. Freeh. Well, let me try to break it down.
    Mr. Kennedy. Please.
    Mr. Freeh. I do not believe that the Pierce case was an FBI 
case.
    Mr. Kennedy. I am not asking, just give me your answer on 
the death penalty, do you support the death penalty?
    Mr. Freeh. I do not think that is relevant to my presence 
here today.
    Okay, with respect to the McVeigh case, because that is the 
one you call a screw up, and that is the one that you want to 
speak about, I am happy to respond to you.
    Mr. Kennedy. What I want to----
    Mr. Freeh. There is no danger--let met just say this. There 
is no danger that an innocent Timothy McVeigh----
    Mr. Kennedy. I am not talking Timothy McVeigh, I am talking 
about the process, sir. I am not talking about one person, I am 
talking about the likelihood that with the death penalty, and 
we as federal lawmakers are the first ones to stand as federal 
office holders in over 40 years, sincethe last death penalty 
case, and we have an obligation as federal office holders to ensure 
that that death penalty is equally distributed, based upon equal 
justice under law. We know the evidence is to the contrary. Your own 
Justice Department proved it.
    Now I am asking you, in light of the fact that you can miss 
all these files that we are in the most celebrated case of the 
century, we cannot even get it right with that. How are we 
supposed to believe that we can get it right with the death 
penalty. And----
    Mr. Freeh. Let me say this, then, I disagree. I think we 
have gotten it right. I think that----
    Mr. Kennedy. So, to the 11 people that are still waiting to 
be executed----
    Mr. Freeh. Well, do you want me to finish my answer, or do 
you want to ask another question?
    Mr. Kennedy. Yes, please. I would like you to finish your 
answer.
    Mr. Freeh. With respect to the case which you asked me 
about, which was the McVeigh case, we did get it right. We got 
it right specifically because in an abundance of caution, doing 
a review that we were not required to do by the law, FBI 
personnel discovered, on their own initiative, that some 
records, leave aside the fact that they were relevant or not. I 
don't believe they were. But leave aside that fact. They then 
came forward to stop the execution at the 11th hour, to the 
great embarrassment of the FBI. I may share in that with a lot 
of you here. But that is getting it right. We stopped an 
execution because in America--we thank God, we all are, and I 
think Mr. McVeigh is pleased he is in America--the process 
worked by correcting a flaw and a mistake that I do not think 
went to guilt or innocence, but it is so significant and severe 
because of our obligations that it was corrected.
    Twenty-five percent of the cases that come into our DNA 
unit and laboratory, Mr. Kennedy, are exonerated result 
examinations. We sent back in 25% of the DNA cases the finding 
that the subject that they submitted is not the person, and 
they should be exonerated. We have gotten people out of jail on 
those examinations. We have an obligation to protect the 
innocent, which we take very, very seriously, and which is 
exemplified in this particular case.
    Mr. Kennedy. All I would say is, if it is evident that 
human error is going to be existent all the time, how can you 
ever think of having an ultimate punishment that executes 
someone, when in these instances it has taken the absolute face 
off of the death penalty proponents and their idea that you can 
get it right. You have college students proving in Illinois 
that all of these people got it wrong. You have Kenny Watters 
in my state convicted 18 years, until his sister went to law 
school, completed it, and was able to get him out of jail. He 
was wrongfully convicted. You can only imagine the number of 
minorities and people who are under-represented, who have no 
spotlight, who aren't as celebrated as Timothy McVeigh, and are 
we supposed to believe that the next death penalty cases, after 
Timothy McVeigh, especially if our President does the kind of 
death row that he had when he was Governor of Texas, we are 
supposed to expect that the nation's attention is going to be 
as much on those cases as it was on Timothy McVeigh, and that 
there will be that much review in those cases as there was with 
Timothy McVeigh? I don't think so.
    And, barring all that, I will take all that aside. What is 
your answer to the fact that the death penalty is not applied 
equitably around the country, and the fact that minorities and 
poor people have a greater likelihood of being put to death 
than they have from getting cancer from smoking?
    Mr. Freeh. Well, I rely on the United States District 
Judges, on the Supreme Court of the United States to correct 
mistakes or flaws in the judicial process that would lead to 
the most horrific result anybody here could contemplate, 
someone innocent being ultimately and capitally punished for a 
crime they didn't commit.
    But we have a system of laws in place for that. We have a 
penalty, which this Congress has approved, and we have courts 
and prosecutors, and hopefully law students like the ones that 
you mentioned, who on their own can do enormously great things 
in terms of proving the innocence of a person who may be 
overlooked by the system because maybe they are not wealthy and 
don't have a lawyer.
    But all that is one entire process that moves forward I 
think very, very well under a system of law, and that's what we 
have.

                           POLYGRAPH TESTING

    Mr. Kennedy. All right. Let me ask you about another area, 
because I think the idea that you have equal justice under the 
law with the death row, when our own Justice Department said 
that it is not the case, and the Attorney General, Janet Reno, 
came out with a report that was indisputable in the fact that 
it showed that there is no equal application of the death 
penalty in this country, and that should concern anyone of 
conscience in this country.
    Let me ask you about getting in right.
    Do you believe that FBI agents should be subject to 
polygraph tests?
    Mr. Freeh. Yes sir, they all are.
    Mr. Kennedy. Who is subject to polygraph? Allof them?
    Mr. Freeh. Every new employee in the FBI since 1994.
    Mr. Kennedy. Have you been polygraphed since you have been 
FBI Director?
    Mr. Freeh. No.
    Mr. Kennedy. Do you plan to submit to a polygraph test 
before you resign.
    Mr. Freeh. One is scheduled.
    Mr. Kennedy. Thank you. I yield back the balance of my 
time.

                              SAVALI CASE

    Mr. Wolf. Mr. Miller?
    Mr. Miller. Mr. Director, thank you for your service to the 
country, and I wish you well in your future.
    Mr. Freeh. Thank you very much.
    Mr. Miller. A couple different questions. One is, I serve 
on the Government Reform Committee, and two weeks ago we had a 
hearing about the FBI's involvement in the Joe Savali case. Are 
you familiar with that one?
    Mr. Freeh. Yes sir.
    Mr. Miller. Mr. Savali was framed for murder and spent 30 
years in prison for a crime he did not commit, and apparently 
the FBI had information which may have helped prove Mr. 
Savali's innocence.
    Is there anything you can say on that case, and on behalf 
of the FBI and the Savali family?
    Mr. Freeh  Well, yes, I alluded to that before, and 
obviously a great travesty, a great failure, disgraceful to the 
fact that my agency, or any other law enforcement agency, 
contributed to that.
    The one thing that I would say with respect to that matter 
is that that particular case, and all of the related cases in 
Massachusetts depicting that tragic period of events and the 
people involved, all of that was investigated and uncovered by 
FBI agents working investigatively to develop cases which has 
led to charges of former colleagues. Maybe not their 
colleagues, but people who were on board.
    The facts of that case have not been particularly sorted 
out. As far as I can see it is the subject of continuing 
investigation litigation. But what I would say, certainly to 
the family and to any victim in such a situation, is there is 
nothing worse that can happen under a system of law is that an 
innocent person is either charged, or in this case punished, 
for that period of time. It is a travesty, a disgrace, it 
shouldn't happen. I do not believe it happens frequently under 
our system, but it does, and when it does it is of the gravest 
concern.
    Mr. Miller. There is a picture of him in the Time Magazine 
article. Is it something that the FBI should have been more 
proactive in trying to help him through the process or do you 
want to comment on that?
    Mr. Freeh. Well he was in----
    Mr. Miller. 30 years. He spent 30 years in prison.
    Mr. Freeh. Well, again, we came into the situation, 
unfortunately, too late, but we did develop, as I understand 
it, we developed with a lot of other people in the U.S. 
Attorney's Office, all of the evidence which has gone now to 
his exoneration. But we are the ones who pick those pieces back 
up. It should have never gotten to that point.

                    FBI INTERNATIONAL ROLE EXPANSION

    Mr. Miller. There was a story about your travels in the 
news the other day, about how you had to expand the 
international presence of the FBI throughout the world. I would 
like for you to comment on that. And when you look at the total 
FTEs and things, it is not changing very much, but you are 
having to expand around the world. I don't know how many total 
people, I have met a few from what I have had in my travels, 
explain a little bit more about why we are expanding so much.
    Mr. Freeh. Sure.
    Mr. Miller. And how much resources are going there, and 
how, because if you are expanding you are going to have to cut 
somewhere else it almost looks like.
    Mr. Freeh. Yes, sir, certainly. We have 186 people 
overseas. 112 of them I believe are special agents. So it is 
not a great deal of resources. We are in 44 different 
countries, and I consider that a modest investment of our 
resources, given the return. I mentioned the case earlier that 
came out of Kenya. Some of the subjects in the case being 
adjudicated in New York were found outside of the United 
States.
    The first FBI agents on the scene, in Kenya and Tanzania 
were my FBI Legats, your FBI Legats from Cairo and Pretoria, 
which were offices that didn't exist five years ago. They got 
to the crime scenes immediately, were able to secure the 
evidence, and start protocols that led to the preservation of 
evidence.
    We had American hostages taken in Ecuador. We negotiated 
for their release. We have also been able to follow up with an 
indictment of the people involved in that recent hostage 
taking.
    Mr. Kopp, again, was found in France. I could give you 
hundreds and hundreds of examples of our success in protecting 
Americans and things that are important for this country, by 
having this very modest presence overseas. Andmy advice to my 
successor, my advice certainly to the Attorney General, the President, 
has been we have got to expand FBI operations overseas, because the 
world is now a different place. Crime is trans-national. Whether it is 
bank fraud, or terrorism, or organized crime, globalization of 
everything requires us to be there if we are going to do our job.
    So my evaluation would be we have too few resources 
overseas at this point. But we have significantly entered the 
international arena in a way that protects Americans.

                     WORKING WITH FOREIGN COUNTRIES

    Mr. Miller. Do you have problems working with other 
countries, as far as having the presence of the FBI within 
these countries, whether it is Ecuador, or France, or wherever?
    Mr. Freeh. That is an excellent question. You know 
everywhere we go outside of the United States it is by 
invitation. I met with President Mandella a couple of weeks ago 
in South Africa. He had asked us, and the current President had 
asked us to train a group of South African police officers whom 
they intended to organize as a Bureau of Investigation, 
modeling it, in fact, after the FBI. We trained two large 
groups of their officers at our training academy in Quantico, 
funded by the State Department. We are welcome with open arms 
in that country because of the value we give to not only 
individual cases, but also the ability to train their police.
    When I was in Ghana, the President of Ghana, President 
Kufuor, was asking about a serial killer, Mr. Chairman, in 
Accra, responsible for killing about 36 women, very, very poor 
women. In response to his request, I sent a team of our 
investigators over there, they solved the case, as far as we 
are concerned.
    Those are the kind of successes that we have overseas. Next 
week I am going to preside over a conference in Eastern Europe 
on the trafficking of women and children. We have organized 11 
countries in that area, which is a key area not only for the 
support of that trafficking but what comes to the United States 
in terms of victimization and crime and exploitation. We are 
going to have a conference on this issue, and then we are going 
to organize a law enforcement response and operational 
capability in the area.So my answer is, we are very, very 
welcome overseas. We can't do anything overseas except by the 
invitation and authority of our host countries.
    Mr. Miller. My sense is that we are, we need to keep 
increasing this area, because of terrorism in our own country, 
or the local nature of our economy. So I hope your successor 
does, and this committee will support that sort of increase.

                        IRA EINHART EXTRADITION

    We have time for one more question. One issue, and we have 
talked before about it, and I have gotten involved, is 
extradition, and I think you brought it up briefly before. I 
talked to you one time a couple years ago about a case that 
took place in Sarasota, a horrible murder, and great law 
enforcement work, and the man was located in Mexico, and it 
took them too long to get him back, and because I got so 
involved in that one, I have gotten involved in some others.
    Mr. Freeh. Yes sir.
    Mr. Miller. I have been working with the Maddox family, 
about trying to get Ira Einhart back. And I know this is not 
exactly your area. I have brought it up with Secretary Palance 
and General Ashcroft, but what can we do to help improve, make 
it easier to extradite people, because it must be frustrating 
for you, and your colleagues in law enforcement, to know you 
have got someone sitting over there, and you cannot bring the 
person to stand trial.
    Do you have any suggestions on what we should----
    Mr. Freeh. Actually I do, and actually it is a suggestion 
you just made, it is expanding our ability to interact on a 
cooperative basis with our foreign counterparts. East Africa is 
a particular example. We were able to get subjects rendered 
quickly and lawfully back to the United States because of the 
law enforcement relationship that we had in that country.
    We can bring tremendous value to the rule of law and the 
new democracies, particularly that are trying to deal with 
these overwhelming problems of crime. I have made this 
suggestion to Secretary Powell, and others, and I think they 
are going to go very, very far with it.
    The basic needs of most countries in the law enforcement 
area are rule of law, expertise, investigative ability support. 
If we can extend that to these countries the extraditions, at 
least the ones that are not barred by constitutional 
prohibition. In some countries there is a bar that we cannot 
overcome unilaterally, but in most cases we can access the 
legal process in a much more beneficial way by having a trusted 
relationship with the law enforcement counterpart, the minister 
of justice, interior, or the executive leadership of the 
country. And that is one way to facilitate not just the 
extradition, but the arrest. To arrest a guy like Kopp in 
France, to arrest Ramzi Yousef, to arrest hundreds and hundreds 
of fugitives whom we brought back to the United States. We 
cannot do that but for the help and support of those 
counterpart agencies. And that is why that is key, Mr. 
Chairman, in the years to come in developing those 
relationships. And what we can give them is what theyneed, 
training, rule of law support, forensic ability, and we will get great 
value in return for that.
    Mr. Miller. That is the one that is in France, is that what 
you are talking about?
    Mr. Freeh. Yes.
    Mr. Miller. Well, I hope they don't keep him as long as Ira 
Einhart. He is living in freedom over there, without even being 
arrested as such. That is real political. And hope in this 
country we have good relationship with them.
    Mr. Freeh. Yes.
    Mr. Miller. Well, good luck to you in the future, thank 
you.
    Mr. Freeh. Thank you, sir.
    Mr. Miller. Thank you for your service.
    Mr. Wolf. Thank you. Mr. Taylor?

                     COMMENDATION OF DIRECTOR FREEH

    Mr. Taylor. I don't have any other questions, but I would 
commend the Director for his visits or his agent's visits to 
the holocaust museum. We sometimes forget that the Bill of 
Rights were not written to protect us from foreign governments, 
it was written to protect us from our own government, and the 
abuses of those government agencies. And I think that that is 
something that you pointed out with your actions, and I hope we 
do that throughout government in the future. Thank you again 
for your service.
    Mr. Freeh. Thank you, Mr. Taylor.

                      SUPPLEMENTAL BUDGET REQUEST

    Mr. Wolf. Thank you. I have some other questions and we 
will recognize Mr. Serrano and then we will try to wrap up as 
quickly as we possibly can. We have another hearing and that 
begins actually at 2 o'clock.
    Are you going to be asking for a supplemental? McVeigh, 
Hanssen, anything else, any reason?
    Mr. Freeh. I think in the counterintelligence area we have 
brought up with both intelligence committees enhancements we 
would like to address in the security program area. Both 
positions, as well as funding. But we have not formally gone 
through that process. The other area, Mr. Chairman, quite 
frankly, is in the information assurance area.
    Trilogy is going to work, but it is not going to be the 
best IT system in the world. It is going to be a good one, it 
is going to work well, it is going to adapt, and we are going 
to build upon it. But the system as it currently exists does 
not have the information assurance protections in it that we 
would like to obviously incorporate, given the experience in 
the Hanssen case and other matters. So that is another area. I 
would say those two areas.
    In the counterterrorism area, I do not know that we would 
ask for a supplemental. I mean our great concern is, again, God 
forbid, the next USS Cole, and having to mount the kinds of 
resources that are necessary there. But I don't really have a 
position on that today.
    Mr. Wolf. So that decision will be made by----
    Mr. Freeh. By the Attorney General, yes sir.

                         OPENING OF THE FBI LAB

    Mr. Wolf. The FBI Lab, when do you expect it to be open?
    Mr. Freeh. We expect the construction to be completed 
toward the beginning of next year, and occupancy next summer. 
Under budget, I mean not under budget, but not over budget. And 
I run around the place every other week, and it is coming along 
very well.

          INTERNET AND CHILD PORNOGRAPHY UNDERCOVER OPERATIONS

    Mr. Wolf. Child pornography, can you talk a little bit 
about it, what you are doing with regard to cracking down on 
it, and regarding the internet, have there been as many 
prosecutions coming in the last 8 years as there should have 
been?
    Mr. Freeh. We have done a very, very robust enforcement 
job, particularly in respect to the child pornography. Innocent 
Images is the case that I would refer you to. We have had a 
thousand convictions in the last couple years, and these are 
the most egregious offenders, we call them the travelers, the 
people who meet and introduce themselves to children and 
attempt to meet them in places for sexual exploitation. We have 
had a thousand of those convictions. We have got about 30 
agents who work on this full time. We have got operations, in I 
think about a dozen or more offices around the country. We 
could do more.
    Mr. Wolf. Has this been a priority with U.S. Attorneys?
    Mr. Freeh. Yes, this has been a priority with U.S. 
Attorneys. What we find, quite sadly, is that we don't seem to 
be, in other words we go onto these, we go into these 
undercover operations, and it is well known we operate in this 
area. We don't seem to be having an deterrent effect.
    Mr. Wolf. Is there anything else we should be doing?
    Mr. Freeh. Well, I think, you know, under the law 
enforcement side, we certainly could do a better liaison job 
with some of the owners of this media, the Internet Service 
Providers (ISPs). We work very well with them right now. There 
are probably a whole bunch of little ISPs that we don't work 
with well.
    Mr. Wolf. Have you had a conference with them and asked 
them all to come in and sit down with them?
    Mr. Freeh. I am not sure that we have done that. That is a 
good suggestion. We work with the main ones very well. It is 
the proliferation and great numbers of others that we could 
really use some assistance, so let me look into that.

                     GAMBLING IN THE UNITED STATES

    Mr. Wolf. That might be a good idea. Could you talk a 
little bit about gambling. I have been, personally, very much 
concerned with the spread of gambling in the country. It is 
running rampant. My sense is that there haven't been very many 
prosecutions. Could you talk a little bit about anything with 
regard to Indian gambling, non-Indians taking over, anything 
about internet gambling? Do you have any comments about that?
    Mr. Freeh. We have actually followed up from your 
conversation, speaking both to the FBI investigators and 
Department of Justice lawyers. We have looked at the materials 
that we were given, and have actually decided that some of 
those leads in some of those areas can be and will be pursued.
    The area of gambling is a very, very difficult proposition 
for us. There is a lot on uncertainty in the community about 
what the ambits of the jurisdiction would be, the venues where 
these would be prosecuted. I think we need, within the 
Department of Justice, some stronger guidelines.
    Mr. Wolf. Well should they not take a look at this? It 
seems to me the last administration just never really looked at 
this.
    Mr. Freeh. It should be looked at.
    Mr. Wolf. Yes, it should be looked at. I raised it with 
Attorney General Ashcroft, but if you could make sure that they 
look at it. It was always the excuse that we do not have enough 
laws, but I think there is the law there, and if you would look 
at it, I would appreciate it.
    Mr. Freeh. I will do that.

                        COLLEGE SPORTS GAMBLING

    Mr. Wolf. The other issue, do you have any comments with 
regard to NCAA gambling? There have been a number of coaches 
that have approached the Congress, Joe Paterno, Coach Bowden, 
all the coaches, frankly, I do not think there is a coach that 
has not come out in support of closing down a loophole 
currently in Las Vegas where it is the only state where you can 
gamble on NCAA sports.
    Any comments you have about NCAA gambling, and gambling? 
Because if we begin to corrupt the process on Saturday 
afternoon.
    Mr. Freeh. Yes, I would fully support and endorse their 
position. I think from an enforcement point of view it is an 
area that should be contained. It would be very difficult for 
us to be pursuing cases in that realm.
    Mr. Wolf. So it would be a good idea to shut down that 
Nevada gambling. Because that is the only state that allows 
gambling on NCAA sports. It is against the law in the other 49 
states to gamble on NCAA sports and college sports and high 
school sports and Olympic sports.
    Mr. Freeh. That would be my view, sir. But again I do not 
speak for the Department at this point, certainly.
    Mr. Wolf. I understand, but it would be good to close that 
down.

                           SEXUAL TRAFFICKING

    The sexual trafficking issue, can you tell us what 
countries are the big sources? I read the report that came out 
a couple weeks ago which said that there were 50,000 victims 
that come to the United States, they take their passports away, 
they are basically slaves, if you will.
    Can you tell me what countries are involved with 
trafficking, mainly, Albania, the Ukraine?
    Mr. Freeh. Yes, Moldova, the Ukraine, Russia, Eastern 
Europe have been primary sources of the trafficking, 
particularly now as it is affecting not just Europe but the 
United States. A good portion of the organized prostitution in 
New York City is organized by Russian gangs. It is an area that 
we are very engaged in. There are Asian trafficking 
organizations in this regard, and also African ones.
    The purpose of this conference next week, which is going to 
be in Bucharest----
    Mr. Wolf. Can you tell me the countries that are going to 
be there?
    Mr. Freeh. There will be 11 countries, they are part of the 
Southeastern Europe Cooperative Initiative (SECI) organization.
    Mr. Wolf. Is Albania going to be there?
    Mr. Freeh. Albania will be there, Italy will be there, 
Hungary.
    Mr. Wolf. Any countries not going to be there that should 
be there?
    Mr. Freeh. I do not know. Let me get the exact roster for 
you. But the purpose is to not just discuss the problem, 
everybody knows it is a problem, it is to organize a regional 
law enforcement capacity, which we do not have. The only 
regional law enforcement structure there is SECI, the 
Southeastern Europe Cooperative Initiative, which I think you 
are familiar with.
    Mr. Wolf. Yes.
    Mr. Freeh. It has gone mostly to borders and customs. We 
want to change it into the trafficking area, and we think this 
is a good area to get some prosecutions going.
    Mr. Wolf. I would urge you to prosecute, if 50,000 women 
are exploited per year in coming into this country, and not 
counting Italy and not counting many of the other countries, 
that is a crime against humanity. So that Iwould urge, there 
has been a lot of talk that the Congress has acted to pass the 
legislation, but I would urge that the prosecutions begin, because 
these women are victims, when you read the case studies and the 
stories.
    Also, there has to be something put together to take care 
of them as they come to this country, because many don't speak 
the language.
    Mr. Freeh. We share that, Mr. Chairman. If I could just add 
on here, you will see, not only as a result of this conference, 
but we have been discussing this for some time, a major 
initiative in the Bureau directed at this, because it is not 
only an international problem, it is as you point out, directly 
affecting us here.
    Mr. Wolf. And in cooperation with the State Department.
    Mr. Freeh. The State Department and foreign law enforcement 
agencies, which again is why our Legats are so important.

 List of 11 Countries Participating in Southeastern Europe Cooperative 
  Initiative (SECI) International Trafficking Conference in Budapest 
                            During May 2001

    The following is the list of countries participating in the 
SECI International Trafficking Conference in Budapest in May 
2001: Albania, Bosnia Herzegovina, Bulgaria, Croatia, Greece, 
Hungary, Moldova, Macedonia, Romania, Slovenia, and Turkey.

                               ENCRYPTION

    Mr. Wolf. I am going to finish up in a minute and recognize 
Mr. Serrano to close if he has any comment. But a little bit 
about encryption?
    Mr. Freeh. You know, I leave with unfinished business, at 
least in terms of my objectives there. I am sorry to say that 
the technical support center, which the Congress authorized in 
1995, has never been funded. That would be the civilian, 
transparent, law enforcement center of expertise, where we 
could start solving some of these encryption problems.
    We have not begun to address the problems in that area. The 
Cyber Electronic Surveillance Act statue, which was brought up 
to the Congress last year, was never acted upon. That would 
have provided the statutory protections for the companies and 
the industries that could help us on a voluntary basis to get 
some of this plain text type of access. They are not going to 
do it in the absence of those protections.
    So unfortunately, I am not criticizing the Congress, but 
nothing has been done since I have been Director, to deal with 
the encryption problem, and it is a problem which will digest 
and envelope our entire ability to do sophisticated 
investigations. Industry wants to help us, but there has got to 
be a vehicle, and there has got to be some initiative by the 
Congress to facilitate that.
    Mr. Wolf. Well, we will try to help. I hope the Congress 
does do something, because the technology is rapidly growing 
and changing, and I think if we do not deal with it now it will 
just overcome us, and I think for instance--well, I will not 
get into it.
    We will have a number of other questions that we will 
submit for the record, and like I said, we have another hearing 
and there is a vote on.
    I am going to recognize Mr. Serrano. Let me just say, I 
want to, just what I said as I opened up here, just to repeat, 
the task here as I view it is to fix the problems and to ensure 
that the FBI can do the job. I think you have been somebody of 
integrity and honesty.
    Bad things happen in everyone's life like that. I think 
working together, you know, I think we can go a long way to 
solve these problems, and I wish you well.
    Mr. Freeh. Thank you Mr. Chairman.
    Mr. Wolf. While I do not always agree, I think we have a 
lot of issues, but I think your people overall do a pretty good 
job, and I want you to take back the appreciation that the 
Congress have for them.
    Mr. Freeh. Thank you, it means a lot to them.
    Mr. Wolf. Mr. Serrano.

                             2002 OLYMPICS

    Mr. Serrano. Thank you, Mr. Chairman, I just have a couple 
of quick questions.
    First of all, what can you tell us about the planning for 
the 2002 Olymics?
    Mr. Freeh. We have, of course, requested a 12 million 
dollar appropriation in the FY02 budget, in furtherance of that 
preparation.
    We have three FBI squads that are being established, are 
established. One is for planning, one is for intelligence, one 
is for the operations center. We will probably have about 800 
of our personnel deployed there prior to the games.
    We have a dozen venues, we have activities spread around 
several thousand square miles. We have worked very, very well 
with the state and local community there, where the Secret 
Service has the lead because it has been designated as a 
National Security Special Event.
    The planning is going well, as far as I have been told, and 
my visit out there some time ago now, the briefings.
    The key part, as we saw in Sydney, and also with the 
various International Monetary Fund events around the country 
and around the world, is the intelligence center and the 
ability to, here we are at the end of my hearing, talking about 
collecting information and retrieving it and having it all in 
the right place. That is going to be the key to the success of 
the counterterrorism planning and operations there.

                   VICE PRESIDENT'S TERRORISM REVIEW

    Mr. Serrano. One last question. When do you expect the 
Vice-President to have a final terrorist response plan and, 
given reports of FEMA's expanded responsibilities, what is the 
FBI's new role with regard to terrorist response?
    Mr. Freeh. I think they were talking about an October date, 
and I may be wrong about that but I think I heard reference to 
some type of October report.
    We are very pleased to not only share but perhaps to evolve 
to FEMA some of the prior preparedness issues. What we want to 
preserve, and what I understand from the announcement will be 
preserved, is our crisis management response. We want to be the 
investigators on the scene immediately collecting the evidence 
to preserve the case.
    That should always be secondary to public safety, the 
protection of the people involved in those kind of incidents, 
and if it is a choice between managing the effects of something 
and preserving the investigation, we obviously disappear. We 
take second fiddle to that.
    But in a normal situation, we want to have and maintain the 
crisis management responsibility, which is the dealing of the 
investigative part, negotiations, the follow up. I think we can 
work very well with FEMA, as long as there is a will on both 
sides, and I believe there will be, there has been in the past, 
to integrate those two functions, and not have one surpass the 
other.

                               CONCLUSION

    Mr. Serrano. Thank you. Let me just in closing, Mr. 
Chairman, say to Director Freeh that I think a lot of folks who 
came here today to cover this hearing for the media expected a 
very angry hearing, and in turn they saw members of a committee 
who have a lot of respect for your work, and who believe, as I 
do, and I know Chairman Wolf does, he just said it, that the 
best way to deal with issues like the ones we are dealing with 
is, yes, to be critical, but to be helpful, to give of our 
energies to see how we can solve these problems so that you 
don't continue to have problems.
    Let me ask you one last quick question, where is home after 
this?
    Mr. Freeh. It is the Chairman's district. It's a good place 
to live.
    Mr. Wolf. He actually lives a little bit in Virginia, too.
    Mr. Freeh. But I will say for the record that if I could 
negotiate my way back to New York City I would do it. I don't 
think it is in the cards for me, but if I could, that is where 
I would like to go.
    Mr. Serrano. Well, in either place we wish you the best, 
and again I reiterate my respect for you and the fact that on a 
personal basis you have dealt with some issues that my 
community needed to know about, and you dealt with the truth, 
and notwithstanding all of the difficulties right now you have 
been a good director, and I appreciate the work you have done, 
and as Mr. Rogers said we are going to miss you.
    And good luck in Mr. Wolf's district.
    Mr. Freeh. Thank you both and your courtesy to me.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                            Thursday, May 17, 2001.

                    DRUG ENFORCEMENT ADMINISTRATION

                               WITNESSES

DONNIE R. MARSHALL, ADMINISTRATOR
FRANK M. KALDER, CHIEF FINANCIAL OFFICER

                           Opening Statement

    Mr. Wolf. I will not have an opening statement. Although I 
have one, I will just submit it for the record in the interest 
of time. You can proceed however you see fit. I will say one 
thing and then refer to Mr. Serrano.
    I appreciate very much the good work that you and your 
people have done over the years. This is a tough issue. I think 
no one has the complete answer, but certainly enforcement is a 
portion of it. Education is very equally important as 
rehabilitation, but I just want in whatever way the questions 
will take us, wherever they go, to let you know that I 
appreciate your service and also the men and women of the DEA.

              Number of agents killed in the line of duty

    Mr. Marshall. Thank you.
    Mr. Wolf. I know that you have lost a number of people. How 
many people have you lost over the years?
    Mr. Marshall. Sir, we have lost 41 people during my tenure 
as an active duty employee of DEA. The total going back to the 
history of predecessor agencies is probably about twice that. 
We started keeping those records in the 1920s.
    Mr. Wolf. And do you have a monument and a memorial for the 
men and women?
    Mr. Marshall. We do, yes.
    Mr. Wolf. I know, there have been a number of deaths and I 
know some have been very difficult at best, too, so I just want 
to get that on the record to thank you and thank your people 
and also to thank their families for the fact that they were 
willing to do what they had to do.
    With that I will recognize Mr. Serrano.

           Congressman Serrano's Appreciation for DEA's Work

    Mr. Serrano. Thank you, Mr. Chairman. I also have an 
opening statement that I will submit for the record for time 
purposes, but I also want to thank you, sir, for the work you 
have done for our country and thank the people that you serve 
with and that serve with you.
    I would agree with the Chairman. I would go a step further 
to say that there are other agencies that are as important as 
yours, but I do not know too many that are more important in 
terms of what your final result can be with the work that you 
do and the effect it can have. And certainly in a community 
like mine in the south Bronx, the work you do can mean all the 
difference in the world.
    We want to thank you for your service, and we are looking 
forward to your testimony.
    Mr. Wolf. You may proceed. Your full statement will appear 
in the record. Proceed as you see fit.

                  Donnie Marshall's Opening Statement

    Mr. Marshall. Thank you, Mr. Chairman and Congressman 
Serrano, for your kind remarks. It is very important that we 
remember those who have given their lives and, just as 
importantly, remember their families. It is, of course, 
National Police Week, and we had a memorial for our own DEA 
employees last Friday, so those comments were very timely.
    I appreciate the opportunity to be here today, and I want 
to thank this committee for your ongoing support, to all of the 
dedicated and courageous men and women, 9,000 of them, of DEA.
    As the premier drug law enforcement agency, it is our 
mission to identify and dismantle drug trafficking 
organizations wherever they operate in the world. Throughout 
the United States and the world, DEA is at the cutting edge of 
law enforcement, particularly drug law enforcement, and we are 
continuously adapting our methods of operation to the dynamics 
that we see from the criminal drug trafficking organizations.
    DEA's efforts have in fact had an impact on global drug 
trafficking. I look at the demise of the Medellin and Cali 
cartels, and I believe we can show that is due, in very large 
part, to DEA's aggressive law enforcement efforts, our 
investigations, our longstanding domestic and international 
cooperative efforts with law enforcement, not only in this 
country, but in other parts of the world.
    Our successes against the southeast Asian drug groups has 
all but eliminated southeast Asian heroin from the United 
States market. We have had an impact on the Mexico based 
methamphetamine organizations, and that, in fact, has resulted 
in a decrease in purity of methamphetamine coming out of the 
laboratories that are operated by those Mexican based 
trafficking groups.
    Despite all of that good news, we have many, many 
significant challenges ahead. Colombian based traffickers, for 
instance, now dominate the heroin market in the United States, 
and Mexican organizations have evolved, into the most 
significant law enforcement challenge that we see in this 
country today, and perhaps even in the history of our country.
    Along with the traditional drugs of abuse that we have seen 
in this country, cocaine, methamphetamine, marijuana and 
heroin, we see new drugs starting to emerge, methamphetamine, 
ecstasy, oxycontin. We will no doubt talk a bit more about each 
of those as the hearing goes on.
    To address those new challenges, DEA relies very, very 
heavily, as you have suggested, on the dedication and the 
integrity of our 9,000 employees, and particularly on our 
cooperation with other law enforcement agencies. We also rely 
very much on the support that we have received from this and 
other congressional committees, and I thank you for that.

                           DEA Budget Request

    Now, in this context, let me briefly summarize the 2002 
budget request that we have before you today. Our salaries and 
expenses appropriation request totals $1.5 billion, and it 
totals 7,654 positions. This will be the totals that this 
year's budget brings us to. That is an increase of about $120 
million over the 2001 enacted levels and 134 positions that we 
have placed in three separate program initiatives.

                  Special Operations Division Request

    The first initiative that we are seeking consists of $15.1 
million and 62 positions for the special operations division 
(SOD) and the Communications Intercept Initiative. The SOD is 
designed to coordinate multi-agency, multi-jurisdictional, even 
multi-national investigations, aimed at the command and control 
elements of the major international drug trafficking 
organizations that are affecting this country. We target their 
operations both in this country and overseas.
    The SOD has become, in my opinion and in the opinion of 
virtually everyone in DEA, the most effective tool that we have 
against the drug kingpins, so to speak, the command and control 
elements of the major drug trafficking organizations.
    The resources that we are requesting will beused to enhance 
staffing levels at the SOD in some investigative units that focus on 
the Southwest Border, Latin America, the Caribbean, Europe and Asia, as 
well as the elements of those organizations that operate here in the 
United States. It also augments our funding base for contract linguists 
and communications intercept equipment and technical support personnel; 
a very important initiative for DEA.

                        FIREBIRD FUNDING REQUEST

    Secondly, we are requesting an enhancement of $30 million 
and three positions for our Firebird network. That network, 
FIREBIRD, is the primary office automation infrastructure. It 
serves as our communications ``backbone'' for many things: our 
intelligence network, other mission critical databases and 
operational systems, intelligence systems.
    We are requesting funding to complete deployment of the 
FIREBIRD system, to provide network security, and to support 
technology renewal of the system so that outdated equipment, 
and software can be replaced on a regular schedule.

            Laboratory Operations Initiative Budget Request

    Third and finally, we are requesting $13.1 million and 69 
positions for our Laboratory Operations Initiative. That will 
help us meet mission critical requirements within our 
laboratory services program. Our forensic chemists provide a 
variety of essential services, including drug and evidence 
analysis, on-site safety-related assistance for clandestine 
laboratory seizures, crime scene investigations, and courtroom 
testimony that will support prosecution efforts, which is 
ultimately the end result of virtually everything we do in this 
agency.
    I believe that the resources we are requesting in these 
three initiatives will enable us to more effectively meet our 
mission requirements, and it will enable us, to better 
identify, immobilize, investigate, indict and convict, and 
support the prosecution of drug offenders through all of our 
activities.
    That, Mr. Chairman, concludes my remarks, and I will be 
happy to answer questions at this time.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                     Mr. Marshall's Tenure at DEAL

    Mr. Wolf. Thank you very much. We have a number of 
budgetary issues. This is my first time on this subcommittee, 
and I just want to ask you about a couple of policy issues, 
too.
    When do you leave, Mr. Marshall? When are you leaving the 
agency?
    Mr. Marshall. I have been asked by the Administration to 
stay for a brief, but reasonable, transition period until my 
successor, Congressman Hutchinson, is confirmed.
    My estimate on that is two to three months. That is only an 
estimate. I do not have any inside information on that, and I 
will stay either until he is confirmed, or until I sort out my 
own personal future.
    Mr. Wolf. Are you going back to Texas? You are from Texas, 
correct?
    Mr. Marshall. I am from Texas. Yes, sir.
    Mr. Wolf. Are you going back to Texas?
    Mr. Marshall. My desire is to either stay in this area or 
go back to Texas. We have many friends, and I have had many 
pleasant experiences in both places. I am originally from 
Texas. We still have family there, but we love this area as 
well. I hope to either stay here or go back to Texas.
    Mr. Wolf. It is a good area. Of course, Texas was really 
founded by a lot of people from this area.

                     Shooting of Peruvian Airplane

    Mr. Marshall. Yes, I know. My ancestors, as a matter of 
fact, were from Virginia. They came here in 1711.
    Mr. Wolf. I never knew why they left. I have been in 
traffic in Houston. I just say what were they doing when they 
left the Shenandoah Valley and came here?
    Not that you have not always been candid, but with you 
leaving sometimes the opportunity of being more candid arises. 
Can you help me a little bit or explain a little bit with 
regard to the shooting down of the airplane? I know it is being 
investigated. Did we know or did the Peruvians know? Just some 
comments about that. Help us out.
    Mr. Marshall. I will explain what I know about that. First 
of all, I want to emphasize that DEA was not involved----
    Mr. Wolf. No. I understand
    Mr. Marshall [continuing]. In the planning of that 
operation nor the execution of that operation. It is my 
understanding that a number of years ago we worked with the 
government of Peru to implement what is called an Air Bridge 
Denial Program.
    If we look back historically, we see that originally 
probably half of the world supply of cocaine came out of Peru. 
We did a number of things; eradication, Air Bridge Denial. 
DEA's role in the country was criminal investigations, as it is 
in virtually all the places that we are. There were crop 
substitution programs. There were aid programs.

                DEA's Role in Air Bridge Denial Program

    The Air Bridge Denial Program was designed, and it was a 
program that was operated by the Peruvian Air Force with 
assistance from other government agencies. What DEA's role was 
in that Air Bridge Denial Program was simply to provide 
intelligence information, to the extent that we could, about 
the movement, the trends, and, in some cases, the actual 
aircraft identification numbers, and, in some cases, actual 
times and places of drug flights. That was the extent of our 
role.
    In this particular case, we did not provide any 
intelligence information. We were not involved in that shoot 
down in any way, shape, form or fashion. Beyond that, I only 
know what I have heard other people testify to from other 
agencies and what I have read in the newspaper.
    I will say, however, that it was a very tragic mistake. My 
heart goes out and my prayers go out to the families and the 
friends of the people that died unnecessarily in that incident.
    Whatever we do in our anti-drug programs in Peru and other 
countries, we must do everything we possibly can to prevent 
that from happening again. It is unacceptable to have that kind 
of tragedy happen in the fight against drugs.
    Mr. Wolf. Will there be an official report that is released 
by our government?
    Mr. Marshall. It is my understanding that the Department of 
State is heading up an inquiry into that. There was a team that 
went down there. DEA did not send a representative on that team 
because of our lack of involvement in the operation.
    We did, however, once that team was in country, it is my 
understanding that some of our DEA people talked to them and 
told them what our involvement was and was not. It is my 
assumption, sir, that at some point there will be a formal 
report filed by the State Department.

                            DEA Deployments

    Mr. Wolf. Are all of the DEA's deployments based on need or 
does political involvement come into where DEA goes?
    Mr. Marshall. Well, yes. I think your question is clear. 
Let me try to answer that. If I do not quite get there, you can 
ask me for clarification, if you will.
    We predominantly base our deployment on threat assessments 
and how we see the drug trafficking in the world, how we see 
the trafficking in the United States, who the organizations are 
that are doing harm to this country and where they operate, and 
how they operate.
    Very simply put, we have a strategic plan which I have 
revamped in a major way recently which calls for us to identify 
the threat up front. Then we identify the organizations that 
are doing the most damage to our country and in what drug 
areas. We then identify the organizations' command and control 
structure, their method of operation, how they communicate, how 
they launder money, how they bring drugs into the country, how 
they distribute those drugs, how they provide security, how 
they provide transportation, all of those things.
    We try to identify that in as much detail up front, and 
then what we do is assess the organizations' weaknesses and how 
we can go about best impacting those organizations. We may do 
that from time to time against their transportation structures. 
We may do it against their communications structures. We 
always, however, have the ultimate goal of taking out the top 
level command and control, the kingpins as it were, for lack of 
a better word, and through, doing that, dismantle the entire 
organization. We place our resources, theoretically, where we 
believe that we can have the most impact.
    Now, having said that, certainly there is a need for DEA 
resources in many, many places. Congressman Rogers, for 
instance, probably needs more resources in Kentucky to address 
some of the issues there. I am sure your district could use 
some more resources.
    What we try to do is have a balanced approach and have our 
agents and offices throughout the country, and in many foreign 
countries, so that we can connect up what is happening in 
London, Kentucky, with what might be happening in Guadalajara, 
Mexico. Then we conduct overarching investigations to try to go 
against the whole organizations that are in that continuum.
    Mr. Wolf. That is half of the question. The other half is 
you have never been pulled off of an area that you think you 
should be in? I was more referring to that. There has never 
been an area that they said this is an area that we have to 
deal with?
    Mr. Marshall. Not to my knowledge, sir, no.
    Mr. Wolf. You have never----
    Mr. Marshall. I mean, have we ever been pulled off 
somewhere?
    Mr. Wolf. Yes.
    Mr. Marshall. No, not to my knowledge. There is always 
competition for resources.
    Mr. Wolf. But that is always in a positive sense. Somebody 
needs it for their congressional district to have you in to 
crack down, but I was referring more to the other side, too. 
You are not pressured not to go somewhere or not do to----
    Mr. Marshall. I have never been pressured not to go 
anywhere or not to conduct any particular investigation either 
on an overall scale or on an individual scale.

                           Human Intelligence

    Mr. Wolf. The other issue I wondered, and then I will 
recognize Mr. Serrano, is how important is human intelligence?
    I saw the article. Last year I was chairman of the 
Subcommittee of the Coast Guard, and we try to give Admiral Roy 
as much as we possibly can. Well, they made that seizure off 
the coast of San Diego. The reports looked like they were 
pulling the boat apart for days. You do not pull boats apart 
for days if you do not know that there is something on the boat 
or else you are going to have a problem.
    How important is human intelligence to what you do?
    Mr. Marshall. It is very important. In fact, it is not only 
important. It is essential. We have basically two major ways 
that we get our intelligence, human sources and attacking the 
communications structure of the organization. Only by using 
those two methods in tandem with each other, and to compliment 
each other, can we have the most effectiveness.
    In a lot of those seizures that we have seen, and the most 
recent one being an example, they are very, very often--in fact 
the vast majority of the time they are a result of prior 
intelligence information, and in the majority of the cases that 
prior intelligence information comes from DEA or other agencies 
that we work with.
    Mr. Wolf. Do you have adequate resources for that human 
intelligence? I see in the debate with the CIA a lot of other 
things. They think they are deficient sometimes in human 
intelligence, but there has been a change of emphasis. Do you 
think we have enough, that we put enough resources----
    Mr. Marshall. Congressman, we can never have too much, or 
we can never really have enough intelligence information. We 
constantly want and need more.
    Part of the budget request that I have put in for this year 
and that is before us, the Special Operations Division and 
Communications Intercept Initiative. That is very directly an 
intelligence initiative.
    Were I staying, I would very likely in future budget years 
be requesting other initiatives and other things to enhance our 
intelligence capability. One of my big priorities was to 
enhance our intelligence capability, both human intelligence 
source and other sources.
    Mr. Wolf. If I were going to ask another question, I would 
ask you about the issue with regard to the false arrests down 
in Puerto Rico. I do not know if my colleague will ask that 
question or not because I know he similarly takes a keen 
interest.
    If he does not, we will come back and deal with that issue, 
but I will refer to Mr. Serrano.

                     Flow of Drugs in the Caribbean

    Mr. Serrano. Thank you, Mr. Chairman. Thank you for being 
with us today. Part of your first set of questions, Mr. 
Chairman, is where I wanted to go also.
    I know we discussed the Caribbean area quite a bit at last 
year's hearing. Newspaper accounts claimed that the flow of 
drugs was shifting east and that smuggling was increasing 
through the Caribbean. First of all, could you tell us if that 
is the way it is now, is the Caribbean still a main focal point 
for the flow of drugs?
    Secondly, in general, and I have some specific questions, 
but in general what role is the Commonwealth of Puerto Rico 
playing--not the commonwealth, but the island--as a place where 
you can drop off or whatever? I ask that because of the unique 
relationship with Puerto Rico. It is under the American flag.
    What challenges do we have there, and what challenges in 
general do we have in the Caribbean?
    Mr. Marshall. Okay. Let me start by commenting on the flow 
first. As we see it, the predominant transit zone is still 
through Mexico and Central America. Now, within that we have--
and it is my recollection that our estimate is some 62 or 63, 
perhaps 65 percent in the aggregate of the Colombian/South 
American supply is going through that Mexico/Central America 
corridor.
    Now, of that, the eastern Pacific recently has become the 
predominant smuggling route. In fact, the 13 tons that we 
seized a week or so ago was in the eastern Pacific. The other 
major route through Mexico and Central America is the western 
Caribbean, and, between the two of them, they account for 60 or 
65 percent of the total flow.
    Having said that, let me concentrate a little bit on the 
Caribbean. Of that remaining 35 to 40 percent that is coming 
through the Caribbean, what we see are three basic routes. You 
have the central Caribbean route and the eastern Caribbean 
route, and I have already commented on the western Caribbean 
route.
    The Colombian traffickers predominantly use what we call 
``go fast boats'' to come directly off the coast of Colombia to 
go up to such places as Jamaica, Haiti, the Dominican Republic, 
and those are used for staging areas then to either smuggle the 
drugs to Puerto Rico or the U.S. Virgin Islands, and then on 
into the United States, or in many cases directly into the 
United States.
    We have some aggressive interdiction operations down there 
that we conduct with Customs and the Coast Guard. DEA is very 
involved in many of those Caribbean countries in terms of 
gathering intelligence, and conducting cooperative 
investigations. It is difficult in some countries, but in some 
of the countries we have had quite a bit of success.

                      Flow of Drugs in Puerto Rico

    Now, with regard to Puerto Rico itself, I think that from 
what I see, I think that it is a major transit zone. The 
attractiveness of it being that once you get the drugs into 
Puerto Rico or the U.S. Virgin Islands then it is a free ride 
on into the States without Customs inspections and that sort of 
stuff. It is very easy to smuggle it, concealed in passenger 
aircraft or with actual air travelers or in luggage, or in 
commercial shipments, commercial cargo shipments, that sort of 
stuff.
    Puerto Rico plays a major role in the traffic through the 
Caribbean.
    Mr. Serrano. What can be done, or have you looked at what 
can be done, to curtail the flow that comes through Puerto Rico 
and the Virgin Islands without stepping on the toes of the 
Constitution or how we treat people?
    You know, one of the problems we have is that you do not 
want American citizens who live in Puerto Rico who are leaving, 
let us say, to go to New York or Orlando to be treated 
differently than you treat a Texan going to Puerto Rico.
    Mr. Marshall. Sure.
    Mr. Serrano. On the other hand, we do have this problem. 
What have you looked at that stays within constitutional rights 
and still deals with the problem?
    Mr. Marshall. Well, you can do a number of things, and we 
are doing a number of things very aggressively and in many 
cases very successfully.
    First of all, you need to understand the DEA role. We are 
not an interdiction agency per se. Our main purpose is not to 
take drugs off the market. Our main purpose is to identify, 
investigate and dismantle through criminal prosecutions the 
leaders of the organizations, thereby destroying the 
organizations.
    Now, where we do get involved in interdiction is very often 
our investigations either give us information that results in 
some other agency seizing drugs or results in DEA seizing 
drugs. We work with the Coast Guard and with the Puerto Rican 
police department. We work with Customs and the FBI. We work 
with foreign governments throughout that region. Again, DEA's 
role is conducting criminal investigations.
    What we try to do is to identify the smuggling methods in 
as much detail as we can give to the interdiction agencies, and 
when they make these seizures that is the end game for the 
interdiction agencies, but it is really the beginning for DEA. 
We will take what we learn out of those seizures, whether it is 
from an aircraft or whether it is from a vessel or whatnot, and 
through debriefing the people that are on those vessels or 
through looking at their navigation systems or in some cases 
through looking at computers or personal digital assistance, 
those kinds of things, we come up with a lot of information 
that then leads us to the organizations, leads us to the 
kingpins, so that is one of the things that we can do.
    Another thing we can do is the activities of the 
interdiction agencies themselves. The Coast Guard is very 
active there. Customs is very active there. We even have 
branched out in many cases to working with the Dominican 
Republic authorities, the Haitian authorities, to try to look 
at the immigration problems there and how that affects drug 
trafficking; not directly a DEA responsibility, but it kind of 
impacts on the whole picture.
    Those are the kinds of things that we do, sir.
    Mr. Serrano. You say Customs and who else?
    Mr. Marshall. Customs, Coast Guard, Puerto Rico PD, the 
host country nations, JADAF East, the Interagency DOD Task 
Force. All of those play in the arena.

               DEA Arrests vs. Puerto Rico Police Arrests

    Mr. Serrano. The question that the Chairman was referring 
to is the report in the Miami Herald that claims that you folks 
are investigating an allegation that DEA agents were claiming--
the San Juan DEA office in Puerto Rico was claiming--hundreds 
of arrests that were in fact made by the local police.
    How is that investigation going, and what can you tell us 
about it?
    Mr. Marshall. Well, I will tell you everything I know about 
it, sir.
    It first came to my attention that there was a problem 
there back during fiscal year 1999 when we did an inspection by 
our internal auditors as it were; not financial auditors, but 
they go out and audit our programs for effectiveness. They 
audit our record keeping, audit our compliance with regulations 
and that sort of stuff.
    That team that went out in fiscal 1999 discovered that in 
fact that there were some arrests that had been counted that 
should not have been counted. The explanation that was given 
was that those arrests were generally a part of where we were 
in cooperative arrangements or in some cases formal and some 
cases informal task force arrangements with other agencies.
    One particular example that was given me was that we were 
in a HIDTA task force in the Virgin Islands and that one of the 
problems that that HIDTA was looking for--HIDTA is a high 
intensity drug trafficking area. One of the issues that the 
HIDTA was looking at was how immigration affects the drug 
problem through there and that there were a number of 
immigration arrests that were made that were counted in those 
DEA stats.
    The inspection team did not feel, that those were supported 
as DEA arrests because they truly were not drug investigations. 
They were not drug violations, and yet they were things that 
the DEA office had been working on in conjunction with 
immigration. That is one way that the confusion happened.
    We issued a significant schedule finding. That is a 
deficiency report that the inspectors, our auditors, go out and 
issue. We directed the Special Agent in Charge of that division 
to clean up those statistics. It was reported to me that that 
was being accomplished, that the record keeping was being 
corrected, and apparently there were efforts to correct that 
record keeping for that particular calendar year.
    I have been laboring then under the assumption that that 
problem was an honest mistake because that was pretty much the 
report that I got back; that it was not through intention, but 
it was through misunderstanding or perhaps the desire to 
properly count our efforts.
    Then I learned back in January or February of this year 
that there was still some interest in this issue by a reporter, 
and I believe who was from the Miami area. As a result of 
questions that this reporter had asked DEA employees, I began 
to wonder and came to doubt whether that whole issue had been 
sufficiently cleaned up.
    I ordered, beginning back in February, a management review, 
and that is ongoing. I have appointed a management team 
consisting of a very senior Special Agent in Charge, an 
Assistant Special Agent in Charge from our Washington Division, 
supported by record keeping people, and administrative people 
from headquarters to conduct that investigation.
    They have looked at records. They have interviewed a number 
of people. They still have a number of people to interview and 
a number of records to look at, and I do not have a final 
report. I do not even have an overwhelming opinion right now as 
to whether we are going to find more things that were improper 
or not, but I assure you that the integrity of DEA is valuable 
to me.
    It is unacceptable that we not have integrity and accuracy 
in our record keeping system, and I will take whatever action I 
need to take if I find that there are still deficiencies in 
that whole system. Now, if that is fixing a reporting system 
then I will fix the system. If that is finding that individuals 
within the organization have acted improperly, then I will take 
whatever action is called for on that front as well. I am not 
shy about doing that.

                  DEA's Work on Puerto Rico Confusion

    Mr. Serrano. Your answer speaks to bookkeeping errors and 
reporting errors. There are no incentives, official or 
unofficial, to bring numbers up?
    You know, I live in a city where a certain time of the 
month a lot of people get parking tickets. I would not suggest 
that that is planned that way, but the belief has always been 
that at a certain time of the month you are supposed to make a 
certain quota of parking tickets.
    You are suggesting nothing like this? This is no more than 
a----
    Mr. Marshall. No, Congressman, I am not suggesting that. I 
am suggesting that I do not have all of the answers that I need 
yet, but let me comment on my philosophy on that.
    I think pretty obviously as a criminal investigative 
agency, as a federal police agency as it were, it is our job to 
arrest people, and it is my job further to be sure that we 
target the right people and that we have the right kind and the 
right quality of arrests. I cannot assure you that there is 
never any pressure on agents to arrest people because, in fact, 
that is part of our job.
    What I can assure you is that my philosophy rewards and 
emphasizes quality of those arrests far, far more than we 
emphasize quantity of those arrests. When I have an inspection 
team that comes in after one of these audits, they do tell me 
what the numbers are. They tell me how many drugs were seized. 
They tell me how many people were arrested. They tell me how 
much assets. They tell me how many cases were initiated.
    The very first question that I always ask is I care less 
about the numbers than the quality. Tell me more about the 
quality. After the first couple of times I asked that question 
during my tenure as Administrator, we changed the way we went 
about that, and I have now asked those inspectors to include a 
section in their report on enforcement effectiveness, and what 
they do in that section is evaluate the quality of that 
enforcement program. That is what I want to see emphasized more 
than raw numbers.
    Now, like any organization, sometimes you cannot guarantee 
that the message from the top is getting through to every 
single supervisor and employee out there, but I will find out 
the answer to that during my management review.
    Mr. Serrano. How long do you think that will take?
    Mr. Marshall. I anticipate hopefully another six weeks, 
perhaps a bit longer, but I am shooting for six or eight weeks.

                       Mexico as Criminal Threat

    Mr. Serrano. Thank you on that.
    Last year you stated that you believed that Mexico posed a 
greater criminal threat to the United States than anything you 
had seen in 40 years. Do you still believe that that is true?
    Secondly, in March the Attorney General met with his 
Mexican counterpart, and they called for a renewed war on 
drugs. How does that sit with you and what you told us last 
year?
    Last week, President Vincente Fox proposed allowing U.S. 
law enforcement officials to conduct security checks on their 
Mexican counterparts. How does all that play into your 
statement last year, and does that statement still hold now?
    Mr. Marshall. Okay. Let me recap, if I may, the three parts 
of your question. I will comment on the threat of the 
organizations, and the second part had to do with the Attorney 
General.
    Mr. Serrano. The meeting with his counterpart and renewing 
the war on drugs----
    Mr. Marshall. Renewing the war on drugs.
    Mr. Serrano [continuing]. How does that react to your 
statement last year that Mexico still presents a major threat? 
And then, third, President Fox allowing us to go in there?
    Mr. Marshall. I stand by my statement from last year, and 
in fact I think I repeated words similar to that in my opening 
comments. I think the Mexican drug trafficking organizations, 
and I want to distinguish that from saying Mexico----
    Mr. Serrano. Right.
    Mr. Marshall [continuing]. Because it is not Mexico. It is 
criminals that are based on Mexico.
    Mr. Serrano. I stand corrected.
    Mr. Marshall. They do in fact present the greatest threat 
that I have ever seen in my 32 year career. They present that 
threat because they are just as rich, they are just as violent, 
they are just as mobile, they are just as intimidating and 
corrupting as the big Colombian cartels were during their 
heyday. Further, they are right next door, and we share a 
common border with that country where they are based.
    We see that the Mexicans are expanding their territory. 
They used to be involved with just one or two drugs, marijuana 
and heroin, maybe a little cocaine every now and then. They are 
now involved with all four of the major drugs; heroin, 
marijuana, methamphetamine, and cocaine. We have even seen some 
indications that they are moving into MDMA or ecstasy.
    They are moving into traditional Colombian territory, and 
the Colombians are willingly letting them do that here in the 
United States while the Colombians focus more on Europe and 
other parts of the world.
    They aggressively market their drugs. They have moved into 
smaller and medium sized cities. They are in your district. 
They are in Mr. Rogers' district. They do that because they 
aggressively want to open up those new markets.
    We even saw one instance where Mexican heroin operators 
targeted methadone clinics and tried to sell heroin to people 
that are in there for the very purpose of trying to recover 
from a heroin addiction. We see those marketing tactics and 
techniques with all of the drugs that they are involved with, 
so they very much are the biggest threat that I have ever seen 
in my drug law enforcement career.

                       Renewing the War On Drugs

    Now, with regard to renewing the anti-drug efforts. I 
believe that the Fox Administration wants to do the right 
thing. They have said many of the right things, and they have 
done some of the right things.
    I had the opportunity to meet very briefly at a reception 
with President Fox after he was elected, but before he actually 
took office. We talked about his top two priorities, cleaning 
up corruption and eliminating drug trafficking. President Fox 
seemed like he was a man of action. It seemed to me like he 
sincerely wants to do that.
    Since he has taken office what we have seen, I think, again 
some of the actions lead me to believe that they want to move 
in the right direction and that they are willing to take some 
risks to do that.
    A couple of things that they have done. They have 
instituted, as you suggested, new vetting procedures as itwere, 
background investigations, on the people that they hire, and they have 
purged some of their police organizations of corrupt employees. I do 
not have the numbers that I can pull out of my head, but several 
hundred corrupt people have been fired.
    More importantly, what they have done is that they have 
created a kind of a national registry that keeps track of 
people that are fired from various police agencies for 
corruption or integrity problems, and that centralized record 
keeping system makes it less likely that that officer will be 
fired from a police department in one part of the country and 
then go to another part of the country and get a job after 
having been fired. Now, it is not perfect yet, but they are 
working toward that, and I believe that they will, in fact, get 
there.
    I have long said, and I believe I said it in this hearing 
last year, that extradition of top Mexican citizen drug 
traffickers is one of the very key things to success. The 
reason it is so important is because we know who these drug 
traffickers are. We know what organizations they run. We know 
how they operate, and in many, many, many cases we have the 
leaders of these organizations indicted here in the United 
States.
    Up until now, however, we have not been able to get these 
indicted fugitives out of the country of Mexico to face justice 
here in the United States. That is important because as long as 
they are in Mexico, even if they are in jail, which some of 
them are, they can continue to bribe, to intimidate, to corrupt 
and to run their drug empires, even from the jail cells.
    Only by getting them out of that environment and only by 
getting them completely away from where they can have that kind 
of influence can we begin to set the climate where then the 
Mexican government and the honest people that we have down 
there can begin to have some success against that cycle of 
violence and intimidation and corruption.
    Now, finally your question was about our involvement in 
their vetting process and their security screening process. 
That is, in fact, a government of Mexico operation. It is their 
responsibility to screen the people that they hire. It is their 
responsibility to screen their police officers for continued 
integrity.
    They have set up some methods of doing that, and we provide 
them assistance in doing that when asked, but it is not a 
United States operation. It is a government of Mexico operation 
in which we assist.
    Mr. Serrano. I thank you for your answers.
    Mr. Wolf. Thank you.
    Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Marshall, welcome.
    Mr. Marshall. Thank you, sir.
    Mr. Rogers. I guess this probably is your last appearance 
before this subcommittee.
    Mr. Marshall. Unfortunately it is, sir, but I plan to stay 
involved in drug issues in some way, shape, form or fashion. I 
have devoted my whole professional life to it. I believe in it 
very deeply, and I will probably see you around from time to 
time, even though it will not be in this capacity.

                  investigation of puerto rico arrests

    Mr. Rogers. I hope so. I hope so. You are a nice gentleman.
    Now, the Puerto Rico question. What the press reported was 
the reporting of arrests for drug incursions that either DEA 
had nothing to do with or never occurred for the purpose of 
cooking the books to enhance their budget for the next year. 
That is a very, very serious charge, and I know you take it 
seriously.
    However, I am a little disappointed that you do not have an 
answer on that yet. That has been a good bit ago, and in 
preparing yourself to appear before the committee that funds 
your agency, including Puerto Rico, I would have thought you 
would have had that nailed down pretty tightly by now.
    That is a very serious charge, which goes to the core of 
honesty. Surely you have more to say about this than we are 
looking into it.
    Mr. Marshall. Well, sir, the reason I do not want to say 
more in a public forum like this is that I have not completed 
that investigation yet. I have to tell you, sir, I have some 
very, very serious concerns about that, but as long as my 
management review is ongoing, and as long as I do not have all 
of the facts, I think out of fairness to the individuals that 
are involved and out of fairness to the agency, I really should 
not comment extensively on where this may or may not be going.
    I would once again assure you that I am quite concerned 
about it, and whether we have a system problem or whether we 
have an intentional intent to deceive or cook the books, as you 
said, problem, I will deal with that problem in the appropriate 
way once I get all the facts.
    Mr. Rogers. Well, we want to help you do that because we 
will not tolerate that, as you will not either.
    Mr. Marshall. I assure you, sir, I will not.
    Mr. Rogers. When they are doing this for the purpose of 
extorting money out of the Congress, taxpayer dollars, if that 
happens we will take that very seriously.
    Mr. Marshall. And I assure you, I will take that seriously 
as well, sir. In my efforts to find that out, I have to abide 
by all of the personnel rules and regulations. If it leads into 
a criminal area, I have to abide by the criminal rules and 
regulations.
    I will simply take the allegations that have been made in 
the press, by the way, which does not have to bear up under any 
of those standards that I just referred to, but I will 
investigate that. If it proves to be either violations of 
internal regulations or criminal violations, we will take the 
appropriate action.
    Mr. Rogers. Who is investigating that?
    Mr. Marshall. I have a senior----
    Mr. Rogers. I do not mean the names. I just mean the 
offices.
    Mr. Marshall. I am sorry.
    Mr. Rogers. I do not mean the names of the individual that 
is investigating. Is it your office? Is it DEA?
    Mr. Marshall. They are commissioned out of the Deputy 
Administrator's Office. They report directly to him and the 
Chief of Operations.
    The team consists of one of my senior Special Agents in 
Charge from a domestic division. It consists of one of my very 
reliable Assistant Special Agents in charge from a domestic 
division, both of whom have internal OPR/internal affairs type 
investigation experience. They are both good investigators. 
They are calling on others predominantly in headquarters to 
assist them, as necessary.
    Mr. Rogers. So is that the DEA's Office of Professional 
Responsibility?
    Mr. Marshall. No, sir, at this point it is not. At this 
point it is a management team that I have appointed to report 
directly to the Deputy Administrator.
    If we see fit, we could refer that either to our own Office 
of Professional Responsibility, or conceivably we could refer 
it to the Inspector General's office. I have not yet decided 
whether or determined whether it will be necessary to do either 
of those things.

                    falsified arrests in puerto rico

    Mr. Rogers. Well, I am quoting here from the Miami Herald 
of May 15. ``Another supervisor, who several former San Juan 
agents said pressed them to falsify arrests, was later named an 
internal corruption investigator. Another was promoted to a DEA 
internal audit unit.'' Is that so?
    Mr. Marshall. Sir, some of those people have been 
transferred, and I believe, one of those individuals may be 
assigned, as the press reported, there. I will simply say, 
though, that the press report can report anything that an 
employee or an informant or somebody that is on the fringes 
tells them, and they can print that.
    I have to look at people that give us formal statements. I 
have a procedure that I go through to gather evidence, and I 
have to do it very carefully so that it can withstand the test 
of either the Courts or my personnel process, whichever 
direction that goes, so I have to be a bit more careful in my 
gathering of facts.
    Mr. Rogers. If you have one of these people who was 
involved who now is one of the internal corruption 
investigators, are you going to get a straight story?
    Mr. Marshall. No. You misunderstand, sir. I do not believe 
that those--in fact, I can state that those are not the 
internal investigators that are doing this investigation.
    It is my understanding, as well, that those rotations of 
those individuals were made well before these allegations took 
place. I assure you they are not investigating this particular 
matter.
    Mr. Rogers. Okay. That is of some comfort. Not a lot, but 
it is some. You have to know that there are more people 
interested in what happened there than you and your office, 
including the Congress.
    Mr. Marshall. There are certainly more people that are 
interested in it, sir, but none of those people are more 
interested in it than I am. I assure you.
    Mr. Rogers. I am sure that is true, but, you know, this 
very well could easily wind up into some criminal 
investigation----
    Mr. Marshall. You are absolutely correct.
    Mr. Rogers [continuing]. If you lead it to be.
    Mr. Marshall. You are absolutely correct.
    Mr. Rogers. If there is some evidence of a crime being 
committed, I am sure you will want that pursued.
    Mr. Marshall. No doubt about it. Yes, sir. I assure you I 
will see that that is done.
    Mr. Rogers. All right. Now, the story in effect says that 
the Caribbean office routinely falsified claims of drug arrests 
and seizures for at least three years, the paper says, 
according to five present or former agents who worked there. 
They said in the San Juan office they claimed credit for 
hundreds of arrests that were in fact made by local police and 
that 70 percent of the arrests the DEA claims from 1998 through 
2000 were phony.
    Quoting the story further and quoting a former supervisor, 
``It got so bad that agents were checking the newspapers every 
day to see who was arrested so that they could get the 
information and transfer it onto DEA arrest cards,'' quoting 
the former supervisor in the DEA office.
    Do you know the name of that former supervisor they are 
referring to?
    Mr. Marshall. I have heard the name. I cannot pull it out 
of my head right now.
    Mr. Rogers. But do you know the person they are referring 
to?
    Mr. Marshall. I have heard the name, yes.
    Mr. Rogers. All right. I do not want to know the name. I 
just want to know that you know the name.
    Mr. Marshall. Yes.
    Mr. Rogers. And are you talking to that supervisor?
    Mr. Marshall. We either have or will interview all of those 
people plus many others before the review is over with.
    Mr. Rogers. When did this first come to your attention?
    Mr. Marshall. This first came to my attention--the latest 
revelations came to my attention in about February of this 
year.

         dea's process to investigate corruption in puerto rico

    Mr. Rogers. That is soon to be four months. How long is it 
going to take you to dig into this?
    Mr. Marshall. I am hoping to be completed in another six to 
eight weeks, sir. We have a lot of records to review, a lot of 
people to interview.
    Mr. Wolf. That is going to be after this subcommittee 
determines how much money you get.
    Mr. Marshall. Well, the only comment I can make on that, 
sir, is that I do not believe that in this particular budget 
request that we are considering anything that directly relates 
to the Caribbean operations. Each of these requests 
contingently impacts on all of our offices, but not solely the 
Caribbean.
    In fact, we do not have any increases for the Caribbean 
operations planned. We have increased the Caribbean operations, 
but most of those increases took place in the years of 1997, 
1998, 1999, and were already on the books before the time frame 
of any of these allegations, so we have already, I think, 
reached maturity in that area.
    Mr. Rogers. The story goes on to say that the five agents, 
who all spoke on condition that they not be identified, said 
they were reprimanded, demoted or transferred after they 
complained about these inflated reports to their superiors at 
San Juan. Is that true?
    Mr. Marshall. We will find those agents, and we will 
interview them not under condition of anonymity, but we will 
determine if that was true.
    Mr. Rogers. Well, were they reprimanded, demoted or 
transferred?
    Mr. Marshall. It is my understanding that one of them was 
reassigned. I do not know if there was a reprimand or anything 
like that. I will find out in the process of my review.
    Mr. Rogers. I do not know, Mr. Chairman. It is incredible 
to me that the administrator would come here knowing about this 
since February, an issue that goes directly to financing of the 
agency, not to mentionintegrity of the agency, and that you 
would not have more of an answer.
    I am sure you knew the day after you found out about this 
that you would be asked certainly before we got to you, but I 
am absolutely astounded that you do not know the answer more 
than you have said here.
    Mr. Marshall. Well, I understand your frustration, sir. I 
have to ensure that we do a complete and accurate, and a 
thorough, methodical investigation that will withstand the 
pressures of any criminal charges or administrative charges in 
the MSPB process, all of that.
    I am sorry you are frustrated, but I have to go through 
this process and be sure that I am doing a thorough job rather 
than simply acting on what I may read in the newspapers.

                               OXYCONTIN

    Mr. Rogers. Oxycontin has hit my area extremely hard as it 
has many areas, but particularly in the Eastern U.S. rural 
communities. Overdoses last year in Kentucky killed 60 
Kentuckians.
    The hospital in the town of Hazard, which is in the 
mountains, a small town, reports treating at least 10 Oxycontin 
overdoses a week. The police chief there estimates that between 
65 and 85 percent of the high school students have tried 
Oxycontin at least once.
    They had a four month sting there and they arrested over 
200 leaders in this small town. It has led to a rise in general 
lawlessness, seeking the money to purchase the drug, and 
tragically, it is the teenagers that it is affecting. It is a 
full blown epidemic.
    Oxycontin, of course, is a legal drug and is a very good 
pain killing drug, a synthetic form of morphine that is 
absolutely wrecking our small communities in the rural parts of 
the Eastern U.S. especially. Where are you? What are you doing?
    Mr. Marshall. We are doing a lot, Congressman Rogers, and 
if I may give you a little bit of history of this and kind of 
lead up, and I apologize, it may be a bit lengthy, but I think 
it is necessary that we understand how we got here.
    There is a single manufacturer of Oxycontin and that 
manufacturer is Purdue Pharma, I believe is the name of the 
company. OxyContin is a time-released version of a drug called 
Oxycodone. Oxycodone is better known by some of the brand 
names--Percocet and Percodan. And it is a very effective pain 
killer. I, unfortunately, had a bout with kidney stones not too 
long ago and that was the drug that was prescribed for me--not 
OxyContin, but another form of Oxycodone, and it was an 
effective pain killer.
    We began to see this problem as a result of some 
developments that began about four or five years ago. What we 
saw about four or five years ago, in 1996, or thereabouts, was 
the AMA and a number of pain management groups that made the 
case and contended that we were under-treating pain in this 
country, or that we were not effectively treating pain in this 
country.
    It was about that time that the manufacturer of OxyContin 
introduced their product. It is a time-released product that 
comes in--rather than the regular five milligram doses of the 
Oxycodone, which is what I took during my illness--they come in 
10, and 20 and 40 and 80 and 160 milligram time release 
capsules.
    What is happening here is that in an effort to increase the 
effectiveness of pain management in this country, and a 
legitimate need, by the way, from all accounts, this product 
was introduced. What then began happening was that people began 
diverting this. They began going to pharmacies and doctors and 
what not and getting bogus prescriptions, and then basically 
selling that on the black market where it was crushed up and 
either injected or taken orally in the crushed up form, giving 
them basically all of that dosage at one time, resulting in 
what, I am told, is a very pleasurable high from those drug 
abuses.

              DEA'S WORK TO PREVENT DIVERSION OF OXYCONTIN

    We have been working with the manufacturer for some time 
now. We have established a plan to try to prevent the diversion 
and abuse of this drug. It is a four-prong plan. It involves 
some intelligence and enforcement. We are trying to identify 
doctors that are writing bogus prescriptions; we are trying to 
identify pharmacies that are maybe not controlling things as 
much as they should; and we are trying to identify criminals 
who go in and obtain this and then sell it on the black market. 
That is element one.
    The second thing that we are trying to do is in the 
regulatory and administrative area. We are reviewing our 
quotas. It is interesting to note that the request for quotas 
for this particular drug in that same four or five year time 
period has increased 1800 percent. A good part of that is no 
doubt a legitimate increase as a result of the pain management 
issue that we have in the country, but it is very, very obvious 
to me that a good part of that increase is stuff that is going 
then into the black market.
    The third area that we are focusing on is industry 
cooperation. This is very, very important. It is very, very 
important that the manufacturer of this drug, the single 
manufacturer of this drug, cooperate with us on trying to fix 
this problem.
    We are asking industry to do several things. Number one, we 
are asking that company to do a more balanced approach in their 
marketing of this drug. We are asking them to educate doctors 
and patients about the dangers of this drug. We are asking them 
to not advertise in such a way that gives a physician, for 
instance, who is not well trained in pain management, it gives 
that physician the impression that this might be the pain 
killer of first resort rather than the pain killer of last 
resort. We are asking them and others perhaps to come up with 
what we refer to as restrictive distribution. In other words, 
recommend that doctors only prescribe and pharmacists only 
distribute this for certain types of pain. So that the kidney 
stone patient may get a different version of it but the 
terminal cancer patient may very well get the 160 milligram 
Oyxcodone.
    We are asking that we consider accreditation of doctors in 
pain management that may prescribe this. We are asking the 
industry to look at the reformulation of this to take measures 
that makes it more difficult to crush this up and get all of 
the dosage at once.
    Frankly, the manufacturer of this, they have met us on some 
of these issues. On others they have not met us. And I have to 
tell you, sir, that we need more cooperation from that company. 
And if we cannot find some more middle ground in this area I am 
seriously considering rolling back the corners of the quotas 
that DEA sets, rolling back those quotas to the 1996 level 
until we do find ways to control this.
    That is a drastic step and it would be a very controversial 
step because there is the need for this drug out there. But I 
am seriously considering that.

                   DEA'S RESOURCES TO FIGHT OXYCONTIN

    Mr. Rogers. Well, it is a drastic step but this is a 
drastic problem. And there are teenagers dying even as we speak 
in many hundreds of towns and communities throughout the 
eastern half of the U.S. at this moment in time, and I am sure 
it will spread in the course of time.
    The local police tell me that the DEA's response on the 
ground out there is limited in this respect. The drug bust that 
I mentioned was strictly a local police bust. DEA had nothing 
to do with it. The height of London, in my district, has had 
little to do with these matters that is information.
    This problem does not fit neatly into the core drug 
eradication missions of DEA, I understand that. No large gangs, 
no international conglomerates, no cross-border organizations 
that we know of facilitating the distribution of the drug to 
the streets. It is a prescribed drug, as you say, and the 
source usually is I guess somebody who has illegally obtained a 
prescription of a large dose and then peddles it out. It has to 
be fought locally. But it seems to me that we could be a lot 
more helpful from DEA on the ground in those local communities 
to help them with some resources, the local police especially, 
in ferreting this stuff out. What do you think?
    Mr. Marshall. I agree, sir. We do need to do as much as we 
possibly can in that regard. I have to add, though, that as 
much as we may want to do, we are like everybody else. We are 
like the local police departments and the local pharmacy boards 
and the local board of medical examiners, our resources are 
limited.
    Mr. Rogers. Level fund. Your request. You do not ask any 
special money. Both the state and local task force program, you 
level fund; and the drug and chemical diversion control account 
is level funded from last year.
    Mr. Marshall. We will take a look at, over the next few 
months, how our plan to attack this develops, sir. If it is 
appropriate, then perhaps, we could come with a request for a 
supplemental, or put this in the next budget cycle. But I 
assure you, this has got my attention, sir.

                 STATUS OF DEA'S RESOURCES TO KENTUCKY

    Mr. Rogers. I am glad.
    Mr. Chairman, I have just a request that I think he could 
answer for the record, perhaps I could state it and then yield 
back.
    We have a serious marijuana problem in my state. We are the 
second largest I think producers of marijuana. The largest 
producer on public lands with Daniel Boone National Forest, in 
the country. Most of all of that is in my district.
    DEA has been very helpful over the years in providing 
desperately needed monies to Kentucky's law enforcement in 
support of their eradication efforts, particularly the National 
Guard and helicopters.
    But the state has yet to see any money from DEA this year. 
The helicopter spotters are already in the air on a daily 
basis, this being the prime season, they are identifying plots 
they are going to cut down later this year.
    The lack of these federal resources is putting a real 
serious damper on Kentucky's ability to get the second largest 
crop in the nation.
    I am told that DEA allocated $692,000 for the state last 
April, but the state police have yet to see that. Could you 
check on that and see what the holdup might be and when they 
can expect those monies? Because they are running out of gas.
    Mr. Marshall. I will get you an answer very quickly, sir.
    Mr. Rogers. Thank you.
    Thank you, Mr. Chairman.
    [The information follows:]

      Status of Funding for Kentucky Marijuana Eradication Program

    The Department of Treasury wire transferred $692,000 to the 
Kentucky State Police for the Kentucky Marijuana Eradication 
Program on May 23, 2001.

             Chairman Wolf's Comments on DEA's Performance

    Mr. Wolf. Thank you, Mr. Rogers. I will ask a question 
before Ms. Roybal-Allard.
    Before I do, I would make a couple of comments. I would ask 
you to wrap up the investigation before Congressman Hutchinson 
gets aboard, because that is a very difficult thing to have 
hanging out there when a new person comes on.
    Secondly, I would expect that you should have, DEA should 
have told the committee. I looked at the briefing book for this 
earlier in the week in preparation. This is my first year as 
chairman of this commission. I was chairman of the 
transportation subcommittee. I agree with Mr. Rogers. If 
something like this were to happen at the FAA, if Jane Garvey 
had not called me to tell me, I would have been upset. We try 
to develop a close, cooperative relationship, not an 
adversarial one, you know. We are both trying to do the same 
thing if it's in aviation safety or dealing with DEA problems 
and everything else.
    I think a good thing would be, and I would say it to Mr. 
Hutchinson if he were here, and I will say it to him, and I 
will say it to your staff who are going to be here when Mr. 
Hutchinson comes on board. I think it would be a courteous and 
appropriate thing to let the committee know at the outset when 
something like this happens. The first time I heard about it 
was when I read about it in the Washington Post the other day. 
I got up in the morning. I am now reading all of these articles 
that I never read before about every agency that I am 
interested in, but now I am more than interested in it because 
it is kind of my life and my job. I said wow, that is amazing. 
Then I asked the staff, and they heard it on WTOP Radio.
    We really should have heard, as Mr. Rogers was inferring, I 
think he was inferring, that if you knew in January, we should 
have known in January. If you knew in February, we should have 
known it in February.
    This is very, very serious. I have been very, very 
supportive of law enforcement. My dad was a Philadelphia 
policeman for 20-some years. I was at a ceremony the other day 
where they honored those who died in service, and I do not 
think you can be more pro-law enforcement, but the worst thing 
in the world is a corrupt law enforcement person. I think if 
the integrity of the process is destroyed you can never get it 
back. That is why when there is corruption in the local police 
department or local sheriff's department or anywhere else. So I 
think it is really serious, more from just a Puerto Rico, but 
just from the integrity of the process.
    And lastly, if you can allow the committee to know or as 
you leave if you can, as you pass the baton on to others, if 
you can let them know the committee, and I know Mr. Serrano 
would agree too, would like to know, just to be kept abreast so 
that we are not viewed as a potted plant here. Because I am not 
going to be a potted plant. I did not run for Congress for 
three times and lose the first two times just to be a potted 
plant. I wanted to do something when I was up here.
    So I agree with Mr. Rogers' question. He has a much more 
reason to be more aggressive and tough than I have because he 
has been here for six years and I think maybe feels hurt with 
this.
    But I would like to know from here on if something is 
happening.

               CHAIRMAN WOLF'S CONCERN FOR DEA'S PROGRESS

    And as we recognize the conditions worldwide, I would just 
throw another thing out. I would like to, and I may ask you 
directly, when I see the overwhelming nature of this drug that 
I don't even completely understand. I think it is important for 
people in the administration, people like you to speak out 
across the board on what we can do. We cannot interdict 
everything--I am tough on enforcement. We are going to give you 
the money you need, and maybe even more, and urge you to do 
everything you can. You get the king pin people, you do 
whatever you can. But education is crucial, and I was listening 
to----
    I looked over and I saw Ms. Roybal-Allard, and you know 
with Washington On-Line, it was two years ago when you offered 
the amendment and I offered it with you, where we tried to 
stop, we try to get the drug czar and this congress to allow 
the drug czar to put a little of that money into stopping or 
encouraging 13 year olds--not 15 year olds--but 13 year olds 
not to use alcohol because it is a gateway to other drug use. 
We could not even get it passed.
    Yet the administration opposed that effort and General 
McCaffrey who I really think did a good job, or at least I 
thought he did a good job, even did not support us.
    So we need to not just hit the king pins, which we ought 
to, but we should from an educational point of view be going 
down and educating kids.
    The DARE program has been a failure. I supported that. I 
used to put the resolution in every year. Now I see that it 
does not work. But I think we have to deal with this issue from 
the alcohol above stand point, and Ms. Roybal-Allard, I think 
you have it in again, I am the co-sponsor of it, and I hope you 
offer it again. I will speak for it. But do anything you can 
from hitting the king pins to letting this committee know if we 
can help in fighting the figures that Mr. Rogers has referred 
to. Education and rehabilitation are crucial to stop drug 
abuse, but across the board for alcohol and all the other.
    I just saw Ms. Roybal-Allard sitting here and I said golly, 
we could not even pass that resolution that time.
    People like you are willing to speak out, and I hope you 
say some earth shaking things here today. Because I think this 
is an opportunity, and from here until when you leave, you do 
not want to be 85 years old sitting in your rocking chair and 
say you know, if I had only said that I think I could have 
really made a difference.
    So anything that you have, and it does not have to be at 
this hearing, anything that we can do--the committee can do on 
a bipartisan basis to help you deal with this problem, even if 
it is bold and innovative and going to get criticized. Tell us. 
I want to join with you to try and help.

                    solutions to prevent drug abuse

    Mr. Marshall. May I? I am on your time.
    Ms. Roybal-Allard. Yes, sir.
    Mr. Marshall. First of all, Mr. Chairman, I appreciate your 
concerns about the notification. We brief committees on a lot 
of things. This one fell through the cracks. I apologize for 
that. We will try to ensure that that does not happen again.
    With regard to the DARE program, and with regard to 
education, you seem to be commenting on what is the overall 
solution.
    Mr. Wolf. I am going to ask you that later on. I am going 
to ask you questions.
    Mr. Marshall. You are right. We need to support 
enforcement, we need to support education. I hope that we are 
about to energize the education end of this. I hope that we are 
about to energize the treatment end of this. I hope that we do 
not do any of those things in isolation. It is very important 
that we have a holistic approach to the drug problem. We have 
to do aggressive law enforcement, we have to do aggressive 
education, prevention, and treatment has to be available for 
those that need treatment.
    Too often in this country we have had certain camps that 
say this works better than that. Enforcement is better than 
treatment. Treatment is better than education. None of it, I am 
telling you, none of it is going to work in isolation. And if 
we march down a road where we do treatment at the expense of 
law enforcement, we are going to fail. If we march down the 
road where we do law enforcement at the expense of education, 
we are going to fail.
    And I would submit to you, sir, that even in your comments 
about the DARE program, we should not be too quick to judge 
that program a failure. It has weaknesses. It serves a niche, 
though. And there is no single program that can reach every 
audience that we need to reach. We need to be careful that we 
design things like DARE which reaches a certain audience. We 
need to be sure that we design things like community coalitions 
which reach a certain audience. We need to be sure that we have 
programs in our prisons, and that we have programs in our 
communities for treatment. We have to be sure that we reach our 
kids, and even people who are already using drugs.
    But I think most importantly, and if you remember nothing 
else about my opinions when I am gone, please remember this. 
Most importantly, we need to reach parents and we need to reach 
families, because it is inside our families that we are going 
to win the drug abuse battle. It is not here in law 
enforcement, although that is going to make a tremendous impact 
and we cannot do it without law enforcement. It is not going to 
be in the prisons, although that's necessary and that can make 
an impact. It is going to be inside the families.
    We have to teach kids what they need. We have to teach them 
the values, we have to give them the tools to resist. We have 
to teach parents what to look for. We have to teach parents 
that they have to be involved in their kids' lives. If we do 
not reach the kids and the parents as families, somehow or 
other, then we are not going to solve this problem.
    That is one thing that I have to tell you I am very excited 
about the proposal. It has not really taken form yet, but there 
is a proposal out of the Administration for a parents corp. And 
to me, I do not know how it is going to be designed, but very 
simply, it means we have to teach parents how to get involved 
and how to prevent drug abuse in their own single family unit. 
We have to do it one by one to thousands and millions and 
hundreds of millions of families across this country. If we do 
that, then we can win this thing.
    Mr. Wolf. I share that.
    Ms. Roybal-Allard.

                  mexican drug traffickers join forces

    Ms. Roybal-Allard. Thank you, Mr. Chairman.
    As you know, we have introduced the underage drinking bill 
with you and Congressman Wamp as original co-chairs. And 
unfortunately, although it is intended to do very much what Mr. 
Marshall has just said, to provide an education program to 
teach kids and parents and families and the public in general 
about the dangers of underage drinking, we are running into the 
same strong opposition, particularly by the beer distributors.
    Mr. Marshall, you were talking a little bit earlier with 
Mr. Serrano about how dangerous the drug traffickers are in 
Mexico and what a tremendous threat they pose.
    According to an April 9th article in the Washington Post, 
there was a meeting in January, it was a three day meeting of 
the major Mexican drug traffickers in Abadaca, Mexico. 
According to the article the meeting was held for the purpose 
of the various drug traffickers to join forces after many years 
of bloody turf wars, and to put together a plan for a new 
cartel that would unite their operations and cut their costs.
    According to the article, at that time the DEA refused to 
comment. I am wondering if you are able to comment nowon that 
meeting and what, if any, implications such an effort would mean in the 
ability of both Mexico and the U.S. to target and to deal with these 
traffickers.
    Mr. Marshall. I can comment. I want to comment in reverse 
order on your questions.
    First of all, what would such a meeting mean if indeed it 
took place? To me, it would simply mean that the leaders of the 
drug trafficking cartels are trying to establish and implement 
their own strategy in the face of the Fox government strategy. 
They are trying to counter the counter-narcotics effort, as it 
were, and they are trying to figure out the best ways to do 
that.
    With regard to the meeting itself. Honestly, we have 
searched high and low, with human intelligence sources, with 
records that we could get our hands on, and we cannot confirm 
that such a meeting took place. Our counterparts in the 
government of Mexico, I am told, have done a pretty exhaustive 
search for witnesses, for records, perhaps, for people in that 
little town to see if they saw unusual comings and goings, and 
we have just been totally unable to confirm that the meeting 
took place.
    So I am not ruling it out, but I would think that there 
would be some corroborating information out there that would be 
available to us if, in fact, it did take place.
    Ms. Roybal-Allard. If such a meeting had taken place and 
they are able to form one united cartel as is reported, does 
that make it even more difficult for you to counteract and to--
--
    Mr. Marshall. It would. Such a meeting, such a strategy 
would make it more difficult. Not that it is not difficult 
enough already. I doubt that the intent of such a meeting would 
be to form one big cartel. Rather, the intent would be how the 
various cartels continue to operate on their independent track, 
to cooperate with each other to foil the new anti-narcotic 
program of the Fox Administration.
    But again, that is all pure speculation and we have not 
been able to confirm that a meeting took place.

                   trafficking of precursor chemicals

    Ms. Roybal-Allard. Thank you.
    It is my understanding that the U.S. and Mexico have worked 
fairly well together to control the flow of bulk ephedrine and 
pseudoephedrine which is the precursor chemical in the 
production of methamphetamines. And because of that success the 
Mexican traffickers have begun to use tableted forms of the 
precursor in their meth labs in California. And where they were 
getting the chemicals from Mexico before, now they are buying 
them here in the United States.
    My understanding is that these chemicals which are in 
tablet form are particularly hard to control and to track, 
because of the fact that they are legal medications that are 
often sold over the counter.
    In the past few years we have targeted traffickers of 
precursor chemicals through the operations such as Operation 
Mountain Express. Can you tell us what DEA is doing currently 
to apprehend those who are illegally making or distributing 
these precursor chemicals here in the United States?
    Mr. Marshall. We are doing a number of things, and you have 
referred to several of them. We had Operation Mountain Express. 
I might as well go ahead and put the drug traffickers on notice 
that they can expect more efforts of that sort. So if people 
are out there trafficking in these precursors, then they can 
expect DEA attention through either our regulatory arm or our 
criminal investigation arm.
    Mountain Express was very effective, by the way, in denying 
a lot of those chemicals to the traffickers.
    We have other programs. One is called Operation Backtrack, 
which actually goes to the laboratories that are seized, that 
come to our attention, and we try to analyze the evidence, 
particularly from precursors. We try to determine, and let me 
just take the case of pseudoephedrine, and there are other 
chemicals that we can track with greater or lesser degrees of 
success.
    But we will look at those chemicals, we will look at those 
essential ingredients, we will try to track lot numbers, we 
will try to track bar codes. And we will try to find out where 
they were manufactured, who the wholesaler was, and in some 
cases, even where the retailers were. And then, if we see in 
the process of that, that we have a pattern by a certain 
company or companies, that becomes what we term either the gray 
market or rogue chemical companies, who order bulk quantities 
of this and sell it with the intent and the knowledge that it 
is going into laboratories. That is what Operation Mountain 
Express was all about. That is what we continue to do.
    And we get a lot of cooperation, by the way, from industry 
on this. I believe it was WalMart, for instance, that worked 
with us in the Midwest and actually started limiting the 
quantities that they would sell. They notified their clerks 
that if somebody came in and purchased or tried to purchase a 
case lot that they should try to get information and pass it 
along to law enforcement. There are other retailers out there 
that do that. Some cooperate and some do not. The ones that do 
not, again, I will put them on notice that we will go after 
them either civilly or criminally, and we will do it very 
aggressively.
    Ms. Roybal-Allard. But right now someone could walk in say 
at a Costco and get whatever they needed and----
    Mr. Marshall. They could get the pseudoephedrine, yes. It's 
an over the counter cold remedy. Sudafed is one of the major 
brand names. But yes, they can do that. But it is getting 
harder and harder.

                          anti-drug strategies

    Ms. Roybal-Allard. My last question has to do with 
something that you had in your written testimony. You said, and 
I quote, ``The number one goal of the national drug control 
strategy is to educate and enable America's youth to reject 
illegal drugs as well as alcohol and tobacco.''
    Given your 30-year career of fighting crimes and drugs and 
the year and a half tenure you have had as DEA Administrator, 
could you comment as to whether you think that we are spending 
our money wisely, or if we need to reevaluate or reconsider our 
strategy?
    I think you touched on it a little bit. But given that we 
do have limited money, do you think that we are on the right 
track, or do we need to look at this differently?
    Mr. Marshall. I think we need to constantly reevaluate, 
reassess and figure out the things that work best for the 
particular audiences that we are trying to reach. I think it is 
appropriate that we do that kind of a reevaluation.
    Look, if I could write the federal budget myself I would 
increase a lot of things in the anti-drug effort. I think I 
would massively increase the money that we spend on education 
and prevention. I think that I wouldsubstantially increase the 
amount that we spend on law enforcement. And I think that I would 
increase the amount that we spend on treatment, to ensure that people 
that need treatment, that it is available to them.
    If we were to do that, I am convinced that we would begin 
to see results in just a few short years, and that at some 
point we would reach a point where maybe we would not have to 
make the massive investments in, let us say, law enforcement or 
interdiction because we would have it down to a manageable 
level where we could treat it in other ways. But that day, 
unfortunately, is a few years off. I hope that we do energize 
this. I see every indication that we are energizing this. I do 
not think this is a partisan issue. I think we all agree that 
we have to really get refocused and redetermine and 
reinvigorate our efforts on this problem.
    And I have to tell you, I am optimistic. There are people 
out there that say it is lost, let us just give up. William 
Raspberry in an article I saw in the Washington Post not too 
long ago said we might as well accept that there is going to be 
a certain level of drug abuse and essentially just treat people 
once they get addicted. That is shameful. We should not be even 
talking or thinking about abandoning a certain segment of our 
population.
    The movie Traffic in a very dramatic scene where the drug 
czar in his resignation speech says, ``I am walking away from 
this because if we have a drug war then it is our own families 
that we are making war on.'' That is ridiculous. The people 
making war on our families are the drug traffickers and law 
enforcement has to deal with that.
    We also have to deal with it in the education, prevention 
and treatment arenas as well.
    I really believe that, notwithstanding the fact that there 
are people out there saying we should give up, and there are 
people out there who are very deceitfully and deviously going 
about trying to liberalize or decriminalize or even legalize 
drugs. I think that when all is said and done, I do not think 
the American people are going to buy it, and I fully believe 
that we are going to refocus this effort and we are going to 
make much more progress in the next few years.
    Ms. Roybal-Allard. Thank you, Mr. Marshall.

                           Drug Czar Position

    Mr. Wolf. Mr. Walters has been appointed drug czar. What 
needs to change with regard to his authority to give even 
greater ability to require compliance by the different 
agencies?
    Mr. Marshall. I was pleased, Mr. Chairman, and I was in the 
Rose Garden ceremony that day when the President announced the 
appointment of Mr. Walters. I was pleased, as was the universal 
reaction there that day, when the President said that that is 
going to remain a Cabinet level position. I think that is very, 
very important.
    When I was visited by the transition team from the 
Administration they asked me my opinion and whether I thought 
it should be lowered in status, I very forcefully said I 
thought it should remain a Cabinet position.
    I think that as a Cabinet level official, the drug czar, 
the Director of ONDCP, has adequate authority. I believe that 
he does have the authority to readjust certain parts of the 
budget. He certainly has the power of moral suasion, as the 
economists say, to move us all in the right direction. And as a 
Cabinet level official he certainly has access to the President 
of the United States.
    Mr. Wolf. That is the key.
    Mr. Marshall. That is the key. And I think that it is 
structured appropriately.

                     Cross Border Traffic by Trucks

    Mr. Wolf. NAFTA and trucks. The administration is going to 
permit trucks coming from Mexico to come across the border, 
which I think is a mistake, more for safety reasons, but also 
for the potential drug impact until we really are ready, which 
I do not think we are nearly close to being there. Do you have 
any concern with regard to the administration's policy 
permitting trucks now, probably by the end of the year, to come 
across the border and go wherever they want to in the United 
States?
    Mr. Marshall. We see a lot of both drugs and money that are 
being moved by trucks now. Of course we see a lot that is being 
moved by private auto as well. But yes, that is very much a 
concern.
    I think any time you have the opportunity for more cross 
border traffic or cross border commerce of any type, it 
presents more opportunities for smuggling drugs and aliens and 
money and all kinds of other illegal stuff.
    I would simply leave my comment at that, and leave the 
issue of free trade and NAFTA to the economists and to the 
trade specialists. But certainly the more trade, the more 
trucks, the more cars, the more people you have crossing that 
border, the more opportunities you have for drug smuggling.

                   Corruption in Peruvian Government

    Mr. Wolf. There was an article in the Washington Post the 
other day regarding the corruption in the Peruvian government. 
What is our relationship to some of these unsavory individuals 
that you read about, and you read about those who were in 
prison, the generals and things like that. How do we deal with 
those issues?
    Mr. Marshall. It is difficult, but let me take a crack at 
explaining this.
    There is certainly corruption wherever in the world drug 
trafficking exists and really wherever crime exists. You are 
going to see a certain level of corruption.
    We have been extremely fortunate in this country that we 
have established and maintained integrity in our law 
enforcement agencies. Not that we are corruption free, but the 
corruption that we see in this country is isolated corruption 
rather than----
    Mr. Wolf [continuing]. Outside, in dealing with Peruvian--
--
    Mr. Marshall. Right. In some of the other countries, the 
corruption is more systematic. What we try to do at DEA is we 
try to go in there and, first of all, maintain our own 
integrity, which is not a hard thing to do because we have a 
high degree of integrity and honesty among DEA. But then what 
we try to do is to export that integrity. We try to seek out 
honest officers wherever they might be, and they do exist in 
virtually every place that we operate no matter how corrupt the 
institutions may be. There are those honest persons that exist.
    We seek them out, we work with them, we have whatever 
impact we can. We try to build institutions. We try to branch 
out and through training and through liaison and other 
programs, we try to find more and more of the honest people 
that we can deal with. And we hope that through not only DEA 
programs but other United States government programs, that over 
the years we can build institutions that we can deal with, 
rather than having to seek out individuals that we can deal 
with.
    That has worked very well in Colombia over the lastcouple 
of decades, it worked very well in Southeast Asia over the last couple 
of decades. With regard to Peru, we work with the Peruvian National 
Police primarily, and that is an agency that has not been plagued in 
any large way by corruption recently.
    I hope that with regard to the military corruption that is 
being uncovered down there, I hope that they have gotten all of 
it. And the fact that they will deal with it is encouraging.

                    Corruption in Mexican Government

    Mr. Wolf. But is that not one of the major issues that we 
are facing, the corruption in foreign governments by their 
elected officials and also police officials?
    Mr. Marshall. It depends on the country, but yes.
    Mr. Wolf. Mexico.
    Mr. Marshall. Absolutely. Absolutely. That is the major 
impediment that we have to success in Mexico. That is why I am 
encouraged that the Fox government is apparently getting 
aggressive about it.
    Mr. Wolf. Have there been more than words?
    Mr. Marshall. Yes. I outlined earlier some of the----
    Mr. Wolf. Yes, I heard you, but have they really, have we 
seen any difference? Is there any fruit coming off the tree 
that you can really feel and see and touch?
    We have a pretty rough group of people down there. They 
killed the Cardinal in Tijuana. Was that an accident insofar as 
they were after someone else? Or did they mean to actually kill 
the Cardinal?
    Mr. Marshall. I do not think we know with certainty why 
they did that.
    But with regard to whether it is simply words or whether it 
is actual deeds, it is actual deeds now.
    Mr. Wolf. I want to get that, but I also, did the group 
involved actually set out to kill the Cardinal in Tijuana?
    Mr. Marshall. Sir, it has been several months if not a 
couple of years since I focused on that, and if I may refresh 
my memory on that, the facts surrounding the Cardinal and get 
back with you, and we will visit about that. I cannot pull that 
out of my computer right at the moment.
    [The information follows:]

 Killing of Cardinal Juan Jesus Posadas Ocampo by Drug Traffickers in 
                                Tijuana

    On May 24, 1993, Cardinal Juan Jesus Posadas Ocampo was 
assassinated by members of the Arellano Felix Organization 
(AFO) at the Guadalajara International Airport during the AFO's 
alleged attempt to murder rival drug trafficker Joaquin GUZMAN 
Loera aka CHAPO GUZMAN, who reportedly was expected to be at 
the airport at the time Cardinal Posadas Ocampo was riding in a 
vehicle that allegedly matched the description of the vehicle 
in which Guzman Loera was supposed to be a passenger. 
Subsequent to the assassination, principal members of the AFO 
reportedly fled immediately from Guadalajara of Tijuana and 
assumed an extremely low profile, which they continue to 
maintain to this day. Several members of the AFO, including 
Ramon and Francisco Javier Arellano Felix and numerous members 
of the Narco-Junior gang affiliated with the AFO, were indicted 
in Mexico for the Cardinal's death. A formal investigation into 
the assassination by the Government of Mexico, which ended in 
July 2000, established that Cardinal Posadas Ocampo's death was 
a case of mistaken identity.

    Mr. Wolf. Go ahead.
    Mr. Marshall. Yes, there have been actual deeds. As I said, 
they are screening their people better. They are keeping 
records on the ones that have been fired so they do not get 
rehired. They have actually done this one extradition. They 
have arrested some of the top lieutenants of the Adiano Felix 
organization.

                        Extraditions from Mexico

    Mr. Wolf. How many people have we asked them to extradite?
    Mr. Marshall. I believe we have, and I will give you a ball 
park figure rather than an exact number. We have some 15 to 20 
on the top echelon list.
    Mr. Wolf. Have they ever extradited the person who was 
involved in the killing of your agent----
    Mr. Marshall. Yes, they did extradite some of those, or 
actually they expelled some of those, I believe.
    Mr. Wolf. Expelled meaning?
    Mr. Marshall. Meaning put them across the border as 
undesirables.
    Mr. Wolf. They have been prosecuted and are serving time?
    Mr. Marshall. Some have been prosecuted and I believe they 
are still serving time. Others are still in jail in Mexico. 
Others wanted to have their convictions overturned.
    Mr. Wolf. So we are waiting for the rest to come. You say 
one has been extradited----
    Mr. Marshall. As far as the----
    Mr. Wolf [continuing]. From Mexico.
    Mr. Marshall. As far as the ones that killed our agent?
    Mr. Wolf. No, in general. There is a list. One has been 
extradited so far since----
    Mr. Marshall. Right.
    Mr. Wolf [continuing]. Has been extradited?
    Mr. Marshall. Right.
    Mr. Wolf. You say there are 12, 13, 15, whatever, and we 
expect them to comply and do that.
    Mr. Marshall. We hope, yes.
    Mr. Wolf. Friends treat friends like friends----
    Mr. Marshall. Yes. We hope and we are optimistic that that 
will happen.

              Methamphetamine Problem in Shenandoah Valley

    Mr. Wolf. On methamphetamine. It is a big problem in the 
Shenandoah Valley. Unfortunately, that is in my congressional 
district. I am sure you are prepared with your yellow clips 
with regard to that.
    Mr. Marshall. Actually, I do not need the yellow clips for 
that.
    Mr. Wolf. That is the center in essence in the state of 
Virginia.
    The thought of the drug trade coming to the Shenandoah 
Valley, which is a special type of place as every place I guess 
is, is somewhat amazing. Coming from the inner city of 
Philadelphia, I can understand some things in certain places, 
but I just did not think--why that area was picked upon. There 
are not as many people. Why would they go to an area like that 
versus coming to a more metropolitan area where there are more 
people?
    Mr. Marshall. Several reasons. Number one, I think that law 
enforcement in the metropolitan areas across thiscountry have 
put a lot of pressure on them. We have taken out the Colombian and 
Mexican cells in this country time and time and time and time again 
very successfully. In a certain way, the organizations, particularly 
the Colombians, are basically tired of losing their people to United 
States law enforcement. So they have given a lot of this territory over 
to the Mexican based operators. So law enforcement pressure in the 
cities is one reason.
    Mr. Wolf. There is more law enforcement in the urban areas 
so therefore they do not go to the urban areas? They pick the 
rural areas where there is less?
    Mr. Marshall. Correct. They feel there is less law 
enforcement pressure. They are dealing with, instead of, for 
instance, dealing in New York City with the DEA, the FBI, the 
NYPD, the state police, all of whom have special drug units. If 
they go to Pulasky, Kentucky or Roanoke, Virginia, there is not 
as much law enforcement presence perhaps, there is not as much 
population, so I think they see less law enforcement pressure.
    The second reason they have gone places like that is that 
they are aggressively looking at opening up new markets. They 
are businessmen. They want to hook people on drugs so they can 
sell more of their products and make more money.
    Mr. Wolf. What would you tell the people, law enforcement, 
in our Shenandoah Valley? You do have some people out there, 
and the cooperation is very good. I will say that. I mean the 
Valley, particularly the Harrisonburg area, is the center for 
the methamphetamines. Is there anything in particular, can you 
put your best people on this issue, is there something that 
should be done out there that is not being done? Should it be 
hit harder? What do you think----
    Mr. Marshall. I think what needs to be done, and we do it 
in many, many places including the Shenandoah Valley. As thinly 
as we are spread, we do it as much as possible. But when we see 
areas that need special attention like that, we generally go to 
the local police and we get an assessment from them as to how 
they view their problem and where their gaps are with resources 
or people or knowledge or training or cleanup money or 
whatever. Then once we identify that we will try to put 
together a plan. Sometimes it is a 30 day plan, sometimes it is 
a six month plan, sometimes there is a need to open a permanent 
DEA office type plan. But we try to work with the local 
authorities. If they need more intelligence, we try to plug 
them into intelligence systems. If they need more training, we 
try to provide training for them.
    What we generally find that we need most is a combination 
of all of those things. And DEA people on the ground in those 
areas for either a temporary or a permanent time period, and I 
believe that is what we have done in the Shenandoah Valley with 
always the possibility and hopefully the plans to return.
    But I think once you kind of energize that and you 
establish those relationships, those relationships tend to 
continue, and then the local people, once that relationship has 
been established, they tend to call us a little bit quicker 
when they see that they need----
    Mr. Wolf. I would ask you to look and see if there is 
anything else that should be done there.
    Mr. Marshall. I will do that, sir.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Wolf [continuing]. Harrisonburg, which is not in my 
congressional district, being the center of methamphetamine 
use, but I go just to the suburbs of the border of 
Harrisonburg, and I think you just put a little light bulb up. 
They do not have the resources, obviously, that New York City 
or the Philadelphia police department, the Washington, D.C. 
police department have. So maybe there is something or some 
idea that has worked some other place that may very well be 
tried.

                         the oxycontin problem

    For Oxycontin, another problem, it has not hit my area. 
There was a pharmacy, I think in The Plains, robbed about 11:00 
o'clock in the morning, and if it is coming in from the 
Southwest, I think 30 million people have died this year, maybe 
more, down in Congressman Boucher's area. So we are concerned.
    Maybe since no job is a lifetime job. You ought to be bold. 
If you think doing what you said would make a difference, maybe 
you ought to just go ahead and do it. Because you are going to 
hate yourself when you are 80 sitting on that rocking chair 
saying boy, I really missed an opportunity. I should have done 
that. I could have saved some lives, really made a difference, 
but I was afraid of what the White House was going to say. I 
was afraid of what the congressman that represents that 
manufacturers was going to say. And so I did not do it.
    Well, do it. Because you are wanting to feel good about 
yourself, as I know you do, when you go out of here. So if this 
would make a difference----
    I read the article in Time Magazine about his area. I will 
tell you, if that were my area I would want you to do it.
    I am surprised this has not gone nationwide. Why do you 
think it is in the rural areas of southwest Virginia and 
Kentucky, and not in other areas of the nation? Why would it 
show up there and not others?
    Mr. Marshall. I am not sure I could answer that. My best 
guess is that it is simply a drug that is readily available 
where other drugs might not be so readily available. But I have 
to tell you it has been a bit of a puzzle to me why certain 
areas and not others.

            problems with dea's budget/financial management

    Mr. Wolf. Okay.
    In the year 2000, before I got here, the Congress 
discovered major problems with DEA's budget, financial 
management. The committee, with Mr. Rogers' leadership, 
discovered DEA moved around over $30 million without seeking 
approval of the committee, nor could the DEA fully account for 
how the money had actually been spent.
    If you can give the committee an update and maybe explain 
that, but also sign the contract in front of you that, on 
behalf of Mr. Hutchinson too, that it will never happen again. 
Because--I think in fairness we just cannot let that happen 
again. This may be a process that you do not particularly like. 
When I was with the executive branch those congressional people 
were always a pain. But this is the process. I think the 
committees have to know this cannot continue.
    A lot of that happened when you were not the Director.
    Mr. Marshall. Yes it did, but that does not absolve me of 
the responsibility to fix it and see that it does stay fixed.
    We have done a number of things. You are absolutely right. 
We did reprogrammings without authority. We apparently did them 
for a number of years.
    Mr. Wolf. Did they punish you at all?
    Mr. Marshall. Did they punish me?
    Mr. Wolf. No. I would have had an IG investigation and I 
would have asked that the person be prosecuted.
    Mr. Marshall. We did our own investigation essentially, and 
then we put into effect more effective control measures. I made 
some management changes. We have a new CFO now. We have a newly 
recruited budget officer at the SES level from outside DEA. We 
have reorganized our whole effort under that new leadership.
    I think that we have improved oversight over payroll and 
certainly reprogrammings. We are not going to move money from 
decision unit to decision unit without my personal approval. 
That is at the peril of somebody that tries it. I am convinced 
that within the operational element that we will never do that 
again. We may make some mistakes perhaps in the payroll area, 
because that is a little bit harder problem to fix and I do not 
think we have any intentional violations, but we still have a 
little ways to go on accounting for our payroll dollars. Not in 
terms of getting paychecks to people, but in terms of being 
sure that the right money is in the right decision unit and 
properly accounted for. But a new management team is there.
    I believe that they have some good plans, I believe that 
they have some answers, and with just a little bit more time 
and perhaps some reprogramming of resources--not in the 
traditional congressional reprogramming sense--but putting more 
energy and resources into it. I am convinced that it is largely 
fixed, and what is not fixed we will fix very quickly.
    Mr. Wolf. Mr. Hutchinson said when I congratulated him in 
taking the job, he said be tough on me. I said we will. And 
this type of thing really--And I think I speak for Mr. 
Serrano----
    Let me recognize Mr. Serrano before I go into some other 
questions.

                          drug problem in cuba

    Mr. Serrano. Thank you, Mr. Chairman.
    Last year I asked you a question which you spoke to, and I 
just want to know where this issue is, if it has gone anywhere 
at all. I know it officially did not go anywhere, but with the 
new Administration, if you know anything about this 
Administration.
    But the question last year was that, at that time President 
Castro of Cuba had offered to--actually he had asked, if you 
would recall, the United States to help him with the issue of 
drugs. And his comments at that time, which were a shock to 
many of us because it was the first time that that kind of 
statement had been made, were about his concern that Cuba was 
being used as a place to drop off drugs. Cuban waters were 
being used by traffickers underway from one place to another.
    At that time, our drug czar got into some trouble, probably 
just in one state in this country, by saying that Cuba was 
actually making an effort, a serious effort, to combat drugs, 
but that they did not have the resources, the planes, the 
boats, that kind of thing.
    I know politically where that issue runs into. In fact, one 
response after I asked you those questions and people knew that 
I asked you those questions, one response in Congress was that 
there were actually hearings held to try to determine that 
Castro himself was a drug dealer. That is how we responded to 
his request to help him.
    Is there any conversation on that? I was really interested 
in that. Aside from the fact that I am a very strong supporter 
of establishing relations with Cuba, I just thought the whole 
idea of Castro saying you can place DEA agents in Havana, that 
was amazing to me.
    Did that go anywhere? Did it die quickly?
    Mr. Marshall. Well we still do not have DEA agents in Cuba, 
and that is a determination that is more in the diplomatic 
arena rather than directly in DEA's arena.
    Not being there, of course, we are at a bit of a 
disadvantage to determine what is or is not the involvement of 
the Cuban government or other trafficking organizations. Since 
we are not there, we do not know what we do not know.
    I would just say I suppose that we do know that Cuba is 
used, to some extent, as a staging area, as a trans-shipment 
point. I do know that the Coast Guard has conducted operations 
in and around Cuba. I know the Cuban government gave us some 
evidence in a case a time or two. I know that at certain levels 
they have offered to cooperate with us. I think it is really up 
to the diplomats to determine what presence we have in Cuba and 
when and on what----
    Mr. Serrano. I understand that. I do not want to put you on 
the spot because you are leaving the Administration, and are 
serving this Administration. I am tempted, though, to get you 
to answer. Would you advise that we should have taken that 
offer? Notwithstanding our lack of relations with Cuba?
    It seems to me that it is an offer we should have taken, 
and our response was so foolish. To just have a couple of 
Members of Congress--and I am saying that, not you--Members of 
Congress go out and try and do just the opposite, try to prove 
that Cuba is a drug-dealing government.
    That is the message I was getting. I was hearing a message 
saying this is a problem, we are willing to help you, we need 
your help.
    Mr. Marshall. I do not want to get too deeply involved in 
what I think is essentially a political question, but I will 
try to give you the best answer I can.
    It is a difficult question because on the one hand if DEA 
were in Cuba there would be certain advantages to it because we 
would at least be there and have a sense from an intelligence 
standpoint or from a ground truth standpoint of what is really 
going on there and how committed the government really may be 
to helping us or how corrupt the government may be. There would 
be certain advantages to that.
    On the other hand, we do not know yet what kind of real 
cooperation we would get from the Cuban government were we to 
put DEA agents there because we have never had them there. If 
we did not get sufficient cooperation to gather information, to 
work criminal cases, then it may be a situation where they 
would be using us as a foil to say look, we are cooperating, 
when in fact they may not. And I am not saying that would be 
the case. I am saying that is two sides of the same coin.
    Mr. Serrano. I understand.
    Mr. Marshall. So again, I would sit back and say that that 
is really a diplomatic question. It is not a law enforcement 
question.
    Mr. Serrano. All right, and I understand your answer.
    Let me just state on my part that knowing somewhat what 
some people would call paranoia and others would say isjust a 
natural reaction of the Cuban government for over 40 years to American 
government officials in general, the whole idea that they would allow 
DEA agents in Havana indicated to me that it was a legitimate offer 
because, you know, your risk would have been being there and not 
getting the truth. Their risk would have been that you sent a DEA agent 
and sent a spy. So whenever somebody says send a DEA agent to Havana, I 
have to really say that is a legitimate offer, a sincere offer. Because 
they know what they may be getting. I am surprised that people did not 
jump at that and say yeah, send him 100 DEA agents.
    Mr. Marshall. Since you raised the issue I will state for 
the record that we have never in the past nor never will we 
take on another mission. We are a single mission agency and 
that is the way it is going to stay.
    Mr. Serrano. Well said. Well said. That kills about 15 
movies being made in Hollywood about double agents. [Laughter]
    My friend Benecio Del Toro did very well with that movie 
Traffic.
    Mr. Marshall. It was a very good movie. Disappointing in 
the conclusions, but a very good movie. Very realistic.

                     Agent Retention in Puerto Rico

    Mr. Serrano. Speaking of Benicio's homeland and mine, 
Puerto Rico, one of the issues we discussed last year, and I 
want to know where we stand, was the inability to retain agents 
in Puerto Rico, the language situation, housing, change, 
family. Any progress on that?
    Mr. Marshall. We have made some progress on that. We have 
been able to within our own authority to do certain things such 
as give transfer bonuses for people that go down there. We have 
gotten, I believe, commissary privileges on the military bases 
that are down there for DEA people.
    Unfortunately, there are some other elements, a half dozen 
or so other things that we feel like should be done, but they 
are not within our authority, and my understanding is that they 
would require legislative action. Such things as retention 
bonuses.
    It is one thing to give somebody a $15,000 bonus to go down 
and do a three year tour, but at the end of that three years we 
bring them out and pay somebody else a bonus to go in and have 
to retrain them all over and get them up to speed and they have 
to learn the area, and we have to expend that money for 
transfers and that sort of stuff.
    At one time we wanted to give retention bonuses so that 
after the first three years we could give $5,000 a year or 
$10,000 or some sum per year for them to stay longer. We were 
not able to do that. There were other things, and the whole 
laundry list escapes me right now. But there were a half dozen 
or so other things that we felt like would be useful that we 
were unable to implement.
    If you would like, I will research the files and get back 
to you.
    [The information follows:]

                     Agent Retention in Puerto Rico

    Due to the difficult working conditions often encountered 
by law enforcement personnel in Puerto Rico, DEA recognizes the 
importance of incentives in attracting talented and experienced 
agents to the area. The following is a short synopsis of 
incentives that are currently in place.
    DEA offers Special Agents a relocation bonus of $7,500 for 
a three-year service agreement in Puerto Rico, $10,000 for a 
four-year commitment, and $15,000 for a five-year commitment. A 
five-percent language bonus for Spanish is also offered. 
Commissary and PX privileges have been extended to DEA 
personnel as well as access to DOD schools for dependents free 
of charge. In February of 2001, a Community Liaison Office 
(CLO) was opened which assists DEA personnel and their families 
with language training, childcare, housing and other quality of 
life issues that may be unique to Puerto Rico.
    Office-of-preference incentives also have been instituted. 
Upon completion of a three-year assignment, the employee will 
submit a list of seven DEA offices to which he or she would 
prefer reassignment. Upon completion of a four-year tour, a 
list of five offices will be submitted and after completing a 
five-year tour, a list of three offices will be submitted. DEA 
will make every effort to accommodate the preference.
    DEA employees assigned to Puerto Rico are also given 12 
workdays of administrative leave to find adequate housing and 
make necessary arrangements for the new tour of duty. Five days 
of home leave are also given for each year at post, however; 
these days cannot be used unless the employee agrees to convert 
his/her initial three year tour into two tours, each lasting 
two years.
    Due to its geographic proximity to Colombia, Puerto Rico is 
heavily enmeshed in the transit of drugs destined for the 
United States mainland and therefore exposes our agents to the 
inherent dangers associated with drug trafficking on a daily 
basis. Consequently, DEA is looking into further incentives for 
our personnel and may look to this committee for support of 
these incentives.

    Mr. Serrano. I would like some further information.
    Mr. Chairman, this situation that we have in Puerto Rico, 
the one we are speaking to now, is probably living proof of how 
difficult the job is that they have. Usually, in the other 
agencies, in Agriculture and all, people are dying to get 
assigned to go to Puerto Rico for a couple of years. This is 
the one that we have just the opposite in some cases, which 
probably speaks to your mission and the difficulty of it rather 
than to spending some weekends on the beach.
    Mr. Marshall. It is very difficult. It is very dangerous.
    Mr. Serrano. Yeah.
    Mr. Wolf. If the gentleman would yield just for a second.
    You raise a good point. I think if you or Mr. Hutchinson 
were to contact the committee and also work with, obviously you 
have to deal with the authorizing committees, but were to ask 
for some special things to deal with it--We did this with the 
FAA.
    Mr. Serrano, I think you do make a good case, then maybe we 
can carry some authorizing language, and deal with issues.
    Mr. Serrano. That would be good. This is an ongoing issue, 
and like I said, one of the most gratifying mysteries for 
people who work in Agriculture and other agencies, is the fact 
that New York, New Jersey, Puerto Rico and the Virgin Islands 
are in the same district. And people love to be assigned to 
that district because they heard they can be assigned a few 
months in Puerto Rico in the winter.

               DEA's Participation in the Winter Olympics

    Winter Olympics. Just about every agency is mentioned as 
playing a role in the Winter Olympics, yet our understanding is 
that the President's budget does not list DEA as one of the 
agencies requesting Olympics-related funding. Is there a reason 
for that?
    Mr. Marshall. We have not been asked to help with the 
Olympics this year.
    Mr. Serrano. Any reason for that?
    Mr. Marshall. We did help with the Olympics in Atlanta. I 
believe we sent, I think it was a couple of hundred agents to 
Atlanta for the duration of the Olympics. We have not been 
asked for that participation with regard to----
    Mr. Serrano. Any reason for that? Would you care to comment 
on whether you think you should be involved again?
    Mr. Marshall. I do not know the reason we have not been 
asked. On the one hand, I have to tell you that from the 
standpoint of the management of DEA, it is certainly easier and 
less headaches not to do it. But if we have something to offer 
and if we are asked, then certainly I would play my role.
    I think what we might have to offer is, obviously we know 
the drug business, and obviously there are a certain amount of 
drugs at events like that, and I think that perhaps we can help 
in that regard.
    Mr. Serrano. Drugs in the audience or----
    Mr. Marshall. Yes, in the city, but when you attract that 
many people----
    Mr. Serrano. Probably----
    Mr. Marshall [continuing]. Atmosphere----
    Mr. Serrano. You have a feeling, know that something is 
going on.
    Mr. Marshall. Let me just say that if we are asked to do 
that, then certainly we will try to do it. I do not know why we 
have not been asked.
    Mr. Serrano. I am surprised. Maybe that is something we 
should try to find out, Mr. Chairman.
    Mr. Marshall. With resources. [Laughter].

                       DEA Chemists Job Function

    Mr. Serrano. He opened the door for you to get whatever you 
wanted. And he is my chairman.
    You are requesting an increase of over $13 million to hire 
additional chemists and purchasing new lab equipment. What do 
DEA chemists do?
    Mr. Marshall. They do a number of things. First and 
foremost they analyze drug evidence that DEA submits as well as 
many of the state and local police agencies submit. That is the 
basic bread and butter. They take an exhibit and they identify 
it as cocaine hydrochloride or heroin hydrochloride or whatever 
the drug may be. They tell what strength it is, they tell what 
weight it is. That is all useful in the judicial process to 
meet the requirements for sentencing guidelines and all that 
kind of stuff. You basically have to know what your evidence 
is. That is one thing that they do.
    Another thing that they do is they go out with agents in 
many cases where particularly we are doing clandestine 
laboratory work. They are trained in dismantling these things 
and recognizing what stage of the process it might be in, how 
dangerous it might be at a particular process. Then if it is in 
an incomplete stage at the lab they have to give estimates on 
how much it would have produced.
    They process fingerprint evidence. They testify in court as 
expert witnesses.
    Finally, they do a number of analytical intelligence type 
of programs that help us identify the source of drugs. They 
have signature programs, for instance, that will take a sample 
of heroin, for instance, and they will compare that against 
known control samples and tell us within reasonable certainty 
whether it is Southeast Asia origin or Mexican origin or 
Southwest Asia or Colombian. Then we use that information to 
base intelligence trends, placement of resources, that sort of 
stuff. They are an absolute essential part of our operation.
    We have four core series of employees--special agents, 
intelligence analysts, diversion investigators and chemists. 
The core series, the four disciplines that make up the core of 
the mission that we perform. Chemistry is one of those.
    Mr. Serrano. I thank you for that.
    Mr. Chairman, I have a few more questions that I would like 
to submit for the record because the big apple is waiting for 
me----
    Mr. Wolf. I understand.
    Mr. Serrano. The city is so nice they named it twice. New 
York, New York. [Laughter.]
    I just want to take this opportunity to thank you once 
again for the service you have given our country. If you choose 
not to stay here in Virginia, New York is always there.
    Mr. Marshall. I have talked to----
    Mr. Serrano. We need more population, right?
    Mr. Marshall [continuing]. Prospective employers in New 
York, and they are going to have to up the ante. Texas is the 
way to go----
    Mr. Serrano. I understand.
    Mr. Marshall. Nothing against New York.
    Mr. Serrano. I understand.
    Mr. Marshall. Who knows, I may----
    Mr. Serrano. We even have a country music station----
    Mr. Marshall. I may end up there. [Laughter.]
    Mr. Serrano. They have two, in fact.
    Thank you so much.

                Special Operations Division New Location

    Mr. Wolf. A couple of other questions.
    Your special operations division and location--the building 
you are not going to own, I was told by the staff, the location 
is out in Virginia, is that correct? Is that where it is going 
to be?
    Mr. Marshall. Yes.
    Mr. Wolf. Where in Virginia?
    Mr. Marshall. In the far western suburbs. Chantilly, I 
believe.
    Mr. Wolf. That is my district.
    Mr. Marshall. I was not going to say this, but I live in 
Chantilly, and you are my congressman, sir. [Laughter.]
    Mr. Wolf. How many employees will be out there?
    Mr. Marshall. I think probably a couple of hundred. Closer 
to 300.
    Mr. Wolf [continuing]. A combination of several agencies 
together?
    Mr. Marshall. Yes. It is predominantly DEA, but there are 
also contract employees there, FBI is there, U.S. Customs is 
there, Coast Guard may be presented up there, the U.S. Marshal 
service is represented.
    Mr. Wolf. When--The building has not even begun yet? Where 
are you with regard to the construction schedule?
    Mr. Marshall. I do not know if we have a projected date. 
Perhaps a year from now. Let me nail that down.
    Mr. Wolf. At the appropriate time I would like to come out 
and visit and see what you are doing, and----
    Mr. Marshall. We would be glad to have you out. You do not 
have to wait until we move. We can show you what we are doing 
right now.

                   Special Testing Facility Location

    Mr. Wolf. You also had a room in Tysons Corner, and it was 
moving because of need of the office space. There was an 
arrangement to work it out, and I understand you are moving out 
of the county. Is that accurate?
    Mr. Marshall. It is my understanding that we are moving to 
a temporary location pending a permanent location.
    Mr. Wolf. The permanent location is going to be in Loudon 
County, is that correct?
    Mr. Marshall. It is out in that direction somewhere. I do 
not know if it is far western Fairfax or if it is Loudon. If I 
may get that for the record, please.
    Mr. Wolf. Yes. Loudon County is my district, too. I like to 
know.
    [The information follows:]

                     New Location of DEA Facilities

    The target date for completion of the Special Operations 
Division building in Chantilly, VA, is February-March 2002, and 
the anticipated occupancy date is March-April 2002. The former 
location of DEA's Special Testing and Research Laboratory was 
in McLean, VA. This facility is currently located in Chantilly, 
VA.

                       solutions to drug problem

    You made the comment about the movie Traffic. I saw the 
movie. I thought it was very, very well done. What was your 
conclusion? Not your conclusion what you believed, but what did 
you think the conclusion of the movie was?
    Mr. Marshall. I think the conclusion of the movie was that 
the drug war, so to speak, is lost if you attack it from a law 
enforcement and prevention standpoint. And I think that it 
played treatment as ``the'' answer, and I think that is a very 
bad mistake for us as policymakers or the American people to 
buy into because treatment is not ``the'' answer. Treatment is 
part of the answer. It would seem that people like, and I made 
reference to William Raspberry earlier, that said we might as 
well accept that we are going to have a certain amount of drug 
abuse in the country and just deal with it.
    That is abandoning a certain segment of our population, and 
we cannot do that.
    I think that the movie really went a long way toward 
convincing some people that we should give up on the law 
enforcement end of the drug war, and that is absolutely not the 
way we should go.
    Mr. Wolf. I saw the movie and I did not come away with 
that. I came away with the conclusion that it is a very tough 
issue. I agree with you, I think it can be dealt with. I am 
strongly opposed to legalization. I believe law enforcement is 
absolutely critical. I believe also education and 
rehabilitation are important, and I think we have not had 
enough emphasis on the education and the rehabilitation, and 
what education we have had has not always been very successful.
    But I agree. I think it is a challenge to roll up the 
sleeves and deal with the issue.
    I think it also would point out the hypocrisy about what I 
mentioned earlier. Ms. Roybal-Allard's amendment which I 
supported and will support again, if she offers it. I think the 
drug czar and the office should have said we will support your 
amendment, Ms. Roybal-Allard and Mr. Wolf, which will allow us 
to advertise to 13 year olds as to why they ought not drink. 
Because drinking alcohol at 13 is a gateway to many, many 
things including drugs. And hypocrisy, what I got out of it as 
hypocrisy of society, where he was coming on, if my memory 
serves me, and having a drink if you will, and not seeing the 
whole inconsistency of what his family saw.
    But I am with you, I am for doing everything I can with 
regard to enforcement, be very aggressive, particularly at the 
top, go after the king pin. But also be very aggressive with 
regard to education, keeping people from ever getting to the 
point that they need the rehabilitation. And then very 
aggressive rehabilitation. Anyone and everyone who is arrested 
for drugs ought to have an opportunity to get into a program. 
To arrest somebody for drugs and not be able to get into a 
program just isn't right.

                   treatment of first-time offenders

    Which leads me to a very controversial question I want to 
ask you, just to get your thoughts. I went up with the Bureau 
of Prisons, up to five prisons up in Pennsylvania, and 
Lewisburg. And at the end of the day, we are going to put in 
new legislation which we hope to get the approval of the 
authorizers. We are going to try to set up work programs in the 
prison where if you put a man away for 15 years that you give 
him dignity during that period of time. What we are trying to 
do is bring business in to make products that are no longer 
made in the United States, that way we are not in competition 
with any American job.
    We now have a company that is ready, a prominent company 
that is ready to come back in and open up a factory in the 
prison. And a portion of the money that the men make will go 
toward restitution, if they committed a crime, pay for their 
upkeep, but also it will be gate money as they leave, to begin 
to train them so when they come out they have a skill.
    I met with six young men who had all been arrested at 18 
and 19 years of age. One was 32 years, if my memory serves me, 
the other was 20-some years, all for selling, not just for 
using drugs but for selling. They were pushers. All non-
violent.
    There was an escape clause put in, whatever you want to 
call it, a safety valve put in with regard to giving judges 
some discretion I think from '94 on, is that correct? Should 
there be some review, and again, I am a conservative 
Republican, and I am on the record how I vote on every issue, 
so my positions are very well known.
    Would it not be of some merit to go back into some of these 
cases on a case by case basis, that if you had someone that 
age, 18 through 21, who was involved in this activity. I'm not 
talking about 35 or 28, but maybe 18 through 21 or 22. And it 
had been a first time offense, and it had been non-violent, to 
give some discretion, particularly if from '94 on there is a 
safety valve there for the discretion, to go back and look at 
some of these cases of pre-1994, particularly those who have 
been in, let us say 10 or more years. Would it make sense? 
Would there be any danger in doing that to see if that safety 
valve philosophy could also be applied to these?
    They all seem like pretty good people. I have been involved 
in prison programs. I know prisoners can con you. They seem 
sincere at the time and at the time are, but there are sincere 
people who are actually there.
    One case sticks in my mind, the kid was 18 years old when 
he was arrested. He was living with his mother and father, he 
was going to college. Should we go back and look at some of 
those cases to see on a case by case basis if we should 
reevaluate and use the same type of standards that we have for 
'94 on with regard to them?
    Mr. Marshall. I think I would have to leave that to the 
prison experts and maybe the judicial experts. When you look at 
reviewing things on a case by case basis, I am a fairly 
pragmatic person and I do not have a particular problem 
reviewing things on a case by case basis, so that might be a 
reasonable suggestion.
    Mr. Wolf. The standard would be 18 through 21, first time 
offense, non-violent.
    Mr. Marshall. Sir, that very well may be a reasonable 
suggestion. But again, I am not an expert in that area so I 
would leave that to others.
    What I would say is there is a myth in this country that we 
are locking up massive numbers of people for simple possession 
of drugs, and that is simply not true.
    Mr. Wolf. This was not possession. No, I said they were 
dealing.
    Mr. Marshall. I would also make the comment that people use 
the terminology ``non-violent'' drug offenses. In my best 
professional judgment and from what I have seen in my time in 
law enforcement, I do not think there is any such thing as a 
non-violent drug offense, trafficking particularly. And perhaps 
even use as well.
    It might be true that people are arrested for distribution 
of drugs where there might not be any direct violence involved 
in that particular incident. But that does not mean that those 
are non-violent offenders because when they sell drugs they 
create violence.
    Mr. Wolf. Absolutely
    Mr. Marshall. Within the families, within communities, 
among traffickers. I just do not think there is any such thing 
as a non-violent drug offense.

                  review of first-time offenders cases

    Mr. Wolf. I would agree with you, but I think there is 
under the definition of the law.
    What would be the problem, this is not a policy issue for 
you, but as head of the DEA, what would be the problem? Is 
there a problem of going back to review those cases, again, 
non-violent under the law, 18 through 21 or 22, first time, 
being that they were 18 through 22 at the time they committed 
the act, and applying the safety valve that has now been 
applied since '94 on. So we are not creating new law. We are 
not treating them any better than we are anyone else. That is 
the standard that I was----
    Mr. Marshall. I think that I would defer to other experts 
on that.
    Mr. Wolf. Do you have an opinion?
    Mr. Marshall. I have not had a chance to think about it 
that much.
    Mr. Wolf. Let me get your best answer though. What is your 
gut reaction to it?
    Mr. Marshall. My gut reaction is that drug traffickers 
should serve their sentences. That is my gut reaction.
    Mr. Wolf. Okay. And does it bother you that one is getting 
32 years and somebody else very well connected, good lawyer, 
hires the best K Street firm, knows somebody, and they get six 
months?
    Mr. Marshall. I think a certain amount of that is a concern 
throughout the criminal justice system and we should try to----
    Mr. Wolf. And we are building more and more prisons. We now 
have, we now lead the world per capita, I think China may be 
one, but we may be overtaking them. And we have had a 
fundamental breakdown of moral values.
    Mr. Marshall. Absolutely.
    Mr. Wolf. But I wonder if that is not an issue as to how 
you deal with people?
    I think those of us who have a record of being, if you 
will, and I do not want to put you in my category, of being 
tough and aggressive with regard to crime, also have to think 
of rehabilitation.
    Mr. Marshall. I hope I am tough and aggressive with regard 
to crime.
    Mr. Wolf. We also I think have a particular burden and an 
obligation to also have a sense of compassion insofar as, and 
maybe I did not make the question clear, that having served 10 
years, having been involved in this from 18 through 21, having 
been a non-violent crime, not defined by you but as the law, to 
applying the safety valve standards that are now being applied 
for those from 1994 on, to go back. Is that justice from a 
biblical point of view, which I think is important. I believe 
the Bible makes a lot of sense.
    So from a biblical point of view, is there not a burden or 
an obligation, particularly on those who want to increase the 
law enforcement, want to be more aggressive with regard to 
sentencing, to also look at rehabilitation.
    If I were the head of the DEA and I were the President, I 
would tell you to go into Mexico and pick up every king pin guy 
you knew. I would violate, probably, the border issue because 
this is a war to a certain extent. And I think what the Mexican 
trade and what the Colombians have done with regard to the 
inner city and other people is an atrocity. It is terrible.
    So if I knew and I am not setting policies for President 
George W. Bush, but if I knew that a king pin was sitting in 
Tijuana or another area, I would say it would be okay to go 
ahead and take him and bring him back and try him. The same way 
that we did with regard to Khanzi who was involved in the 
assassination and the killing outside the CIA. I think what the 
FBI did was totally appropriate, to go to Pakistan, pick the 
guy up, and bring him back and charge him and sentence him and 
put him away.
    So having been in that category there, is there not some 
obligation or burden, if you will, to have a sense of 
compassion with regard to that the category from '94 on is 
treated one way, and we are not saying to treat the pre-'94 a 
different way. We would say just treat them the same way. Maybe 
even a little tougher because they already had the ten year 
sentence and you are only going back to look at 18 to 21.
    I am not trying to direct your answer to please me. I am 
pushing you to give me your honest answer. Do you think that 
would be a good thing to do or a bad thing to do?
    Mr. Marshall. I just have to tell you, sir, again, I do not 
understand the issue well enough and have not thought about it 
enough. If you will give me a couple of days to reflect on it, 
get more familiar with it, I will get you an answer.

                   handling allegations of misconduct

    Mr. Wolf. Why should not the IG be eligible to deal with 
the FBI and DEA? Looking at the way the law is set up, DEA has 
the Office of Professional Responsibility to investigate 
allegations of misconduct by DEA employees, but you sort of 
exempt out, if you will, the Department of Justice IG. Why 
should not the IG be able to be involved with the DEA and the 
FBI the same way that the IG is involved with the FAA at the 
Department of Transportation?
    Mr. Marshall. They should be involved and they can be 
involved and very frequently they are involved. But if I 
understand your question correctly, it may very well be you are 
asking me why should DEA even have its own OPR rather than have 
the IG----
    Mr. Wolf. No, no.
    Mr. Marshall. If you could elaborate.
    Mr. Wolf. The Office of Inspector General has the authority 
to conduct audits and inspections throughout all components of 
the Department of Justice.
    However, with respect to investigation of employee 
misconduct the Office of Inspector General is not the only 
internal affairs entity within the Department of Justice.
    The Department of Justice Office of Professional 
Responsibility, OPR, the Federal Bureau of Investigation, FBI, 
OPR, and the Drug Enforcement Administration, DEA, OPR, also 
investigate allegations of employee misconduct. OIG has 
authority to investigate. The question is under the Attorney 
General's order, who handles which allegations of misconduct? 
OIG has decided to investigate all allegations of employee 
misconduct in the department and its components except when 
jurisdiction is specifically conferred on one of the other 
alternative entities. The Office of Inspector General can 
request permission from the Deputy Attorney General to take 
responsibility for investigation for any of the OPRs.
    Why would the IG not be permitted to go wherever the IG 
wants to go? The most important thing is honesty, integrity, 
ethics, morality. We had a hearing, not in this committee, 
yesterday with regard to Director Freeh, who I think is a good 
person. He has served this country with distinction both as a 
special agent and a U.S. attorney and a federal judge and as 
Director of the FBI. But the fact remains, certain things 
happened--whether it be the Hanssen case or the McVeigh case. 
And I think an IG would have actually been a help to Director 
Freeh.
    As chairman of this committee with the Transportation 
Department, the IG was one of the best friends the 
administrator actually had.
    Why would we not want the IG to have the same authority 
with regard to DEA and the FBI as it perhaps has with the 
Office of the Bureau of Prisons, INS?
    Mr. Marshall. I think the IG should have a role and 
certainly at the request of the agency head or at the direction 
of the Attorney General, the IG should do those things. I have 
requested IG involvement in my agency several times.
    As to why shouldn't they do it all, let me give you my best 
professional judgment on that.
    As the agency head, I have the responsibility, indeed I 
have the obligation to keep my agency clean, maintain our 
integrity to the best of my ability.
    Mr. Wolf. But doesn't the FAA administrator have the same 
authority?
    Mr. Marshall. They do, but we are in a very sensitive area 
where there are a lot of opportunities for corruption, perhaps, 
for misconduct, for misunderstanding perhaps. If I have the 
authority and the responsibility and the obligation to keep my 
agency clean, then I need to have tools that I myself can use 
to fulfill that responsibility.
    Mr. Wolf. You would still have the tools. You would still 
have your Office of Professional Responsibility. But the 
Inspector General would also investigate that. The IG could 
also investigate it.
    I have a hard time figuring out why you should be above the 
law. You are basically exempted out.
    I as a congressman should not have any greater privileges 
than anybody else.
    Mr. Marshall. I do not think that I should.
    Mr. Wolf. Would it not be better for your agency? Would we 
not be--I mean your people are good people. You have had 
problems, but there have been problems in Congress.
    Would it not be better for the country and for your agency 
and for you to have this also?
    Mr. Marshall. I do not think it is particularly necessary 
to change the guidelines because as I said, the Attorney 
General can order the IG to come in.
    Mr. Wolf. But we had the Hanssen case and the Attorney 
General did not get involved really in that. Hanssen went for 
15 years. How many agents have gone bad in the DEA over the 
period of time?
    Mr. Marshall. We have had a few. Thank God a very few. And 
we have generally cleaned up those problems ourselves.
    Mr. Wolf. But the fact that Hanssen was bad and the FBI 
didn't pursue it and people died. And you even see the action 
that was taken with regard to that was really too late. I mean 
now they have set up kind of a group of people that supposedly 
know the issue, but really only when Ashcroft came in did they 
say we are going to have the IG look at it.
    Why should the IG not have the ability to look at all of 
these things?
    Mr. Marshall. I think through the Attorney General, with an 
Attorney General order, they do have the authority to look at 
whatever the Attorney General orders them to.
    Mr. Wolf. But either you are missing the point or you are 
averting the point.
    The Secretary of Transportation cannot tell the Inspector 
General what to investigate or not. He has that ability or she 
has that ability. The fact is, political appointees may not 
want them to find it. They may not want them to find it.
    Frankly, DEA has failed on the fact that this should have 
been given to this committee with regard to Puerto Rico months 
ago. A year ago.
    If I had been chairman of this committee during the period, 
and Mr. Rogers supported it, I would have done something, 
because I feel that kind of if you are for people, I expect 
them to be more open and honest and ethical and moral, if you 
will, because if you are for them, it is not an adversarial 
process.
    I mean I respect the DEA very, very highly. The same way 
with the FBI. The same way with the CIA. But as a result of 
that I expect almost a higher standard. People who first of all 
ought to comply with the law.
    So the IG would have been an appropriate place there. So 
really it has not worked as well. I am not going to get you to 
say, obviously, you guys are locked in.
    I think the IG ought to cover the DEA because I think you 
guys are good enough and honest enough that you do not have to 
worry about that, and if there is somebody that is not, then 
you deal with that issue and you want to find them more than I 
want to find them because you have the respect and the 
integrity.
    I mean when you go home at night everyone ought to be very, 
very proud. As I said, the worst thing is to have people who 
are either making the law, that is a congressman to be 
unethical, a bad apple there, or people who are enforcing the 
law--that is somebody in law enforcement.
    Mr. Marshall. If I might just make one final comment. I 
want my own investigators, quite simply, because I do not want 
it to have to be the Inspector General's responsibility. I want 
to be able to police my agency, and I do not want there to be 
even a scintilla of an attitude or an opportunity for people to 
say oh, well, that is not my problem, that is the IG's problem.

                  handling of puerto rico allegations

    Mr. Wolf. Mr. Marshall, you can still have your office. But 
you failed to comply and follow through on the Puerto Rico 
issue. There is a scintilla out there.
    This committee----
    Mr. Marshall. But I am following----
    Mr. Wolf. This----
    Mr. Marshall. I will.
    Mr. Wolf. You say that, listen carefully. You had first 
inkling of this in 1999.
    Mr. Marshall. I had the first inkling of a problem, not 
particularly this problem.
    Mr. Wolf. That is when it should have been dealt with, in 
1999.
    Mr. Marshall. And we dealt with it apparently----
    Mr. Wolf. You dealt with it within the family. You are not 
above the law.
    Mr. Marshall. I never claimed to be.
    Mr. Wolf. I know you did not, but you dealt with it within 
the family. Maybe somebody from outside of the family should 
have had an opportunity.
    Did the Attorney General, did you report this to Janet 
Reno?
    Mr. Marshall. No. I only found out about the latest 
allegation earlier this year. February of this year.
    Mr. Wolf. Did you tell her about the 1999 revelations that 
you found out about? If we brought in and subpoenaed Janet 
Reno----
    Mr. Marshall. Well no because there was not at that time 
anything that led us to believe there was an intentional 
wrongdoing. We looked at it as a recordkeeping error.
    Mr. Wolf. What did you----
    Mr. Marshall. [continuing]. Which we thought was fixed.
    Mr. Wolf. When did you think there may have been a 
potential problem?
    Mr. Marshall. February of this year.
    Mr. Wolf. Did you tell anyone about it outside of DEA?
    Mr. Marshall. We routinely----
    Mr. Wolf. Did you call the White House and say----
    Mr. Marshall. No. We routinely----
    Mr. Wolf. Did you call Eric Holder? Was he still in the 
building at that time?
    Mr. Marshall. We brief people in the Department of Justice 
on issues like this periodically.
    Mr. Wolf. Who did you brief?
    Mr. Marshall. I did not personally brief anyone.
    Mr. Wolf. Then who was briefed on it?
    Mr. Marshall. A deputy administrator there----
    Mr. Wolf. [continuing]. Outside.
    Mr. Marshall. I will have to get that.
    Mr. Wolf. Give us an answer, who outside DEA knew of this.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Marshall. I will get you that information.
    Mr. Wolf. I kind of got my juices flowing on this one. And 
obviously you are leaving, and you have a distinguished record. 
I do not want what I say to be taken out against you, because 
it really is not.
    Honesty, integrity. These things just, they are really 
really important. Those of us who serve in office, whether 
elected or whether appointed, have almost a greater burden and 
a greater avocation, and I hope I hold myself to that.
    I think we can, I have a lot of other questions but it's 
ten of 5:00 and----
    Mr. Marshall. If I may make one comment.
    I share, sir, your comments about honesty and integrity. 
And I do want to point out that DEA has a tremendous track 
record for honesty and integrity, and this is not going to 
change that because I will deal with this.
    Mr. Wolf. I understand that, and I take you at your word.
    There was no inference that it was not, it was that this is 
a way to make sure that it never does.
    When you lose your integrity and you lose the trust, when 
you lose it, and it happens in law enforcement agencies. We 
know what took place during the Nixon administration at certain 
spots. We know that. We know. When that happens it is very 
tough to get it back. I think there is a greater obligation, a 
greater burden for people that are either making the laws or 
that are enforcing the laws. I think we all must be held to a 
higher standard.
    I am just going to submit the other questions. One about 
FIREBIRD, I guess I would ask you that. There is no potential 
McVeigh problem here because the collection of the data with 
regard to the McVeigh case--and this is collective evidence so 
there is no similarity, I would assume.
    Mr. Marshall. We have several different platforms right now 
where we report case-related intelligence and information and 
we are moving toward what we call a case status system and 
there is one other system that we are trying to combine into 
one. Right now we have to go to two or three systems. That will 
make our system more comprehensive when we complete that.

             cooperation among law enforcement counterparts

    Mr. Wolf. Also, you are one of the people--which I think is 
a good idea. And I think that is what Director Freeh has done 
in a very good way. Because if you are not there, particularly 
with the global--Are you doing the same thing that he is doing, 
developing relationships with different law enforcement people 
around the world? Where DEA people know the DEA people in 
Turkey? Is that----
    Mr. Marshall. Absolutely. That is one of the core things 
that we do around the country, that is one of the core values 
of DEA is cooperation with state and local and other federal 
and international law enforcement. We are kind of good at this. 
We are kind of at the center, at the hub of the wheel, so to 
speak, and in the drug investigation arena we have those very, 
very effective relationships throughout the world, and we are 
kind of the glue that holds it all together. We are the guys 
that will take the Los Angeles police department or the Roanoke 
police department and take what otherwise would be a local 
impact case and through those relationships that you referred 
to, we can find out how that is affected by things that go on 
in Bogota, Colombia; or Guadalajara, and we can tie it all 
together into big national and international investigations and 
take out entire organizations at a time. We are very good at 
it, and it is because of those law enforcement relationships.
    Mr. Wolf. I want to thank you for your testimony today. 
Thank you for your service to the country. Public service is 
very, very important. And thank you for your people, for the 
good job that you do.
    Here on the committee, anything we can do, I know you will 
only be there for a few more months, but anything that we can 
do, whether it be funding if we can, or skirt things around, or 
do whatever. I think this is something I want to keep thinking 
you can conquer, you can deal with it.
    I think when men and women of good faith come together and 
work a problem, you can deal with it. If you give up, and I was 
surprised when I saw the Raspberry piece which I thought was 
really a shame. I was a little disappointed. Usually I agree 
with him, but on this issue I think he has gone a little bit 
too far. Maybe he had a life experience, maybe something 
happened, maybe I missed something. I don't know.
    But even, when the going gets tough, you have to--what is 
the saying? When the going gets tough, the tough get going. I 
think that is the thing to do. It is a combination.
    Go after the big guys and get them however you can get 
them. Good education. And I do not know where this program is 
going to come with regard to the parents. I completely agree 
with you. I do not think that will come through this committee. 
I think that would come from HHS. But anything I can do to help 
with regard to that. But good education. Maybe churches have to 
speak out more on this issue. This is a moral issue.
    Also those who get addicted for whatever reason, there 
ought to be an opportunity for rehabilitation. I went to Lorton 
Reformatory once, I ran into a drug hab program. They were 
watching cartoons and many of them had their heads down on the 
desk.
    I broke away from the group. With rehabilitation, both in 
prisons, I think you seem to have a pretty good program. We are 
looking into that. But you really, if somebody gets captured by 
this problem, they really have to have the opportunity for drug 
rehabilitation.
    I also think, and this is not your area, there ought to be 
an opportunity for more research to see what maybe we are not 
doing now that they could be doing. Some of these programs 
appear to be very, very successful. Others appear and the 
success rate does not seem to be very, very good. But you just 
can't sentence somebody and just throw them away and not give 
them the opportunity.
    Mr. Marshall. You are right on target with all your 
comments.
    Mr. Wolf. Good. Again, thank you very much.
    Mr. Marshall. Thank you.
    [Questions submitted by Chairman Wolf follow:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                            Wednesday, May 9, 2001.

                 IMMIGRATION AND NATURALIZATION SERVICE

                               WITNESSES

KEVIN D. ROONEY, ACTING COMMISSIONER
BO COOPER, GENERAL COUNSEL
JOSEPH GREENE, ACTING ASSISTANT COMMISSIONER, INVESTIGATIONS
GEORGE BOHLINGER III, EXECUTIVE ASSOCIATE COMMISSIONER, MANAGEMENT
BARBARA STRACK, ACTING EXECUTTIVE ASSOCIATE COMMISSIONER, POLICY AND 
    PLANNING
GUSTAVO DE LA VINA, ASSISTANT COMMISSIONER, BORDER PATROL
ROBERT GARDNER, ASSISTANT COMMISSIONER, BUDGET
WILLIAM YATES, DEPUTY EXECUTIVE ASSOCIATE COMMISSIONER, IMMIGRATION 
    SERVICES DIVISION
ROBERT MOCNY, SPECIAL ASSISTANT TO THE DEPUTY COMMISSIONER

                     Opening Remarks--Chairman Wolf

    Mr. Wolf. We are going to begin. There is going to be a 
vote, they tell us, at 10 o'clock; and so if that is, I will 
stay until about 10 after 10 and go and maybe someone can fill 
in and continue. Otherwise we will have to recess.
    Thank you, Mr. Commissioner--or Acting Commissioner, for 
appearing before the subcommittee this morning to discuss the 
DOJ's fiscal year 2002 budget request. As Director of the 
Executive Office for Immigration and Review before taking on 
the role of Acting Commissioner, you obviously oversaw the 
immigration court system and have some perhaps strong feelings 
with regards to this issue.
    We are here today to discuss the INS budget request of 5.5 
billion dollars. The budget includes 3.5 billion dollars of 
budget authority and another 2 billion dollars in fees. This 
figure represents a 10 percent increase over the current fiscal 
year funding available to address immigration and border 
enforcement needs.
    Historically, the INS budget request has grown 
substantially since 1993, up 233 percent. I don't know of any 
other agency, perhaps--other than NIH because we have been 
doubling the budget, but maybe not even NIH--that meets that 
number. Going back just 5 years, the budget has increased by 
over 60 percent. These increases have been more than generous, 
but the return on the investment, most people--I think most 
people who call my office--would feel has not been as good as 
maybe they would hope for.
    We would like to welcome you. I am going to let you begin.

                  Opening Remarks--Congressman Serrano

    Mr. Serrano--the traffic was pretty tough out there, and we 
do have a vote at 10:00, so maybe he went directly to the 
floor; but when he comes, we will recognize Mr. Serrano for any 
statements that he would like to make, opening statements. And 
maybe you can begin, and when Mr. Serrano comes in, he can 
continue to chair if I am not here.
    But why don't you begin.

                    Opening Statement--Kevin Rooney

    Mr. Rooney. Thank you, Mr. Chairman. I appreciate the 
opportunity to appear before you to discuss the President's 
fiscal year 2002 budget request for the Immigration and 
Naturalization Service.
    In recent years this subcommittee's strong support has 
allowed INS to make significant improvements in how we carry 
out our dual enforcement and service responsibilities. Our 
fiscal year 2002 budget request at $5.5 billion is 10 percent 
higher than our current funding level and will enable the 
agency to build on this solid foundation and further strengthen 
the Nation's immigration system.
    INS' aim has been to build a seamless web of enforcement, 
extending from our borders to the Nation's interior. The 
proposed budget continues support for the comprehensive 
strategies that we have been implementing successfully in 
pursuit of this goal. The focus is on border control, which is 
the anchor for our entire enforcement web.

                        Border Control Strategy

    Our border control strategy is designed to create and 
maintain borders that facilitate the legal flow of both people 
and products into our Nation, while preventing illegal 
immigration and the smuggling of drugs and other contraband.
    To move closer to this goal in fiscal year 2002, we are 
seeking 570 border patrol agents. These new agents, plus an 
additional 570 that the Administration has proposed for the 
next fiscal year in 2003, will complete the 5,000 agent figure 
authorized by the Congress in 1996.
    We are also asking for $20 million for intrusion detection 
technology, which has a force multiplying effect along the 
border. We plan to deploy the bulk of these resources along the 
Southwest border, particularly in Arizona and eastern 
California, where we want to replicate the recent successes 
that we have had in San Diego and elsewhere.
    Enhancing enforcement between our ports-of-entry is not 
enough, however. INS must also continue to strengthen 
activities occurring at the ports on the border and in the 
Nation's interior. This budget request will allow us to do that 
by providing $50 million for 417 new immigration inspectors. It 
also earmarks $26 million for improving various automated 
information systems, including the database that the inspectors 
use to prevent criminals, suspected terrorists and other 
inadmissible individuals from entering the country.

                        Detention Removal Progam

    Without an effective detention and removal program, 
detecting and apprehending deportable aliens becomes little 
more than a training exercise, lacking in credibility and 
producing few results. That is why we are asking for an 
additional 173 positions and $89 million in fiscal year 2002 
for detention and removal. With these new resources, we will be 
able to use 1,600 more beds in State and local detention 
facilities, which are crucial for accommodating a daily average 
population of more than 19,000 detainees, which has tripled 
from the 1995 number.

                          Immigration Benefits

    As INS continues to strengthen enforcement in response to 
the unprecedented pressure that illegal immigration has created 
at our borders and in the Nation's interior, we must also 
handle the skyrocketing demand for immigration benefits. Based 
on receipts to date, we project that by the end of this fiscal 
year we will receive some 9.5 million applications and 
petitions for benefits. That is 50 percent more than we 
received last year and 80 percent more than the year before.
    The demand for services is being fueled by both changes in 
immigration law and record-level legal immigration. In fact, 
the preliminary figures indicate that we have welcomed more 
newcomers in the last 10 years than in any other decadein U.S. 
history, including the beginning of the last century, which is 
recognized as the period of immigration in this country.

                                Life Act

    INS is currently implementing the Legal Immigration Family 
Equity Act, LIFE, which was signed into law in December. We 
estimate the agency will receive nearly 4.5 million LIFE Act-
related applications by the end of fiscal year 2003. In fact, 
we are already feeling the impact of the law. It is the chief 
reason why we received more non-naturalization applications in 
March than in any other month in more than a decade.
    In recent years, INS has worked diligently to rebuild the 
service structure that was weak and woefully inadequate to 
handle the agency's workload. Reconstruction is far from 
complete, but I can assure you that considerable progress has 
been made. Last year, for example, we completed 24 percent more 
benefit applications than we did the previous year.
    As a more meaningful measure for those applicants who have 
languished in line, we completed 430,000 more applications than 
we received last year. The Administration has proposed 
establishing a universal 6-month standard for processing all 
benefit applications and petitions within 5 years. To meet this 
goal, it has pledged its support to a $500 million initiative 
to fund new personnel and enhance technology and to make 
customer satisfaction a priority. Our fiscal year 2002 budget 
request includes the first $100 million installment of this 5-
year plan.
    For what little of the budget request that I have just 
highlighted, you can see that both in enforcement and in 
services INS faces enormous challenges in fiscal year 2002. 
However, as I have seen since taking over as Acting 
Commissioner just 6 weeks ago, there are clear indications that 
the agency is moving in the right direction to meet these 
challenges. I look forward to working with you to maintain this 
momentum.
    Thank you, Mr. Serrano. I would be happy to answer any 
questions that you and members of the subcommittee may have.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                            Racial Profiling

    Mr. Serrano [presiding]. Let me apologize for walking in 
during your presentation. Chairman Wolf went to vote. As soon 
as he comes back, I will go. But we have a major vote going on. 
I think it is the journal vote. I read it last night, and it is 
grammatically correct, so I am voting for it.
    Let me tell you, your agency has had a history, I think, of 
getting support from Congress and at the same time being 
criticized by Congress; and every so often there are issues 
that come up that need to be dealt with. So with that in mind, 
let me get to a point that is of great interest to myself, to 
members of the Hispanic Caucus and, I think, to many Members in 
Congress.
    The New York Times ran a story on the front page of its 
Metro section last week about the racial profiling tactics 
employed by the INS New York district office. The Times 
reported that Latinos represented a disproportionate number of 
the workers arrested in INS enforcement actions around New 
York. Ninety-six percent of the arrested workers were from 
Central and South American countries, while the Urban Institute 
estimates that 35 percent of New York's total undocumented 
population hails from these countries.
    Moreover, 95 percent of a random sample of INS files reveal 
explicit reliance on Latino ethnic criteria when deciding which 
work sites to raid. In the story, Joseph Greene, the Acting 
Assistant INS Commissioner for Investigations, who might be 
here today----
    Mr. Rooney. Yes, he is.
    Mr. Serrano [continuing]. Said, quote, ``Obviously, mere 
nationality and mere ethnicity by themselves, unsupported by 
other facts, are absolutely no basis for us to determine if a 
person is illegally in the United States. There is a whole body 
of jurisprudence that has heightened everybody's sensitivity to 
that''.
    Nevertheless, the raid files, which provided the basis for 
the article, are replete with examples of exactly what Mr. 
Greene said the agency cannot do, of INS agents specifically 
relying on certain characteristics, such as Central and South 
American appearance and use of Spanish, when deciding whether 
or not to raid a work site.
    This raises a number of questions. First, what exactly is 
INS's policy on racial profiling? I would like to know that. Is 
there a policy that has been stated publicly?
    Mr. Rooney. Well, Mr. Serrano, this is an issue which, when 
I came into the agency 6 weeks ago, I became aware was 
certainly one of your interests and of the entire Hispanic 
Caucus. It is also, as you know, an issue of top priority to 
the Attorney General and law enforcement throughout the nation.
    We have been examining this issue, at your request, as part 
of a request made by this subcommittee; and I have had a brief 
opportunity to sit down with the staff on it. I think a policy 
will emerge from that, from our review of it. As to whether 
there is a specific policy, other than the fact that I think 
most people would respond that we don't do that, but I happen 
to know what the data says too. I have to know what our most 
recent history is, in particular.
    We are meeting actually later this week. I am meeting to 
get briefed by the team that is looking at this, and we expect 
very soon to come and personally brief you on it and then 
ultimately submit the report. We look for that to happen within 
the next couple of weeks.

                     Guidelines on Racial Profiling

    Mr. Serrano. Now, Mr. Rooney, there were some guidelines 
promulgated, according to my information, by the Justice 
Department in 1999, on racial profiling. So I guess the next 
question would be, would you say that the practices of the INS 
district office in New York complied with these guidelines? How 
do we explain what has been happening in New York and why is 
the New York office targeting Latinos on their work site raids?
    I know you are telling us that it is an ongoing process, 
and I understand that. The Attorney General is publicly 
committed to ending racial profiling anywhere, and you are 
telling me you are meeting with folks to work on this. But 
something already was said in 1999, so how is this behavior in 
New York, for instance, meeting or not meeting these 
guidelines?
    Mr. Rooney. Well, clearly, if that behavior is ongoing, it 
is not in compliance with Department guidelines. We at the 
agency, however, to the best of our ability, try to find out--
and somebody can pipe in here if they know otherwise.
    We have not promulgated a formal policy. We expect that to 
come out of this particular effort--which has been delayed, 
there is no question. We promised to report up here earlier. 
When I started focusing on it just a few weeks ago, I realized 
it is something we need to take another look at and sit down 
and talk to you, because you have been the one who basically 
called it to our attention, particularly in New York.
    Mr. Serrano. Okay. Mr. Kolbe, I have to leave to vote. 
Chairman Wolf should be back in a second, but if you would like 
to ask questions go ahead. I appreciate that. Thank you.
    I will be right back, and we will continue on this subject 
for a little while.

                             Tucson Sector

    Mr. Kolbe [presiding]. Thank you very much, Mr. Rooney, and 
welcome.
    We had an opportunity to meet the other day and visit, and 
some of the questions I will ask go over the areas that you and 
I discussed. But first of all, let me say weunderstand that you 
are in an acting situation right now and that you may not be able to 
have all the definitive answers or be able to speak to the policy of a 
new commissioner, which we would understand at this point. So I would 
appreciate--I appreciate the answers that you can give me to some of 
these issues.
    One of these issues I did discuss with Attorney General 
Ashcroft, when he was before our subcommittee last week--and 
before he went to the border, which--as you know, he was down 
in the Arizona sector this last weekend. I think you have some 
charts, a few--three charts. I wish I had them blown up for 
others in the audience to see, but my budget doesn't have that 
in it. Let me, however, call your attention to these charts.
    Chart 1 shows very clearly the growth of the Tucson sector 
in the testimony, the number of apprehensions. It is pretty 
dramatic, as you can see. The El Paso sector has declined 
pretty dramatically. The San Diego has declined very 
dramatically. And I will come to those numbers.
    Meanwhile, the Tucson sector, which covers most of Arizona, 
but not all--but most of the Arizona border has been growing at 
a very dramatic rate there. Let me take that from that kind of 
macrochart to the next two charts, which show it in two 
sectors--San Diego and the Tucson sector here--and tracks the 
number of apprehensions along with the number of the increase 
in the patrol hours.
    The first one says, Chart 5 here from San Diego, and the 
numbers are more dramatic even than on the chart. Because of 
its longitudinal nature, the numbers are even more dramatic 
than the chart suggests. If you look at this chart, the number 
of patrol hours, which is shown over on the right hand column 
there, has gone from 866,000 hours of patrol in 1992 to 2\1/2\ 
million hours of patrolling in the year 2000.
    Meanwhile, apprehensions have gone down from 566,000 to 
152,000, a 75 percent decrease almost--yeah, 75 percent 
decrease in the number of apprehensions.
    You look at the next chart, labeled Chart 7, and in this 
case you have got 295,000 hours of patrol in the Tucson sector 
going up to 2.3 million, an even more dramatic increase in this 
number of patrol hours. The number of apprehensions, however, 
has risen and continues to rise; whereas in San Diego, there 
was a small decline and then a fairly rapid decline after 1996. 
Here the number has increased from 71,000 to 616,000, a better 
than eightfold increase during that same time.
    I don't know. I am really asking you to speculate with me 
and to perhaps try and answer the question, but it certainly 
strikes me that something different is being done in these two 
sectors. I postulated a theory to the Attorney General last 
week, which I asked him to look into, and I would like you to 
reflect on this with me. And that is that the way in which the 
resources are being deployed, I believe, in the Tucson sector 
are fundamentally different, and I think because there has been 
a difference of philosophy in the people that have been 
running--managing it.

                        deployment of resources

    As you know, the San Diego and also the El Paso sectors 
followed a process or a management philosophy that was, I 
believe, developed by now-Congressman Reyes when he was the 
head of the sector in El Paso, which was forward deploying the 
resources on the border, right up front there, prevention, 
keeping them from coming across.
    It seems to me, in the Tucson sector, at least as I watch 
what is going on there, that most of the resources are being 
deployed away from the border, certainly a much larger 
proportion, much larger proportion than these hours, patrol 
hours, are away from the border; and basically chasing the 
illegal alien, or the undocumented alien who has crossed 
illegally into the United States, chases them around through 
our area. And with all the results of the cut fences, the 
environmental degradation, the health problems, the rollovers, 
the high-speed chases on the Interstates, and all of those 
kinds of problems, it just seems to me that we are not really 
using the right resources in the right way.
    Now, I suspect you might say to me, and there is truth to 
this, that now we are seeing a decline in the number of 
apprehensions in the Tucson sector. But I guess I am wondering 
whether it is enough or whether you think that is the result of 
a change now in philosophies, how these resources are being 
deployed; or if you can give me some explanation of what is 
going on here.

                   deterrent strategy--tucson sector

    Mr. Rooney. Sure, I would like to talk about that, Mr. 
Kolbe.
    I think, as the charts show--and I think you have stated it 
very clearly--if you look at the San Diego sector, which was 
the first place where the phased implementation of this 
deterrent strategy on the Southwest border, this first site, as 
the number of hours of patrol went up, then the apprehensions 
started to go down. First, they went up a while, because the 
deterrent effect of being right on the border allowed for 
several more apprehensions; but then, after a while, it became 
indeed a deterrent effect and the people did not come through.
    As to whether the philosophy is different in Tucson sector 
or not, I am not sure. I have not been told that it is. I have 
been told that we are at the staged implementation. We went to 
San Diego, El Paso, McAllen, Texas, and are now intensifying 
the effort in Tucson.
    You are right about beginning to fall off, the numbers of 
apprehensions. In fact, in Tucson, at this time last year--we 
are down 22 percent in the number of apprehensions that had at 
this time for FY year 2000. So maybe we are beginning to see 
that. We are certainly beginning to see a lower number of 
apprehensions. So it would appear to me that the philosophy of 
deterrence at the border is beginning to work.
    As to whether they are dropping back or not, I have the 
chief of the Border Patrol here to respond to that if you would 
like.
    Mr. Kolbe. It might be useful because as you can see from 
that--again, that chart looking at the Tucson sector for the 
last 4 years, at least through fiscal year 2000, which ended 
not that long ago, the number of apprehensions has steadily 
gone up while the rise in the patrol hours has gone up very, 
very dramatically. So we are not getting the same results that 
we got out of San Diego.
    I might also add that the people on the ground down there 
do not feel that there are less people coming across. They are 
not seeing a reduction in numbers of people coming across. 
Maybe apprehensions are down. I don't know what we attribute 
that to, but the people that actually live in the area do not 
believe there has been a significant reduction in the number of 
people coming through their backyards, up their streets and so 
forth.
    Mr. Rooney. Well, I can't--I do know that our figures show 
the number of apprehensions has gone down. And while even in 
San Diego they had gone up or least stayed level as the number 
of hours started to go up, and then dramatically fell. I 
certainly would be hopeful that that would be the situation 
beginning now in this fiscal year in Tucson.

                  apprehensions--san diego and tucson

    Mr. Kolbe. Well, maybe we need more time to see, but as I 
said, I think if you compare the two over the last 10 years, 
something is fundamentally different between--Mr. Chairman, do 
you want me to finish my questions? I have just a couple of 
others that I would like to ask, and then I will finish.
    Does your chief Border Patrol person want to respond to 
this?
    Mr. Rooney. This is Chief De La Vina.
    Mr. Kolbe. Right, Chief. What did you do to yourself?
    Mr. De La Vina. I was horseback riding, sir, and the horse 
spooked, I got bucked off, broke my arm and my shoulder. But I 
did make the trip to the border with the Attorney General; and 
it was very, very impressive, and I think he learned a great 
deal.
    Mr. Chairman, Mr. Kolbe, the situation in Tucson differs 
from San Diego and El Paso in that Tucson has not reached the 
right mix of personnel, equipment and technology to make the 
turn that has already happened in San Diego and El Paso.
    Mr. Kolbe. The number of patrol hours would certainly 
reflect you have had the increase.
    Mr. De La Vina. Right. We have increased the number of 
agents and hours in San Diego. We started in San Diego with 
1,000 agents. When it reached its peak, we had reached 2,000 
agents before the decline started to occur.
    In El Paso, it took, I think it was at least 400 agents, 
and the decline slowed.
    In Tucson, we are at 1,600 Border Patrol agents and are now 
beginning to see a slight decline, about a 22 percent decline. 
We are getting to that mix, and I think we will see probably, 
with the additional resources this year, more of a decline 
coming up next year.
    The question regarding the strategy and the philosophy, the 
cornerstone is still forward deployment. The difference between 
San Diego and El Paso is that we have huge cities. One in San 
Diego the other one in El Paso. We did the deployment in 
Nogales, Arizona; that was a larger city. We go into the city--
the numbers have declined in Nogales.
    Douglas, unfortunately, does not have the infrastructure 
within the city; thus, the deployment that we are using is out 
in the desert. I feel that we have controlled the inner city, 
in a manner of speaking; the traffic has shifted out to the 
desert, which causes problems with the forward deployment 
strategy.
    What we are doing is using more technology. We can't put 
agents forward deployed in the desert due to the fact that we 
have 21 miles out there. Thus, we are relying on technology, 
sensors.
    The agents in some locations are forward deployed. In 
others, we rely on sensors hits, so our agents will be able to 
respond. But the theory is the same, whether it be forward 
deployment in the city or out in the desert, the certainty of 
apprehension.

                       new technology at sectors

    Mr. Kolbe. Chief, if that is true--and I understand there 
are different kinds of sectors. San Diego and El Paso are much 
more urban, smaller number of miles to cover; you have got much 
broader desert, huge desert areas in Arizona to cover. If that 
is the case and you need to use more technology, though, are 
the number of sensors per mile in Arizona equal to what you 
have got in San Diego and El Paso?
    Mr. De La Vina. No, sir, not at this point. We are building 
the infrastructure. We are still building fence in Douglas, as 
you well know. We are still bringing in additional remote video 
systems, into the Arizona area; and it is not to the point 
where we have reached a turning point with the mix of 
technology as well as agents. We are getting there, but it 
hasn't happened yet.
    Mr. Kolbe. All right.

                       health care reimbursements

    Mr. Chairman, I don't want to abuse my time, so I just want 
to quickly ask one other question of our Acting Commissioner 
here, Mr. Rooney.
    We talked about this yesterday and--I think it was 
yesterday or the day before in my office, but this issue of the 
health care reimbursements. It is just a killer for our local 
hospitals. It really is an issue that needs to have some 
attention.
    And I mentioned to you some of the cases where an 
individual, for example, had been brought by the Border Patrol 
to the hospital, had had ankle surgery. The hospital calls the 
next day to the Border Patrol, says he is ready, he can be 
released and returned to Mexico; but because they didn't want 
to assume the cost of it, they refused to do so, forcing the 
hospital to keep them in a bed overnight at a high expense and 
arrange on their own with the Mexican Consulate the next day 
for this person to be taken back.
    There is something fundamentally wrong with the philosophy 
that we have got going here that stiffs the hospitals and the 
ambulance services in these local areas and makes them pay for 
the costs.
    So let me ask you this as a question: If you were 
transporting, as you do every day, bus-loads from Tucson down 
to the Nogales border, and that INS bus has an accident and 
there are people injured on it, when they are transported to a 
hospital for care from the INS bus, would you assume the 
responsibility for those people?
    Mr. Rooney. They clearly were in detention?
    Mr. Kolbe. This is a hypothetical. Yeah, you were taking 
them back to the border. Would you assume the responsibility 
for those?
    Mr. Rooney. I think we would already have made the 
determination that they were aliens; and yes, I believe the 
answer to that question would be yes.

                        establishment of custody

    Mr. Kolbe. But when you pick them up at a checkpoint and 
there has been an accident and you call for an ambulance and 
you have the ambulance transport them to the hospital, you do 
not assume the custody of those people. Why the difference 
here?
    Mr. Rooney. Well, I think the issue is a very difficult 
one. In that particular hypothetical situation we would not 
determine what the alienage of the individual is. We are just 
simply responding to an accident that occurs in trying to get 
this person some medical attention. The person is not in the 
custody of the Border Patrol, and therefore we have no 
responsibility for payment or to cover his or her costs.
    Mr. Kolbe. I think you would admit that is slightly 
disingenuous because you are not engaged in high-speed chases 
with just every car that goes up and down the road in Cochise 
County. You are engaged in them because you think they are 
illegal aliens attempting to avoid being returned, or being 
detained and returned back to their country of origin.
    So I think there is a little--I think it is disingenuous, 
as I told you. And we will continue to pursue this; there is a 
mechanism in place for this. There is an account for this, the 
Public Health Service that treats your detainees that are 
actually in----
    Mr. Rooney. In detention facilities?
    Mr. Kolbe [continuing]. In detention. And I think we need 
to assume the responsibility for this unless--let me just 
finally ask you, in your own personal philosophy, do you think 
that the way it is being handled now is the right way, that the 
local hospitals and local ambulance services should bear this 
cost?
    Mr. Rooney. No, I don't. I think the mechanism has to be 
developed, though.
    As you know, we have been meeting with HHS and other 
agencies to look at this issue and the responsibility has to be 
vested somewhere, the authority to pay, as well as the funding 
from some source of dollars to meet those payments.
    Mr. Kolbe. Right. It is a matter of the dollars. Because 
all you have to do is say, they are in our custody and hand 
them over to the ambulance service, and you aregoing to pay for 
it. So it is a matter of the money.
    Mr. Rooney. A matter of the money.
    Mr. Kolbe. Mr. Chairman, thank you very much.

                           INS REORGANIZATION

    Mr. Wolf [presiding]. Thank you.
    I am going to have a couple of questions; then I know Mr. 
Rogers is going to get into a little bit more of the 
reorganization.
    But if--as you are fully aware, one of the biggest 
challenges facing the rank and file INS in the next 
commissioner is reorganization. Many members, and I was 
referencing Mr. Rogers, have concerns about how efficiently the 
organization provides assistance to legal immigrants seeking to 
enter the country; and also then as you compare it with the 
enforcement aspects too.
    Interestingly enough, when the staff came by, I called out 
to my district office out in Reston, Dulles, and I said, how 
many calls are you roughly getting now with regard to 
immigration? They said, at the current level, it is approaching 
50 percent of the calls--and generally not in a very 
flattering, positive way because generally when people call 
their Congressman, they are at the end of their rope and not at 
the beginning. So there is a lot of dissension.
    I don't have a border district. I am not like Mr. Kolbe 
down there on the border. I mean, you have lived in my 
congressional district when it used to be in McLean, so you 
know our area very, very well.
    In reorganizing the INS--the Attorney General was here last 
week testifying; he pledged to work with the Congress. So over 
the last 4 or 5 years many different organizations--U.S. 
Commission on Immigration Reforms, Domestic Policy Council, 
National Academy of Public Administration and the private 
sector consultant groups--have weighed in on this subject.
    Mr. Rogers has sponsored legislation with other members, 
which I frankly support, with regard to splitting the agency in 
half. Will the two branches, the service benefits and 
enforcement, report to a single director or does the INS 
recommend there will be two directors to be appointed to lead 
each separate organization, who will then come up and report? 
And what will the field structure look like? And will there be 
efforts to simplify, standardize the procedure for legal 
immigrants seeking entrance into the country? And when do you 
plan on submitting legislation to the Congress that Congress 
can deal with?
    Mr. Rooney. Mr. Chairman, the issue of restructuring is one 
that has been around for a while, as certainly Mr. Rogers 
knows. The agency, in the past, had come up with a proposal 
which basically divided the agency into two within the agency 
under the Commissioner of the INS; and there are several 
proposals from the Congress that range from a version of that 
to a version of two separate agencies reporting directly to the 
Deputy or the Attorney General, which I think was Mr. Rogers' 
original proposal, and then versions with the two separate 
agencies, one for enforcement, one for benefits, reporting to 
another policy official at the Department, an Associate or 
Assistant Attorney General.
    To get specifically responsive to the question of what is 
the INS going to do, the INS----
    Mr. Wolf. And the Administration.
    Mr. Rooney. And the Administration. The President ran on a 
platform that included the restructuring of the agency and the 
specifics of that talked about two separate agencies, one for 
enforcement, one for services, reporting to an Associate 
Attorney General or Department policy official.
    The Attorney General has said that he would get actively 
involved in this particular issue when a new commissioner was 
on board. Now, a commissioner has been named, not yet formally 
nominated, but--I would guess it would be a few weeks. But the 
agency certainly has explored the issue and has done the 
groundwork on what should be on one side, what should be on the 
other.
    There may be some issues about some functions, for example, 
the inspection function; is it an enforcement function, is it a 
service function? But all the issues have been laid out, and 
once there is a commissioner who can proceed with that, we will 
need obviously new resources to complete it.

                        TIMING OF REORGANIZATION

    Mr. Wolf. But haven't you completed a problem for yourself, 
or hasn't the Administration? Now--you have nominated somebody, 
or there is somebody who--the name is out there; he now has 
this much authority. It is going to be very difficult, having 
worked in the government for 5 years with Secretary Morton of 
the Interior Department, it is going to be very hard for him to 
make the decision to only allow him to have this much 
authority.
    Wouldn't it have been almost better to have done the 
reorganization before--the best minds, and Mr. Roger also has 
many more thoughts on this, but to have the best minds in the 
government come together and do the reorganization? Because in 
a way you are going to be taking away from somebody who hasn't 
even gotten there, and I think you have actually complicated--
you have put the horse in the wrong direction versus the cart.
    I sense you would have been better getting a good group 
bill--I think, Mr. Rogers has a good idea--and others; put them 
together, let the Congress work its will quickly, maybe put it 
on a fast track. Perhaps if you had done it earlier you could 
have even--with the approval of the Judiciary Committee, 
Chairman Sensenbrenner and Mr. Gekas, perhaps you could have 
even put this on a supplemental or something like this, because 
it is an issue.
    My concern is, now you have somebody on, it is like giving 
a guy the penthouse, and taking away the penthouse and putting 
him down on the third floor. He may not want to go down to the 
third floor.
    Mr. Rooney. I guess what--I wasn't going to second-guess 
the President on the timing of the announcement. But the thing 
is, I think that person, when he gets there, would be in the 
same position I was when I got there a few weeks ago, which is, 
you suddenly begin to realize that there is a real problem with 
the structure of the agency. And I don't just mean between 
enforcement and services; the whole reporting mechanisms within 
the agency are flawed, and when you get out to the field, there 
is really no indication truly who everybody reports to. That is 
a problem right away.
    I think, immediately, somebody coming in there would say, 
we have got to get this fixed. And, of course, I haven't 
participated in the discussions, but I would believe that that 
type of discussion of let's get this agency restructured, and 
the idea is to create two separate agencies, would have been 
had with the nominee and----

                       REORGANIZATION LEADERSHIP

    Mr. Wolf. Well, my guess is, where we are now--my sense is, 
and I am learning because this is my first term on this 
subcommittee, that one would have been a law enforcementperson 
and the other would have been a business-oriented service person, 
because again the complaints that I get are overwhelming, and the 
direct involvement that I have had with the INS the last 2 years has 
been really frustrating.
    We have tried to get a team down in the Shenandoah Valley 
because of the increase in methamphetamine, and many people 
selling that are illegal aliens, and we needed an INS person; 
and, boy, I was able to build the Washington Metro faster. It 
was just very, very tough, and I just needed somebody down 
there 2 or 3 days a week.
    I am not attacking or criticizing the people that they sent 
down, good people; but, wow, I thought this has got to be 
amazing just to get somebody. And it was not a big deal, 
because you still live in Fairfax County--I can get from my 
house in Vienna to my district office in Winchester faster than 
I can to the Capitol most mornings. So they could have lived in 
Centerville or Great Falls, gone out there. But it was very, 
very tough.
    Let me ask you one more question. Then I will recognize Mr. 
Serrano to finish his questions, and then I will go to Mr. 
Rogers, who can bear in on the reorganization issue.
    The budget includes a $100 million 5-year proposal to 
eliminate INS's backlog of processing applications. This 
request is comprised of an increased appropriation in the $45 
million, $20 million fees; and do you have the support of all 
the people that you are going to be raising those fees with?
    Mr. Rooney. Well, no, Mr. Chairman.

                             INCREASED FEES

    Mr. Wolf. Cruise ships coming in, saying we want to help 
out, are they going to fight you on this?
    Mr. Rooney. I suspect they will.
    Mr. Wolf. How about the airlines, are they going to be 
cooperative?
    Mr. Rooney. We have talked to them. We suspect that they 
will be concerned about this.
    Mr. Wolf. But are you pretty confident--I wanted to finish 
the question--you are going to get this because the problem we 
had in my other committee. The Coast Guard would always make up 
these fees; they knew they were never going to pay. The 
Commandant would even say, this has no chance, but we are going 
to put it in. The FAA would do it, too.
    They had overflight fees that they knew were impossible to 
collect. But yet for their budget proposal--and it really made 
our job very difficult--they said, well, we sent you this 
proposal, and it all fit in together. But everyone knew.
    Is the Administration committed to working to getting both 
of these fees?
    Mr. Rooney. I think that is true. We are. And we have been 
talking with the industry quite a bit, and we are hopeful that 
they will, if not support it, will not be unsupportive.
    Mr. Wolf. Because you can make life uncomfortable for them 
if they don't. Is that what you are saying, you could let the 
backups get longer?
    Mr. Rooney. Well, the reality is that they would, they 
certainly wouldn't improve.
    Mr. Wolf. You didn't say it verbally; your face said it to 
me. I read something there.
    Well, let me just finish the question.
    The INS has received significant increases over the last 
few years to support its process efforts, but these investments 
have not yet translated into better service. More than $1.7 
billion was provided last year to handle citizenship and 
benefit processing needs. Where are the processing backlogs 
located around the Nation, if you can give us some sense--and I 
understand these backlogs run anywhere from 1 month to almost 3 
years--and can you explain why there are backlogs and kind of 
talk to us about backlogs, where they are, and is there a 
possibility of maybe with the Internet changing this, that you 
could shift around?
    I mean, now you can file your return, your tax return, on 
the Internet. Can you talk to us?
    Mr. Rooney. Okay. Going directly back to the fees on this 
$100 million, the particular fees that we are talking about 
here, $20 million of it would come from fees--not in this 
particular instance the fees related to the inspection process. 
Those fees are the fee that probably has got a pretty good 
chance of our obtaining, and that is a premium processing fee 
for business applications.
    Mr. Wolf. They don't really have any choice, do they, 
exactly?

                         PROCESSING OF BACKLOGS

    Mr. Rooney. Well, you are guaranteed 15 days if you pay the 
premium processing fee. As far as where the backlogs are around 
the country----
    Mr. Wolf. Everywhere.
    Mr. Rooney (continuing). They are everywhere.
    Mr. Wolf. But is where--is it more than everywhere? Where 
would it be--like if it is 18 months to 3 years, where would 
the 3 years be versus the 1 month?
    Mr. Rooney. I am going to have to defer to Mr. Yates. Bill 
Yates is the head of our Immigration Services Division.
    I don't know, Bill, if you have got a couple of hot spots.
    Mr. Yates. Good morning Mr. Chairman.
    In terms of those backlogs, first of all, for 
naturalization we don't have 3-year backlogs; on the average 
right now, we are less than 1 year. There are some small 
offices where we have had some pretty dramatic increases in 
applications around the country. For example, San Jose, our San 
Jose sub-office, which is a sub-office of the San Francisco 
District, the backlogs there are certainly longer than we would 
like.
    Our plan the last couple of years was to bring, what in 
February of 1999 was 2.2 million cases, to bring that down. We 
now have less than 700,000 cases pending. So we have been 
moving very strongly on getting those backlogs down.
    Our focus right now is to make sure that we have 
consistency so that an individual who files in California will 
have the same experience, and we want that to be a good 
experience, as in New York. So our focus now is moving some of 
the term positions that were authorized by this subcommittee to 
offset an increase wherever we can, to get those processing 
times down; and we are on path.
    Mr. Wolf. So what would it be now?
    Mr. Yates. At this point in time, because we have shifted a 
lot of resources into adjustment of status, which was the next 
bigger area, we set a goal this year to do 800,000 
naturalization applications. At the beginning of the year, we 
had 800,000 applications pending. So we want to wipe out 
everything that was pending this year.
    For adjustment of status, we had about 900,000 cases, I 
think it was 950,000 cases, pending. We had set a goal of doing 
800,000 adjustment cases.
    We will achieve both of those goals. We are getting the 
backlogs down but a lot of small offices--Charlotte, for 
example, is a problem. Most of our big offices, Los 
Angeles,Miami, Chicago, and New York, we have made major progress in 
getting the backlogs down. There are now a half or a third of what 
there were just a year and a half ago.
    Mr. Wolf. Mr. Serrano, do you want to finish up? Thanks for 
continuing.
    Mr. Serrano. Yes, thank you so much. The thought of 
chairing the subcommittee gives me a great feeling.
    Let me, before I ask my questions, just inquire of the 
gentleman from Kentucky, Chairman Rogers, will you be bringing 
up your bill on separation?
    Mr. Rogers. Yes.
    Mr. Serrano. Okay, then I won't go into that, except to say 
that I don't know which way I fall yet on Mr. Rogers' bill, 
which is supported by the chairman of our Hispanic Caucus, Mr. 
Reyes. But as I was once quoted in this committee, having the 
agency that encourages you to stay in the country be the same 
agency that asks you to get out of the country is like having a 
priest serve as DA also. That is something that just doesn't 
sit well.
    Now, I have also heard, like so many people, if we 
separate, then the enforcement part will get a lot of money 
from this Congress, or future Congresses, and the 
naturalization part will be orphaned. And so I will be 
interested to hear your comments, Mr. Rooney.

              racial profiling in immigration enforcement

    I apologize for bringing this up again. I either did not 
understand your answer, or, if I did, I was not pleased with 
it. In 1999, the Justice Department says to all its agencies, 
end racial profiling; in 2001, Attorney General Ashcroft, to 
his credit, says, I want to make sure that this ends; and you 
give me the impression that this is still an ongoing 
discussion.
    So my question to you, in view of the issues I brought up 
about the New York office targeting Latinos in raiding work 
sites, is what happened to the 1999 guidelines? Did the INS 
ever promulgate their own rules to deal with this issue, as 
they were told to by then Attorney General Janet Reno; and if 
there are rules somewhere in place, are people going to be 
disciplined for the fact that they are in violation of those 
rules?
    Mr. Rooney. Okay. I am not sure if anybody can tell me 
otherwise. I am going to ask Joe Greene, who was quoted in the 
article you talked about.
    But in any instance where there are allegations or 
determinations through our own review that people have been in 
violation, employees have been in violation of any of the 
standards, including any in this regard, they would be 
immediately referred to the Office of Internal Audit, and we 
would do an investigation of it.
    What I was responding to Mr. Serrano, and I might have 
mixed the two responses somewhat, I was talking particularly 
about our study of the allegations that were made at Kennedy 
Airport in New York. I became familiar with this effort just a 
few weeks ago, when I arrived, and I know that we owe this 
subcommittee, at your request, a report on this effort. I am 
not comfortable with the results of that yet, that it is being 
responsive enough, is it going to tell you the story that you 
really want to know. We are meeting again on this; and as I 
indicated, we would be coming to you.
    That is--what I was saying is just about beginning to be 
reviewed. I will let Joe, Joe Greene, our Assistant 
Commissioner for Investigations, talk specifically about the 
implementation of the guidelines.

                       new york times allegations

    Mr. Greene. Good morning, Mr. Chairman, Mr. Serrano.
    The INS has had a policy with respect to the exclusive use 
of nationality or ethnicity as a basis for its law enforcement 
work that goes back to the 1980s. Racial profiling is an issue 
that has come to the floor recently, but the INS has had in all 
of the training materials that we give to new agents and all of 
the follow-up training that we do for the agents the 
prohibition about using nationality and ethnicity as the sole 
and exclusive basis for initiating a law enforcement contact.
    That is true in a work site context, that is true in a 
checkpoint context, and that remains the INS's consistent 
policy, consistent with court decisions that have gone back 
again to the late 1970s. It is a policy that we adhere to, and 
it is a policy where in its violation we initiate an 
investigation and take appropriate action if there has been a 
violation.
    What we are in the process of doing now is looking at the 
allegations that were raised in the New York Times article. One 
of the things that I said to that reporter, that of course was 
not quoted in the article, was that this determination is very 
complex in terms of when you receive a specific allegation--and 
all of our work site investigations are predicated upon 
specific information about the people who are working there, 
names if possible, but at least source countries as a beginning 
predication for the investigation. It is a very complex process 
of determining every time you talk to an individual, what are 
the factors that can be taken into consideration before you 
determine that they are likely to be in the United States 
illegally.
    We have received guidance from the Supreme Court on this in 
their own cases. That is the training that we give to our 
agents, and that is the policy that we adhere to.
    We will be able to discuss with you when we have better 
information about the New York allegations. We are not in a 
position to say definitively one way or the other what happened 
in that context. I will tell you that the information that we 
use to start work site investigations are lead-driven, as 
opposed to being random; and beyond that, we will get back to 
you when we have completed the research.

                     guidelines on racial profiling

    Mr. Serrano. Let me just be very brief on this.
    It is not just in New York. New York is the one that I am 
asking about. It is the Dallas Morning News reporting of the 
attacks on certain communities.
    What I am concerned about here--and I don't want to beat 
the horse to death--is that I may end up being very supportive, 
or trying to help Mr. Ashcroft accomplish his goal of ending 
racial profiling, but part of what I am going to tell him, 
every chance I get, is that he doesn't need to reinvent the 
wheel. Supposedly, there were things in place.
    You are going on--you tell me there are things in place 
since the 1980s, but yet in 1999 Attorney General Reno had to 
say let us end it, and none of you can seem to respond as to 
what happened to that order by the Attorney General, which then 
was supposed to result in rules in different agencies.
    What happened to the promulgation of those rules at INS 
and, how does that tie into the fact that in New York some very 
believable people are saying that this is going on?
    And so, yes, I do want to hear back from you. I will hope 
you could do it soon, say within the next 30 days, and tell me 
what happened in New York, why this is happening and why, 
notwithstanding the 1980s, the general understanding and the 
1999 order, Latinos in New York City are still treated inthis 
way by INS. And I would hope--can you commit to that?
    Mr. Rooney. Absolutely, Mr. Serrano. I will find out for 
certain what the agency's role was in implementing the 
guidelines that the Attorney General put out, and then go 
specifically to your question on that.
    Mr. Serrano. And on the airport issue, you are also getting 
back on that soon? You are reviewing now your information, and 
you claim you are not satisfied with what you saw so far?
    Mr. Rooney. Exactly.

                            office openings

    Mr. Serrano. One last question before I give up the 
microphone. Why does it take so long for you folks to determine 
where you are going to open your next office? You know, my 
staff--I don't know to what extent this is even correct--my 
staff down in the Bronx spends the vast majority of their time 
dealing with information, or trying to get information, that 
would be readily available at the INS office if we had one, for 
instance, in the County of the Bronx, which has 1,300,000 
people--it is a city all by itself. And if you were to do a 
cost analysis of how I run my district office, you would 
probably come in there and look at it and say, wait a minute, 
you can't be devoting this much time to one subject.
    That is what we do. Any given day, there are lines around 
my office building, and the difficulty of having to tell people 
they don't live in that district or in this district or 
whatever.
    Why does it take so long for you folks to determine where 
you need a new office and set it up?
    Mr. Rooney. Well, we would have to go through steps. I 
frankly am not familiar with that process, but we would look at 
workload. And you asked--Mr. Serrano, when you say ``take so 
long,'' is it that we have not decided to open an office in the 
Bronx?
    Mr. Serrano. No. We would welcome one there. I could make 
the argument, but I understand that in the conference report 
and other budgets we have instructed you to look at it, the 
agency to look at it and make determinations, and we don't seem 
to get a quick response or any response at all.
    Mr. Rooney. We have now done an in-depth analysis. In fact, 
Mr. Yates, who was here, gave me some materials yesterday about 
some particular offices. But we have reviewed the workload 
throughout the country to determine, A, where we might need to 
open offices; B, where we might have to reallocate within a 
particular state or area. And if that is a report that is due 
to the Congress, we will certainly get it to the Congress. If 
it is not, we will provide that information to everybody.
    Is there anything, Bill, they left out in there?
    So we are doing that and we will get that information, 
which I am sure will be of interest to every Member.
    Mr. Serrano. Let me just, in closing, tell you that the 
areas we asked you to look at were Arkansas; Alaska; San 
Francisco, California; Ventura, Washington; the Bronx; 
Kentucky; Omaha; New Jersey; Las Vegas; South Carolina; 
Asheville; Virginia. So I don't want anyone to think that I am 
asking for----
    Mr. Rooney. I understand.
    Mr. Serrano. The chairman will do that for me, but in 
general, we have an issue here.
    Mr. Rooney. We have several reports, as this subcommittee 
knows, that have been due to the subcommittee, some have 
actually been provided. There are others that are in various 
stages, but I know we have moved a lot of them over the last 
few weeks that probably have gone to the Department or to the 
Office of Management and Budget, the different steps that they 
have to take along the way. But I don't have right at my 
fingertips the specifics on that report, but it is one that I 
know we have the data on, probably very close to finishing up, 
if it is not, and we will get that to this subcommittee.
    Mr. Serrano. Thank you.
    Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Rogers.

                  Opening Remarks--Congressman Rogers

    Mr. Rogers. Thank you, Mr. Chairman.
    Welcome to the shooting match.
    Mr. Rooney. Thank you, Mr. Chairman. I am delighted to be 
here.

            no reason to support goals and strategies of ins

    Mr. Rogers. The most troubling part of your testimony 
occurs on page 2, paragraph 3, where you say and I quote, ``The 
INS budget for fiscal 2002 continues to support the immigration 
goals and strategies that the agency has pursued over the past 
several years,'' end of quote. In other words, same game as we 
have had.
    Now, why should the Congress continue to pour money down 
this rat hole that has resulted in the following record: An 
agency that released on to the public 35,318 criminal aliens 
between October 1994 and May of 1999 because they waived the 
FBI check. Those 35,000 criminals are still loose in this 
country.
    We don't know for sure how many other crimes have been 
committed by that gang, but we do know this according to the 
FBI. They did commit some 11,605 crimes since they were 
released by this agency, and of those 11,605 crimes, 98 of them 
were homicides. There were 142 sexual assaults. There were 44 
kidnappings. There were 346 robberies. There were 1,214 
assaults. There were 3,847 drug crimes committed by this gang.
    So we want to continue that kind of policy and goal? I 
don't think so.
    There are over 6 million illegal aliens in the country now. 
Each year, we are told, a quarter million more come in. Less 
than half that number are deported.
    We want to continue that policy? Not me.
    The average wait for citizenship is nearly 2 years. There 
are 1.8 million--I am quoting last year's figures now--there 
are 1.8 million citizenship applications awaiting processing. 2 
million applications for other benefits are pending.
    Do I want to vote for a budget to continue that policy? No 
way.
    Citizenship, U.S.A., where hundreds of thousands of 
individuals were admitted to citizenship because we waived the 
criminal background check.
    Do we want to continue that? Not me.
    INS refuses to implement the 1990 direction of Congress to 
allow Border Patrol agents and special agents to make felony 
arrests for those who commit nonimmigration violations.
    Do we want to continue that? Not me.
    Operation Vanguard, aimed at interior workplace 
enforcement. That program has resulted in the identification of 
thousands of illegal aliens, but only a tiny fraction of them 
have been arrested.
    Audits of this agency in 1997 and 1998 reveal lack 
ofinternal controls, and an outside report rated this agency as a D in 
financial management. The Ident program; INS says its system will 
prioritize the capture of criminal aliens, but there is an egregious 
lack of coordination between this agency and other Federal law 
enforcement agencies, i.e., the FBI, which resulted in the infamous 
Resendiz-Ramirez case, one of the 10 most wanted fugitives by the FBI. 
Yet the INS apparently didn't know that and he went on to kill.
    I could go on. But do not expect me and those that I can 
influence to vote for this agency's budget until we have 
reformed this agency.

                         increase in resources

    Now, look, I have been on this subcommittee for 17 years or 
more, the last six, of course, as Chairman before my friend, 
Chairman Wolf, assumed the chairmanship. The first 14 or 15 
years of that service on this subcommittee, we all overlooked 
the shortages and shortcomings of this agency. We said the 
problem is, you need more money; that is what the agency said 
and we said, okay, here it is. And, over a short period of time 
the budget for this agency has increased dramatically. I think 
it is some 260 percent just from 1993 until now. The budget has 
gone from 1.5 billion in 1993 to your requested 5.5 billion. 
There is no other agency in the government that has got that 
kind of an increase. We thought the problem was you needed more 
Border Patrol agents, you needed more money for this, more 
money for that, and we threw money at this agency.
    Finally, we began to say we will not give you the money 
until you do X, Y or Z, reform, change, because we weren't 
seeing results. The numbers on everything that was good were 
going down, the numbers on everything bad were going up. We 
weren't getting from this agency anything near what the 
Congress expected when we created INS. So we threw money at it 
until we realized that it was not going to work.

                          dual missions of ins

    Then the [Barbara Jordan] commission came along, which 
really woke us all up. It said that this agency is 
dysfunctional. It has a conflicted mission. There is no way we 
can expect these people to perform, given the double-barreled 
mission that they had, and the circular firing squad that are 
the two main missions of INS; and we must break that up into 
two pieces and insist upon discipline within each agency. That 
is when I bought into it, and I became a stalwart believer that 
money is not the answer. We have got to have reform; and if the 
administration doesn't do it, then we will.
    We have been saying this realizing that this problem has 
existed through administration and administration; who is in 
power doesn't make a difference, frankly, with this agency. 
Nothing makes a difference with this agency. It just goes on. 
So this is not a political thing. That is the reason we have 
broad bipartisan support in the Congress for the plan to 
restructure INS. That is why the Chairman of the Hispanic 
Caucus, Mr. Sylvester Reyes, a former Border Patrol agent, is 
strongly in support of the effort that we are doing.
    Now, I think Chairman Wolf is exactly right. If we wait 
until the new director is confirmed and takes his position, he 
becomes locked into the status quo, and it becomes even more 
difficult than it has been to reform. The only difference is, 
some of us are unwilling to support an increase in spending for 
this agency until it is reformed.
    Some of us are not in favor of giving any money to this 
agency until it is reformed. So expect everything, expect 
anything, but expect something. We just simply cannot go on as 
we are now; and I assure you that my efforts and many of those 
around us will be to create an agency, two agencies at least, 
that will handle the problem.
    We negotiated with the last administration on how to 
reform, and we came very close because the highest leadership 
in the Justice Department realized that we have a massive 
problem and it is not going to go away until we reform. We came 
close, but they backed down at the last minute, which is always 
the case.
    The President ran on a platform of dividing this agency 
into its two main parts, which all of us agree with. There is 
unanimity by most, I think, here in the Congress on that 
question as there is out in the world and with the 
administration.

                 separation of enforcement and benefits

    The question is, what do you do after you do that? What I 
can't tolerate is merely transferring the present inept 
organization from its present locale to another locale and 
seeing the same thing take place then as now.
    We have to have real separation between these two agencies, 
the head of which is required under our bill to have at least 
10 years' experience in the field to which he or she is being 
appointed. If it is law enforcement, you have got to have a 
professional law enforcement person there in charge. On the 
services side, you need somebody with 10 years' experience at 
least in the administration of a large, diverse organization.
    Those are the two points: Complete independence of these 
two branches is essential, and that the head of each branch is 
qualified and is empowered to act.
    One of the biggest problems in the past, I think, is that 
the person in your position, or the director, could not see his 
or her orders filtered down through this huge organization and 
get to the field where it really mattered. By the same token, 
the director was more or less protected from hearing the grass-
roots from the bottom up by a bureaucracy that was 
impenetrable, so barnacled as to be unmanageable by any vein.
    So those are some of the things that we are going to insist 
upon, and so I appreciate your being here. I appreciate your 
service. We need to know from Mr. Ziglar his thoughts on these 
things, because a lot of what happens in his life is going to 
depend on what he tells us. But I assure you we are not going 
away, and I assure you we are not going to be duped anymore 
into spending good money going after bad.

                       importance of ins mission

    The mission of the INS is important to this country. There 
is no greater thing that the nation can bestow on anyone than 
citizenship in this great nation of ours. I think we all agree 
with that. Yet we have seen that achievement, some of us think, 
being bought and sold. That shall not occur again.
    And so the mission of INS is vital to our nation, and I 
appreciate the service of the people that have worked in this 
agency for all these years, devoted their lives, many of them, 
to a career with INS, and we thank God for them. They have been 
crippled and hampered by an organizational structure that 
rendered their voice silent, that rendered the leadership of 
this agency incapable of enforcing orders and directions; and 
so their service has been cheapened and rendered somewhat 
ineffective.
    So I think it is to everyone's benefit, particularly those 
who work in INS--from the Border Patrol to the field agents to 
the secretaries and everyone else--it is more important to them 
than, perhaps, anyone else that they belong to an agency that 
works, that has a proud mission, and they are performing it 
proudly. I have to say to you that that is not occurring. Some 
of us won't rest until it is remedied.
    So I don't know what my question is. I have forgotten what 
I was going to ask you.

                      ins organizational problems

    Mr. Rooney. Well, would you like me to----
    Mr. Rogers. Would you care to respond?
    Mr. Rooney. Yes. I was looking forward to this opportunity.
    Mr. Rogers. I bet.
    Mr. Rooney. I was assured it would be the highlight of my 
tenure here.
    But, Mr. Rogers, there is obviously an awful lot of truth 
in what you say. A lot of dollars have been thrown at this 
agency. I know you didn't mean it that way when you said ``rat 
hole''--because that just sort of gets the dander up. There are 
a lot of very dedicated people in the agency. I know you didn't 
mean it that way.
    Mr. Rogers. Thank you. Let me clarify that. I am gladyou 
mentioned that; that was a poor choice of words. When I say ``rat 
hole,'' I mean the dysfunctional organization of the agency and not the 
people.
    Mr. Rooney. And I said that because I wanted to make it 
clear. But it is a dedicated group of over 30,000 career public 
servants who are extremely dedicated, and you can see that in 
the people who have come up to assist me this morning.
    But as you said, just 6 or 7 years ago it was half the 
size. The workload has been incredible since then, there is no 
question. I mean, in the last 8 years we have had more 
applications than we did in the forty years before that. I 
mean, those are astonishing numbers; and it is certainly this 
subcommittee and your leadership, Mr. Rogers, that provided the 
resources and didn't see some of the results.
    But we are actually, in spite of the organizational 
problems--and they do exist, but in spite of those 
organizational problems, we have reduced the waiting time for a 
green card from one year or two years, down to 90 days in most 
instances. Some of the other statistics--and I won't go back to 
them; they were recited earlier in response to Mr. Serrano--but 
organizationally, yes.
    I asked several questions when I arrived at this agency 
because I certainly had heard a lot of the stories; but I asked 
several questions as to who reports to whom and why structure 
is the way it is. Now, one of the things, and I think 
rightfully so, is the committees have not allowed any mini-
restructuring in the meantime, and that has been a problem. I 
will say it.

                           ins restructuring

    Right now, we have no commissioner, or deputy commissioner, 
there is just me. So I don't have to worry about anybody else, 
but below that it is very hard to find a true chain of command. 
There are chains of command, but they are not necessarily 
programmatic chains of command. You might have responsibility 
for a function that is under this number two official, that 
number two official, and then float it all the way down to the 
field; and the feedback, you don't know exactly where it comes 
from.
    So clearly there is a lot to address in the overall 
restructuring. I don't know what the plan will be that will 
arise out of this. I know that the Attorney General certainly 
expects that the agency and the Department will be working 
closely with this subcommittee and the other relevant 
subcommittees, but the agency has--I am satisfied.
    I have briefed the Department. I have been briefed. The 
Department briefed the White House on the restructuring efforts 
to date and the groundwork has been laid. Where there is a real 
issue is, what will happen down at the lowest level out in the 
field. I say the ``lowest level,'' but it is the operational 
level where things actually happen, where your district offices 
call for contacts to find out information. This is where, as 
the saying goes, ``the rubber will meet the road.''
    But a lot of time and effort is going to have to be spent 
in implementing something along these lines, but the time is 
right and I think the Administration is very, very supportive 
of it.
    Mr. Rogers. The real question you are going to face, we are 
all going to face, is if you do separate the agency into these 
two natural divisions and empower each to do its work 
independently, the next question is who--who do these agency 
heads report to, and what authority would that person have? 
That is where we broke down with the last Administration. They 
wanted a single head in the Department of Justice to which both 
of these divisions would report. We thought and still think 
that if you do that, you are merely transferring the problem 
from where it exists now up to another level, and you would 
have the same dysfunction that we now have.
    Our bill reflects that you would have two independent heads 
with experience and authority. Professionals, if you will. A 
central agency would be a place that would operate the data, 
and provide the data that both of them need. It would have very 
limited authority. These agency heads would not be autonomous, 
but that they would be very independent and insulated from the 
political interference that we have seen in the past, to be 
frank with you.
    What is your response?
    Mr. Rooney. I was just going to say, first, I was somewhat 
familiar with the experiences going on last year. The single 
policy official creates sort of a supercommissioner. I don't 
know if I will be involved in it, but I think certainly the 
members of the subcommittee will be, and one of the real issues 
to pay attention to is this other organization that provides 
data and everything. Because who controls that is going to be a 
very, very important player in this. If there are competing 
interests from the two independent agencies trying to get the 
same type of help from either data system, or whether initially 
it would have to be facilities people, you know, all of that, 
because just to divide it up would be so costly initially.
    Really the competing interests of those two is certainly an 
issue that everybody is going to have to focus on because I 
know I would feel, if I were heading up one of those agencies 
and I needed this data, or I needed something very critical to 
my doing the job, and Joe Jones was over here from the other 
agency saying, no, that is my priority, those are real 
problems.

                         agency overseeing data

    Mr. Rogers. I think we can ensure that the agency that 
handles the data is an objective keeper of facts, and that the 
information will not be allowed to be withheld willy-nilly from 
either agency. Of course, it has to be protected from public 
use because of the confidential nature of the information 
gained, but I think we can ensure that the information that 
shared agency has will be available to the two relative 
agencies without any kind of prerelease requirements. We can 
make that work.
    Mr. Rooney. There is just one problem.
    Mr. Rogers. Forget it. We will make that happen. I think 
the important thing is, though, that the head of the law 
enforcement branch or agency runs the shop, and he or she is a 
professional law enforcement person; that the other agency, the 
services branch, has a person in charge that has the authority 
to run that agency is a person with long experience in that 
kind of work and will not be interfered with.
    Those are the two vital things that I think will make this 
thing work. How they structure the bureaucracy and the chains 
of command underneath them obviously is something that I am 
willing to leave to the director of that agency with some 
degree of input on how they do it to be sure it is workable.
    Mr. Rooney. I think, Mr. Rogers, one of the things to pay 
attention to is what falls into each category of enforcement 
versus services because there are several areas of 
responsibility that could go either way. I think the Congress 
would be interested in how that spilled out.

                             Budget Request

    Mr. Rogers. We certainly would.
    Well, I appreciate your attitude and willingness to realize 
that this is of vital importance. You have asked in your budget 
request for a 10 percent increase over fiscal 2001 for a total 
of $5.5 billion, and under any scenario that is a huge 
increase. But, under the current scenario we are facing where 
we are waiting on the restructure of this agency, this is an 
impossible request for me. So we want to see your plan. We want 
you to show us your cards. It is showdown time.
    Thank you, Mr. Chairman.

                     Proposal To Merge FBI and DEA

    Mr. Wolf. I am going to recognize Ms. Roybal-Allard. Before 
I do, years ago I forget when it was, there was the proposal to 
merge the FBI and the DEA.
    Mr. Rooney. Yes. I was around at that time.
    Mr. Wolf. And you were around. And what was the reason then 
they decided not to move ahead, to keep them distinctively 
separate?
    Mr. Rooney. The differing missions. The sort of single 
focus of the DEA, I think, was the leading factor in that.
    Mr. Wolf. Somewhat the same here, though you could say they 
are distinct. And I was thinking at my experience at Interior 
we had Fish and Wildlife and the Park Service, similar but 
different, and they were totally and completely separated with 
a different director. But I think the fact of whoever was 
involved in the DEA, the FBI, the same thing would follow 
through here. They did make the decision not to merge them.
    Mr. Rooney. That is right, they did; very clear decision.
    Mr. Wolf. Ms. Roybal-Allard.

                           INS Restructuring

    Ms. Roybal-Allard. Thank you, Mr. Chairman.
    Just a quick comment with regards to the restructuring, and 
I haven't formed a final opinion as to what restructuring 
should be, but I do know that when I was down visiting the 
border in San Diego, one of the things that both the INS folks 
and the Border Patrol highlighted was the fact that they were 
able to work together to share information: Sometimes they were 
able to deal with issues right there on the spot because of the 
sharing of data and personnel being housed in the same place. 
So that seemed to be something they thought was very, very 
important to helping them.
    Mr. Rooney. This was the Border Patrol and who?
    Ms. Roybal-Allard. And they had some INS, down in San 
Diego.
    Mr. Rooney. Oh, okay. The inspectors and the Border Patrol.
    Ms. Roybal-Allard. Yes. And they seemed to think that was a 
very positive aspect of their operation. So I just want to 
throw that out in terms of you start thinking about the 
restructuring.
    Mr. Rooney. Well, in most versions the Border Patrol and 
the enforcement function would be considered enforcement, but I 
raise the issue because several have indicated that the 
inspection functions, it facilitates movement into the country, 
could be considered a service function as well.

                           Backlog Reduction

    Ms. Roybal-Allard. I want to go back to the whole issue of 
the backlog. The fact that so many of us on this subcommittee 
are bringing it up, I think, is a clear indication that it is 
still a significant problem in many of our Districts. But I was 
glad to hear that the backlog in Los Angeles, California has 
been reduced, because by your own numbers, in 1999, the backlog 
was up to 52 months. Could you tell me what that number is now?
    Mr. Rooney. Do we have a specific number readily for 
California?
    Ms. Roybal-Allard. In Los Angeles.
    Mr. Yates. The backlog in Los Angeles right now is less 
than 12 months.
    Ms. Roybal-Allard. Less than 12, and this is----
    Mr. Yates. I am sorry, for naturalization. It is a longer 
backlog for adjustment of status, and that is why this year we 
began a major effort to focus our attention on adjustment of 
status. So I think we are currently about 17 months, but that 
is down from almost 3 years from 1 year ago.
    So we are not happy, and I don't mean to convey to this 
subcommittee that we are pleased with where we are, we are not, 
but we have made substantial progress, and we do believe that 
over the past 2 years, and that is well documented, that we are 
on the right course.
    Ms. Roybal-Allard. So down from your 1999 figures which 
said that it was at 52 months.
    Mr. Yates. That is correct.
    Ms. Roybal-Allard. Okay. Given the fact that you have been 
making this progress and that you now have additional 
responsibilities, such as the new V and K visas enacted as part 
of the LIFE Act, the new trafficking visas, the designation of 
El Salvador for temporary protected status, and the increased 
numbers of H1B visas, is the Administration's request for $45 
million in new funding sufficient for you to efficiently 
continue to deal with the backlog and at the same time take on 
these added responsibilities in a timely manner?
    Mr. Yates. We believe it is--because this subcommittee last 
year approved our plan. The premium processing fee on business 
cases, which, by the way, is a voluntary fee, and those funds 
which would be in addition to the basic petition fees, plus 
this $45 million and the fees that are currently generated by 
applications and petitions will be sufficient to eliminate all 
backlogs over a 5-year period.
    Ms. Roybal-Allard. So then we can expect that we won't be 
having our constituents who are going to be applying under 
these new visas coming to us and saying they have been waiting 
for, 2, 3 years, and nothing has happened? You are telling me 
that you will have caught up with the backlog, and you will 
also be able to keep up with all these new responsibilities in 
a timely manner? Am I understanding correctly?
    Mr. Yates. That is correct. You are going to see that for 
this year, because of the legislation, both the H1B and even 
the LIFE Act, we did not receive any additional funding. We are 
requesting to receive that funding through reprogrammings. So 
the backlogs will grow temporarily, but I am saying you will 
not have reports by your constituents that they filed under the 
LIFE Act and are waiting over 2 to 3 years.

                    Permanent vs Temporary Positions

    Ms. Roybal-Allard. That is good to hear.
    The Administration's fiscal year 2002 budget also includes 
a request for 338 new full-time equivalents as part of its 
effort to reduce the backlog; however, the INS has not 
requested these as permanent positions, but rather temporary 
positions. I was just wondering, given the costs of training 
INS service providers, the problems that at least my 
constituents have experienced with some of the inefficiencies 
of lost files and any number of other things, accuracy and 
employee retention, would it not be more cost-effective in the 
long run to request an increase in permanent positions rather 
than rely on temporary employees?
    Mr. Yates. Right. Well, I think you are correct in that; 
however, we have a couple of things going on. We had this huge 
new increase in workload with the LIFE Act and the H1B, which 
is temporary workload, and we did not feel it appropriate to 
come to Congress and ask for permanent employees for workload 
that is temporary in nature. But in doing our analysis of where 
the workload is shifting, and including with the LIFE Act new 
work that will be generated of a permanent nature from that, we 
are working on those calculations, and so a future budget 
request will identify to what extent we need to increase our 
permanent work force and where.
    Mr. Serrano had asked where is this analysis, and we have 
done an analysis on where our customers actually file, and 
where we do not have offices, where existing offices may be 
understaffed, and that is a report that will be coming to this 
committee shortly. We are just negotiating certain performance 
measures right now with the Justice Department and OMB, so that 
will be here.

                      LAX Staffing and Processing

    Ms. Roybal-Allard. My next question has to do with the 
situation at Los Angeles International Airport, which had 8.6 
million arriving international passengers, last year, making 
LAX second only to New York's JFK Airport in international 
arrivals. Surveys taken last summer indicated that more than 
one-third of international arrivals at LAX exceed the 45-minute 
statutory limit for processing, and that many, many flights 
took as long as 2 to 3 hours to process. According to the INS's 
own computer models, LAX should have an inspection staff of 
420, and yet they are only staffed at 71 percent of the 
recommended level.
    The administration has requested an increase of $76 million 
in user fees to support the staffing at our nation's air and 
seaports. Can you tell me if there will be a significant 
portion of this increase going to ensure that LAX receives the 
INS inspection resources it needs to comply with the 45-minute 
processing?
    Mr. Rooney. What I can tell you is that, well, about 340, I 
think, of these increased inspectors are for airports. Clearly 
LAX is one of the largest, as you just cited, and based upon 
our workload analysis--work force analysis model, we would 
allocate the resources dependent upon where they are most 
needed. The conclusion from that is that LAX would receive 
additional inspectors, and we would be providing the deployment 
plan for that to the committee.
    Ms. Roybal-Allard. Okay. The reason I was asking was 
because with LAX's staff at only 71 percent, while other large 
international airports are all at 72 percent or higher, such as 
JFK, Miami, Honolulu, Chicago and San Francisco, and I am just 
wondering why there is this discrepancy between LAX and the 
rest of them, especially considering that it is second in 
international travel.
    Mr. Rooney. I have no response for you unless somebody here 
does.
    Ms. Roybal-Allard. Could you get back to me on that?
    Mr. Rooney. We definitely will, absolutely.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                  Additional Overtime Resources at LAX

    Ms. Roybal-Allard. Also, last year INS provided LAX with 
$410,000 in additional overtime to address the long waits that 
we have been talking about with regard to inspections during 
the summer season. We are expecting a similar situation, if not 
worse, this coming summer with international arrivals. Yet the 
LAX INS office has an overtime budget that is identical to last 
year's budget. So, will the INS once again be able to provide 
LAX with additional funding for overtime in order to meet this 
demand over the summer?
    Mr. Rooney. I am reminded that I just went through an 
exercise where we are looking at the midyear status of funds 
and where we are lagging behind in expending, where we will 
reallocate and come up for reprogramming, and that is one of 
the areas, and we are looking at. We will get you some 
specifics as to LAX, which is clearly your interest. We will be 
advising the subcommittee of how we will be reallocating those 
funds for overtime purposes.
    Ms. Roybal-Allard. Okay. Thank you.
    Do you want me to wait until the next round? I can do it 
either way.
    Mr. Wolf. Maybe we could.
    Ms. Roybal-Allard. Sure.
    Mr. Wolf. Mr. Latham.

                         Hoof and Mouth Disease

    Mr. Latham. Thank you very much, Mr. Chairman, and welcome, 
Mr. Rooney.
    Mr. Rooney. Thank you.
    Mr. Latham. I have one question. Just as you are talking 
about coming into the airports and entry points, there is a 
real concern, obviously, and heightened concern with the hoof 
and mouth disease and with the mad cow incidents in Europe. And 
I was just curious, do you coordinate or work together with the 
USDA at the entry points, or have you changed any procedures or 
anything? Is there any change in your operations?
    Mr. Rooney. I am not sure, Mr. Latham. This is Bob Mocny, 
who is the Acting Assistant Commissioner for Inspection.
    Mr. Mocny. There has not been any major change in our 
operations with respect to the USDA, but the USDA along with 
the U.S. Customs Service working in the federal inspection 
stations with us are asking those very questions.
    Mr. Latham. Where they do go first? Do they go to the USDA, 
or do they go to you?
    Mr. Mocny. When they queue up, they queue up in front of 
the immigration inspectors first, but during that queueing 
process, the USDA can ask those questions of various people, if 
they have been on a farm, if they have been anywhere overseas. 
But then also if, in fact, people have been in those areas, 
they can be referred back to the USDA for a more thorough----
    Mr. Latham. How about checking luggage and things like that 
for plants or meat products or whatever? I guess that is after 
they have gone through your process.
    Mr. Mocny. They will do preinspection roving as well. So 
the USDA will have their dogs out there inspecting people while 
they are waiting in lines, which is part of that queueing 
process, but, again, they are also subject to inspection after 
the inspection process by the Customs Service or the USDA.
    Mr. Latham. Thank you.
    I want to associate myself with Mr. Serrano, and, you know, 
obviously Brooklyn is a little bit different than northwest 
Iowa, but the thing that we do share is the same problem.
    Mr. Serrano. It is the Bronx.
    Mr. Latham. I am sorry, the Bronx. We are doing a 
reapportionment. I wanted to move you, I am sorry.
    Mr. Serrano. Yes. You have to remember Brooklyn lost the 
Dodgers. The Bronx still has the Yankees.
    Mr. Rooney. Some of us from New England aren't too crazy 
about that.

          Lincoln Service Center--Workload and Response Times

    Mr. Latham. I apologize for moving you. But we share the 
same problem as far as the workload. The cases that we have in 
our office overwhelmingly deal with INS problems and the 
frustration we have in our office many times getting prompt 
responses. And one thing that has been brought to my attention, 
you know, we work a great deal with the INS service center in 
Lincoln, and it is especially frustrating when inquiring about 
a case on behalf of a constituent, your congressional relations 
number, which is not for public use, often requires about 10 
minutes of holding before talking to anyone.
    Further, oftentimes when inquiring about a delay in the 
case, my office has been informed that more information is 
needed in order to complete a particular petition. 
Unfortunately it seems that the computers at congressional 
relations are not hooked up to the adjudications branches' 
computers, so they cannot exchange information, and, as a 
result, normally it takes us days or weeks to get ahold of 
information.
    I guess, number one, why do we--you are not staffed enough 
as far as answering the phone, and what is their rationale for 
not having the ability to get information for us on the 
computer systems that are not merged?
    Mr. Rooney. We had no policy to not be responsive. However, 
we have been asked to hold up development in several of our 
computer systems areas until we come up with an overall plan 
and an overall architecture forit, and we are doing that. So 
some of the responsive capability suffers in that regard.
    Now as far as a particular Omaha office, and I presume the 
Iowa--is it, Des Moines?
    Mr. Latham. The Lincoln Service Center. We work with Omaha 
and Des Moines.
    Mr. Rooney. And Des Moines. Do we have anything in 
particular? Bill Yates again.
    Mr. Yates. We will see a substantial increase in the 
staffing at the Lincoln Service Center. The increase in the 
H1Bs, the LIFE Act, 245(i), all of those issues has really 
dramatically increased their workload. In fact, even at our 
National Customer Service Center, which is our National 
Telephone Center, we have had a doubling of calls to 
approximately 1 million per month.
    So it has been a huge increase, and we do have a 
reprogramming in process to seek access to some of the fee 
dollars so that we can increase the staffing levels at our 
service centers as well as some of the field offices. All of 
that material will be coming to this committee; I mean, 
including our plan for backlog reduction and where these 
positions need to be. But as the Acting Commissioner mentioned, 
we are seeing this year what amounts to an 80 percent increase 
in applications--in petitions over what we received in fiscal 
year 1999, so it is adjusting to that.

           congressional relations office information access

    Mr. Latham. Why cannot the congressional relations folks, 
who we have got someone obviously waiting there wanting an 
answer, why can they not have access to information to give us 
information immediately?
    Mr. Yates. They should. I don't understand that. I will 
have to get back to you and check, because their computers 
should have a direct tie into the LAN. They should have all 
that information available. I will check with that and get you 
an answer.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


               reduction of backlog cases in rural areas

    Mr. Latham. Kind of the same subject, but I am curious as 
to how much of the $100 million as far as reducing backlog 
cases will be directed at rural areas such as Iowa. And we have 
had staff visits at the Lincoln Service Center down there, and 
what they procedurally do, they will take an application, and 
it sits--gets taken to the warehouse and sits there at least 6 
months before it is even opened, before they ever look at it, 
and that is, you agree with that, before this case even gets a 
look.
    Mr. Yates. Well, for certain types of cases, yes, 
absolutely. I mean, where backlogs exist, I mean, that 
application is going to go into a queue. They are processed in 
chronological order, although there is some prioritization 
based upon a particular form type. For example, a petition for 
a U.S. citizen may be adjudicated or an immigrant visa petition 
may be adjudicated more quickly than one where an individual 
may have to wait 4 or 5 years for a visa number to become 
available. So, I mean, we do some prioritization to try to help 
the customers as much as possible.
    In answer to your first question, however, the backlog 
reduction plan and the workload and resource allocation plan 
that we will provide to you shortly does identify additional 
positions. We have seen a lot of growth in some of the areas. 
Typically it was east coast/west coast. We are now seeing 
substantial growth of workload in the interior of the country, 
and you will see the figures showing increases.
    Mr. Latham. Okay.
    Mr. Rooney. Is that both in Omaha and Des Moines?
    Mr. Yates. Yes.

                    consolidation of service centers

    Mr. Latham. And I guess that would bring my next concern, 
and relate to you my feeling is that, I mean, Omaha and Des 
Moines are nice, but for a lot of my folks where the population 
is of people who are using the services, it is a 2\1/2\, 3-hour 
drive, and you go to Omaha and you are standing in line around 
the block for days. And these people have taken off the day of 
work go down there, stand in line, oftentimes get shut out 
before they get a chance to get in there, and it is huge 
hardship.
    And I would certainly be interested if we could sometimes--
I have been on this panel, I think, now since 1997. I get very 
careful what I ask for sometimes because it oftentimes doesn't 
happen with INS the way that it was ever intended, and we get a 
lot of backlash from things that we thought were pretty clear 
in intent and are not executed in that way. But I certainly 
would be a proponent of getting some type of administrative 
service in Sioux City, Storm Lake, or someplace in that area 
where the concentration of the customers is, and I would hope I 
could work with the Chairman and work with you folks to maybe 
see that that happens, because I don't think it has to be an 
adversarial relationship if we could provide the services that 
we are supposed to provide for the folks who need service 
immediately.
    Do you have a comment?
    Mr. Yates. I do have a comment. The conference report asked 
us to look at some specific areas that Mr. Serrano had 
mentioned. In addition to those areas, what we did is we looked 
at the ZIP codes from all of the applications of the petitions 
that are currently being filed, and we identified any area in 
the country where we had a pocket of customers where the 
customers were located more than 100 miles from an existing 
office. We have also gone through and tried to identify those 
areas where it appears we are not currently serving our 
customers well.
    There will be a number of other issues, including costs to 
open offices and whatnot, but we are going to provide the 
committee with all of that information that identifies, I 
think, in the most comprehensive manner that we have ever done 
where our customers are actually located. So we will have that; 
everyone will have that type of information available.

                   detention facility in grand island

    Mr. Latham. Just one question here in closing having to do 
with detention space. There was a push a couple of years ago 
for a facility in Grand Island. INS says the numbers don't 
justify it in Grand Island. They recommended a more central 
location like Des Moines. Where are we on that? Can anybody 
give me an answer as to where, when, and if and where?
    Mr. Rooney. Does anybody have any details? No? Well, what I 
know----
    Mr. Latham. Isn't that a great feeling to look back and go 
(indicating).
    Mr. Rooney. I remember saying that I had somebody here to 
comment once, and I looked at the guy, and he was going 
(indicating).
    But the situation in the northern tier of the central 
region is still being looked at, and one of the potential 
solutions is using some of the CAP money that we have, the 
Cooperative Assistance Program, where we give money to state 
and locals to build cells for our capability, for the Federal 
Government's capability. So that issue is being explored, and 
we certainly will keep you in particular posted on it.
    Mr. Latham. It has been explored for several years now. So 
I would hope we could finally bring some resolution and give 
some relief to--the prisons base shortage especially in our 
county facilities is huge. It is probably the greatest issue 
the counties have today, and without some type of detention 
facilities----
    Mr. Rooney. One of the advantages of a single facility is 
we could bring people from all over and put the judges there, 
too.
    Mr. Latham. I am glad to hear you say that because we have 
been telling you that for years. So, yeah. Okay.
    Mr. Rooney. We are listening.
    Mr. Latham. The agency, not you. And I also just want to 
say, I think the people in the agency are doing the best job 
they can in a dysfunctional system, and I totally support what 
Mr. Rogers has been talking about. Anything at this point would 
be better than the system we have in place. It just is not 
functioning. So thank you, Mr. Chairman.

                  hoof and mouth and mad cow concerns

    Mr. Wolf. I thank you, Mr. Latham.
    We are going to recess in about 5 minutes and go vote and 
come back, but let me pick up on a couple of things.
    Mr. Latham is right about the hoof and mouth and mad cow. I 
came in 2-\1/2\ weeks ago. We were on a flight coming in from 
England. They never asked us anything. The line in my sense is 
if they are coming in from England, I didn't think I saw--I 
didn't see the USDA out there which I generally see at Dulles. 
But I think it is a real serious problem, and I think it has 
once been in this country 30 or 40 years ago. You would know 
better coming from the bovine area.
    Mr. Latham. It was eradicated in 1929, I believe.
    Mr. Wolf. 1929. But if you would do us a favor and check on 
that and make sure that USDA and Customs and everybody is 
working together, particularly at the entry airports on the 
east coast.
    Mr. Rooney. We will follow up and get to you.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                       support for fee increases

    Mr. Wolf. On the fee increase I had asked you earlier, what 
attempts has INS done to win support for the industry for 
proposals with both cruise ships and the airports?
    Mr. Rooney. Well, I mentioned that we have been talking to 
them about it, informing them. They are aware of it. I haven't 
participated personally in any of those. I don't know if 
anybody--Bob Gardner, our Assistant Commissioner for Budget.
    Mr. Gardner. We held a briefing right after the President's 
budget was released with representatives and have been 
available on other occasions to meet with them, answer their 
questions. We are also engaged with a contractor to do a 
complete study of our user fee account to provide responses to 
some of the concerns members of the industry have had regarding 
the existing use of the fund we have collected. We have tried 
to be as responsive as possible to their questions, provided 
data to them about the use of the fees generated to date, and 
continue to be available to meet with them and respond to their 
questions.
    Mr. Wolf. But to date have you seen any effort that they 
are actively opposing you?
    Mr. Gardner. We have had a lot of discussion with them. I 
think they are still asking information about the 2002 
increases to get an understanding of that to justify the 
increased fees.
    Mr. Wolf. And the cruise ships are mainly foreign-owned; 
are they not?
    Mr. Gardner. Excuse me?
    Mr. Wolf. The cruise ships are mainly foreign-flagged?
    Mr. Gardner. This is correct.
    Mr. Wolf. And currently what do they pay?
    Mr. Gardner. Currently they pay nothing. Our proposal is to 
initiate a $3 fee, which would be almost half of the $7 we are 
proposing for airports.

                               h1b visas

    Mr. Wolf. Last year, and it was mentioned earlier, the H1B 
visa in exchange for $1,000, business to get their application, 
15 days. How many applications has INS processed since the 
premium processing fee went into effect, and what are your 
estimated amounts for collection for 2001 and 2002?
    Mr. Rooney. Just recently, it has been signed off on since 
I have been there, but I don't know what our projections are. 
Once again Mr. Yates will come.
    Mr. Yates. We have not implemented that yet.
    Mr. Wolf. You have not?
    Mr. Yates. No. We are in the regulatory process. We have 
been meeting with industry, various groups, on working on 
details and promulgating the rules. We anticipate offering that 
in June, at the beginning of June. We will go live with it. We 
estimate that for the rest of 2001 that we should generate 
approximately $25 million in revenue. We estimate that for 2002 
that should increase to about $80 million in revenue.

                        border patrol hot spots

    Mr. Wolf. Border Patrol, if we stick to the revised 
schedule of hiring Border Patrol agents by the end of fiscal 
year 2003, the subcommittee will provide funding to hire an 
additional 5,000 border agents to control illegal entry into 
the U.S. Can you provide us with an update on the efforts to 
control the border where the hot spots are? I heard Mr. Kolbe 
talking about the difference, and I am going to take an 
opportunity to go down and spend a day and try to learn a 
little bit more about that, but why have you been so successful 
in San Diego and not there, and why are you--say two or three 
of the hot spots, because if I do go down, I would rather go to 
an area--what are the hot spot areas?
    Mr. Rooney. We can certainly get some more information from 
Chief De La Vina. I would say San Diego T-1s, you probably want 
to see either San Diego or El Paso, and then Arizona. Those 
would be two spots.
    Do you agree, Gus?
    Mr. Wolf. Either San Diego or El Paso?
    Mr. Rooney. We have been successful in holding the line or 
the deterrence on the border by putting the troops right on the 
border, the Border Patrol agents. And then in Arizona, where, 
as Mr. Kolbe was saying, are we getting there or are we not, 
and we think we are.

                            hiring problems

    Mr. Wolf. Are you having trouble finding people with the 
economy the way it is?
    Mr. Rooney. Well, the hiring of Border Patrol agents, I 
understand, over the last few years was a hot issue before this 
subcommittee because you were authorizing the agents and it was 
hard to hire. It was difficult to keep ahead of the attrition 
rate, but we have spent a lot of money and time and resources. 
We have trained 300 agent recruiters, and the reality is----
    Mr. Wolf. How many recruiters?
    Mr. Rooney. Three hundred agent recruiters.
    Mr. Wolf. So they are your own people that are----
    Mr. Rooney. That recruit. But we are going to be able to 
meet the targets.
    Mr. Wolf. What is the profile of the applicant?
    Mr. Rooney. Gus, you have got a good feel for that, a 
profile of the----.
    Mr. Wolf. Retired military. What age?
    Mr. De La Vina. The age group is about what we are looking 
for in the Southwest.
    Mr. Wolf. What is that?
    Mr. De La Vina. Twenty-one years.
    Mr. Wolf. Twenty-one.
    Mr. De La Vina. The profile or, let's say, the aspect along 
the Southwest, a lot of law enforcement officers, local, state, 
a lot of sheriff's department people that we are picking up. We 
are also----
    Mr. Wolf. Are you taking a lot of people from local 
departments, and they are upset?
    Mr. De La Vina. Yes, sir. Primarily sheriff's department.
    Mr. Wolf. And what do you pay starting?
    Mr. De La Vina. We start them off at about $25,000.
    Mr. Wolf. And training is how long?
    Mr. De La Vina. Sixteen weeks, and they are all assigned--
--
    Mr. Wolf. Twenty-five thousand?
    Mr. De La Vina. Right--somewhere in that vicinity.
    Mr. Wolf. We are down to about 4 minutes. Why don't we just 
recess, and we will be back in a few minutes. Thanks.
    [Recess.]

                          EXTENSION OF 245(i)

    Mr. Serrano [presiding]. We will try it again.
    Let me ask you a question. The Chairman is right outside 
and will be coming in.
    The President spoke some very welcome words about the issue 
of extending 245(i). There are bills in Congress to deal with 
this issue. At this moment, there is a press conference about 
yet another bill to deal with an extension or permanent 
reauthorization of the statute.
    What do you think--past the President's words, what do you 
see coming from the Administration? I know you are not a 
spokesman for the Administration as such, but on this issue you 
are as important to the Administration as anyone else--more so. 
What do you see coming? How can we be helpful?
    Mr. Rooney. As you know, the President said he would be 
supportive of an extension and did not reference any time 
frame. At least the bills that I have seen, that I am familiar 
with, had both 60 days and 1 year--excuse me, 6 month and 1 
year extensions. Somebody had indicated to me, and I don't 
remember who, that they were thinking of 4 months, also.
    The Administration has taken no specific position on any 
particular time period. We could live with--I think the 
opportunity--the regulations came out late, and we would like 
to see the opportunity for everybody--I mean, at least 4 
months, but any time beyond that we are certainly comfortable 
with.
    Mr. Serrano. If I had the privilege of listening to you 
folks advising the President on what is acceptable in terms of 
time, could you tell me what is acceptable? There is a bill for 
30 days. There is a bill for October 31st. There is a bill for 
a permanent situation. What is unacceptable? What cannot be 
handled?
    Mr. Rooney. We advised that 6 months to 1 year was 
acceptable to us.
    Mr. Serrano. So you have advised already?
    Mr. Rooney. That was our internal advice.
    Mr. Serrano. We have seen the lines on TV. What has been 
the effect in the last few months?
    Mr. Rooney. The regulation was announced March 26th, which 
happened to be my first day at the INS. I did not come in and 
announce that. They were working on it before that. But that 
was, what, 5 weeks, a little less than 5 weeks ago. We were 
expecting between 600,000 and 650,000 people to be eligible and 
to apply.
    During the course of the month, the 5 weeks, and towards 
the end of that time period, most of our offices had extended 
hours open till midnight, I think on the last day, most of 
them. And we took mail applications, too, bearing postmarks 
through April 30th. But I believe--I have not actually heard on 
the final number, but it was in the 400,000s.
    Mr. Yates. Our estimate was 450,000.
    Mr. Rooney. 450,000 actually applied in time by the 
deadline. So we would expect there would be a couple hundred 
thousand out there that could do it, those did actually apply 
within that month, so that is comforting that they could react 
to a shorter time frame. But we would like to see it be at 
least 6 months.
    Mr. Serrano. Okay, your estimates on how many people it 
affected, how good do you feel about those estimates?
    Mr. Rooney. Yes, in other words, do we think there are 
really only a couple of hundred thousand left? I do not really 
have any feel. Does anybody here? Bill?
    Obviously, we will tell you how we came up with those 
estimates.
    Mr. Serrano. These estimates, no one really knows how many 
undocumented people there are for the country. You hear all 
sorts of numbers.
    Mr. Rooney. And our estimates are based on numbers that we 
estimate for that.
    Mr. Yates. We have agency statisticians that speak a 
language that I am not familiar with, sir, but we believe so 
far they have been reasonably close. If it is extended, there 
will be an opportunity, based upon their estimates, for another 
200,000 people to complete the work that they may have begun 
but did not complete before April 30. We have anecdotal 
evidence that there are a number of people out there who would 
have filed but they couldn't get an attorney or a community-
based organization that had an opportunity to help them.
    In addition, by extending it, there will be some people, 
even if the physical presence date is maintained, who will 
become eligible. I mean, because they may marry or they may 
find an employer who is willing to petition for them. So it is 
not only the 200,000. There will be another figure. But whether 
that is 10,000 a month or 30,000 a month, I don't know. We have 
asked our statisticians to provide us with that information. 
They haven't completed that work as of today.
    Mr. Serrano. I know you are not equipped, nor should you 
be, to tell us what the President is thinking. But when he did 
not give us a time period, was that because he had not 
consulted with you folks yet?
    I would think, for instance, if word got out, and it 
probably will, that you folks are comfortable with 1 year, that 
is something that a lot of people would react favorably to. If 
we are talking about 200,000 people a year, you could 
accomplish that.
    But when he did not set a time period, was that because he 
hadn't been advised on it yet?
    Mr. Rooney. No, we had given them advice. We provided the 
fact that we were comfortable with either one of those. And I 
think--I cannot tell you why specifically. I mean, the original 
intent of the Congress was to give 4 months if we were able to 
suddenly somehow turn around from the December 20th time in the 
regulations. Certainly that is another option. Four months from 
the time it is enacted an extension is enacted would at least 
be consistent with the previous intent of the Congress.
    Mr. Serrano. Well, this is an issue that is of interest to 
a lot of people. And when I say a lot of people, I have been 
somewhat pleasantly surprised at how many Members of Congress 
who are not members of the Hispanic Caucus come up to me and 
tell me they want something, they want an extension or a new 
time period or this is something that is affecting people 
throughout the country. So we may all be surprised at how much 
support there is.
    Mr. Rooney. I think it is something that occurred. 
Therefore, other Members may have become aware that there are 
people in their districts that were in that kind of a 
situation.
    Mr. Serrano. Right. Right.
    Mr. Chairman, I have one last question.
    Mr. Wolf [presiding]. Go ahead.

                        MEXICO MIGRATION ISSUES

    Mr. Serrano. Let me--on another related subject. Prior to 
the President's visit with Mexican President Fox, an 
announcement was made on the formation of a U.S. and Mexico 
task force on migration, to be cochaired by the Secretary of 
State and the Attorney General. What is the Department of 
Justice's role in the new Administration in working with Mexico 
to achieve long-term solutions to undocumented migration, what 
has been INS's involvement in this task force, and do you 
believe that INS should have an active role in this process?
    Mr. Rooney. Last question first, yes, I do. The meetings 
that were started with Secretary Powell and Attorney General 
Ashcroft and the Foreign Minister and Secretary of the Interior 
of Mexico began on April 4th, which happened to be shortly 
after I arrived at the agency. I and another member of our 
agency were at the table, I guess two or four Justice 
Department representatives and four State Department 
representatives.
    So we were dealing with the representatives of Mexico, and 
we were very actively involved. We had issues that we wanted 
very much for them to focus on in the migration area to help us 
do our job; and they obviously had interests on their side, 
particularly in the area of guest workers. As the President 
early on had said that in these negotiations or discussions--
not really negotiations but discussions--that amnesty was not 
on the table--you know, a blanket amnesty for anybody--but that 
we would talk in terms of all of the issues that were raised.
    They went to safety along the border, security along the 
border, anti-smuggling issues, that we would like to see a more 
active involvement by the Mexican Government in helping us 
enforce the laws there. Also, as well as the issues that they 
very much have on the table, which are opportunities for their 
nationals to work in our country in one form or another and be 
able to move back and forth.

                UNDOCUMENTED ALIENS IN THE UNITED STATES

    Mr. Serrano. One last question, Mr. Rooney. By your 
estimates--your agency's estimates, how many undocumented folks 
do we have in this country?
    Mr. Rooney. Well, we said, the last estimate--and I guess 
we put out--Barbara, you can help me? Six million, wasn't it? 
Five to six million? There are higher estimates that we had 
seen in the papers. I have forgotten where in particular.
    But we came out pretty strong, our statistics folks, 
research and policy people, that 5 to 6 million, based upon the 
current information available from the census, was an accurate 
number and that we would look at the census profiles as they 
became more particular.
    This is Barbara Strack, who is Executive Associate 
Commissioner for Policy and Planning.
    Mr. Serrano. How do you get that information, since 
supposedly the census was not supposed to ask that question?
    Ms. Strack. Can I address this?
    Good morning, Mr. Chairman and Mr. Serrano.
    We extrapolate from census data in order to develop our 
estimates. The Census Bureau does ask whether people are 
foreign born or born in the United States. But the foreign born 
is a diverse population. It would include naturalized U.S. 
citizens, green card holders, long-term nonimmigrants as well 
as illegal immigrants. So we have to try to subtract out what 
we know about naturalized citizens and those other categories 
and look at a residual population, which is how we try to 
estimate the resident illegal alien population.
    We have a very good demographer on our staff, and he works 
with other demographers at the Census Bureau and elsewhere in 
order to try to refine those numbers. Right now, despite what 
you have read in the newspaper, we do not yet have the new 
foreign-born number from the 2000 census, and that is at this 
time a great unknown and that our demographers and others are 
anxiously waiting to see what that number is in order to make 
revised estimates.
    Our very preliminary sense is that, overall, our estimates 
of the resident illegal population may go up a little bit from 
where we have been in the past. We think this census did a 
better job in terms of reducing the undercount and that affects 
the undocumented population as well as other segments of the 
population.
    What we have in addition to the big 2000 census, the Census 
Bureau does the current population survey, which is a monthly 
survey, so we do have some foreign-born data from that. We are 
anxiously awaiting the real foreign population number from the 
2000 census in order to estimate our numbers. We have seen 
things in the newspaper in the 9 million range or 11 million. 
We do not think it is going up to that extent, but it may be a 
little higher than our past estimates.

            CITIZENSHIP STATUS OF CHILDREN BORN IN THE U.S.

    Mr. Serrano. And one last piece of that question. When you 
say ``estimate,'' an undocumented couple has two children in 
this country. We know the issue of citizenship and so on. So, 
in your estimates, the children then are not counted as 
undocumented aliens, right?
    Ms. Strack. That is right. Children born in the United 
States, regardless of their parents' nationality, would not be 
counted in our estimates.
    Mr. Serrano. Thank you. Thank you, Mr. Chairman.

                            BRACERO PROGRAM

    Mr. Wolf. I have a number of questions, and I know I will 
have to submit a number for the record, and I know Mrs. Roybal-
Allard does, too. Let me follow up on a couple, and this 
question was triggered by your answers to Mr. Serrano on the 
other one.
    Would it not make sense, it seems--I remember the Bracero 
program was 110, whereby people came in--were we not better off 
or was it not better off then, when you did not have illegal 
aliens, border guards and guns and fences and sensors? Whereby 
there was a formal program, someone from Mexico or a certain 
country could come in, be involved for that period of time, 
return home, be with their family? Talk to us about where we 
are and with regard to Vicente Fox again.
    Mr. Rooney. Okay. One of the downsides of the Bracero 
program, as I recall it--and I really wasn't directly 
involved--is that a lot of people stayed. A lot of people----
    Mr. Wolf. A lot of the illegal aliens are staying, too.
    Mr. Rooney. Yes, that is very true.
    Mr. Wolf. Six and a half million, or whatever it is.
    Mr. Rooney. Exactly. And in the discussions with the 
Mexicans, they want very much to have a program where people 
can come here and work and go back.
    Mr. Wolf. That would be almost like the Bracero program.
    Mr. Rooney. It would be very similar to the Bracero 
program.
    There are a couple of proposals in the Congress. 
SenatorGramm has one and Berman-Smith--Smith-Berman on the House side, 
which would provide types of guest worker programs. We have not 
endorsed as an Administration any one of those proposals. But we have 
discussed each of those with the Mexicans.
    Mr. Wolf. Why not? What has been the reason for not dealing 
with that issue? Because, obviously, you take somebody from--
let's use Mexico. They want to return to be with their family. 
They love their country, and they are also looking for an 
opportunity to work. There is a job in San Diego or Tucson or 
wherever the case may be--the ability to come in and work 
legally. It is not a question of Border Patrol and things like 
that.
    What was the reason for the abolition? I don't remember 
very much about it, either. I just remember reading about it 
years ago. But what was the reason for the abolition of it?
    Mr. Rooney. My understanding--and I will turn to my 
colleagues. But my understanding was that there were several 
issues where people just simply didn't return.

                      Internet Tracking of People

    Mr. Wolf. Well, I understand that. And now we have the 
Internet. If I talked to you about AOL 20 years ago, you would 
not have known what it was; and 30 years ago you could not have 
flown out of Dulles Airport because it wasn't there. The world 
has changed, and I am sure you can file your taxes on the 
Internet, and you must have some means in the INS--are not 
conditions different whereby you can track people now where you 
couldn't track people then? And then you do not get into this 
guy is not a violator, that we have to arrest him, because he 
is here legally and he is going to go back.
    Mr. Rooney. Yes, I agree with you, Mr. Chairman. And one of 
the things is that, getting back to the Internet situation, we 
are not able to do all of that tracking yet. We, as part of 
what this subcommittee has asked us to do, under the Data 
Management Integrity Act, I think is the name of it, we are 
going to be implementing that kind of data where you can track 
people as they come, as they leave, et cetera, whether they are 
still in the country. Ordinarily, we do not track data as 
people leave. We collect incoming data from incoming arrivals.
    This is on the Bracero program. Do you mind, Mr. Chairman, 
if I ask Barbara from the Office of Policy and Planning to come 
up? She has explored these issues over the past few years.
    Ms. Strack. I wanted to add briefly, one of the issues 
historically with the Bracero program was problems with the 
exploitation of the temporary farm workers.
    Mr. Wolf. My goodness, you have exploitation now. You have 
exploitation of illegal aliens in the country. I have read 
whereby they are working in a factory or in a place and they 
are reluctant to go forward because they know somebody could 
turn them in. So I think you have exploitation. Would you agree 
there is exploitation now of illegal aliens?
    Ms. Strack. Certainly. That is why the Administration wants 
to work on a program that does not replicate the weaknesses of 
the Bracero program.
    There are sort of two principles that are guiding the 
discussion, and the thinking on this is to make sure that we 
design a program that does not lead to depressing wages and 
working conditions for workers who are already in the United 
States and to ensure that the temporary foreign workers would 
not be subject to exploitation.
    So I am not suggesting that those are impossible, but those 
are the guiding principles in talking about what this new 
temporary worker program would look like.

                         Exploitation Concerns

    Mr. Wolf. I would say, as a Republican Member, I haven't 
noticed Republican administrations being particularly worried 
about the exploitation of Chinese workers in China. I haven't 
seen anybody in this administration speak up with regard to the 
Catholic bishops that are in jail in China and the persecution 
with regard to people around the world. Every time you bite 
into a cocoa bar, in the Ivory Coast most of the cocoa 
plantations have slaves. They are not exploited. They are 
slaves.
    I think there must be something going on here. They just 
have to probably look at this issue a little bit better. I 
think you are turning people into criminals that really are not 
criminals, and there may be a way of giving a man or woman the 
opportunity for dignity. Controlling--making sure when they are 
coming in and when they are leaving and the opportunity for the 
Internet--I mean, if you are an American military person 
stationed in Korea and you marry a Korean, then your next duty 
station is Frankfurt, Germany. You ought to be able to track 
and get involved through the Internet in dealing with the INS.
    So I just think a lot of things have changed. And maybe 
this Administration that I support is not being very creative 
on this, and maybe they haven't really focused enough on this. 
But I would hope that this Administration would really be 
worried about exploitation of the Sudanese and exploitation of 
Chinese.
    I was in a slave labor camp in China, Beijing Prison Number 
One. I couldn't get anybody in the first Bush Administration 
interested, the first Clinton Administration interested in it, 
the second Clinton Administration interested, and I think this 
Administration has yet to tell us whether or not they will be 
interested.
    So the exploitation thing--I do not want to see anybody 
exploited. The dignity of man. But I sense they have to be a 
little more creative and maybe go places they haven't been able 
to go before for reasons that back in the '50s or '60s--that 
maybe technology and things have fully changed.
    Mr. Rooney. One of the things is I think you will find, and 
it is early on because we have only been meeting as the U.S. 
working group and then we get back to the table with Mexico----
    Mr. Wolf. I understand.
    Mr. Rooney [continuing]. But I honestly believe, Mr. 
Chairman, that you will see some of that attitude come out of 
these U.S.-Mexico discussions.
    On the other issue about the tracking of people, we would 
love to be where you suggest we are; and I think this 
subcommittee has led us there in the past with the same types 
of frustrations that you now as Chairman see. And why can't we 
with the Internet and the availability of the Internet be able 
to track people coming in and out? We are behind on getting a 
plan, but we are going to have a plan that will allow us to 
implement that kind of a system, first at airports and then--et 
cetera, et cetera. But we are not there yet. And that certainly 
will enter into our discussion.
    But in preliminary discussions before going to sit down at 
the table with the Mexican Government is getting the INS, the 
Justice Department as a whole, Labor Department, other 
interested--Agriculture, other interested departments, so that 
we can revisit the types of--you mentioned the Braceroprogram--
and look at the legislation that has been proposed now.
    I don't think you have--I don't know if you have anything 
to add, Barbara?

                      SEXUAL TRAFFICKING OF WOMEN

    Mr. Wolf. What about the sexual trafficking of women? What 
involvement does the INS have? The Congress passed a bill last 
year. We believe that there are 50,000 women brought into the 
United States yearly. I know they do not check in with INS. 
What are your comments? What involvement? And I hope, and if 
you can take this message back to the building, this is an 
issue that this Administration should be very, very interested 
in.
    Mr. Rooney. Oh, yes, and it is. As a matter of fact, our 
Attorney General has come out and said he was going to use his 
bully pulpit for talking about this trafficking in women and 
children. We have actually had some successes in that regard in 
going after people who smuggle in----
    Mr. Wolf. Can you talk a little bit about any special 
programs you have.
    Mr. Rooney. Yes, actually, if you do not mind, to be 
specific once again, Joe Greene, our Assistant Commissioner of 
Investigations, who can report on our successes. He knows more 
about them than I do.
    Mr. Greene. I am pleased to report that the first 
indictment brought under the Victims of Trafficking and 
Violence Protection Act was brought in Anchorage in March of 
this year.
    Mr. Wolf. Can you tell us about the cases?
    Mr. Greene. It is not before the court yet, so I can only 
talk about the indictment. But the indictment charged four 
people with inducing people to come into the United States on 
the promise that they would have legitimate jobs here. The 
indictment charges that they were coerced then to work in a 
strip club in Anchorage, Alaska. And that case is going to 
trial. It is under the supervision of the United States 
Attorney, but it is the first case that has been brought under 
the Act.
    There is an operation that initiated with the INS, rather, 
and it has now jointly been conducted by the FBI and the INS 
under the supervision of the Assistant United States Attorney.
    Mr. Wolf. If you can keep us informed with regard to that 
case. I hope they seek the maximum penalty.
    Mr. Greene. Yes, sir.
    Mr. Wolf. Because I think if there are a lot of the cases 
that are brought--I think the last Administration in some of 
these areas, child pornography over the Internet and some other 
things, did not move; and, therefore, U.S. Attorneys were not 
involved. Since this is a new law passed by the Congress, the 
first couple of cases out of the box really makes a tremendous 
difference. Where were the individuals from?
    Mr. Greene. Russia.
    Mr. Wolf. The exploitation of women from Russia coming from 
the Ukraine is unbelievable.
    Mr. Greene. It is my intention when the trial is completed 
and the case has been adjudicated to send some people up to 
Anchorage to do a case study which will then be sent to all of 
the INS as a way to do lessons learned; and then, once that is 
finished, I would like to share that with your staff.
    Mr. Wolf. I recognize Mrs. Roybal-Allard.

                     Permanent extension of 245(i)

    Ms. Roybal-Allard. Thank you, Mr. Chairman.
    Just by way of information, last year there was a Bracero 
bill that was put together by Mr. Berman. It had the support of 
the growers, the United Farm Workers, the Hispanic Caucus. 
Everybody was on board; and, unfortunately, the deal was not 
accepted by the leadership on the Senate side. That is what 
happened. So we wouldn't be discussing this right now. It had 
all the protections, all the issues that have been raised in 
it; and I believe that is the same bill that is going to be 
introduced or presented again this year.
    I just wanted to go back to the question that Mr. Serrano 
raised about 245(i) and the extension.
    I guess for me this is just another case of of Congress 
going in circles. I guess I don't understand why--that when we 
are only talking about a limited amount of people, around 
200,000, who have to have been in this country by December, 
2000, why are we discussing whether should it be 3 months, 6 
months, 9 months? Why not just make it a permanent extension to 
deal with all of these people? Is that something that would go 
beyond that 200,000? It really does not make sense to me to be 
talking about time limits but rather going back to what the 
original law was and simply makins it permanently. However, I 
know that you do not make that decision.
    Mr. Rooney. Well, I would say that the changing of the law 
was, of course, the Congress' 1996 Act, and this extension, 
this 4-month reprieval or whatever you want to call it under 
the LIFE act, we only focused on the extensions that were 
provided by bills that were being introduced at that time, 6 
months, 1 year, but going back to the fact that the Congress' 
intent in December was to give 4 months. So we felt very 
strongly, since we did not come out with regulations and 
implement until the last month, that there should be some 
extension.
    Ms. Roybal-Allard. I understand that you are not 
responsible for that. I am just making the point that Members 
of Congress sometimes just go in circles when it would be much 
easier to have kept the law as it was. Or now, rather than 
trying to decide whether it is 3 or 4 months, just make it 
permanent since we are talking about a limited amount of 
people.
    Mr. Rooney. Yes.

                    Disbursement of 245(i) Receipts

    Ms. Roybal-Allard. Another question I have has to do with 
the processing piece, with 245(i) applications. Estimates are 
that section 245(i) generated $200 million in 1997, and $140 
million was projected to have been raised in 1998, if the law 
had not been changed.
    Given the backlogs that we have talked about earlier with 
the INS, I am curious as to why 80 percent of the revenue that 
is generated by the 245(i) fees has been given to detention 
rather than kept for service so that you would not have had 
this kind of a backlog.
    Mr. Rooney. Bob, could--Bill, excuse me.
    Mr. Yates. Actually, that was covered in the legislation. 
It is a split. Fifty-five percent of the money goes to the 
service side of the house to help adjudicate those cases, and 
45 percent of that $1,000 penalty fee goes to the detention and 
removal program.
    Ms. Roybal-Allard. I guess what I was asking, before this--
--.
    Mr. Yates. Because that was also directed by Congress, that 
80 percent of the money would go--that was not an agency 
decision.

                Civil rights violations along the border

    Ms. Roybal-Allard. That is what I wanted to know. Thank 
you.
    I have one last question, and that has to do with the 
concerns that have been voiced about the increasing reports of 
civil rights violations along the border, including reports of 
American citizens who look Latino--and I believe the ranking 
member has talked about profiling. But in a 1999 GAO report, it 
states that, as hiring has increased, the average experience 
level of Border Patrol agents has, in fact, declined. The 
report states that along the southwest border many of the 
agents there have less than 2 years of experience, and this has 
tripled from 14 percent to 39 percent between 1994 and 1998.
    Given the relative lack of job experience among the newly 
hired Border Patrol agents, it seems to me that it is probably 
even more critical that agents receive adequate training, 
especially in the area of civil rights.
    Can you tell me what the Administration is doing to ensure 
that border agents are adequately trained in civil rights and 
that they are not engaging in racial and ethnic profiling along 
the U.S. border?
    Mr. Rooney. Obviously, madam, that is a great concern to 
the agency but also particularly to the Border Patrol in the 
formation of these new agents as they come on-board.
    The agents receive civil rights training before they go out 
to their positions. There is a 16-week training course 
initially. I think it is 16 weeks. Yes. And there are 746 
hours--I have a note here--110 of which, which is 15 percent, 
are devoted to civil rights type training, protection of 
constitutional rights and privileges, appropriate and 
inappropriate use of force, which is clearly significant, and 
the nondiscriminatory provision of law enforcement services, 
much as we have been discussing earlier, and the 
nondiscriminatory treatment of individuals by law enforcement 
personnel.
    So they do get a significant amount of training, fifteen 
percent of the training that they take initially.
    Clearly, as you mention, with 5,000 new Border Patrol 
agents coming on in such a short period of time, the majority 
of our agents at any given time--and 5,000 is half of the 
Border Patrol cadre--more people than not are relatively new. 
So we share that interest in ensuring this training. Any time 
that any of them violate the civil rights of anybody, the 
allegation is made and we become aware of it, which can happen 
through the press, through the alien, through the consulates or 
so many different sources. We do refer to internal audit for 
investigation.

                         Civil rights training

    Ms. Roybal-Allard. It is one thing to provide information 
in a classroom setting or however you do it. But I think a lot 
of times messages are understood from the way information is 
presented or what priority it is given.
    Mr. Rooney. Yes.
    Ms. Roybal-Allard. In terms of the training, is it made 
clear that their responsibility is as much to protect the civil 
rights of the people they deal with as it is to ensure the 
other aspects of the law?
    Mr. Rooney. As to be sensitive to those. I hope so. I am 
going to have to defer. Gus, can you address that? Chief De La 
Vina from the Border Patrol.
    Mr. De La Vina. In addition to the operational and the 
training aspect that is ongoing for our new agents at the 
Border Patrol Academy, once they reach their designated areas 
of assignment we have two tracks that we progress on. One is 
the operational track, which would be the actual operations, 
the sign cutting, the line watch and all the operational 
things, in addition to the outreach that we are doing with our 
agents. And by outreach we are referring to having an 
interaction with the community.
    We have the Mexican Consul from Mexico address our new 
agents at, say, Douglas, Arizona, for example, or whatever the 
location might be. We also have the city leaders address the 
new agents. We have the local police departments, sheriffs 
departments, community leaders, those that are supporters as 
well as nonsupporters.
    So it is an educational process that is ongoing. In 
addition to the official training, we give them exposures to 
the community and the sensitivities involved.
    Ms. Roybal-Allard. Thank you. Thank you, Mr. Chairman.

   Number of former KGB and GRU aliens who have become U.S. citizens

    Mr. Wolf. Thank you.
    A couple more, and then we will submit for the record 
others.
    I periodically see X person from Russia, a former KGB agent 
now living in New York City, operating an import-export 
business as an American citizen. How does that happen? How many 
former KGB agents have become American citizens? Is this 
serious? I mean, they have to come through INS. You must 
actually ask them certain questions.
    Can you find out for us how many former KGB, GRU agents 
like that have become American citizens?
    Mr. Rooney. Certainly.
    Mr. Wolf. They are constantly in the paper. Some are even 
doing business with certain companies. There should be a 
rebuttable presumption that if a guy was a KGB agent and on the 
other side for so many years or whatever, he really has not 
changed. He may just want some money, but I see it constantly 
in the paper.
    Mr. Rooney. Certainly we will look into it. I would like to 
see the answer. Our General Counsel, Bo Cooper.
    Mr. Cooper. Good afternoon.
    One of the major problems with this kind of situation is 
having access to the information about the kinds of things that 
would make a person removable from the U.S. on the basis of 
acts they have committed abroad.
    [Announcement made that there is a fire in the next room.]
    Mr. Wolf. We will recess the hearing. But I would like you 
to come up and talk to me about this and a couple of other 
issues.
    [Questions submitted by Chairman Frank Wolf follow:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                            Thursday, June 7, 2001.

                       FEDERAL BUREAU OF PRISONS

                                WITNESS

KATHLEEN HAWK SAWYER, DIRECTOR, FEDERAL BUREAU OF PRISONS

                     Chairman Wolf Opening Remarks

    Mr. Wolf. The hearing will begin.
    We are not going to have an opening statement. I know the 
House is out, although I am impressed to see so many people 
still here, so I will just submit a statement for the record, 
recognizing Mr. Serrano for any comments, and you could either 
state the whole statement, summarize or proceed as you see fit.

                             VIEQUES TRIAL

    Mr. Serrano. This is kind of a rare occasion, but I do want 
to welcome Dr. Sawyer. And the reason I say it is a rare 
occasion is because I do want to publicly take a moment to 
thank you for the many courtesies you and your staff extended 
to me regarding the incarceration of the New York activists who 
have come to be called the Vieques 4. I know it is not your job 
to comment on whether the swiftness of the trial, conviction, 
and sentencing, which took less than 4 hours, and 
incarceration, for longer sentences than people in similar 
situations got before, but it would have added insult to injury 
if these gentlemen had had to serve their sentences far from 
their homes and families. So, again, I want to thank you for 
your courtesies.
    Ms. Sawyer. I thought I would just summarize some of my 
comments today, if that is okay, Mr. Chairman.
    Mr. Wolf. Sure.

             DIRECTOR KATHLEEN HAWK SAWYER OPENING REMARKS

    Ms. Sawyer. First off, I do want to thank you, Mr. 
Chairman, and Congressman Serrano and all the members of the 
subcommittee who have shown very strong support for the Bureau 
of Prisons over the years; and I look forward to continuing to 
work with all of you.

                        INMATE POPULATION GROWTH

    The federal inmate population continues to grow. In fact, 
it has increased more than sixfold in the last 2 decades, from 
approximately 25,000 inmates and 41 institutions in 1980 to 
more than 152,000 inmates and 98 institutions today. So growth 
is basically my theme today in our budget request.
    We expect the inmate population to continue to increase for 
the next several years due to ongoing federal law enforcement 
initiatives, particularly with respect to immigration issues, 
drugs and weapons offenders. In addition, sentenced felons will 
be housed in the District of Columbia, approximately 8,000 of 
them, by the end of this year, as required by the National 
Capital Revitalization and Self-Government Improvement Act. 
Thus, the focus of our request is to add additional capacity to 
keep pace with the rapidly growing population and provide 
additional programming opportunities for our offenders to 
promote positive change and to help them transition 
successfully back into the community.

                         FY 2002 BUDGET REQUEST

    Our 2002 budget request totals almost $4.7 billion. That is 
an 8 percent increase over our 2001 level.
    The Building and Facilities budget includes a program 
increase of $670 million. $630 million of that is for 
construction of four high security penitentiaries and three 
medium security correctional institutions, of which some prior 
funding is available. These include three facilities that are 
associated with the transfer of the INS long-term detainees 
into the Bureau of Prisons. The remaining $40 million is for 
partial site and planning for four new facilities, two for 
females and two for males.
    The Salaries and Expenses budget is actually our operating 
budget. For 2002 our request is for $3.8 billion, which will 
fund all of our existing institutions, plus the five new 
facilities that we envision having operational by the end of 
2002, and the nearly 20,000 more inmates that will be in our 
custody by that time.
    One of our most difficult operating budget challenges this 
year, anticipated well into next year, is the cost of 
utilities. We currently estimate that rising utility costs will 
increase our expenses by nearly $40 million, this year, above 
last year's monies, and we believe this could go even higher in 
future years, depending upon energy costs.
    Another challenge we are facing deals with our most 
important correctional program that you are very much aware of, 
Mr. Chairman. In keeping with the statutory mandate to employ 
as many inmates as possible in prison industries, we have 
increased our operations to keep pace with the increasing 
inmate population. Several industry trade associations and 
organized labor are actively opposed to FPI and any expansion 
of their operations suggesting that FPI's impact on private 
industry and free labor is too great.
    We disagree with this characterization of FPI's impact and 
strongly oppose the abolishment of FPI's mandatory source 
status without providing some alternative markets which would 
allow FPI to generate the business necessary to occupy our 
inmate workforce. Without such alternatives, we would need 
significantly greater appropriated funds in the future to 
manage the inmate population and provide work skills.
    All of the Bureau's inmate programs, including FPI, are 
intended to prepare inmates for release and for successful 
return to the community. Research has shown that inmates who 
participate in our work programs, in our residential drug 
treatment program, in our educational programs while 
incarcerated are less likely to recidivate than those who do 
not.

                       FAITH-BASED PILOT PROGRAM

    In addition to our existing religious programs, we are 
developing a residential faith-based prerelease pilot program 
for male and female inmates. We expect to implement the program 
in fiscal year 2002 at four different sites. The initiative, 
which will be voluntary and open to inmates of any faith, aims 
to reduce recidivism by providing participants with moral and 
spiritual support that can influence their future decisions and 
aid in transition into the community.
    Mr. Chairman, we recognize that the 2002 budget is larger 
than any previous request from the Bureau of Prisons, but it is 
necessary to meet the challenges that we face. Historic levels 
of crowding, the transfer of D.C.-sentenced felons and INS 
long-term detainees and a population increase of over 36 
percent expected by 2008 demand that we plan ahead in the most 
efficient and economical manner possible. We have struggled to 
prepare a request that maximizes every safe alternative to add 
capacity to meet the inmate growth.
    So I would like to thank you, Mr. Chairman, and members of 
the subcommittee for your continued support. You have 
consistently provided us with the resources that we need to run 
safe institutions and a safe Bureau of Prisons. Again, I look 
forward to working with you; and I am prepared to take any 
questions that you may have.
    Mr. Wolf. Well, thank you very much.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Wolf. I want to say for the record, too, that I think 
you and your people do really an outstanding job in dealing 
with very difficult circumstances.
    From the trip that we took up, I have been developing a 
pen-pal relationship with a couple of people that I spoke to. 
They have been tracking me down. I have been getting letters 
from their sisters and moms and dads and different things. But 
I really do think, particularly with the clientele that you 
have, you do an excellent, excellent job.
    Ms. Sawyer. Thank you, sir.

                 BRINGING U.S. INDUSTRIES INTO PRISONS

    Mr. Wolf. I am going to ask this question more for the 
benefit of the members that are here to sort of explain what we 
were hoping that we could do this year.
    I have a bill with Bobby Scott--the Democratic sponsor--
that does the following. It says you can't put a man in prison 
for 10 or 15 years and give him no work and no dignity, or if 
it is, it is a license plate or something like that, and then 
expect that person to come out and be a productive citizen. You 
just can't do it. I don't think you could do it to anybody, and 
so what this bill does is--and we have had some opposition, and 
my staff is meeting with Mr. Hoekstra's staff to see if we can 
work out some differences.
    It basically says, we will take industries that are 
nolonger in the United States--for instance, about 12 years ago, we had 
a television manufacturer--you can no longer buy an American-made 
television set. They had expressed some interest. We were trying to 
bring them into Lorton, and I think I may have spoken to you at that 
time.
    Ms. Sawyer. Yes.
    Mr. Wolf. So we would bring in industry that is no longer 
in the United States, so we are not in competition with any 
American worker, and we would bring that industry back into the 
U.S. and make those products in prisons, in Federal prisons. We 
would pay the men a certain salary, and a portion of that 
salary would go for their upkeep. A portion would go for 
restitution. If they committed a crime against an individual, 
then there was restitution. But a good portion would go to 
them. So when they have--whether you call it gate money or 
whatever it is, when they get out, they have something to take 
with them. And we are hopeful we can pass it in this Congress.
    I am worried that those who want to phase out FPI will 
leave nothing in its place, and if you leave nothing in its 
place, you just have got to know that you are going to have 
more crime. Now, your staff obviously has helped us a little 
bit with the drafting, but for the record, can you talk a 
little bit about how important work is and dignity and how, if 
the Congress would allow the FPI to go the way of the condor, 
if you will, and we have nothing to replace it, how difficult 
would it be to manage the prisons, and any experiences you have 
of any companies that--I know there is one company that I know 
very well, a large major company, that has expressed interest. 
Could you just kind of expound a little bit for us?
    Ms. Sawyer. Sure. Thank you.
    As I indicated, it is our most important program, we 
believe, from a rehabilitation standpoint as well as a program 
that really helps us manage our institutions very safely. Right 
now, we employ roughly 25 percent of those inmates who are 
sentenced in our institution in prison industries, and it 
really provides the development of good work skills. They learn 
good work skills. They learn work habits. They develop the 
kinds of routines and responsibility and all that really serves 
them very well when they are released.
    We have done a very rigorous research project on our prison 
industries program, tracking inmates for up to 12 years after 
release, and we find that those that have been employed in 
prison industries are 24 percent less likely to recidivate, to 
return to a life of crime. They also are paid much better 
salaries as they work in the environment.
    And this is not just as the result of creaming off the best 
inmates to work in prison industries. We have matched inmates 
with like criminal histories, like backgrounds, like 
characteristics, and we believe that our research is very clear 
in saying that these are the average inmates who are turning 
out 24 percent better recidivism rates.
    The inmates do develop good responsibility. They know they 
cannot work in prison industries if they don't stay misconduct-
free. If they incur a misconduct, they lose their jobs and have 
to go back to the waiting list again. We also require them to 
work actively toward their education. If they don't have their 
high school diploma, we require them to be involved in 
education in order to work in prison industries, which is 
another great incentive.
    We do require them to pay up to 50 percent of their income 
to any outstanding indebtedness they have, whether it be fines, 
restitution, child support, alimony, whatever might be needed 
out there. As you indicate, many of them--the monies that is 
left over, they either save that money or they send it home to 
their families and their children and their spouses that are 
out in the community. It is a very critically important program 
for us.
    The concern from our detractors is that they feel that 
there is an unfair playing field, because we have what is 
termed in the statute a mandatory source. We can only sell to 
the federal government, and if the federal government wants to 
buy a product that we make--and we make a hundred and some 
different product lines in order to diversify and spread out 
any impact we might have on private sector industries as 
broadly as we can. But if anyone in the federal government 
wants to buy a product that we make, then they have to come to 
us first, and if we can meet the cost, the quality, the 
delivery date and the specifications that are required, then it 
has to be purchased from us.
    And there are those who believe that that gives us an 
unfair advantage with inmate labor. They don't take into 
consideration that we are working with very unskilled labor, 
that we have issues of lockdowns in institutions and patrols 
going on and things like that that make it more difficult for 
us to manufacture at the same rate that the private sector can. 
But they want to eliminate that mandatory source because they 
feel that is unfair.

                            MANDATORY SOURCE

    What our position is in the Bureau of Prisons is we are 
very willing to eliminate mandatory source. That is okay if 
that would make people think it is more fair, but if you 
eliminate that ability to sell to the federal government in 
that kind of a way, you have to be willing to open up some new 
markets for us, because we know we are going to lose some of 
our business if we lose the mandatory source. We just want it 
to stay fair and open, enabling us to look at some other 
alternatives of where we might be able to sell products and 
manufacture products. Don't limit us to just the federal 
government and then take away the mandatory source. Your bill 
does meet those kinds of principles. It does take away 
mandatory source. It does open up some new markets for us.
    Another concern for us is that if the decision is made to 
go in that direction, whether it be with making products now 
being made offshore, whether it be opening up the door for us 
to be involved in a prison enhancement program, called the PIE 
program, where the States have been eligible to be involved in, 
the commercial market for the last 20 some years, that door has 
always been closed to the Federal Prison System, whether it be 
that option or maybe there are some other new ideas out there 
that we have missed. We need to have new doors opened, and we 
need to have enough time to make that transition. You can't 
take away mandatory source from us tomorrow and expect us to 
stay viable. So, we need enough time. And we have identified, 
hopefully, a 5-year implementation plan of phasing any new 
initiatives in as you phase out mandatory source.
    Lastly, our goal or the principle we want to maintain is 
that we don't lose any ground in employing inmates. As I said, 
right now, we employ 25 percent of the sentenced inmates who 
are medically able to work. We employ 25 percent. Any new 
initiative that would cause us to have toreduce that percentage 
of employment dramatically would be very difficult for us to embrace in 
the Bureau, because we would need to offset that loss with other 
things, which would mean I would be coming back to this Appropriations 
Committee for more funds than we are already asking for, either to hire 
more staff, to provide more work training programs or things such as 
that.
    So we need to be able to keep focused on about 25 percent 
of our inmate population, jobs available for about 25 percent 
of our inmate population.

                      PARTNERSHIPS WITH COMPANIES

    Mr. Wolf. Without mentioning names of companies, are you--
do you have companies that are expressing interest to come in.
    Ms. Sawyer. Yes, we do. The original idea of selling 
offshore was first launched several years ago when Deloitte & 
Touche was directed by Congress to come in and look at what 
some options might be for prison industries. So for the last 
several years, we have had companies coming to us; and 
currently we have some who are very interested. They have 
products that are being--made offshore. They sell them in the 
market here today.
    We do not want to manufacture a product and sell it 
ourselves on the commercial market. We don't want to be a 
commercial vendor. We want to simply partner with these 
companies, and there are many of them out there that are very 
willing and interested in working with us.
    They are troubled with dealing with different time zones, 
with different tariffs, with different languages, with 
different money issues. There are a lot of complications doing 
business internationally, and a lot of them would like to come 
back and work with us.
    The other issue I know is a concern on some people's part 
in terms of us in some way harming some of the third-world 
countries that are getting this work, and the reality is the 
volume of work that is being sent from this country now 
offshore is so huge that we want a tiny little portion of that. 
We would not damage any of the international trade agreements 
or relationships. What we need is a very small proportion in 
terms of what is now being sent offshore. But there are 
companies, yes, very interested in working with us.
    Mr. Wolf. Might this not also help reestablish these 
industries into the United States if you brought--and I'll use 
television as an example. If you brought television 
manufacturing back--you can no longer buy a television set that 
is made in the U.S. If you were to bring that back in and they 
would be working on wiring and things, you may be able to 
reintroduce that industry or an offspring back into the U.S. to 
create jobs.

                            Mandatory Source

    One last question, then, because the House is out and I am 
here, and in deference to the other colleagues, I am going to 
start recognizing them. But how difficult would it be to run a 
prison or run the Bureau of Prisons if you had no work for 
them? I mean, let us visualize. Bureau of Prisons 5 years from 
now, mandatory source is phased out. There is--you know, they 
are pushing a broom, they are working in the cafeteria, but 
there is no fundamental work. How difficult--what would that 
mean--dollars, I know it would be expensive, but what would it 
mean for that--the workmen in the prison system?
    Ms. Sawyer. You would have a tremendous amount of idleness, 
which is very, very difficult in any prison system. We are 
feeling some of that right now because our institutions are 
very crowded, and even though we are employing, on average, 20 
to 25 percent of the inmates in the prison industries, we then 
employ the rest of the inmates in all of the other work that 
needs to be done.
    All of our inmates have a job. Every inmate that is 
medically able that is sentenced in the Bureau of Prisons has a 
job. They do all the plumbing work in the institution and the 
painting and the cleaning and the carpentry, and they tutor and 
educate and all of that. But if you have an institution of 
1,500 inmates, there is only so much work there that can be 
done to maintain that facility, and even currently with our 
crowd--our numbers in crowding, most of our work details are 
padded. We have more inmates on the plumbing crews and on all 
these different crews than we really need, which means a fair 
amount of idleness already exists. They are assigned to a work 
assignment, but there really isn't enough work for them to do 
to keep them all busy.
    And we feel the tensions of that already. If you were to 
suddenly remove prison industry in that 20 to 25 percent of 
inmates in those institutions working in prison industry, then 
you would be exacerbating that problem of idleness, and when 
they have a lot of time on their hands, not constructively 
engaged in anything, not feeling productive, then idle minds 
become the devil's workshop, and a lot of activities can go on. 
A lot of tensions build among inmates, just kind of pressed in 
these areas in large numbers with not a lot to do. They are not 
tired at the end of the day because they have not been involved 
in aggressive and productive kind of work, and the impact upon 
our institutions would, I think, be profound. As I say, we 
already feel some of those tensions now, because we have more 
inmates than we have work to do. If we lost prison industries, 
it would be exacerbated greatly.
    Mr. Wolf. Do you remember being in the military when they 
used the butt patrol? You walked up and down picking up butts. 
They didn't know what to do, so you would go back and forth. It 
would be almost like just doing nothing.
    Ms. Sawyer. Well, it is demeaning for the inmates, too, as 
you suggested earlier. Inmates, if treated respectfully----.
    Mr. Serrano. I drew blood.
    Mr. Wolf. You went through basic training, though?
    Mr. Serrano. Oh, yeah.
    Mr. Wolf. But didn't you do that, where you would walk up 
and down looking for cigarette butts up and down?
    Mr. Serrano. Absolutely. That was the part I liked.

                       Employment and Recidivism

    Mr. Wolf. Thank you. I hope the Congress can--I hope we can 
do something.
    We have met with Mr. Smith--Lamar Smith and Mr. Hoekstra. 
Hopefully, we can work out some arrangement that they can 
either pass it or I say we can put it on this bill or do 
something. And is it not true that this would go a long way to 
having a major impact on the crime rates one way or the other? 
I mean, if you didn't do it, they are going to go up; if you 
did do it, it would help.
    Ms. Sawyer. Well, our research--as I said, it is very good, 
methodologically sound research--and it shows clearly that for 
those involved in the prison industry, recidivism rates are cut 
by--they are improved by 24 percent. So if we could employ even 
more inmates than we are right now in prison industries, you 
would feel the benefit of that. If we had tosignificantly 
reduce the number of inmates employed in prison industries, you would 
see the impact on recidivism.
    Mr. Wolf. Mr. Serrano.
    Mr. Serrano. Thank you.
    Let me just follow up on this issue, because I am a little 
confused about it. These companies that have interests, without 
naming them, they would be companies that produce the product 
or could produce a product that is not under your bill produced 
in this country?
    Ms. Sawyer. Right.
    Mr. Serrano. Manufactured in this country. Now, would these 
inmates be assigned to these jobs, or is this a volunteer 
situation?
    Ms. Sawyer. Our prison industries system is totally 
volunteer.
    Mr. Serrano. Because I am only concerned at this moment 
with your bill about the criticism we may get in reverse. We 
claim that there are some people in the prison unfairly. So 
then you assign them to make TV sets----
    Ms. Sawyer. No. I agree.
    Mr. Serrano. You have to be careful about that.
    Ms. Sawyer. We would not do that. But this is----
    Mr. Serrano. I know you wouldn't do that.
    Ms. Sawyer. This is purely voluntary, and I think you will 
find--and correct me if I am wrong. Many that we talked to 
wanted to be in these programs. They are aggressive to get in, 
because they have additional money, and they learn the skills. 
We have very long waiting lists of inmates wanting to get into 
the program. We don't require anybody to work in prison 
industries at all.
    Mr. Serrano. Oh, okay.

                       Jail Space In Puerto Rico

    Let me preface my comments and questions by asking 
colleagues on this committee and you, Mr. Chairman, to indulge 
me a second. In my community of the South Bronx, in my cultural 
and ethnic community--and by extension, my district in Puerto 
Rico--there is no issue greater right now than the whole issue 
of the bombings in Vieques, which affect you directly, because 
the arrests have been in large numbers. There are more arrests, 
and each one is being sentenced to Federal prison or Federal 
time, and it looks like this is going to continue to grow. More 
people were sentenced yesterday and so on. So I want to talk 
about that a little bit.
    First of all, when the bombing starts on the 13th as many 
as 600 people are already set to go into the firing range, and 
if everything follows like it is now, they will be arrested and 
in a couple of months they will be sentenced. There are now a 
couple hundred awaiting trial, including heads of labor unions 
in New York like Dennis Rivera and nationally known performers 
like James Edward Olmos and environmentalist leaders like Bobby 
Kennedy, Jr. And these folks, if everything follows, will be in 
prison.
    So my first, but certainly not sarcastic, question is, do 
we have enough room in the Puerto Rico facility for what 
appears to be hundreds, if not thousands, of people by the end 
of the year in Federal prison?
    Ms. Sawyer. Well, we wouldn't have that much room in the 
Puerto Rico facility, but we would have the capacity around the 
Bureau of Prisons. We would be able to move them out of Puerto 
Rico once sentencing occurs and place them in other 
institutions around the Bureau of Prisons.
    Mr. Serrano. I know that in some cases people have asked 
you, like we did in New York, to try to transfer people, but in 
these other cases, the Bureau just has the authority, of 
course, to transfer to whereever you feel these folks should 
be.
    Ms. Sawyer. Yes. The point of designation is up to the 
Bureau of Prisons.
    Mr. Serrano. Okay. Another question. I imagine that the 
Bureau doesn't necessarily pay attention to what the courts are 
doing, because you have your own responsibilities, but in a 
situation like this one where you know by present counts and so 
on that there are hundreds, if not thousands, of people coming 
soon to a prison near you, if you will, do you prepare for 
that? Do you prepare for the fact that this--in this particular 
case, this is an issue and this is going to happen?
    Ms. Sawyer. Yes, we do. We work very closely with the law 
enforcement folks within the federal government, as well as the 
courts, trying to anticipate what the standard projections are 
for incoming inmates but also any unique kinds of situations 
that are occurring that could increase our numbers 
dramatically, both from the pretrial standpoint, which was the 
facility down in Puerto Rico that holds them in the pretrial 
status, and also what the impact will be on our facilities 
where we house inmates for a longer period of time. So we have 
a pretty good sense of what these numbers might look like and 
have a plan for where we would put them if necessary.

                          Strip Search Policy

    Mr. Serrano. Okay. Let me get a little specific here. I 
don't know if this is existing today as we speak, but on the 
various occasions that I have been over to visit the folks in 
New York, one of their complaints to me--in all honesty, their 
only complaint, other than can we get out of here--is the fact 
that--assume this was a waiting area where they were brought 
for visits. If Chairman Wolf would visit them and then leave, 
and then Mr. Mollohan would go in to visit them, after Mr. 
Wolf's visit, they would be strip searched. And then after Mr. 
Mollohan's visit, they would be strip searched, and then after 
anyone else that came in, after each person going to see them.
    No one likes strip searches, but their thought was that 
they would be strip searched once coming into the visiting area 
and once leaving the visiting area but not after each 
individual went into visit them.
    Especially they felt--although this is not special help 
that we are seeking--but in one instance they were visited by 
something like six Members of Congress in a row and strip 
searched, which opened the conversations to what contraband we 
were giving them that brought on the strip searches. Is that a 
policy? Is that the way it is for everyone, or was this some 
major concern about these four individuals?
    Ms. Sawyer. There is no special or unique concern about 
these individuals in that regard. It is our policy to strip 
search every inmate after a visit, because that is the primary 
way that contraband enters an institution, through visitors. 
That is their contact with someone on the outside. That policy 
is standard for all inmates, not necessarily that we believe 
that all inmates are going to try to bring in contraband, but 
rather if the other inmates know that any particular inmate is 
not going to be strip searched, then it puts added pressure on 
those individuals to--through intimidation or whatever, to be 
forced to try to do something they would normally never do. So 
it is a standard policy that we use all the time on all 
inmates.
    Now, the specific part that you are talking about there, I 
would like to look into and talk with our staff and find out 
exactly what is happening, because if they are not at all 
removed from the visiting area----
    Mr. Serrano. Right.
    Ms. Sawyer [continuing]. Then that--I don't quite 
understand what is happening there, and I would need to find 
out for sure. I don't know exactly where they are visiting. I 
don't know the physical layout. I know they are in our Brooklyn 
facility--that we have the old Brooklyn facility and the new 
one right next door. So in my mind's eye, I can't envision 
exactly where they are going.
    Mr. Serrano. Right. When I had visited them, they were in 
the room, or the area was open to where there was a room there, 
a room here. It was like offices. A room here. And the four of 
them would be in different rooms, and you would--there was a 
little area, and you would go into the different rooms or they 
would come out and you would talk to them, and at all times 
there were plenty of guards present.
    And, you know, Mr. Rangel and Mr. Towns and I and Ms. 
Velazquez and others made it a point, which is very difficult 
for us, not to embrace or touch them in the hope that they 
would not get another strip search, and yet they said thatwhen 
we came in as a group, it was easier, but if we came in individually, 
there was the search after each single individual left the room.
    Ms. Sawyer. The only reason--the only way it makes sense--
but I would like to look into it and get back to you, if I may. 
The only way it makes sense is if they are being taken in some 
way back into the secure perimeter of the facility. But let me 
check into it. Staff may be following the letter of the--
normally, our inmates don't get that many visitors from 
Congress, and so this is a very unique situation for them out 
there. They may be following very much the letter of the 
policy, but let me check into it and come back to you.

                   work release program/halfway house

    Mr. Serrano. One last question on this issue. Do you have 
the authority, or do you have to seek authority to assign 
individuals such as these to a work release program or a 
halfway house or whatever may be available outside of the 
facilities?
    Let us keep in mind that in the case of the four in New 
York we are talking about a member of the City Council, running 
for the equivalent of county executive. We are talking about a 
member of the State Assembly in the middle of a budget debate. 
We are talking about the head of the Democratic Party running 
the campaign of another candidate for mayor. We are talking 
about a reverend and civil rights activist, who has plenty of 
work to do. So if they were released, they could be released 
into a lot of activities that would not be improper in any way. 
Who has that authority?
    Ms. Sawyer. Ultimately, the designation rests with the 
Director of the Bureau of Prisons, and that is finally our 
decision. But normally, whenever an inmate receives a short 
sentence like that, unless the judge specifies that he wants 
them placed in a halfway house setting--that is virtually where 
only our work release takes place is in halfway houses. Unless 
the judge specifies they want a halfway house setting for short 
sentences, we interpret that to mean, when they don't so 
specify, that they mean for that person to be incarcerated.
    There was no special recommendation by the court that any 
of these individuals be placed in a halfway house.
    Mr. Serrano. But there was no statement that they couldn't 
be.
    Ms. Sawyer. That is right. You know, they certainly can----
    Mr. Serrano. Well, as Joan Rivers would say, can we talk?
    Ms. Sawyer. Well, what I was going to say is it certainly 
is fine with us if they want, through their defense attorneys, 
to go back to the judge and petition to determine whether or 
not that judge cares whether they are in a halfway house 
facility. It really--you know, we are willing to place them in 
either location----
    Mr. Serrano. You just told me that it finally rests with 
you, but you wouldn't move on it unless they were----
    Ms. Sawyer. Unless we knew that it was okay with the 
sentencing judge.
    Mr. Serrano. But if it rests with you, why would you have 
to know if the judge----
    Ms. Sawyer. Because our whole purpose and our whole role is 
to carry out the sentence imposed by the courts, and the courts 
pretty much know very well that if they--unless they specify on 
short sentences that they want the person in a halfway house, 
then the implication is they want them in one of our 
institutions. So, unless they state otherwise, we would hold 
them in a regular facility.

                     bail for puerto rico officials

    Mr. Serrano. Well, this is a painful situation for everyone 
involved, including those of us who are trying to deal with it, 
to help them in any way we can. Just please keep in mind that 
in the next wave you have a parish priest, the vice president 
of the Puerto Rico Senate for one party, the vice president of 
the Puerto Rico Senate for another party. You will practically 
have the Commonwealth government in prison pretty soon, and it 
is a unique situation that I want to help see how we deal with. 
Because, you know, they have been denied bail.
    That is not your problem. That is not your concern. I 
understand that. But I represent the South Bronx. I have people 
who sold pounds of cocaine on bail awaiting trial, and I have 
the leadership in my community in prison without bail and 
unable to get into a program or anything. So within that which 
I am allowed to say--since I am not a lawyer, I am always 
careful about that--let us see what it is that we can do for 
the situation.
    Mr. Chairman, I do have many more questions and I would ask 
them on a second round, because at this point, it would be for 
me sort of lacking emotion if I went on to one of those budget 
questions.
    Mr. Wolf. Mr. Mollohan.
    Mr. Mollohan. Thank you, Mr. Chairman.
    Welcome to the hearing.
    Ms. Sawyer. Thank you.

                        fy 2001 budget carryover

    Mr. Mollohan. You have some budget challenges as I look at 
your budget. Tell me if this is correct or not. I will kind of 
lead you through this. You had--you were expected to have a 
carry-over coming into 2001. You did have a carryover coming 
into 2001, and therefore that was taken out of the 2001 budget, 
is that not correct----
    Ms. Sawyer. Yes, sir.
    Mr. Mollohan [continuing]. Of $31 million?
    Ms. Sawyer. Yes, sir.
    Mr. Mollohan. And was that restored in the 2002 request?
    Ms. Sawyer. No. No.
    Mr. Mollohan. In the--also the--I think the amendment 
offered on the floor to restore legal--not restore but to add 
to the legal services corporation funding, $11 million was 
taken from Bureau of Prisons. Was that restored in your 2002 
budget?
    Ms. Sawyer. No.
    Mr. Mollohan. And, in addition, you experienced rescission 
like a lot or all agencies received of about 22 percent, which 
is about $7.6 million of your budget. In your 2002 request--has 
that been restored in the 2002 request?
    Ms. Sawyer. No.
    Mr. Mollohan. That adds up to a lot of money. That adds up 
to $49.6 million. Is there any place in this request that that 
failure to add that back in was taken into consideration, and 
what situation does that present to you?
    Ms. Sawyer. You are exactly right on each of those issues. 
There is no question about that. This is going to be a very 
lean budget year for us in the Bureau of Prisons, and that does 
cause us some grave concern looking at the number of inmates we 
are anticipating coming in and the new activations that we 
can't afford not to do because of our levels of crowding. We 
believe that the monies that are requested in our budget, you 
know, if we can receive all of what we are requesting, that we 
should be okay. That is barring any unanticipated expenditures 
that we weren't expecting.
    I mentioned utilities for one issue that has us somewhat 
concerned in terms of what those costs will look like next 
year. Also, since 70--or roughly 70 percent of our S&E budget 
goes to salary and benefits, we are concerned if the pay 
increase for federal employees should be at the 4.6 level 
rather than the 3.6 percent increase level, which is what we 
have been budgeted for, that could harm us again, also.
    But barring any unforeseen expenditures over and above what 
we anticipate today, we think we are going to be okay. It will 
be tight. It will be lean. But if we run into some problems, we 
will have to work with the Department, the Administration and 
back with the Congress to try to offset any problems.

                          fy 2002 budget needs

    Mr. Mollohan. Well, the number I have been given, that you 
might need additional utility costs at $40 million, is that----
    Ms. Sawyer. We are--our real costs for this fiscal year are 
going to be roughly $40 million above that which we expected, 
$40 million above what the rates would have been from last 
year. So we would envision a similar kind of increase next year 
if the costs stay about the same or greater if the costs 
increase.
    Mr. Mollohan. If you add all that up and that doesn't 
include the salary increase, the difference between the 3.6 and 
the 4.6, that is--without taking the pay increase issue, that 
is $89 million. That is a lot of money.
    Ms. Sawyer. Yes. It sure is.
    Mr. Mollohan. You are saying you hope you can come in--is 
this an OMB--did you request this money from OMB, and it wasn't 
restored in the 2002 request?
    Ms. Sawyer. I think, as you know, the new Administration is 
trying to build a budget which they feel is very appropriate. 
And as I say, at this point in time, if we tighten our belts a 
lot and maybe delay some activations a little bit and delay 
some things that we had originally planned, then we believe we 
can live within the dollars that are here--live safely within 
the dollars that are here, barring any unforeseen expenditures. 
If any unforeseen or unanticipated things come up, we are going 
to have some problems.
    Mr. Mollohan. But you are delaying. You are opening 
facilities more quickly than expected. So you are not 
delaying----
    Ms. Sawyer. We are saving pennies everywhere we can, 
Congressman. We have been doing a lot of work at reducing our 
costs, a lot of reengineering efforts. We are doing a lot of 
combining activities, where we will take two institutions that 
are relatively closely located, and we are sharing services 
there. We are trying to eliminate any duplication that exists 
anywhere in the Bureau. We are doing everything possible to try 
to trim our costs, and our staff is doing an outstanding job 
with that.
    As I say, you know, we are going to do everything we can to 
live within this budget request this year, and we believe it is 
possible if we don't have any unexpected expenditures. It will 
be tight, and it will be lean, and there will be no extras 
anywhere, but we believe we can do it, hopefully, and, if not, 
we will work with the Department first and then back with you 
all, if necessary.
    Mr. Mollohan. Well, if your 2001 request that is presented 
to the Congress was realistic and you had that amount taken out 
of it and you were looking at new activations and you are 
looking at them sooner than anticipated, you are to be 
commended, because you are still paying the bills with that 
amount of money.
    Thank you, Mr. Chairman.

                 preventing sexual abuse and misconduct

    Mr. Wolf. Ms. Roybal-Allard.
    Ms. Roybal-Allard. Thank you, Mr. Chairman.
    Dr. Sawyer, last year you provided the data for the record 
on the Bureau's policy and procedures for preventing sexual 
abuse and misconduct, as well as the number of actual 
prosecutions of Bureau employees for sexual misconduct or abuse 
of inmates. You also talked about the fact that the Bureau was 
instituting a number of new policies that were designed to 
encourage inmates to report any kind of sexual abuse, as well 
as to discourage that kind of misconduct among the Bureau 
staff.
    Could you give us an update on how these policies have been 
received, if it is working, and has there been more--an 
increase in the reporting of inmates of these types of abuses 
and the number of prosecutions, if any, as a result of these--
--
    Ms. Sawyer. We believe that the new policies are working 
well; and I say that mostly anecdotally in terms of our staff 
working very closely with the female inmates, ensuring that 
they are receiving all of the training, all of the information 
they need to realize that we do want them to let us know if any 
staff member makes any untoward approach to them, that the 
right thing to do is to let us know immediately. Our response 
will be, then, to immediately separate them from that 
environment that they feel is in any way threatening. We will 
protect them. We will investigate thoroughly, and if there is a 
substance to the accusation, then we will take very swift and 
decisive action.
    We believe anecdotally that is working. As I believe I 
discussed last year, we anticipated that the number of claims 
or complaints would go up somewhat at first, because now maybe 
inmates were going to be coming forward, where before they may 
not have been quite as readily able or willing to do so, and we 
are seeing that. We are seeing the numbers going up somewhat, 
not hugely dramatic, but they are going up somewhat, and we are 
reacting again very swiftly and decisively through the U.S. 
Attorney's Office and the courts to have those activities 
prosecuted.
    I cannot say that we have seen any significant increase in 
prosecutions occurring in the last year. We believe we are 
getting a pretty good handle on acting very quickly and getting 
investigations done quickly. I think the new policies are 
working, and that they are being brought to our attention, and 
we are acting on them as quickly and boldly as we possibly can.
    Ms. Roybal-Allard. Have you experienced any resistance on 
the part of staff to these new policies?
    Ms. Sawyer. No, we have not, because the only ones who 
would resist it are the ones who, hopefully, are bright enough 
not to stand up boldly and resist it, because it is suggesting 
that--I mean, the only ones who would resist these policies are 
the ones who had any desire or intention or involvement in 
doing the wrong thing. So those people certainly are not 
stepping forward. The vast majority of our staff have no desire 
to be involved in such a thing and want no such behavior 
occurring in our institutions. And so those--the huge number of 
our staff who are very positive and want to do the right thing 
embrace these policies.
    There is a little nervousness, I will say, on the part of 
some of our staff, fearing that there would be suddenly a huge 
number of false accusations made. So after you got past that 
little bit of first, I think, concern on the part of our staff 
that they could be accused falsely, once we got past that brief 
hurdle, I think staff--all of the good staff, which are the 
huge majority, embrace these policies.
    Ms. Roybal-Allard. Could you provide the committee with the 
new data?
    Ms. Sawyer. We sure can.
    [The information follows:]

 Bureau of Prisons Staff Prosecuted for Sexual Misconduct With Inmates

    During FY 2000, 9 staff members (6 Bureau of Prisons and 3 
non-Bureau of Prisons contract staff) were convicted of 
criminal violations under Title 18, U.S. Code, Chapter 109A, 
Sexual Abuse.

                              mint program

    Ms. Roybal-Allard. On page 15 of your testimony, you cite 
the mothers of infants together--I guess it is called the MINT 
program----
    Ms. Sawyer. Yes.
    Ms. Roybal-Allard [continuing]. For minimum security 
inmates who are pregnant. In this program, inmates, as I 
understand, are housed in a community correction center during 
the last months of their pregnancy and are allowed to stay 
there for 3 months in order to be able to bond with their 
babies. Can you expand a little bit on that program and how it 
is working and if any other studies are coming forward in terms 
of having a baby bond with the mother and then being, you know, 
removed? I guess because, after the 3 months, then they are 
either put in foster care or with family?
    Ms. Sawyer. Yes. The program is all done via contracts for 
us, as are all of our halfway houses. We contract with 
providers in the local community near all of our female 
institutions so that we have that available to--or most all of 
our female institutions where we can get the contracts and 
someone in the community are willing to provide them.
    As you indicate, a woman who comes into us pregnant, 2 
months prior to giving birth to the baby, goes out into the 
halfway house setting. The contract requires that they provide 
good prenatal care in those facilities, and they teach 
parenting skills, and they teach the mothers how to deal with 
infant babies and help prepare them for this new responsibility 
they are going to be getting. Then, after the birth of the 
baby, they are able to keep the baby in the halfway house for 3 
months. And, again, there is more training and a very 
supportive environment for them to raise the baby and to bond 
with that baby for the first few months.
    One of the reasons why we didn't expand it beyond that 
finite length of time is some concern about funding for the 
children, because we cannot pay any of the costs for the baby. 
There is nothing in our appropriation that enables us to pay 
for the babies. So there has been concern about increasing that 
cost on whatever community provider, and oftentimes they will 
get the money through other external sources.
    We have been looking at a number of programs across the 
country. There are more and more programs starting, still a 
small number, but there are some other programs starting, in 
the States of Nebraska, California and New York and some 
others, that are actually enabling the babies to stay with the 
mothers for a longer period of time. None of them keep them 
more than until the babies are roughly about 3 years of age. 
There is no program that we have found yet that keeps a child 
with the mother in any correctional setting once school age is 
achieved. They are only allowed to keep one child, and that is 
the child that they were pregnant with when they came into the 
institution. None of them that we have found enable them to 
keep multiple children in such a setting.
    But all of them are able to secure funding from the 
community, not through their government appropriated funds, but 
either through charitable groups or human services groups or 
whatever. So we, right now, are exploring all of those, looking 
to potentially expand our program, lengthening the amount of 
time that a mother could keep the child. Because I don't have 
the research statistics with me, but clearly the data would 
suggest more than 3 months bonding is certainly desirable for 
the mother and the child. So we are looking at expanding.
    One of the differences with us, though, and many of the 
State programs is they require the woman to be released within 
that 2-to-3-year time frame that they have their baby. And if 
they are going to be in the prison longer, they really don't 
let them keep the child. Since most of our sentences for women 
in our institutions are longer than 1, 2 or 3 years, it does 
create a bit of a problem for us in figuring out how we are 
going to address that, but we have a work group right now 
looking at that, exploring what would work for us in the Bureau 
of Prisons given our sentence lengths. And if the funding 
appears to be available through external sources, we may be 
expanding that new program to a somewhat longer period of time.
    Ms. Roybal-Allard. Is there a similar program for higher 
security inmates?
    Ms. Sawyer. For us, no, and that is one of the other 
issues. We are only able to do it for community corrections, 
for those eligible to go out into the community. That is why we 
are looking--the work group for us is looking at what would 
work in the Bureau. Because if a larger percentage of our women 
cannot--you know, are not able to go out into the community, 
then the community-based program wouldn't serve us. We would 
have to look at something more like New York where they are 
able to keep--they keep the children in a specialized facility 
in the institution, but they do not fund it through any of 
their appropriated funding sources. And we would be prohibited 
from doing that, also.
    Ms. Roybal-Allard. In terms of parity, education, is there 
anything similar for--for male inmates who have----
    Ms. Sawyer. Not where they can keep their babies----
    Ms. Roybal-Allard. Right. No, I understand.
    Ms. Sawyer [continuing]. With them after delivery, 
obviously. But we are required in our appropriations to provide 
parenting programs for all female inmates, and when I became 
director 8 and a half years ago now, I made the decision that 
really kind of only covered part of the spectrum here, because 
the vast majority of our male inmates are parents, also. So we 
took it on ourselves to develop parenting programs at every one 
of our institutions for all of our inmates, and those programs 
for our male inmates are very popular, and we try to help them 
connect to their children long distance. If they have not had a 
good relationship in years past, we try to help them develop 
good relationships and to really take on more responsibility 
for their role as a parent. So those are available in all 
institutions.
    Ms. Roybal-Allard. Okay. Thank you.

           prisoners using phones to conduct illegal business

    Last year, you indicated that the Bureau was in the process 
of installing a new pin-operated phone system that would better 
allow you to monitor who was calling. We were talking----
    Ms. Sawyer. Yes.
    Ms. Roybal-Allard [continuing]. About the different abuses, 
and I guess actually some of the inmates doing business----
    Ms. Sawyer. Yes. Illegal business.
    Ms. Roybal-Allard [continuing]. Illegal business through 
the phone. Are these new phone systems now fully installed?
    Ms. Sawyer. Yes, they are, fully installed as of November. 
It is working very, very well, when you consider we have 
150,000 inmates and their access to the telephones, the number 
of inmates--of minutes of calls being made across the system is 
huge. There is no way for us to monitor those all manually, 
individually, to keep track of who the inmates might be that 
would be abusing the phone systems. You can't do that manually.
    This new inmate telephone system is state of the art. It 
enables us to track phone calls, to identify which number they 
are calling, to limit the numbers that can be called, and--we 
can put alerts on the phone. If we think that because of 
whatever history you have been in, whether you dealt drugs in 
the past or you have done telephone frauds, then we can put an 
alert on your PIN number so that a red alarm goes off 
immediately when you get on the telephone. We are able to 
listen definitely to your phone calls.
    We do a much better job of monitoring, and so it has really 
enhanced our ability to cut down on illegal activity 
dramatically. I will never say we absolutely eliminate an 
inmate's ability to do something untoward on our phones, but it 
has certainly curtailed it greatly.
    Ms. Roybal-Allard. Thank you. But my other question had to 
do with the Federal Bureau Prison industry, and I think that 
has been answered. Thank you.
    Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Kennedy.
    Mr. Kennedy. Thank you, Mr. Chairman; and welcome, Director 
Sawyer.
    Ms. Sawyer. Thank you.

                    corrections vs. higher education

    Mr. Kennedy. I just wanted to begin by stating what is a 
societal issue that we as a country may have come up with a 
better answer for, and you certainly are not to be held 
responsible for this, but you are on the receiving end of this 
trend that we are seeing where more and more people are being 
incarcerated all across the board. And that goes to your 
opening statements about your need for additional resources 
because of the expanded prison population.
    I understand during the 1990s we incarcerated 16 times the 
number of people that had been incarcerated in the 1970s. You 
know, the justice--the studies have shown where there has been 
a trend through much of the American history in terms of those 
that have been incarcerated, and then during the 1990s it just 
went off the wall, and of course mandatory minimums, I am sure, 
had just a small thing to do with that. But it certainly is a 
question for our society as a whole, and I didn't want to let 
this hearing pass without just saying that America spends 50 
percent more incarcerating 1.2 million nonviolent offenders 
than the entire $16 billion the federal government currently 
spends on welfare programs that serve eight times the number of 
people, the 8.5 million people. We have spent six times more to 
incarcerate one million nonviolent offenders than the federal 
government spent on child care for children in this country.
    States around the country spend more building prisons than 
they do colleges at the beginning of 1995, and the correlation 
between spending on prison construction and higher education, 
there is a merely dollar-to-dollar trade-off between 
corrections and higher education, with university construction 
funds decreasing $945 million to $2.5 billion, while 
corrections funding increased $926 million to $2.6 billion 
during the 1990s. It is just a societal issue that we have to 
come to grips with.

                     mental health care in prisons

    Mr. Kennedy. It is just a societal issue that we need to 
come to grips with. I know we are just on the appropriating 
side, but I think maybe we have a role to play somewhere along 
the lines, to talk about this trend, because we cannot sit idly 
by and see this country housing literally a quarter of the 
world's prison population. Of the 8 million that are 
incarcerated worldwide, we have 2 million. So it is an 
indictment on this country and it is a lack of policy towards 
addressing these problems, and I wanted to get to the questions 
of mental health because clearly our incarceration and our 
prisons are more and more becoming institutions for the 
mentally ill. And we see where those with mental illness, those 
who commit 64 percent of the multiple homicides are from 
mentally ill people that are just not getting the treatment 
they need in the community and elsewhere. And in your statement 
you talk about the fact that there is roughly 10 percent of the 
inmate population in need of some form of mental health care.
    How do you assess that 10 percent of the population? It 
seems awfully low when you consider, according to the Surgeon 
General's report, a quarter of the population needs some kind 
of mental health treatment at some point in their lives and it 
seems to me that you have a prison bureau that normally says 
there is 7 to 10 percent of the inmate prison population is 
either a severe undercounting or a conservative number.
    Ms. Sawyer. We would agree that 10 percent is a 
conservative number and the way we assess that is based on 
history, whatever information is in their report that gives us 
a history of mental health involvement or mental health 
diagnosis--and also when an inmate comes into our institutions, 
we have psychologists in all of our facilities that do a 
relatively brief, relatively cursory psychological evaluation. 
I came into the Bureau of Prisons as a psychologist. I did many 
of those in my years in the institutions. Unless there is a 
signal that suggests more deep-seated problems, we don't do any 
more evaluations on an individual unless problems become 
evident.
    So we would agree with you that 10 percent is a pretty 
conservative number. We are in the midst of engaging in a broad 
epidemiological, and please don't ask me to spell that, study 
of mental health in our Bureau of Prisons. It is a broad, in-
depth study that gets into more detail of--beg your pardon--
diagnosing how far and how broad the issue of mental illness 
is. The 10 percent are those that we have been able to 
identify. Clearly mental health problems manifest themselves in 
some way that enables us to recognize them, identify them. But 
there are an awful lot of mental health problems that are not 
easily recognizable and notidentifiable, and if they don't 
manifest themselves in behavior and if the individual does not step 
forward and indicate they have a problem they can go unidentified and 
untreated.
    So once we complete that study, that 10 percent will 
undoubtedly go up.
    Mr. Kennedy. My concern is if we are really sincerely 
interested in rehabilitation and also avoiding other people 
becoming victims in our society, we ought to have a much better 
handle on this situation. It just seems to me absolutely 
ludicrous for us not to have a better handle on this situation. 
I mean, because we have a responsibility, we are charged with 
trying to protect the public and what kind of follow-up 
services are in place for inmates once they are placed?
    Ms. Sawyer. I would say, Congressman, although I don't 
disagree with you, that we need to do more. That is why we are 
doing the broader study of those 10 percent we are aware of and 
whose problems manifest themselves in any behavioral way. We 
are dealing with those, I believe, quite effectively. We have 
mental health programs at all of our institutions with multiple 
psychologists giving mental health treatment. We have our 
medical facilities with psychiatric inmates and outpatient care 
available for those who have that level of need. We have lots 
of other programs throughout our institutions that address 
those needs. But you do get to one part of the problem and that 
is what is available when we transition them back into the 
community. That is where the availability of resources are very 
wanting. It is tough enough to have any inmate returning from 
our institutions back into the community and have that 
community willing to accept responsibility for helping to find 
employment and housing and just even receiving that individual 
back into that community in any healthy way. If you add to the 
fact that this is an ex-offender, they also have mental health 
problems, it is very difficult to find adequate resources in 
our communities to provide mental health care. So when we 
release an inmate we work very carefully with the United States 
Probation Service, who picks up the supervision responsibility 
of that offender in the community. We give them as much 
information as we possibly can as to what the needs are of that 
offender, and then it is up to probation to try to find the 
resources available in that community to meet those needs, and 
that is a very, very difficult situation. In many of our 
communities there is not a lot of mental health care available 
at a reasonable cost for our inmates returning back into the 
community, and we are working very closely with probation to do 
whatever possible.
    This is not just a concern for the Federal Prison System. I 
work with my State colleagues around the country and we are all 
very concerned with the increasing number of mental health 
cases that find their way into our prisons, and then we need to 
work aggressively to try to return them back into the community 
in a healthy way, connecting them to resources out there that 
just don't exist in many locations.

                         epidemiological study

    Mr. Kennedy. It would be good if you do this 
epidemiological study to trace these cases throughout the 
justice system, including state and local, because it really 
doesn't--I think it is a national concern, plus if we are going 
to really address the situation we ought to know what the true 
recidivism rate is and whether the people in federal prison 
that are counted as having been successfully rehabilitated end 
up in the local and State system never to be really included in 
the figures.
    Ms. Sawyer. You are exactly right. We can only fund the 
study on our own inmates, but we are working and partnering 
with other entities that can help to fund the study, broadening 
out to our State counterparts, and our goal is to achieve that.
    Mr. Kennedy. It would be nice to get a central data bank 
for that information because it seems to me for us to be 
working our judicial system hodge-podge, different States, 
different counties, and then we have the federal, really to me 
seems we have the cart before the horse here. We have got to 
fix this situation because we are now going into this data bank 
for the DNA. We are finally realizing that crimes in Rhode 
Island could have been committed by a prisoner that is 
incarcerated in some other State in the country and we won't 
know about it, and now if we have this centralized data bank we 
might be able to do something. But it seems to me we ought to 
have a centralized data bank for all prisoners when it comes to 
tracking them, not only now but for the future, so we can 
address societal issues more. And maybe it takes us putting 
together some kind of a grant program that incent the states to 
cooperate with the federal government to do this kind of thing.
    I would certainly welcome any input that you could give me 
in terms of how that might be done. You are saying you are 
already working with local entities. How are you managing to do 
that? What can we do to incent other communities to establish 
with you a continual process of updating this information and 
logging it in maybe through a centralized data bank? It would 
be great to have your input on that.

                   education and training of inmates

    On the issue of education and training of inmates, what 
criteria do you use to find teachers for these classes, English 
language classes and others, and what training do you give them 
and what is the vacancy rates and what is the turnover?
    I understand there is a big burnout in these educators. You 
put a little training into them and they are gone. It is just 
they can't, they don't stay around.
    Ms. Sawyer. Our turnover rates in the Federal Bureau of 
Prisons are not too bad because it is a very good career and 
our staff tends to stay with us in the teaching fields. We also 
have control over our inmate population. We can sanction them 
easier than the public schools.
    In terms of where we get the teachers, we recruit them 
throughout the country, either the local community or 
throughout. They must meet the teaching certification 
requirements of the locality in which we are sited. They have 
to have education degrees and certification and the traditional 
requirements of all teachers. We then teach them how to work in 
prison. We don't teach them to be teachers. That is a 
requirement that they have to have met before coming to us.
    Mr. Kennedy. Do you prohibit ex-offenders from that 
teaching?
    Ms. Sawyer. We don't prohibit ex-offenders. I am not saying 
we hire a lot of ex-offenders, but we do not prohibit them. We 
have ex-offenders working in the Bureau of Prisons. They must 
meet the traditional teaching certification requirements.

                       training of prison guards

    Mr. Kennedy. And in terms of the guards and the like in the 
prisons, what kinds of training program do you put them through 
and what kind of turnover rate do you have there?
    Ms. Sawyer. Employees in the Bureau of Prisons have 
anywhere from a 1 to 3-week institutional familiarization 
program where they learn about their own institution and how to 
work there. We then send them to law enforcement training in 
Glynco, Georgia for another 3 weeks, where they get very 
intensive training on working in prisons in general. They also 
get self-defense training and firearms training, as well as all 
the traditional training. They are there for a first year 
probationary period. The first year is a probationary year, 
which is a training year, where they do on-the-job training.
    Correctional officers would not be assigned to the most 
significant or difficult post. They would be assigned to easier 
posts and would rotate frequently so they can learn as much as 
possible and other staff can work with them. Then after the 
first year every employee of the Bureau of Prisons is required 
to have 40 hours of annual training. That is, hours spent on 
new issues and new things, or it could be a reminder on things 
such as sexual harassment. We talk about these issues. Some of 
these things we renew with them every single year because they 
are so important.
    Then there is additional training beyond that 40 hours each 
year, depending on the job specialty or the careeropportunities 
that person might be looking towards. That is the basic requirements of 
training we provide to everybody.
    Mr. Kennedy. Because it is obviously a very difficult job, 
you are dealing with a high stress level and it just seems to 
me that, you know, sensitivity training, how to deal with that 
stress, how to deal with people that are difficult to manage 
would be like--I would be interested in getting a little bit 
more educated in terms of how that all works. Because, you 
know, I am sure many of the people who end up in these prisons 
are used to people shouting at them and punishing them and all 
the rest, and I don't know what ways there are to connect with 
them other than to use kind of abusive and intimidating kind of 
things.
    Ms. Sawyer. There are lots of ways to connect to inmates in 
a much more healthy way than yelling and abusing. Mr. Chairman, 
you have visited two of our penitentiaries that have some of 
the most difficult inmates to deal with, and I think you 
witnessed very professional interactions between staff and 
inmates. And we are careful who we hire and we screen very 
carefully and we are also careful in how we train and what 
kinds of behavior we will allow our staff to exhibit in their 
interactions with inmates.
    I won't say sometimes our staff don't let us down and they 
fall into undesirable behavior, but that doesn't last very 
long. I would invite you to visit any of our institutions any 
time. I know you visited some of our lower security ones. We 
would like to have you visit some of our higher security ones, 
and you could talk with them about how they deal with the 
stress.

                     religious practices in prisons

    Mr. Kennedy. Excellent. I would like to do that. Finally, 
let me say with respect to this religious ability for people to 
practice their spirituality or whatever religion they may have, 
with respect to native Americans, native Americans obviously 
represent a higher percentage of those in the federal prisons 
because they are under the federal authority at reservations. 
So I am very interested in making sure that they are able to 
respect their own spirituality and religious traditions that 
don't come one day a week but that are integrated into their 
daily lives, like understanding the eagle feathers and herbs 
and wearing of long hair. These are central parts of native 
American spirituality and you know long hair is often thought 
to be an extension of one's thoughts and prayers in native 
culture.
    So I know that I am aware that current Bureau of Prisons 
indicates that inmates of all faith groups will be provided 
reasonable and equitable opportunity to pursue religious 
beliefs and practices. I would like to know what current 
ability there is for native Americans to practice their 
religion in the confines of the correctional facility.
    Ms. Sawyer. Yes, sir. We have roughly 2,400 native 
Americans in our prison system and we are sensitive to and 
careful to ensure that their religious practices are allowed to 
occur and are embraced just as any other religious program. We 
have sweat lodges available in all of our institutions that 
house native Americans. If we have any that don't have a sweat 
lodge and we get a native American inmate, we can put the sweat 
lodge into practice very, very quickly there.
    We have medicine men as contractors for all of the 
institutions that have native American inmates. We allow them 
the eagle feathers and the sweet grasses and all of the many 
other things that are part of their religious practices and 
their religious beliefs. There are some of the grasses that 
they like to use in their pipes that we do prohibit because 
they have other ancillary impacts that we would rather not have 
in our prison system. But any that do not pose any threat at 
all and are not questionable in nature, all of those are 
available in the institutions because of their religious 
impact. It is not just their religion, it is their culture, and 
the two are very close together and we try to honor that in all 
respects.

                      impact of prison industries

    Mr. Kennedy. That is great to hear and I thank you for 
that. I would like to just say, as Ms. Roybal-Allard, I have 
other questions about the prison system that I can stay in 
touch with you and the chairman about because it is a big issue 
for my State. We have low wage industries in our State that 
have been impacted by Prison Industries and there is a great 
concern about that. Some of our textile mills that are involved 
in the poorer sections of our cities that have certain 
incentives to hire people at minimum wage, and so forth, have 
actually been put out of work by Prison Industries.
    So it does raise an issue, and I know you are probably 
hearing about it frequently. So I would be happy to work with 
the chairman on trying to come up with a solution that 
addresses the need for people not to be kept idle but also 
addresses the concerns that we have.
    Ms. Sawyer. Okay. Thank you.
    Mr. Kennedy. Thank you, Mr. Chairman.

                 reprogramming request for energy costs

    Mr. Wolf. Sure. One question on your energy cost. Do you 
have a reprogramming for that?
    Ms. Sawyer. We do not anticipate at this point in time that 
we are going to have a reprogramming. Are you talking about 
2001 or 2002?
    Mr. Wolf. 2001.
    Ms. Sawyer. We are looking for 2001. I am sorry. I thought 
you were anticipating 2002 already in terms of us falling 
short. In 2001 we will be coming forward with a reprogramming 
request.

                          faith-based program

    Mr. Wolf. If you talk about the faith-based program, I 
think the faith-based in this community is unraveling in many 
aspects and I think again the prisoners that you have, both in 
federal prisons and state prisons and local prisons who were 
involved in a faith-based program would benefit, could you 
elaborate a little bit more about how you see that? My sense is 
if every prisoner who was participating, obviously on a 
voluntary basis, if they were Christian they could align with a 
Christian church outside. If they were Jewish they could align 
with a synagogue; if they were Muslim, a temple. Whatever they 
were, they would have that opportunity because the greatest 
opportunity is the hands-off piece, when they leave the prison 
to have that opportunity to be with that group with shared 
experiences, not just kind of reach the end of the time where 
they are in a Bible study on the end. Would you talk about how 
you plan to set this up?
    Ms. Sawyer. Yes, sir. Mr. Chairman, you are exactly right, 
the hands-off being a critical piece. That is the part that 
intrigues me with the issue of faith-based programs. Our 
religious programs in our institutions are very active and 
available and do a lot of good things with the inmates. But 
they do those good things with the inmates while they are in 
our custody and then at the end of the time, they go back into 
their community and try to establish the religious base that is 
there.
    The intriguing thing about the faith-based concept is that 
they link the inmates to a faith-based unit, whether it be 
church, temple or synagogue, whatever it might be in their 
community, and that relationship forms while they were in the 
institution and kind of helps prepare them for that day when 
they will be released and also picks them up in a way and helps 
them transition satisfactorily into the community. That is the 
part that is so intriguing for us in believing that this can 
have a significant impact for our inmates.
    The pilot programs that we are putting together now are 
intended that any inmate who wants to volunteer for the faith-
based program would have to be willing to connect to a faith-
based unit of whatever it may be in the community. We will help 
them make that contact. Some may already have that contact, the 
church or temple they left, and they will go back when they are 
released. Some don't have those contacts and we will work with 
them in the communities to help them contact a faith-based unit 
in their community.
    Our plan is to have faith providers in the institution for 
whatever their faith may be, working with them throughout the 
period of time they are in the program and also, while they are 
in the program, connect them to that faith-based provider in 
the community. It is going to be a little more challenging for 
us in the federal system than it is for some of our state 
systems.
    Mr. Wolf. How do you address the distances there?
    Ms. Sawyer. We will be addressing long distances because 
our inmates come from all over the country. We already have 
relationships with the major religious groups in the country, 
whether it be the Muslim community, the Catholic community, the 
Christian community, the Jewish community, from a flat level, 
and then they will work to hone in to whatever community these 
inmates are going to be returning to, to develop those kind of 
networks and connections for the inmates from the many 
different faiths within the institutions. That is going to be 
the most challenging part for us. I think running the program 
in our institutions, getting providers to come into the 
institutions will be relatively easy. But connecting them to 
the faith provider on the street will be a little more 
challenging.
    So our pilot of this, our first year or so of pilot is 
going to be seeing what activities work best in terms of making 
those connections.
    Mr. Wolf. I just want to check something. Maybe I could 
recognize Mr. Serrano, and then I could check this.
    Mr. Serrano. Is that something I should know?
    Mr. Wolf. No, sir.

                        immigrant incarceration

    Mr. Serrano. Let me ask you for--I stepped out for a 
second; if you have mentioned it don't repeat yourself--for an 
update on the whole issue of immigrant incarceration. I know 
you are requesting $18.9 million for increases in that area. 
And I would just like to know how does that stand. What are the 
new challenges that you are meeting? And in your statement you 
refer to the future transfer of several thousands of INS long-
term detainees. Where is that?
    Ms. Sawyer. As I believe you are quite aware, Congressman, 
there are individuals in immigration custody who have finished 
serving out their sentence for whatever crime they committed in 
this country and they are to be deported by the Immigration and 
Naturalization Service, but their home country will not receive 
them back. That includes Cuba, that includes Cambodia, Viet 
Nam, Laos and some other countries around the world. They are 
in what we call a nonreturnable status. They are not planned to 
be released into this country because of their criminal 
activity. But their home country will not receive them back 
because they are in limbo status. Since immigration facilities 
are primarily contract facilities, they are more short term, 
not long term, to house inmates for a long period of time, the 
decision was made by the previous Administration that these 
individuals would be better served in Bureau of Prisons custody 
where they are designed for more long-term offenders and have 
more constructive involvement for them. So the decision was 
made for Bureau of Prisons custody, but that move cannot occur 
until we have sufficient bed capacity to receive these 
individuals in our custody.
    We have a thousand of them right now. Most of them are 
Mariel Cubans who cannot go back to Cuba. Immigration is 
projecting in the next few years they will have anywhere from 
3,000 to 4,000 more of those nonreturnables building up in 
their own facilities that it is just very difficult for them to 
house in short-term detention facilities. So the monies that 
have been requested and the additional monies to complete those 
institutions are intended to give us sufficient bed capacity to 
bring more and more of these nonreturnables into Bureau of 
Prisons' custody. They would be immigration detainees, but we 
would house them because our institutions are more conducive to 
long-term incarceration.

                        nonreturnable immigrants

    Mr. Kennedy. Can I ask a follow-up question? Are you going 
to do any privatization contracting yourselves? Are you 
entertaining that as part of your future plans?
    Ms. Sawyer. Well, we already have. We already have 11,500 
secure beds in the Bureau of Prisons and then another 
additional 7,000 for all of our half-way houses, which are also 
privatized. We do house in most all of those private beds 
criminal aliens who will be deported, but they are still 
actively serving their sentence in this country and will be 
deported after that. These nonreturnables are a different group 
and because of their status--they are usually more higher 
security inmates. They usually have a little more difficult 
time doing time. And if you remember our history, the two 
biggest negative events in our history in the last 20 years 
have involved nonreturnable inmates who rioted and took control 
and took 100-some of our staff hostage and burned down our 
institutions in Oakdale, Louisiana. This is a very difficult 
situation. We would not feel comfortable placing the 
nonreturnables in long-term contracts, but the shorter term 
criminal aliens absolutely. We have most of those 11,500 beds 
housing our criminal aliens.

                            mariel detainees

    Mr. Serrano. Mr. Chairman, there is an ongoing conversation 
here if I can go a whole hearing without mentioning Puerto Rico 
and Cuba, but she mentioned Cuba. But since you did bring up 
that issue, how many people are we talking about from the 
Mariel boatlift?
    Ms. Sawyer. Mariel detainees in our system now are 827.
    Mr. Serrano. Okay. Now some were taken back by Cuba, right?
    Ms. Sawyer. Yes.
    Mr. Serrano. How many and what do you think was the reason 
why some were and others were not?
    Ms. Sawyer. We would be very happy--and I don't want to 
speak for Immigration, but I think they would be very happy if 
all 827 were to go back because these folks have served their 
time in this country for any offense they have committed. Cuba, 
every once in a while, opened the door up a little bit to 
receive some inmates back, and they are usually very small 
numbers at a time. Since we have the inmates in custody, we 
know which ones are going to be going back and we work to 
prepare them for that trip back.
    We have not sent a plane back to Cuba in quite a while, and 
usually there were maybe 15 or 20 at a time, and I think it has 
more to do with the relationship with Cuba and the negotiation 
on the transfer of these inmates. It certainly does not have to 
do with your willingness or Immigration's willingness to let 
them go back. It has to do with Cuba's willingness or 
unwillingness to let them go back.
    Mr. Serrano. I think, Mr. Chairman, that this also has a 
lot to do with ongoing immigration talks with Cuba. As one who 
is very much for immigration, I often notice that the only time 
we talk to the Cuban government it is about immigration, 
because that is a major concern with us. So we will even talk 
to the communists if it has to do with immigration, but nothing 
else. And it is a double-edged sword because on one hand I am 
one who said if these folks want to return they should be 
allowed to return. But then the Cuban government claims we do 
some things on the other side; for instance, a note came out in 
the local press that says the INS has decided under the Cuban 
Adjustment Act that any Cuban who shows up anywhere in the 
United States with an illegal passport is fine. All they have 
to do is, according to the article, fool the airlines and they 
will be accepted, and they can stay here.
    Can you tell me or is this something more that Immigration 
deals with? Again what kind of an individual have the Cubans 
taken back? Are these folks people who we felt had committed a 
crime in Cuba or are these people who committed crimes here?
    Ms. Sawyer. All of those that we house are those that 
committed crimes here.
    Mr. Serrano. These are not the people that were in prison 
there and released to the boats.
    Ms. Sawyer. Initially I think some were held because there 
was suspicion that they were coming from a problem in Cuba when 
they first came to our country. But I believe--and Immigration 
would be better to answer this--I believe of those held all of 
these were released to this country and then reoffended. They 
committed a new crime that brought them into our institutions 
and then we continued to house them because of the inability to 
deport them.
    Mr. Serrano. And all of these conversations are 
conversations that are handled by Immigration, in other words, 
you don't determine who goes back to be Cuba?
    Ms. Sawyer.  No.
    Mr. Serrano. So you don't get any lobbying from Cuban 
Americans saying release these folks?
    Ms. Sawyer.  No, we simply return them when Immigration 
tells them to return them. We don't get involved in the 
negotiations.
    Mr. Serrano. What other issues do you have in this area, in 
the area of undocumented immigration and detainees?
    Ms. Sawyer.  I think that pretty much covers our issues. 
Again we house the nonreturnables for Immigration that are 
looking at long-term; we will be housing more of those. And 
then the only other ones we house are those who are arrested 
along our borders in violation of immigration laws or who are 
not citizens of this country and who will be deported after 
they have completed their sentence and they are returned back 
afterward. And that pretty much is our full involvement with 
those cases.

                     demographic prison population

    Mr. Serrano. One last question, and then I will submit the 
other questions for the record. What is happening to the 
Federal prison population in terms of its demographics in age, 
gender and all other areas? And what effects have current 
congressional actions had on the population? I know that we 
changed the laws recently. There will be a lot of crimes that 
have now become Federal crimes. How is that handled?
    Ms. Sawyer.  In terms of our demographics, we have roughly 
the same proportion of females in our system today that we had 
15, 20 years ago, which is roughly 7 percent. That is obviously 
7 percent of a much larger number, so we have a whole lot more 
women in our prisons than we used to have but it is 
proportionately about the same. When the new sentencing 
guidelines came into play, which treat everyone equitably, the 
increase in female population was very dramatic at first, and 
then leveled off to roughly a 7 percent population.
    In terms of other demographics of age, our average age has 
gone up a little bit, not a whole lot. The average age used to 
run about 34, 35; now it is inching more like 36, 37, so the 
age is going up somewhat. What has happened is we are bringing 
in more older inmates, again because the sentencing guidelines 
don't discriminate, but we are also bringing in a very huge 
number of younger inmates. So the average doesn't change that 
much, although the picture of population has changed.
    The other effect is that our population is becoming much 
more heavily minority. Our percentage of African American 
inmates used to run around 31 percent, and it has gone up to 
close to 38, 39 percent, and clearly the percentage of 
Hispanics, Latins in our institutions has gone up very 
significantly. Much of that is the efforts along the borders, 
especially the Southwest border with the increased number of 
border patrol agents and the law enforcement initiatives along 
that border. But I would say the people of color in general, 
minorities in general, have increased proportionately, the 
proportion of them have increased in our system over the years.

                           elderly prisoners

    Mr. Kennedy. If I could dovetail on that. I have a 
statistic showing that a black male born in 1991 stood a 30 
percent chance of being imprisoned at some point in his life 
compared with only a 4 percent chance for a white male born 
that same year, according to the current statistics. It is 
dramatic and again it is an indictment on the country and it is 
an inability to address a real problem.
    About the older people, it seems to be a problem. A lot 
of--even in your lesser security prisons you have a lot of real 
old people that are like medically--it just seems strange 
having all these old-timers in our prisons. They are no threat 
to society and yet we are still paying huge dollars every year 
to keep them incarcerated.
    Ms. Sawyer.  We do not have quite the problem that our 
State counterparts are having. I think we will have that 
problem as many of the younger inmates are coming to us and are 
serving longer sentences. Right now we only have 1,500 inmates 
out of the entire 150,000 that are 65 years of age or older, 
only 1,500. And of those 1,500, only 227 of those actually are 
in medical facilities that need significant medical care. 
Another interesting factor there is the average age of their 
offense was age 62. And they also have--55 percent of them had 
prior incarcerations and 30 percent of them have a history of 
violence.
    I know in dealing with my State colleagues, other Directors 
of corrections, they are seeing a much larger influx of older 
inmates who do not seem to pose much of a threat and are very 
costly for them for a medical concern, but we are not feeling 
that real significantly yet. I think it will come, as I say, 
with the inmates we are getting serving long sentences. But 
with only 1,500 inmates out of 150,000 that are age 65 or 
older, our medical dollars are coming from inmates much younger 
than these with those who have abused their bodies either 
through the use of drugs or not taking care of themselves, 
through dialysis issues or hepatitis C issues. Our medical 
drain is not necessarily the older inmates, it is those in the 
middle, draining who have really abused their bodies over the 
years.

                        nonreturnable immigrants

    Mr. Wolf. With regard to those who cannot return, for 
instance, with regard to the Mariel Cubans, does the State 
Department address the issue of repatriation? I am not for 
granting PNTR to China, but I am not for lifting the sanctions 
in Cuba. I am somewhat consistent because of human rights and 
other different things like that. Because as we make progress 
with these countries, and you always have to continue to make 
progress whether it be the Chinese government or the Cuban 
government. Does the State Department raise this issue? For 
instance, when was the last time? That would be a sign for 
Castro to take back--you said there were 800 or 1,000 people.
    Ms. Sawyer.  827.
    Mr. Wolf. When is the last time the State Department raised 
this issue?
    Ms. Sawyer.  These are really questions addressed by 
Immigration and Naturalization. They are the ones who work with 
the State Department.
    Mr. Serrano. Mr. Chairman, you are right, these are 
excellent questions. I have asked them and gotten many answers. 
For instance, Castro has said at times I will take them back if 
you give me back the last three pilots who stole airplanes from 
this country, who put tourists in danger when they were 
hijacked and we say, no, they were freedom fighters. He says if 
those were freedom fighters then the ones you have in your 
prison may be, and we get caught up into the politics of I will 
take these back if you also send me that one. And look, we have 
a situation this week, today, which is a related situation. We 
have for the first time a Cuban baseball player who came with a 
visa. In other words, he was one of the 20,000 a year who we 
allow to enter the country legally under the agreement. He came 
with a visa. The minute he arrived in Miami, he said I am here 
for democracy, I want to sign withthat baseball team. The 
Commissioner of Baseball said, no, you are here legally, therefore you 
have to go into the draft like every other kid in the country has to go 
into the draft. And he said, I am not going to do that. And one day 
after he was in the country he sued in Federal court and said I can't 
be treated like a regular high schooler, you have to treat me special.
    Mr. Wolf. What did the courts rule?
    Mr. Serrano. They haven't. I suspect somebody drafted him 
and he will also sign for $150 million with somebody else. And 
the court will decide it.
    Again these are issues. The Cuban government then says we 
gave the guy a visa under your terms and now you are going to 
treat him as if he ran away from here. So it goes back and 
forth.
    Mr. Wolf. Some day you and I can go to Cuba since we have 
been on the other side of the issue. Have you been there?
    Mr. Serrano. A long time ago.
    Mr. Wolf. I think sometime we have to do a time out and say 
here is where we are today. There are these 800 and some, you 
take them. I apparently am in a minority position in the House. 
There was a vote on the Nethercutt amendment which carried, and 
I didn't support it. But I think there is an opportunity for 
those who want to lift the sanctions to make the effort with 
Castro to take--it is almost a humanitarian thing to take these 
people back, because many are what age? They are certainly in 
their fifties.
    Ms. Sawyer.  I would say most of them are over 40.
    Mr. Wolf. And I think there would be an opportunity there 
which would send a message to those in the United States who 
are somewhat not exactly excited about Castro, like myself, 
because of the way that he has treated certain people. But I 
think somebody has to begin to look at these things. And what 
other countries do not take people back? Now Vietnam I 
understand will not take back.
    Ms. Sawyer.  Again, I can get you the names exactly, but I 
think Laos is one, Nigeria. I think there are a couple of 
African countries.
    Mr. Wolf. We have Members traveling to these countries 
saying what a wonderful country this is and we are glad to be 
here. Why don't they raise these issues?
    Ms. Sawyer.  We can put a few of them on the airplane with 
them. We can get you a list of the countries.
    Mr. Wolf. I would like to get a list.
    Mr. Serrano. You have the answer.
    Mr. Wolf. If we can get a list of those countries that are 
involved. Someone told me Vietnam was involved. I don't know 
what I am going to do in the Vietnam trade pact. I will vote no 
because they are persecuting the Catholic church. Flat out. No 
question about it. They are. But let's see if they will take 
these people back, one, so they can be reunited with their 
family and, two, to take the burden off the American taxpayer. 
If the committee could get a list and it won't be the 
committee's project, it will be mine. I will write all the 
presidents of the countries and all of the ambassadors and say 
here is an opportunity to demonstrate, whether it be Nigeria, 
Cuba, Canada, Mexico, whatever countries they are--I don't know 
what they are. If you can give me a list.
    [The information follows:]

           Countries Not Accepting Return of Their Nationals

    According to the Immigration of Naturalization Service, the 
following countries that will not accept return of their 
nationals: Armenia, Cuba (non-Mariel), Iran, Iraq, Kampuchia/
Cambodia, Laos, Libya, North Korea, Somalia and Vietnam.

    Ms. Sawyer. We will work with Immigration to get you that 
list. We only know the ones that are warehoused.
    Mr. Wolf. How many are in the system?
    Ms. Sawyer. Nonreturnables?
    Mr. Wolf. Yes.
    Ms. Sawyer. We only have a little over a thousand in ours, 
but Immigration is requesting--that is, the request for the 
beds to absorb them--anywhere from 3,000 to 5,000 in the next 
few years. I believe they have another 2,000 in their system 
already.
    Mr. Wolf. They cost roughly $20,000-some a year to keep.
    Ms. Sawyer. The average cost is 21,000.
    Mr. Kennedy. Easily.
    Mr. Wolf. That is a lot of money. I don't want to release 
them in the United States if they have committed a crime, but 
some of them may have been rehabilitated for their country to 
take them back and give them that opportunity. If you can do 
that, we will ask you to follow-up--Do you have a question, Mr. 
Kennedy?

                         reintegration efforts

    Mr. Kennedy. Yes, just finally. You say you work a lot with 
the Probation Bureau on putting people back into the 
communities. If you could get me some more information about 
what your budget really entails in terms of reintegrating?
    Ms. Sawyer. In terms of reintegration efforts.
    Mr. Kennedy. Because that is a bigger issue, and if you 
could identify some of the big challenges you see with the 
reintegration efforts.
    Ms. Sawyer. We will do that. Thank you for being interested 
in that. It is a big concern.
    Mr. Kennedy. Thank you.
    [The information follows:]

                      Bop's Reintegration Efforts

    The Bureau of Prisons (BOP) provides work and other self-
improvement opportunities to assist offenders in returning to 
their communities as productive law-abiding citizens. Programs 
provided include a variety of education programs and 
occupational and vocational training programs based on the 
vocational training needs of the inmates, general labor market 
conditions, and institution labor work force needs. Through all 
of these programs, inmates gain knowledge and skills that help 
them become gainfully employed upon release and avoid new 
criminal conduct. In addition, other programs which are proven 
to improve institution behavior and show promise in reduction 
of recidivism are Residential Drug Treatment program units and 
the Challenge, Opportunity, Discipline and Ethics (CODE) 
program and Bureau Responsibility and Values Enhancement 
(BRAVE) programs.
    The BOP spent approximately $127 million during FY 2000 on 
programs designed to assist inmates with eventual reintegration 
to society.

                   residential drug treatment program

    Mr. Wolf. Let's talk about the issue of the drug use. How 
many of your prisoners are in for dealing with drug use and how 
many for drug involvement, meaning not use but sale?
    Ms. Sawyer. 58 percent of our total population are in for 
some type of drug offense.
    Mr. Wolf. That means either use or sale?
    Ms. Sawyer. It is primarily only sale. You will not find 
many inmates in the federal system that had such a small 
quantity for personal use. It is usually those who have 
significant enough quantity to suggest drug trafficking.
    Mr. Wolf. Who have significant drug use in their history?
    Ms. Sawyer. Roughly a third of our population has a 
moderate to severe drug use and are in need of treatment.
    Mr. Wolf. What cost is that per prison?
    Ms. Sawyer. Our treatment per prisoner, let's see. Our 
program in the year 2000, we put 12,541 inmates through our 
Residential Drug Treatment Program, the 9-month intensive----
    Mr. Wolf. What was that number?
    Ms. Sawyer. 12,541 went into the residential program.
    Mr. Wolf. Were there ones that wanted to get into it and 
couldn't get in?
    Ms. Sawyer. No, every inmate that wants to get into 
residential drug treatment will be in drug treatment before 
released. That is required by statute.
    Mr. Wolf. Is that voluntary?
    Ms. Sawyer. That is voluntary.
    Mr. Wolf. Why is that voluntary?
    Ms. Sawyer. We encourage and nudge and push and cajole and 
we end up succeeding in getting 92 percent of those inmates who 
have a drug treatment need into drug treatment. But there is a 
whole philosophy or stated opinion among treatment 
professionals that if you have mandatory or force somebody into 
treatment you are oftentimes going to get a resistance that 
cannot only limit their ability to get him the treatment, but 
also everybody else. So we go for the incentive of cajoling, 
pushing, encouraging, rather than mandating. We feel we are 
quite successful getting 92 percent of these people in for 
treatment.
    There are inmates in our system who need drug treatment but 
they are not in the program yet, because we tailor our program 
to be given in the last 2 to 3 years incarceration for us. So 
it is catching you at the end of your sentence just before you 
return to the community, and then we connect that to a 6-month 
transition program in the community as you go back. But every 
inmate who has a drug treatment need, who wants in a 
residential program, gets in a residential program before they 
leave.
    Mr. Wolf. Do you think your program is relatively 
successful?
    Ms. Sawyer. Yes, we believe it certainly is. The research--
and NIDA, the National Institute of Drug Abuse, is doing the 
research for us in terms of our drug program. Thus far, our 
results show that those involved and successfully complete the 
Residential Drug Treatment program are 15 percent less likely 
to be rearrested in 3 years.
    Mr. Wolf. What percentage?
    Ms. Sawyer. 15 percent less likely to be arrested than 
their counterparts who did not go through the treatment 
program. But you were asking about cost and between the 12,000 
now in residential, the 8,000 in nonresidential drug treatment, 
the 15,000 and 2,000 that completed drug education and the 
8,000 more that went through that 6-month transitional program, 
that whole package cost us $34 million.
    Mr. Wolf. Who pays for the nonreturnables? Do you pay for 
those; does INS pay? Does that come out of your budget? Is that 
in this budget?
    Ms. Sawyer. Yes, once they are in our custody it then 
becomes part of our budget request.
    Mr. Wolf. So the cost of the nonreturnables, I guess you 
don't control any of the costs. What does that roughly run you, 
counting everything, drug treatment, anything, for whatever 
reason? Do you know what your nonreturnables cost you?
    Ms. Sawyer. The average cost for all of them are $21,000 
per year per inmate, if you consider most of our nonreturnables 
are in secure institutions rather than in camps. So the cost 
will range from $21,000 a year to $31,000 a year, and if they 
have serious medical problems the cost goes up. But the average 
cost for that population, it is probably higher security than 
minimum, it is going to run somewhere between $20,000 and 
$30,000 a year.
    Mr. Wolf. When you submit the material, if you could split 
what it is costing the United States Government, and I don't 
want to give you a lot of paperwork, per country. For instance, 
if there are 823 from Cuba and it is just average, it doesn't 
have to be minimum security, high security what is that costing 
the American taxpayer.
    [The information follows:]

               Cost of Non-Returnable Inmates by Country

    According to the Immigration and Naturalization Service, 
below is a list of countries that will not accept return of 
their nationals. Also provided below are the number of these 
nationals in the Bureau of Prisons custody. The average per 
capita cost for FY 2000 was $21,542 per year per inmate. For 
the 2,238 nationals in BOP custody, that represents $48,210,966 
per year, based upon FY 2000 actual average per capita cost.

------------------------------------------------------------------------
                                                             Number of
                         Country                              inmates
------------------------------------------------------------------------
Armenia.................................................              15
Cuba (non-Mariel).......................................           1,625
Iran....................................................              66
Iraq....................................................              16
Kampuchia/Cambodia......................................              54
Laos....................................................              89
Libya...................................................               2
North Korea.............................................              65
Somalia.................................................               7
Vietnam.................................................             299
                                                         ---------------
    Total...............................................           2,238
------------------------------------------------------------------------

    Mr. Serrano. I would like to see the Cuban story, how much 
the embargo cost them.
    Mr. Wolf. That is a different committee.

                         reintegration programs

    Mr. Kennedy. On returning, this reintegration thing into 
your community, it would probably be a really good thing to get 
some overall briefing for the committee on that. It seems to me 
that directors point out it is a real huge problem facing this 
country, with 2 million people overall, and of course what our 
federal prisons would be doing might be directed to our state 
and locals and how they are working with the faith-based, but 
also with the U.S. Probation Service. And we are getting 
requests for reintegration programs within the Labor, Health 
and Education Committee. So it seems to me, I don't know, but 
there doesn't look like there is any unified efforts. It might 
be a patchwork quilt. If there is a unified effort here where 
budgets are shared for this, we ought to get a briefing on it 
because it seems to me a huge issue.
    Mr. Wolf. Sure, we will be glad to do that if you think you 
can set that up. I think you might have to go to HHS and 
others. We are only dealing with the federal system. I was 
active in the Lorton Reformatory before there. If you want to 
see a system that doesn't work, it just did not work. There was 
nothing, almost literally nothing. And then when you go to some 
State prisons, the condition is like--so, I mean, you run a 
Cadillac program compared to others. But if you can try to pull 
all that together, I guess a lot would depend on the Labor-H 
would be dealing with money maybe going to States that would 
use it. Could you help us pull something like that together?
    Ms. Sawyer.  I would certainly be very excited about 
helping. It really is not a very good unified program right 
now. It is kind of scatter shot in terms of we have our reentry 
concerns with our inmates going back and there is the 
Department of Labor issues and there is the Department of 
Health and Human Services issues. I think it could serve the 
American people better if there were some unified approach in 
this and I am not sure where the root of that is best located.

               faith-based and prison fellowship programs

    Mr. Wolf. Prisoners, nobody cares about prisoners, so 
nobody is going to spend a lot of time on them. I am not being 
sarcastic. Maybe we should ask Prison Fellowship to come up and 
be part of that briefing. And maybe we could ask GAO or the 
survey or investigation staff to look to see what should be 
done with regard to a coordination. Why don't you work with the 
staff and we can see it put on a briefing. I would like to 
bring Chuck Colson or somebody from Prison Fellowship, Bob 
could come, to explain. They have a good program. Frankly, 
everyone has problems in the world. You could have everything 
going for you, these guys, they have nothing going for them. So 
the affluent person who went to Brown or went to Penn State and 
has all the money in the world is going to have a couple rough 
days; these guys are really going to have a couple rough days. 
Many of them are far away from their families. If they are in 
for 15 to 20 years, if you look at in the federal system, the 
visitations begin to diminish. It is just rough.
    Ms. Sawyer.  I think you need somebody on the outside and 
the faith-based prisons and the prison fellowships in the 
program I think are----
    Mr. Wolf. Frankly, that is why Bush has done a good job in 
raising the consciousness of the country on its faith-based 
program. Frankly, some of these are not the people you really 
want to be around all the time, to be candid about it, and it 
really takes a person of faith that is really willing to get in 
there and labor with these people. And the answer is you can 
hire a person and it is a 9 to 5 job and they have leave. If 
you have a faith-based community, whatever the faith is, it can 
really make a difference. We can reduce crime. That is why we 
are pushing so hard on this prison work. I guess at Lorton 
where they are pumping iron and they don't work, so the guy 
comes out of prison and you bump into him, it is the old story, 
I think what Chuck Colson said or somebody. Would you rather 
see these guys just out of prison carrying Bibles or not 
involved in that faith-based program, if they have been in a 
program and then when they get out they were met by a community 
that surrounds them and also a community during that period of 
time where they are working with their family and the Angel 
Tree Program where they are giving Christmas presents in to 
their kids.
    If I could revamp your budget, I would put much more money 
into your faith-based community and, as Mr. Kennedy said, where 
over that passage of time it would make a difference. Once they 
come out of Allenwood or leave the halfway house they are not 
your responsibility.

                        pre-release coordination

    Mr. Kennedy. But the Director has testified how they play a 
role. It is just do we need to see what is in concert with 
Probation Services and others, like the HHS and others, how we 
put this all together.
    Mr. Wolf. We will try if you can help us prepare whoever 
should be here for the briefing, maybe HHS too, and then maybe 
somebody from Prison Fellowship, and then what we can do is ask 
GAO. We can maybe meet with them and ask them could they do a 
study on behalf of the committee to see if there is a better 
way, obviously there is a better way to coordinate, and maybe 
we can do that if the authorizers allow us.
    Ms. Sawyer.  I think another group would be the Office of 
Justice Programs, who are working with the local communities in 
terms of their role in receiving these inmates back around the 
country. They are already working with some communities to try 
to look at what are some model programs for the communities 
receiving, and that is where we felt a great void. We are 
having problems now with siting halfway houses for inmates 
going back into communities that are their home. These are the 
community's citizens coming back, but no one in that community 
wants a halfway house anywhere in the city. It took us 3 years 
to put a halfway house in the City of Cleveland, and we did not 
care where it went. We would have taken commercial districts or 
whatever. But the entire city, including the leadership, worked 
against us in terms of placing halfway houses. These were for 
their own citizens coming back into the communities. I think 
the communities miss the point that we have no responsibilities 
in the Bureau of Prisons to place them in a halfway house. We 
could keep them to the very last day of their sentence and then 
drop them off on your street corner. We would much rather 
release them a little early where they have supervision, where 
they have a safe place to live and go to find housing, get on 
their feet. But a lot of communities just do not seem to 
understand that these are their citizens and we can either give 
them a bus ticket from our prison and have them dropped off at 
the bus station in your prison, or have them met by a halfway 
house to help them get on their feet, and the faith-based 
program will improve that all the more.
    Mr. Wolf. Most of your people who get out get into a 
halfway house?
    Ms. Sawyer.  That is our goal.
    Mr. Wolf. Remember in the Army they cross out every day, 
and they get down to the last day, they cross out that last 
day. Do any of your people get out with their suitcase and walk 
out of Allenwood?
    Mr. Serrano. In the Army I was down to 3 days and they 
extended me to 7 months more.
    Mr. Kennedy. Because you loved it so much.
    Mr. Serrano. No, there was a war going on.
    Mr. Wolf. How many of your----
    Ms. Sawyer.  Some of them don't stay the entire time 
because their sentences are very short, like 30 days, 90 days.
    Mr. Wolf. How about longer than that?
    Ms. Sawyer.  In for longer than that, I think, we probably 
succeed in various security levels, but we probably average 70 
or 80 percent of time of inmates. Some of them who have sex 
offenses or major histories of violence the halfway house won't 
accept. So some of them who don't need a halfway house, we 
can't get them into a halfway house.
    Mr. Wolf. So literally they have walked out of Allenwood--
--
    Ms. Sawyer. The good thing with the Federal system is that 
most every inmate released by us is picked up on Federal 
probation, released on supervision, so most of them have 
supervision on probation that helps keep them on track. If they 
don't have any supervision, and they have totally maxed our 
their sentence, which is a small number, they could be released 
directly into the public. But those numbers are very, very 
small because there is pretty much supervised release for every 
inmate that is released.

                              safety valve

    Mr. Wolf. Let me ask you a controversial question. I raised 
this with Mr. Ashcroft and I did not get an answer insofar as 
any answer that would be done. I would ask you to furnish the 
committee or me this answer. You were here when we spoke to 
that last group.
    Ms. Sawyer.  In our institution, yes.
    Mr. Wolf. And some of them were 18 and 19 when they were 
arrested. I am probably tougher on crime than somebody else 
might be. But on the other hand, they were 18 and 19 and some 
had sentences of 12 and 20 years. One was 22 years. Could you 
come up with the number of people who were involved in a 
nonviolent crime, and everything dealing with crime is violent, 
but a nonviolent crime whereby it was their first offense where 
they were between the ages of 18 and 21 because when he 
testified, Mr. Ashcroft did, there was a statement that in 1994 
there was an escape clause or--I forget what they called it.
    Ms. Sawyer.  A safety valve.
    Mr. Wolf. Whereby the court had the opportunity to use 
that. There was no safety valve between 1994 and the years 
before, is that correct?
    Ms. Sawyer.  Yes.
    Mr. Wolf. So would it be possible to tell us how many were 
in that category before 1994, where there was no safety valve, 
first time offense and the age of the offender at the time of 
the offense was between 18 and 21, because that is the age of 
immaturity and people make mistakes and come on and do greater 
things in life. I would like somebody to go back and look. 
Maybe they should all stay in jail but maybe they shouldn't and 
maybe somebody ought to--there may be some process that the 
Justice Department should look at. And I would just like to 
receive the numbers so people like you and the Attorney General 
and others can make a value judgment. So I don't know how many 
there are. So 18 to 21 pre-1994, all those men----
    Ms. Sawyer.  Who would have been eligible for the safety 
valve but did not get it because it didn't exist. The age 
factor might take us a little bit longer because we don't count 
by age, but we can get that to you.
    [The information follows:]

                Safety Valve Sentencing Relief Provision

    The number of inmates (aged 21 or younger) prior to 1994 
who would have been eligible to receive the Safety Valve 
sentencing relief provision, using the 1995 Safety Valve 
eligibility definitions is as follows:

------------------------------------------------------------------------
                                                            Estimated #
                          Year                             Safety Valve
                                                             Eligible
------------------------------------------------------------------------
1989....................................................             224
1990....................................................             240
1991....................................................             275
1992....................................................             278
1993....................................................             310
------------------------------------------------------------------------

                            prison assaults

    Mr. Wolf. What about the problem of prison rape of men, in 
federal prisons and state prisons?
    Ms. Sawyer.  Okay. I think that I would never say that rape 
in prison is not a concern. It is. Assaults of any type in 
prison are always a concern for correctional administrators. I 
think the frequency of that is--at least in our federal system, 
for sure, assault is nowhere near the extreme frequency that is 
being suggested in some studies that have been coming up, 
certainly not as frequent as have been coming up in the drama 
and the movies and the layman's view of what happens.
    Mr. Wolf. Are you speaking now for the federal prisons?
    Ms. Sawyer.  I am speaking of the federal prisons, and I 
think it varies state by state, because there are 50 different 
states with 50 different systems. We have determined there are 
three factors that make a difference in terms of whether or not 
inmates are at risk for institutions, whether it be for sexual 
assault or other things. One is whether you have a good 
classification system or not. That is critical. You need to be 
able to separate out your predatory inmates from your general 
inmates. We have a very elaborate classification system that 
classifies inmates into six different classifications, from 
minimum to low to medium to high to supermax. That enables us 
to separate them from the predators. The other is the kind of 
staff supervision we have in our institution. We have direct 
supervision. Your inmates are very open. Staff are out and 
about in the housing units. We don't have the inmates locked 
away in one space.
    Ms. Sawyer. We have lots of interaction between staff and 
inmates, and that kind of visibility really helps protect 
inmates dramatically from these types of assaults. You have to 
have a good response, that if an inmate comes forward and says 
I have been sexually assaulted or inmates are threatening to 
sexually assault me, staff needs to know what to do; and we 
have a very good system where staff takes all of the complaints 
very seriously. We remove the inmate that believes they are in 
jeopardy or have been assaulted away from the danger area. If 
they say that they have been assaulted, we get them out to a 
medical facility in the community immediately and a rape kit is 
done with them. Then we try to find out who did it and 
prosecute to every extent. So you have to have a quick and 
decisive action.
    Mr. Wolf. How many cases did you have last year?
    Ms. Sawyer. Last year we had 17 cases that came forward 
that were confirmed. I am not saying necessarily they were all 
rape, but they were sexual assault, inmate on inmate. We had 17 
cases that were confirmed and something had occurred. Now, 
again, out of 150,000 inmates, we feel that is pretty good 
odds. It is not good enough, because the answer should be zero.
    Mr. Wolf. Zero.
    Ms. Sawyer. But we believe that we are doing a pretty good 
job.

                             inmate deaths

    Mr. Wolf. How many deaths have you had? How many prisoners 
died last year by prisoner----
    Ms. Sawyer. At the hands of another inmate? In terms of 
homicides, in the year 2000, we had four. Now, we have had 
seven already this year. So our numbers are obviously going to 
be a little bit higher in 2001. But, again, the answer should 
be zero. But when you consider the nature of our population and 
the large number that we have, we feel that is pretty good.
    Mr. Wolf. And without you casting any blame on your 
colleagues in the State, but would the State numbers not be 
that good if we took that as a whole?
    Ms. Sawyer. They would vary, and that is one of the 
problems when you talk about the States. There are 50 different 
States.
    Mr. Wolf. Some do well----
    Ms. Sawyer. Well, some have more resources than others. 
Some are more crowded than others. Some put greater emphasis 
into security or training or whatever it might be than others. 
So you really have a mixed bag across the States.
    I would say there are some who probably do better than us, 
there are some who have more problems than we have, and a whole 
lot that are about the same. So it would really be a pretty 
mixed picture if you looked across the States.

                             lorton closing

    Mr. Wolf. Okay. Could you just tell me a little bit about 
Lorton? When do you think it will close? What is the date of 
the closing, and how are the prisoners being taken care of?
    Ms. Sawyer. There are roughly 8,100 total inmates that 
belong to Lorton in terms of sentenced felons. Thus far, we 
have about 4,100 of those already in our custody. We have 4,000 
more to absorb. Our time frame is to have pretty much all of 
them in our custody by the end of October. The law requires 
that we have them all in by the end of December, but we are 
giving ourselves plenty of buffer space there, that in case any 
delays occur we have got plenty of time to----
    Mr. Wolf. So October till--this year till the----
    Ms. Sawyer. Well, December 31st, the end of this year, it 
has to close by law. We believe we will have virtually all the 
inmates--the vast majority of the inmates out of there that we 
are going to be taking by the end of October.
    Now, there are some that are serving very short sentences 
or are due to be released in November or early December from 
D.C.. We are not going to bother absorbing them into our 
system. D.C. is simply going to keep them and release them from 
their own facilities. But we will have every inmate that we are 
required to have in our custody before December 31st.

                eliminating state prisons grant program

    Mr. Wolf. Just one more question, and we will just leave 
the rest of the record open. It is four o'clock. But the 
Department's budget proposes to eliminate the State Prisons 
Grant Program, a reduction of $450 million. What are your 
feelings about that?
    Ms. Sawyer. We really don't deal directly with that at all. 
That is handled through OJP in terms of the budget grants. I do 
know that the recent Bureau of Justice statistics report shows 
several of the inmate prison--I mean, of the State prison 
populations are beginning to turn down----
    Mr. Wolf. I saw that in the article.
    Ms. Sawyer. Yes. The rate of growth is definitely slowing 
across a number of States, and there are some States that are 
actually seeing a downward turn. But in terms of, you know, 
what--the viability of continuing that program or the 
reasonableness of it, I really can't speak on that.
    Mr. Wolf. Why would they be having a downward turn and you 
are having an upward turn?
    Ms. Sawyer. A couple of things. One is that a lot of our 
increases are due to the criminal aliens coming in as a result 
of all the new Border Patrol initiatives along the Southwest 
border. That is a significant part of our increase.
    Mr. Wolf. So if you took that out of the mix----
    Ms. Sawyer. We would still be going up, not quite as 
dramatically. We would still be going up.
    Part of the other increases are due to the many federal law 
enforcement increases that have been occurring over the last 
few years, whether it be FBI, DEA, U.S. Attorneys, federal 
judges. All of that creates more inmates coming to us.
    So for us it is both an increase in sentence length, 
removal of parole back several years ago, the Border Patrol 
initiatives along the Southwest border and the increase in 
federal law enforcement, the whole criminal justice process 
resources. All of those are driving our population.
    Most of that does not apply at the State level. Some of the 
States are seeing a downturn, because they have taken a 
different approach to sentencing of lower level drug offenders. 
California has passed--I forget the number--it is Proposition--
I forget the number of it--where they are no longer 
incarcerating individuals for purely drug use. That is 
irrelevant to us, because we don't--the federal level pretty 
much doesn't really prosecute anybody for drug use anyway. Some 
of the States are simply having less cases coming to their 
courts.
    So it is a real mixture, again, of why their populations 
are going down, but we know clearly what is driving ours up, 
and it is the factors that I referenced.
    Mr. Wolf. Okay. We will submit the other questions, and Mr. 
Serrano has a closing.
    Mr. Serrano. Well, first of all, thank you, Mr. Chairman. 
We thank you for all your courtesies. This is our last hearing. 
Seventeen we survived. So we will probably do very well--the 
next time you and I go public, it will be to discuss dollars 
and cents, and I thank you for your courtesies and the way you 
treat the members on this side. It is a pleasure being with 
you.

                                vieques

    And I want to thank you for your testimony and just 
momentarily go back to my initial comments.
    For obvious reasons, you are at the end of this whole 
ordeal in Vieques, Puerto Rico, and you run the most dramatic 
part of what goes on, because the people who are protesting 
land in federal prison, and so you deal with them. For the next 
few months, I suspect, that hundreds, if not thousands, will be 
in federal prison.
    You now have pending--awaiting trial and soon to be 
arrested, I am sure, the parish priest from Vieques is awaiting 
trial, and he knows that he will go to prison. You have 
lawyers. You have doctors. You have nurses. You have students. 
And this is the list that I know of. You have major league 
baseball players who have said that they would walk out in the 
middle of the season to protest the bombing. So I suspect that 
a very, very dramatic situation is going to continue and affect 
you and the work that you do.
    So my petition to you, my request of you, is within that 
which is allowed for you to do within the law and within 
regulations to just keep in mind that these folks didn't kill 
anybody. On the contrary, they were protesting the fact that 
people have been killed by the bombing on that island. They 
didn't sell anybody drugs, contaminate their bodies with drugs. 
On the contrary, they are protesting the fact that bombs do 
cause serious dangers to the environment, and in fact that that 
island has the highest rate of cancer of any kind in the whole 
Caribbean.
    Again, my request within what I am allowed to ask of you 
and what you are allowed to do within the rules and 
regulations, is to just remember who they are and to--within 
those regulations and that law--to remember that they committed 
no crimes and that there is an opportunity for them--all of 
them, the 45 in prison now and the 200 awaiting trial and the 
hundreds or thousands that will be arrested within the next 
week, as early as next Wednesday when the bombings resume--that 
you remember who they are and treat them accordingly. And I 
feel no shame in asking that, because when we are dealing with 
a person who has committed a crime, that is usually the person 
who has to pay a price for what they did.
    These folks knew that protesting would mean that they would 
be arrested, and in some cases they thought that they would go 
to prison, but not for 40 days, not for 90 days, not for 120 
days like the president of the Independence Party, who has been 
in prison twice now over this issue.
    So I would hope that, first of all, you forgive my comments 
to you if they step over the line at all, and then keep in mind 
that I don't know if there has ever been an issue in my 
community that is more important or more dramatic or more 
emotional than this one.
    And I thank you for your testimony today.
    Ms. Sawyer. Thank you, sir.
    Mr. Wolf. Hearing adjourned.
    [Questions submitted by Chairman Frank Wolf follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                           W I T N E S S E S

                              ----------                              
                                                                   Page
Ashcroft, John...................................................     1
Bohlinger, George, III...........................................   381
Cooper, Bo.......................................................   381
De La Vina, Gustavo..............................................   381
Freeh, L.J.......................................................   157
Gardner, Robert..................................................   381
Greene, Joseph...................................................   381
Kalder, F.M......................................................   299
Marshall, D.R....................................................   299
McNulty, Paul....................................................     1
Mocny, Robert....................................................   381
Rooney, K.D......................................................   381
Sawyer, K.H......................................................   459
Schied, Eugene...................................................     1
Strack, Barbara..................................................   381
Yates, William...................................................   381

                                <greek-d>

</pre></body></html>
